<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas              JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER,      JOHN ABNEY CULBERSON, Texas
Maryland                            MARK STEVEN KIRK, Illinois
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California    
 NITA M. LOWEY, New York            
 LUCILLE ROYBAL-ALLARD, California  
 SAM FARR, California               
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________
                                 PART 3
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 Secure Border Initiative and Control of Land Border..............  167
 Department of Homeland Security Response to Violence on the 
Border with Mexico................................................  369
 Health Services for Detainees in U.S. Immigration & Customs 
Enforcement (ICE) Custody.........................................  465
 Priorities Enforcing Immigration Law.............................  915

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
    PART 3--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010
                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas              JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER,      JOHN ABNEY CULBERSON, Texas
Maryland                            MARK STEVEN KIRK, Illinois
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California    
 NITA M. LOWEY, New York            
 LUCILLE ROYBAL-ALLARD, California  
 SAM FARR, California               
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________
                                 PART 3
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 Secure Border Initiative and Control of Land Border..............  167
 Department of Homeland Security Response to Violence on the 
Border with Mexico................................................  369
 Health Services for Detainees in U.S. Immigration & Customs 
Enforcement (ICE) Custody.........................................  465
 Priorities Enforcing Immigration Law.............................  915

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 52-999                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma          
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010


                                             Tuesday, May 12, 2009.

                    DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF HOMELAND SECURITY

                  Opening Statement of Chairman Price

    Mr. Price. Good afternoon. The Subcommittee will come to 
order. This afternoon we are pleased to welcome Secretary Janet 
Napolitano to her first hearing before this subcommittee.
    Since her confirmation on January 20, Secretary Napolitano 
has hit the ground running, dealing with issues related to drug 
cartel violence along the U.S. Mexico border, refocusing how 
the administration deals with criminal aliens, forging new 
international partnerships to enhance our efforts to combat 
terrorism, and taking the lead on the U.S. Response to the H1N1 
flu public health emergency in the United States and other 
countries. Madam Secretary, in light of all this, maybe you 
should be thanking us for giving you a few hours to catch your 
breath today.
    While you have been busy confronting these pressing issues, 
this Subcommittee has tackled some of the broader questions the 
Department faces. Unlike previous years when the budget has 
dominated our discussions, the detailed budget, this year we 
have concentrated on broader issues touching every component of 
the Department of Homeland Security: from preparing for a 
national security event to recovering from natural disasters; 
from technology acquisitions to improved DHS operations; to 
expeditiously obligating funds for critical grant programs; 
from immigration enforcement to meeting the basic medical needs 
of those in the custody of the U.S. Immigration and Customs 
enforcement. By developing this broader perspective we in 
Congress, I believe, are better equipped to help set the 
Department's budget priorities in the way that best prepares 
you to face the diversity of challenges to our homeland.
    One of the first challenges you have confronted is the 
surge in violence along the U.S.-Mexican border. The conflict 
between the Mexican Government and drug traffickers has killed 
thousands, including hundreds of police, military and public 
officials. You and a number of your administration colleagues 
have visited the border and Mexico. You and others have 
appeared at multiple congressional hearings on this topic, 
including one held by this Subcommittee, and all the while this 
issue has been the subject of intense media attention.
    On April 15, you announced a Southwest Border Initiative to 
fortify our physical border with Mexico, to assist their 
government in overcoming the brutal criminal cartels and to 
address related criminal activity within the U.S., including 
narcotics, weapons and human trafficking. Every member of this 
Subcommittee, I assure you, wants this effort to succeed.
    Yet I offer a word of caution. Making real progress against 
criminal activity that has simmered for decades will take more 
than a surge of activity at DHS and assistance to those on the 
front lines. It is going to take a new coordinated approach 
across our government and indeed across our society. As part of 
this, DHS must work in harmony with the Departments of Justice, 
Interior, Defense, State and Treasury, all of which have 
somewhat overlapping jurisdictions. You and your fellow 
Secretaries must consider new strategies to overcome the 
tradition of stove-piped responses that focus individual 
agencies on discrete missions, like combating illegal drug 
suppliers without addressing the demand, or focusing on weapons 
smuggling without combating human trafficking and so on.
    This initiative by its very nature will also help address 
the longstanding problem of illegal immigration. While 
apprehensions at the border are currently falling, our 
enforcement-only approach costs the American people billions, 
and it is not a viable long-term solution.
    In this regard I am pleased that the President has 
announced his commitment to reform a broken immigration system. 
I have consistently maintained that without a comprehensive 
approach to fix the legal means for people to come into our 
country and to achieve parity between official policy and our 
labor market needs, investments otherwise made along the border 
and for interior enforcement will never be fully effective at 
halting illegal immigration. Therefore, in the absence of 
comprehensive reform of our immigration policy or, shall I say, 
pending comprehensive reform--we certainly hope so--pending 
comprehensive reform, we on this Subcommittee must ensure the 
Department focuses its resources on the Nation's highest 
immigration-related priorities. To this end, since I have 
served as Chairman, we have provided over $1.2 billion for DHS 
to locate aliens convicted of crimes and serving time in prison 
and to deport those individuals from the United States after an 
immigration court has ordered them to leave.
    Madam Secretary, I am encouraged by your commitment to 
thwart cross-border violence and to find and deport criminal 
aliens. I also support the Department's recently issued 
guidelines for ICE investigators to make employer prosecution 
the focus of its work site enforcement activities. These 
endeavors will need constant and thoughtful attention in their 
implementation. We would like to hear more about how you will 
focus DHS resources on these priorities, particularly how you 
will work within DHS with other Cabinet departments, and with 
State and local agencies, and with the country of Mexico on 
cross-border problems.
    While you are focusing on these issues, DHS is also 
responding to the outbreak of the H1N1 influenza. Since the 
Department of Health and Human Services declared H1N1 flu a 
public health emergency in the United States, the government 
has mobilized resources and made preparations in case the 
outbreak develops into a true pandemic. As the principal 
Federal official for domestic incident management, Madam 
Secretary, you are charged with coordinating preparation and 
response throughout the government.
    The spread of H1N1 flu is another reminder of the critical 
need for a robust system to identify and effectively respond to 
threats of all types, whether man-made or natural. This all-
hazards mentality is one that I have long advocated for the 
Department of Homeland Security to adopt in full, and it is a 
philosophy I believe our President also embraces.
    As the current outbreak demonstrates, the threats our 
country faces are diverse and evolving. Consequently, the 
systems we have in place to prepare for and mitigate these 
threats must be comprehensive and adaptable, just as the 
resources we allocate to addressing these threats must be based 
on a holistic understanding of risk to the American people.
    Finally, before we get to your statement, I want to briefly 
address your fiscal year 2010 budget, the budget request that 
we received last week. In total, the discretionary budget 
requests $42.7 billion for DHS, or a 6.3 percent increase over 
the comparable amount appropriated in 2009. I am pleased to 
note that in general the budget does not continue the 
disingenuous practice of leaving holes where the administration 
knows Congress has strong interests, such as State and local 
grants.
    In doing so, though, you have obviously made it harder for 
yourself. You have had to make some hard decisions about 
investments that cannot move forward at this time, such as 
advanced strectascopic portal monitors, for example, because of 
technical problems. You also appear to have taken a more 
pragmatic approach to solving complex problems, for example by 
requesting at this time no additional funding for 
implementation of a biometric exit program under US-VISIT, at 
least until technical and regulatory and diplomatic issues can 
be resolved.
    Within the total request, I was pleased to see almost $200 
million for identifying and removing criminal aliens through 
the Secure Communities program, an increase of more than 30 
percent over last year's level; to see an additional $70 
billion to take on the criminal organizations operating along 
the southwest border. There is an increase of about $800 
million for the Transportation Security Administration to 
accelerate much-needed improvements in baggage screening and to 
enhance surface transportation protection programs. There is a 
26 percent increase in funding for the Department's Science and 
Technology directorate to make it harder for terrorists to 
launch successful attacks with explosives, and over $100 
million more than last year to enhance cyber security programs 
and improve information security in-house. Finally, I am 
pleased to note that the request includes $3.9 billion for FEMA 
to support State and local activities. State and local first 
responders are our partners in homeland security. When a 
disaster strikes, they are first on the ground to respond, and 
they deserve to have a reliable partner.
    Yet the budget request also includes some changes that get 
my attention. For example, the budget cuts fire grants, the 
basic equipment grants for our firefighters, by 70 percent. And 
when you include transfers, the budget reduces FEMA management 
administration by 10 percent. That is an agency we have been 
trying to rebuild since Hurricane Katrina.
    Finally, you propose moving the frontline protectors of our 
Federal offices, the Federal Protective Service, out of ICE, an 
agency with law enforcement experience, through the National 
Protection and Programs Directorate, an agency with plenty to 
do but no law enforcement mission. We will want to look at each 
of these proposals carefully.
    So, Madam Secretary, we look forward to hearing from you 
today. Your full written statement will be entered into the 
record, and we are going to ask you to limit your oral 
presentation to 5 minutes as is our custom.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.001
    
    [GRAPHIC] [TIFF OMITTED] T2999A.002
    
    [GRAPHIC] [TIFF OMITTED] T2999A.003
    
    [GRAPHIC] [TIFF OMITTED] T2999A.004
    
    [GRAPHIC] [TIFF OMITTED] T2999A.005
    
    Mr. Price. Before we begin, I want to recognize the 
distinguished Ranking Member of the Full Committee, Mr. Lewis, 
for his comments and also comment that our Ranking Member of 
the subcommittee would be here today were it not for the severe 
flooding in his district in his State of Kentucky. In fact, we 
tried very hard to rearrange this hearing so that he could be 
here, and there was no way to do that. But we do want Mr. 
Rogers and his staff to know that we are thinking about them as 
they face this. I know FEMA has been mobilized overnight to 
deal with some needs in some of those communities. So we miss 
Mr. Rogers today, and we, of course, are going to be attentive 
to the emergency situation they are facing in Kentucky. We are 
glad, however, to have our Ranking Member from the Full 
Committee here, Mr. Lewis, and be happy to hear any comments he 
wishes to make.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.006
    
    [GRAPHIC] [TIFF OMITTED] T2999A.007
    
    [GRAPHIC] [TIFF OMITTED] T2999A.008
    
    [GRAPHIC] [TIFF OMITTED] T2999A.009
    
    [GRAPHIC] [TIFF OMITTED] T2999A.010
    
               Opening Statement of Ranking Member Lewis

    Mr. Lewis. Thank you very much, Mr. Chairman.
    Secretary Napolitano, it is a privilege to be here at your 
first hearing before one of our committees. In the meantime, 
seeing Hal Rogers fighting the floods and yet experiencing the 
services that can be brought to our districts by way of FEMA, 
et cetera, is a very, very important reflection of your work 
and our work as well.
    I must say that I have been afflicted by more than one 
disaster in California. FEMA has been overall very effective in 
its response in recent years, and thereby I am very proud of 
the fact that we are being responsive to the needs of people 
out there in times of crises.
    In the meantime I wanted to mention briefly--well, I note 
that there is a group of uniformed officers in the room. They 
are one of the classes of the War College, people who are 
dedicating themselves to our national security on a different 
pathway over the years ahead. I have spent a lot of time and 
had the privilege of chairing at one time the subcommittee that 
deals with national security, and the one thing that has made 
that subcommittee successful over the years is that on both 
sides of the aisle we recognize that national security has 
very, very little to do with partisan politics. The same thing, 
over time, as this subcommittee and this arena of work matures, 
I expect we will see a very, very similar pattern.
    And so within that context, I just wanted to share with you 
my concern about a little rhetoric early on relative to a 
relative slight difference in philosophy, in which the rhetoric 
accelerated itself to dealing with the extreme; that is, 
extreme right wingers, extreme left wingers, et cetera. Such 
rhetoric doesn't tend to cause both sides to be able to 
communicate with each other as well as they might, and I would 
suggest to the Secretary that we are all in this together. I am 
certainly going to be talking to my members relative to this 
committee, helping the Chairman have us all together.
    So, having said that, it is just by way of saying that you 
have got an incredible job to do, and all that I know about you 
says you are capable. If we can stick to the issues that 
surround effectively securing our homeland, that will be 
helpful to all of us.
    I have seen many administrations come and go. We all have 
to learn this process together, and frankly, I think it is a 
bit excessive for us to presume that you have worked with us 
for 20 years when you are brand new on the job. So, in the 
meantime, it is my pleasure to welcome you here and express my 
apologies for the fact that the Interior Subcommittee is having 
a hearing in about 15 minutes that I must attend because it has 
to do with fires in the West. So as Hal Rogers is worried about 
water in Kentucky, I am worried about fires in the West. And so 
you will excuse me, and Judge Carter and his able hands will 
take my place.
    In the meantime, I noted a clear prioritization away from 
some of ICE's more important interior immigration enforcement 
programs, like work site enforcement, toward criminal aliens, a 
worthy program in its own right, but a prioritization that 
appears to forget that none of the 9/11 hijackers were so-
called criminal aliens. Making sure that we have a balance 
relative to those we are really looking at is pretty 
fundamental to our success in this arena.
    It is on another front, Madam Secretary, it is hard for me 
to support a 30 percent increase in your office when frontline 
agencies like CBP and the Coast Guard are receiving 
inflationary gains. It is also hard for me to agree with 
hundreds of millions of dollars in information technology 
initiatives when investments in critical operational assets are 
only level-funded. I would have hoped that somebody would have 
provided input for you early on when the stimulus package was 
going on so we could have tapped some of that funding in that 
huge package that was going forward, rather than straining your 
budget in areas that maybe you don't need to be strained so 
much for the 2010 year.
    Madam Secretary, I note that within the President's budget 
only one Cabinet agency budget is projected to decrease over 
the next 5 years, that being DHS. While you may claim this 
decrease will be offset through increased aviation passenger 
fees, we have heard that story before. The authorizing 
committees historically have not been inclined to exercise fees 
to carry on government work that may not be that authorizing 
committee's priorities. So I would be very cautious about where 
that might take you in terms of--all of us want to avoid 
cliffs, but this is a cliff that we have seen before.
    So Madam Secretary, given the current threat environment, 
now is perhaps the worst time to shortchange our investment in 
security. And I would urge you to recognize that as we are 
building national security, not only do we need to emphasize 
this nonpartisan approach that I suggested earlier, if we talk 
to each other the committees will be, on the record and off the 
record, pretty candid with you as to what levels we can see 
being sustained over a substantial period of time.
    Further, it seems to me that within the total stimulus 
package, with pretty high levels of fundings for all the 
agencies with a lot of flexibility given, I find most agencies 
I talk to privately saying we are awash in money, lot of 
flexibility, but not necessarily a lot of direction. And for 
those agencies to presume that that level of funding as 
reflected in the stimulus package and that level of flexibility 
in programming is going to continue through the 2010 year, the 
2011 year and the 2012 year might be a very big mistake. And 
indeed, yours is an agency that, above and beyond almost 
everybody but national security, needs the kind of stability 
that I would suggest we should be working on.
    So, with that, Mr. Chairman, I appreciate your giving me 
the time, and I am sorry I am going to have to be leaving 
early, but I am anxious to hear the Secretary.
    Mr. Price. Thank you.
    Madam Secretary, please proceed.

               Opening Statement of Secretary Napolitano

    Secretary Napolitano. Thank you, Mr. Chairman, Ranking 
Member Lewis, members of the subcommittee for the opportunity 
to testify about the Department of Homeland Security's portion 
of President Obama's budget proposal for fiscal year 2010.
    As noted, the proposed total budget for DHS is $55.1 
billion, which includes $42.7 billion in appropriated funding. 
It is also noted DHS performs a broad range of activities 
across a single driving mission: to secure America from the 
entire range of threats that we face.
    The Department's leadership in the past couple of weeks in 
response to the H1N1 flu outbreak only proves the breadth of 
this Department's portfolio. We have also have focused on the 
need to make DHS a stronger, more effective Department. In my 
view this budget strengthens our effort in the five mission 
areas where we need to focus in order to secure the American 
people:
    First, guarding against terrorism, the founding purpose and 
perennial top priority of the Department.
    Second, securing our borders, an effort even more urgent as 
the United States looks to do its part to counter the rise in 
cartel violence in Mexico.
    Third, smart and effective enforcement of our immigration 
laws. We need to both facilitate legal immigration and pursue 
enforcement against those who violate our Nation's immigration 
standards.
    Next, improving our preparation for, response to, and 
recovery from disasters. Not just hurricanes--that season 
begins in a few weeks--tornadoes, earthquakes, fire and floods. 
I spoke with Congressman Rogers just yesterday about the 
situation in Kentucky, but also unexpected situations like the 
H1N1 flu.
    And lastly, creating a unified Department of Homeland 
Security. We need to work together as one Department to ensure 
that we operate at full strength. This is important. As this 
subcommittee knows, our Department is an amalgam of 22 
different agencies that were put together after 9/11, and in 
some respects the part of unifying the Department is still a 
work in progress. That accounts in part for the increase in 
administrative costs that you noted, Congressman, because when 
the Department was formed, it did not bring with it the program 
managers, acquisition specialists, all the things--i.e., the 
nuts and bolts to make sure that the taxpayer dollars go where 
they are supposed to and are well spent. We are building that 
infrastructure now.
    Within those five mission areas, there are at least three 
approaches that cross cut:
    One, we are seeking to expand our partnerships with State, 
local, and tribal governments, the first detectors and the 
first responders.
    Second, we are seeking to bolster our science and 
technology portfolio, investing in proven technologies and in 
new technologies that can increase our capabilities, all the 
while being mindful of the privacy and other interests that are 
implicated.
    And third, maximizing efficiency. Through a program 
entitled ``Efficiency Review'' that we launched in March, we 
are determined to ensure that every security dollar is spent in 
the most effective way.
    This proposed budget adheres to the President's major 
reform goals--government efficiency, transparency and 
cohesion--and will play a major part in bringing about a new 
culture of responsibility and fiscal discipline within DHS. The 
DHS budget request is based on alignment with the Department's 
priorities, and programs were assessed based on effectiveness 
and on risk. Budget priorities to guard against terrorism, the 
first mission, the proposal includes $121 million to fund 
research for new technologies that detect explosives in public 
places and transportation networks; $87 million for new 
measures to protect critical infrastructure and cyber networks 
from attack; and enhanced information sharing among federal, 
state, local and tribunal law enforcement.
    For border security, this budget proposal includes $116 
million to deploy additional staff and technology to the 
southwest border to disrupt southbound smuggling of drugs and 
bulk cash to combat cartel violence, and $40 million for smart 
security technology funding on the northern border to expand 
and integrate surveillance systems there.
    To ensure smart and effective enforcement of our 
immigration laws, the budget proposal includes $112 million to 
strengthen E-Verify, to help employers maintain a legal 
workforce; a total of $198 million for the Secure Communities 
program which helps state, tribunal, and local law enforcement 
target criminal aliens; and improved security and facilitated 
trade and tourism through the WHTI Initiative and US-VISIT.
    To help Americans prepare for, respond to, and recover from 
natural disasters, the budget proposal includes--from $210 
million to $420 million, it doubles the number of frontline 
firefighters supported in the budget. It has a $600 million 
increase to the Disaster Relief Fund to help individuals and 
communities affected by disasters. It strengthens predisaster 
hazard mitigation efforts as well, to reduce injuries, loss of 
life, and destruction of property.
    To unify the Department, this budget proposal also includes 
$79 million for the consolidation of DHS headquarters which 
will bring 35 disparate offices together, which will generate 
significant savings in the long run. It also provides $200 
million to consolidate and unify our IT infrastructure and 
bring all of DHS within one system as opposed to the myriad 
systems we are operating under now.
    In my few months as Secretary I have seen a number of 
remarkable accomplishments by the men and women of this 
Department in addition to the challenges we have faced. I have 
seen this Department's potential; I believe we are on a path to 
realizing it. We are aiming to do even better at achieving our 
security mission. This budget will help our Department do just 
that.
    Thank you, Mr. Chair.
    Mr. Price. Thank you, Madam Secretary.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.011
    
    [GRAPHIC] [TIFF OMITTED] T2999A.012
    
    [GRAPHIC] [TIFF OMITTED] T2999A.013
    
    [GRAPHIC] [TIFF OMITTED] T2999A.014
    
    [GRAPHIC] [TIFF OMITTED] T2999A.015
    
    [GRAPHIC] [TIFF OMITTED] T2999A.016
    
    [GRAPHIC] [TIFF OMITTED] T2999A.017
    
    [GRAPHIC] [TIFF OMITTED] T2999A.018
    
    [GRAPHIC] [TIFF OMITTED] T2999A.019
    
    [GRAPHIC] [TIFF OMITTED] T2999A.020
    
    [GRAPHIC] [TIFF OMITTED] T2999A.021
    
    [GRAPHIC] [TIFF OMITTED] T2999A.022
    
    [GRAPHIC] [TIFF OMITTED] T2999A.023
    
    [GRAPHIC] [TIFF OMITTED] T2999A.024
    
    [GRAPHIC] [TIFF OMITTED] T2999A.025
    
    [GRAPHIC] [TIFF OMITTED] T2999A.026
    
    [GRAPHIC] [TIFF OMITTED] T2999A.027
    
                            CRIMINAL ALIENS

    Mr. Price. We will now begin questioning. I will have the 
first query.
    I mentioned in my opening statement, Madam Secretary, that, 
in my view, ICE should have no greater immigration priority 
than finding and removing people who have been convicted of 
crimes and judged deportable from the country. From some of 
your public statements, you seem to have similar views; but I 
would like to make sure we are all on the same page about this 
issue. How do you intend to focus ICE's efforts to identify and 
remove deportable criminal aliens? How is this going to be 
reflected in your budget, and also the kind of policy you 
implement in the Department? How are you going to ensure that 
this focus remains a high priority for ICE? Are there other 
immigration priorities that compete or even take precedence 
over the effort to remove criminal aliens? In any event, how do 
you balance other priorities against the need to identify and 
remove criminal aliens so they are not released to commit more 
crimes, but are deported when they complete their sentences?
    Secretary Napolitano. Thank you, Mr. Chair. I do believe 
that a high interest of ICE is to remove and deport criminal 
aliens from our population. And I say that based in little part 
on my own background as the former United States attorney, 
Attorney General, and two-term Governor of Arizona, a border 
state, which perhaps, more than any other state in the last 
years, has seen the increase in illegal immigration across that 
border, and having to make judgments about what is the best way 
to get at it, and how do you do your immigration mission and 
public safety mission simultaneously.
    Several things. One is that we look at how to use the 
existing programs within ICE to focus upon the criminal alien 
population. That means, for example, the 287(g) program. 287(g) 
is a program that basically consists of MOUs between the 
Department and state and local law enforcement.
    A very, very good use of 287(g) is to identify inmates in 
our prisons and jails, those who have already run afoul of our 
criminal justice system, and begin the deportation proceedings 
before they are released from those places of incarceration, so 
that you don't have a gap between when you serve a state 
sentence and then get released into the public and then have 
ICE have to pick you up and start afresh with immigration 
enforcement.
    I was, as Governor, one of the first, perhaps the first, 
Governor in the country to negotiate such an agreement with ICE 
for the Arizona State prison system. It has been very 
effective, and we have seen those agreements be effective in 
multiple ways.

                       SECURE COMMUNITIES PROGRAM

    Mr. Price. And within the 287(g) program there is a good 
deal of variability. I know the Department has that under 
examination at present, what the kind of permissible range 
variability would be. But you are saying a prime focal point of 
287(g) or presumably Secure Communities or other programs of 
this sort should be this criminal alien population?
    Secretary Napolitano. That is right. And Secure Communities 
was the next point I was going to bring us to, which has been a 
remarkably effective program, and the budget that the President 
has submitted greatly increases it. But it is really a way to 
unite immigration, public safety, criminal law, agencies and 
communities across the country to focus on the criminal alien 
population.
    Also, gangs, for example, particularly in some of the 
states where you have large gangs that have a large percentage 
of illegals who are members of the gang--the Budget allows us 
to really focus those efforts in a very, very good way.
    The third way that this Budget and our Department are 
moving is to make sure we make great use of technology; in 
other words, that we gather the identities of those who are 
apprehended, that we make sure that criminal records checks are 
run against all the relevant databases. It sounds basic, it is, 
but it needs to be uniform, basic, constantly done, and 
databases constantly improved. And you will see funding for 
that in the Budget as well. I could name a number of other 
things.
    Let me finish my answer, however, by making one point, and 
that is in the world of illegal immigration, ICE has to 
multitask. We cannot just do the criminal aliens. We have to 
prioritize and identify how we also do work site enforcement, 
how we also handle other matters involving illegal immigration. 
And so I think one of the things--one of the items I am trying 
to bring to bear on the Department, influenced by my 
experiences I have had, is how do we prioritize even with ICE 
as we multitask on a number of these areas.
    But I think, Mr. Chairman, you are exactly right. The 
criminal alien population, in dealing with them and being very 
robust there, is going to be a key priority for us.
    Mr. Price. Thank you. Mr. Lewis. Or Mr. Carter, I am sorry.

                      RIGHT-WING EXTREMISM REPORT

    Mr. Carter. Thank you, Mr. Chairman. Madam Secretary, 
welcome. I am glad you are here. It gives us a chance to visit. 
I am looking forward to visiting with you and you have got a 
tough job, a real tough--tougher than Governor, I promise you.
    I want to start with something that I have been upset about 
and raising Cain about, and so I am going to ask you about it. 
And that is this right-wing extremism report that was mailed 
out to all law enforcement officials in the United States. And 
when I read through it, the reason it jumped off the page at me 
is the classifications of folks that we ought to be watching 
out for make up about 80 percent of my district. And I really 
felt that it seemed to be a little different than what we 
really should be talking about.
    And of course, I represent Fort Hood, Texas, where we have 
50,000 fighting men and women who work constantly protecting 
our Nation, and many of them retire in our area and become 
veterans in our area. We have two VA hospitals within driving 
distance of my home. And I was very concerned about the fact 
that we labeled our returning veterans as possible recruiting 
persons for terrorism in this country, in this report that I 
have right here with me.
    And I understand that you have apologized to the soldiers 
and to the military. And I understand that, but I would just 
like your view on this and how it was accumulated and what 
reason it is that it hasn't been withdrawn and better 
clarified.
    Secretary Napolitano. Well, let me, Congressman, you are 
right; some things in my initial days have gone very well at 
the Department; some things have not, and that was probably the 
worst thing. I have apologized for that report. It was not 
authorized to be distributed. It had not even completed its 
vetting process within the Department. It has been taken off of 
the intel web sites and the lexicon that went along with it was 
similarly withdrawn. Neither were authorized products, and we 
have now put in place processes. It turned out there were 
really no procedures that govern what went out and what didn't 
before, and now there are. I do not want to see a replication 
of that.
    I also met with the leadership of the American Legion. They 
were offended by the report. I understood that. We had a very 
good conversation, and we are going to work with them. For 
example, we are going to be providing--as you can see from the 
Department's history and where we are heading this next fiscal 
year, we are still in hiring mode. We will be participating in 
the job fairs that the veterans are hosting to recruit among 
that veteran population. That is a great, great source of 
workforce for us.
    Indeed, I think over 25 percent of the Department--that is 
probably a low-ball number, irrespective of the Coast Guard--
are military veterans. So that is a huge population for us.
    With that, however, one of the things we do need to do on 
the intel side--and let me, if I might, share with you where I 
think we need to head, setting aside that mistake. Where we 
need to lead is where the Department of Homeland Security holds 
a unique role. There is no other department of the Federal 
Government that has, as part of why it was created, to share 
information with state and local law enforcement, that they can 
use. Most intel that you pay for, that you appropriate money 
for, is shared around Washington, D.C. It is shared around 
federal agencies. But there is really very little that goes 
back and forth with state and local. And that is the 
partnership that I talked about in my opening statement 
comments. Now, if we are going to do that, we have to turn out 
a quality product and we have to turn out something that is 
useful to state and local. And that is the improvement process 
that we are embarking upon now.
    I look forward to the confirmation of an Under Secretary 
for I&A. We do not have one yet, but a nominee has been named 
by the President and others, and really being that part of 
value added to our whole nation's network for homeland 
security.
    Mr. Carter. Well, as part of that question, clarification I 
guess. I have worked with State and local police for 20 years, 
and I can assure you we have got some of the best and smartest 
and most effective police forces in Texas of anybody around. 
But in turn, this official report has been received by those 
people and if nothing has been--you are right; things are heard 
around Washington, but if it doesn't get out of Washington, 
then as far as they are concerned this report is still valid 
and a high priority there. That is why I asked, did you send 
them something, these people all over the United States that 
received this thing about our veterans and about our people who 
believe in the Second Amendment and the other people who were 
opposed to abortion and so forth. Have you sent something out 
to these law enforcement officers so they are not targeting 
these individuals as they look for terrorists?
    Secretary Napolitano. Thank you, Congressman. First of all, 
the report was not designed for targeting purposes. It was 
designed for situational awareness. Secondly, the report is off 
the DHS intel web site and all of its web sites. And third, it 
will be and is in the process of being replaced or redone in a 
much more useful and much more precise fashion.
    Mr. Carter. But that it went out to them in a written form, 
has it been withdrawn in a written form? Or if it went out in 
electronic form, has it been withdrawn in electronic form? 
Because not everybody looks at Web sites.
    Secretary Napolitano. I believe that is how that 
information is distributed.
    Mr. Carter. Only on the Web site?
    Secretary Napolitano. Is my understanding, but I will 
double-check. And it is not there anymore.
    Mr. Carter. Very good. Very good.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                         UNACCOMPANIED CHILDREN

    Ms. Roybal-Allard. Thank you, Mr. Chairman, and thank you 
to the members on my side for allowing me to go first, since I 
have to leave right away.
    Secretary Napolitano, I have been deeply concerned by 
reports from NGOs that unaccompanied children apprehended at 
the border are sometimes being held for extended periods of 
time, sometimes as long as 5 days at Border Patrol stations. 
This is based on a report from the Women's Commission, which 
has also been confirmed by your own Department and your agency, 
Border Patrol as well as ICE, which are two of the agencies 
that have responsibility for these children. The third is the 
Office of Refugee Settlement, and I have heard that these 
delays occur in large part because the ORR lacks the resources 
to promptly accept these children. Concerns have also been 
raised as to whether ICE is the right agency to facilitate the 
transfer of these children.
    Have you had the opportunity to look at the current 
structure for the handling of unaccompanied children and do you 
believe that ORR, not ICE, should have the responsibility for 
the transfer and placement of these unaccompanied children, 
given the problems that we have seen?
    Secretary Napolitano. Representative, let me say yes and 
no. Yes, we have begun looking at a whole host of issues 
involving detention policies and practices of ICE. We have 
elevated the detention office within ICE--it was at the bottom 
of the org chart--to an office that reports directly to the 
head of ICE, who hopefully will be confirmed within the next 
week or two. His name is pending before the Senate now. But 
also to look at issues--unaccompanied juveniles, health-care 
standards within our ICE detention facilities. There are a 
whole host of things that have caused public concern. So that 
is one among several we are looking at and we will be happy to 
provide you with information as that examination goes forward.
    With respect to ORR versus ICE, as to which is the 
appropriate body, I have not yet made a determination. This is 
a very difficult issue. In states along the border, there are a 
lot of children, unfortunately, who are picked up as 
unaccompanied minors, and sometimes they are held simply while 
someone in the consulate or somewhere else asks that they be 
held there, or held there while they try to locate parents or 
somebody in Mexico or Central America where they could safely 
be returned. And so sometimes that takes more than a day or two 
or three, though I don't think it is often an extended stay, 
nor should it be.
    So I have not yet made the determination whether ICE is 
doing the best job or ORR is a better place for that, but I do 
know it is one of a cluster of detention issues that we are 
looking at.

                       ALTERNATIVES TO DETENTION

    Ms. Roybal-Allard. Okay. And are you also looking at 
alternatives to detention for those that pose no threat to the 
community, the elderly and the sick? It is a much cheaper way 
of monitoring these people. And I believe that ICE spent close 
to $2 billion to house approximately 400,000 detainees, and it 
is very expensive, and it is a proven method to be able to 
monitor, through supervision and other monitoring of programs, 
a lot of these people that are very vulnerable, as I said, such 
as the elderly and those who are ill.
    So I was just wondering if you were also looking at those 
alternatives to not only reduce costs but also because it is a 
more humane way of housing these vulnerable populations.
    Secretary Napolitano. Representative, we are. I must say, 
however, that my initial blush review of alternatives to 
detention was not a very encouraging one. It was not actually 
all that cheaper than actual detention, and the disappearance 
or the rate of people not coming back for their visits or 
whatever was not acceptable. So whatever we were doing in that 
mode either had to be strengthened and funded appropriately or 
we needed to continue with a detention model.
    So we are looking at it. But I just wanted to share with 
you, the purpose of detention is to hold somebody for 
deportation and the detainee knows that, too, and so there are 
some issues there that we need to address in the enforcement 
perspective.
    Ms. Roybal-Allard. Such as tracking bracelets and other 
things.
    Secretary Napolitano. Tracking bracelets. Again, they are 
not cheap.
    Ms. Roybal-Allard. Right, okay.
    Secretary Napolitano. That is the problem.
    Ms. Roybal-Allard. All right. I would like to work with you 
on that particular area. Thank you.
    Mr. Price. Madam Secretary, before we turn to Mr. Calvert, 
just to pick up on Ms. Roybal-Allard's line of questioning, 
this is not the first time this committee has dealt with this. 
As you probably know, the report for this year's bill asks that 
your Department, within 90 days, provide a briefing on this 
matter to our staff, and that has not occurred. So we know you 
have this under advisement. It is something that we have a 
continuing interest in resolving, particularly this ICE-ORR 
trade off and where the responsibility should sort of lie.
    Mr. Calvert.

                       E-VERIFY PROGRAM EXTENSION

    Mr. Calvert. Thank you, Mr. Chairman, and thank you, 
Secretary Napolitano, for returning today.
    In anticipation of this hearing, I reached out to folks 
back home and their concerns about our homeland security. I 
received an overwhelming response and found a majority of 
people had three major concerns: First is the lack of control 
over the southern border; second was the frustration with the 
Federal Government for its inability to stem illegal 
immigration and drug flows; and last, anger and 
disappointment--as an individual similar to Judge Carter I have 
three military installations in my district--about this ill-
advised report on right-wing extremism.
    What I want to get into, though, is the primary sentiment 
on illegal immigration. First, I would like to thank you for 
your public support of E-Verify. As you may know, I created the 
program back in 1996, and I commend the administration for 
funding the E-Verify program at $112 million for fiscal year 
2010. However, I have a question about the 3-year 
reauthorization request.
    E-Verify, as you know, is successful. It is highly 
adaptive. Obviously, it is mandatory in your home State of 
Arizona. As you know, last Congress, the House passed a 
bipartisan 5-year reauthorization of E-Verify, 407 to 2. Why 
did you limit it to 3 years? Would you support a permanent 
reauthorization of this program?
    Secretary Napolitano. Thank you, Representative. I am a big 
supporter of E-Verify, and so thank you for what you did in 
1996. I believe it has to be an integral part of our employer 
enforcement moving forward, because you have to give employers, 
particularly smaller ones, a relatively accessible, easy-to-use 
method of verifying lawful presence for purposes of employment.
    As Governor, I issued an executive order requiring the use 
of E-Verify throughout the Arizona government, so I know how it 
works because we were one of the largest employers and we were 
hiring people all the time. And so I knew that some of the 
issues raised with E-Verify in truth didn't pan out.
    I also signed the law that was the strongest and, I think, 
remains to be the strongest employer sanctions law in the 
country which drives employers to use E-Verify. And indeed, I 
think the last report I saw was that about 26 percent of the 
employers who are on E-Verify now come from Arizona. So I know 
that if the law works in the right way, you get the right 
result.
    With respect to a 3-year authorization, you know, I live 
off of Congress' wisdom. I would like certainly more than 1 
year, and I certainly would like the expectation that this is 
going to be an ongoing and integral part of our enforcement 
network.
    Mr. Calvert. Thank you. Regarding E-Verify, Federal 
contractors, as you know the Federal order has been postponed 
twice. It is now scheduled to go into effect on June 30 of this 
year. Do you support the ruling requiring Federal contractors, 
one, to use the system similar to what you decided in Arizona, 
or do you see any further delays of putting in this rule?
    Secretary Napolitano. Representative, I think my record 
speaks for itself on this in terms of my support on how E-
Verify ought to be used.
    With respect to the postponement, I think that has mostly 
been a logistical one; in other words, to make sure that the 
system is robust enough, accessible enough and so forth, so 
that the actual application of stimulus moneys didn't get 
slowed down waiting for E-Verify to catch up.
    Mr. Calvert. We had testimony here from the people who work 
for you that operate that system, and they said they are ready 
to go.
    Secretary Napolitano. We are ready to go.

                        SOUTHERN BORDER SECURITY

    Mr. Calvert. Ready to go. I don't know if I have time in 
this series of questions, but I want to get into this problem 
we have south of the border on these drug wars going on down 
there and how that affects our security and our border. And 
maybe in what remaining time we have, what are you doing right 
now to help secure that border and the drug flows that are 
coming across?
    Part of that defense is air interdiction. I also represent 
March Air Force Base where AMOC is located, which operates the 
perimeter air defense of the United States, and they are doing 
a marvelous job of attempting to stop the high number of 
aircraft that are coming into the United States with these 
illegal substances. But the folks that are involved in that are 
using new technologies all the time, lower flying UVs----
    Secretary Napolitano. UAV.
    Mr. Calvert [continuing]. UAV aircraft, other types of 
endeavors in which to get these drugs over. So what are you 
doing to support those activities to help stop these drug 
flows?
    Secretary Napolitano. A number of things, Congressman, from 
moving manpower down to the border, adding dog teams to the 
border who are cross-trained to sniff drugs, but also we have 
dog teams trained to sniff guns and bulk cash, to adding to our 
border liaison officers--those are the ones that deal directly 
with their counterparts on the Mexican part of the border--to 
adding more technical and technological capacity, to adding 
more ICE attaches within the interior of Mexico to feed 
intelligence back up to us about what is going on. There is a 
whole menu of things.

                            METHAMPHETAMINE

    Mr. Calvert. One of the things I want to touch on is 
methamphetamine. It used to be these labs were scattered all 
around the rural areas in Arizona and California and the rest. 
Now, most meth comes in from Mexico, about 90-plus percent of 
methamphetamine comes in from Mexico, from these superlabs that 
are located there, and it is a horrific, horrific drug. It is 
literally poison.
    And the system in Mexico to get precursors into Mexico from 
China and India, are you involved in that to try to work with 
the Mexican Government? And I give President Calderon full 
credit on trying to stop this, to help stop these precursors 
coming in. So I just wanted to bring that up also, Mr. 
Chairman.
    Secretary Napolitano. Yes. And I could say yes we do have 
that and we are working with that primarily through CBP.
    Mr. Calvert. Thank you.
    Mr. Price. Thank you. Mr. Rodriguez.

                         OPERATION STONEGARDEN

    Mr. Rodriguez. Thank you, and welcome, Madam Secretary.
    I represent a district that has 785 miles on the border. I 
have three major sectors there, the Border Patrol. I have over 
17 border stations and seven ports of entry. So I do represent 
the most, more than anyone else on the border, in the southern 
border and the northern border. So I wanted to kind of touch 
base with you on a piece of legislation, H.R. 1448, that we 
pushed forward that includes efforts that the administration--
and President Obama has already indicated that are a priority 
for him: Project Gun Runner, the best teams at ICE, and 
Operation Stonegarden.
    The Chairman has also taken a major lead on the Stonegarden 
project which has been dormant, and the Chairman made sure that 
we got it activated. Although it has a lot of problems because 
it has got--the locals have to go through the State and then, 
you know--and so I wanted to ask you--and I don't know if you 
have given any thought, but would you support or consider 
moving Operation Stonegarden as a stand-alone direct grant 
similar to assistance to firefighters?
    Secretary Napolitano. Congressman, let me look at that, if 
I might. What we have been doing over the past 2 months is we 
have intensified our efforts on the southwest border--holding 
regular conference calls with the local police and sheriffs who 
occupy, are doing the frontline law enforcement down there. And 
it was in partial response to their request that we freed up 
the guidance on Stonegarden so they could use it for other 
things. And we brought forward some previously unallocated 
funds, around $59 million, that is really accessible and 
designed for them, and I occasionally participate, myself, in 
those conference calls.
    They have not mentioned to us the need to apply directly, 
and it surprises me that they are not or do not believe they 
are able to do so. I believe they can already. So I will need 
to go back and double-check.

                            OUTREACH EFFORTS

    Mr. Rodriguez. Thank you. And then I also wanted to kind of 
touch base with you on this. As Congressman Carter had 
mentioned earlier, the administration, at the very beginning 
after 9/11, there were some groups that would come together--
whether it would be Jewish, Christian, Muslim groups in the 
community--in terms of getting better understanding of each 
other. Are there any efforts at this point in time going on in 
this area? And I would encourage that kind of activity to occur 
in communities throughout this country as a proactive method of 
reaching out, and I know that there were some that were 
conducted. Somebody just came out automatically to bridge the 
gap and have a better understanding between communities. And 
that could also include between people that might feel one way 
or another on abortion, as well as veterans and others, and 
those that might be identified as gun lovers and whichever.
    But I know that that initially was occurring, and I was 
wondering if that is also part of your agenda, and I would 
encourage you to kind of look at that, if you cannot respond at 
this present time.
    Secretary Napolitano. Congressman, we have within our civil 
rights and civil liberties section an outreach effort into 
several communities. One that I think I can mention here is an 
outreach effort to the Somali communities around the United 
States. I do not know that we actually convene multi-interest 
groups in the way that you described, but I think we clearly 
understand that there is an outreach component to the security 
work that we do that is very important.

                            EMPLOYEE HOUSING

    Mr. Rodriguez. Because I think that would be much more 
proactive and working with communities and helping out from a 
homeland security perspective.
    Let me also quickly follow up. Since I have a lot of 
rural--on the border, rural Texas, one of the biggest 
difficulties that we have--and your budget includes funding for 
deferred maintenance of existing employee housing. But do you 
think there is a need for building additional units and working 
in the area of communities for public service, private sector 
housing for our workers? That is one of the biggest problems 
that we have when we locate them out there in West Texas.
    Secretary Napolitano. Thank you, Congressman. It depends 
where you are on the border, but particularly in some of the 
areas on the border where we have greatly staffed up very 
quickly, you really don't have the housing stock there for the 
employees; and so that means they are having to commute really 
long distances to get to the border station to go to work.
    So in certain areas, yes, we are working with local housing 
authorities, public-private partnerships, the whole kind of 
menu of different options to try to make housing more uniformly 
available to our own workforce at the border.
    Mr. Rodriguez. It is a very serious problem, and I would 
hope that you kind of look at that and see what we can make 
happen for some of those employees.
    Secretary Napolitano. Agreed.

                         OPERATION STONEGARDEN

    Mr. Price. Thank you. Before we turn to Mr. Kirk, just 
following up for a moment on Mr. Rodriguez's line of 
questioning. This too is a matter that is not new before this 
Subcommittee. In fact, the report accompanying this year's bill 
indicates that these Operation Stonegarden grants are made 
directly to tribal governments, units of local government 
including towns, cities, and counties along land borders of the 
United States; the purpose being, of course, to enhance the 
coordination between local and Federal law enforcement 
agencies. I am quoting here from our report.
    The report further directs that only CBP and FEMA are to 
make these Operation Stonegarden grant decisions; and 
specifically it says that no administrative costs are to be 
deducted from Operation Stonegarden award totals by the States. 
So I do think we have dealt with this. We thought we had. So to 
the extent it needs to be revisited, maybe you can clarify if 
some problem has developed.
    Secretary Napolitano. Mr. Chairman, that is why I was 
somewhat surprised at the question, because my understanding 
was these are direct-funded to local entities, not just that 
the state was no longer needed as the entity. I think that is 
the way it is. I will actually bet you $5 that is the way it 
is. But we will just double-check anyway.
    Mr. Price. Thank you. Very good. Mr. Kirk.

                      RIGHT-WING EXTREMISM REPORT

    Mr. Kirk. I really want to commend my colleague Mr. 
Rodriguez. It is an outstanding bill that you have got. I have 
signed on and I think you have done a very good piece of work 
on that legislation. I hope we get it through.
    I want to ask a couple of quick questions. One, this 
extremist report; your staff said the return of military 
veterans facing significant challenges reintegrating in their 
communities could be the potential emergence of terrorist 
groups and lone-wolf extremists capable of carrying out violent 
attacks. And you have apologized for that directly and said you 
took it off your Web site.
    Let me just ask specifically, who in the extremism and 
radicalization branch of the homeland environment threat 
division have you fired for this report?
    Secretary Napolitano. Mr. Representative, as you know, I 
cannot discuss personnel matters with you, nor would it be 
appropriate to do that in a public committee setting, but I can 
say this.
    The report was begun many months ago. It was part of a 
series of reports on a whole variety of things that are 
occurring within the United States. The fact of the matter is, 
as was correctly noted by the Veterans of Foreign Wars when 
they read the report, the report was not an accusation, it was 
an assessment of who some right-wing groups, a target--I don't 
really want to use the word ``right-wing.'' Let me finish my 
answer, please.
    Mr. Kirk. Let me interrupt you. The President just fired 
our commander in Afghanistan, a way more important person than 
who works for you, and you can't tell us that you have taken 
any action whatsoever?
    Secretary Napolitano. I can tell you that personnel actions 
are being taken, but I can also share with you that it is not 
appropriate for me to talk with you today in committee, and 
that is all I think I should be saying. These are career civil 
servants. Most of them have worked at the Department since 9/11 
and----
    Mr. Kirk. The President took inappropriate action in firing 
a career military officer in public?
    Secretary Napolitano. Representative, I am saying that 
personnel action--appropriate personnel action--has and will be 
taken in compliance with our Nation's civil service laws. These 
are civil servants.
    Now, with respect to the report, on the veterans issue 
there was no intent to accuse our veterans of being un-
American. What there was was an understanding that veterans are 
sometimes targeted for recruitment. That is an assessment the 
Department of Defense indeed gives instruction to its own 
commanders at its own military bases about the same phenomenon. 
In fact, some of that was the basis for the report. We have 
made all those sources available to the committee.

                         TRIBAL CYBER SECURITY

    Mr. Kirk. Now, we have in the one-tenth of 1 percent of 
cuts that the President made, we cut criminal grants assistance 
to incarcerate criminal aliens, but we are funding $15 million 
for cyber security efforts to help tribal governments. Describe 
the specific tribal security cyber threat that you have seen.
    Secretary Napolitano. Mr. Congressman, what that is related 
to is to make sure that there are tribes throughout the United 
States that have infrastructure, just as there are towns and 
other entities. And what we are trying to do is make sure that 
everybody has access, just as we work with some in the private 
sector and some in the local sector. Our domain within the 
cyber world is the protection of the dot gov sites and the 
protection of the work with the private sector on their sites.
    Mr. Kirk. But you would agree that funding should be 
threat-driven?
    Secretary Napolitano. Funding is risk-driven.
    Mr. Kirk. Risk-driven. Based on the threats you have seen 
and the risks, have you seen any specific cyber threat report 
related to a tribal government?
    Secretary Napolitano. I have not seen a specific cyber 
report. However, I can share with you that the moneys that 
ultimately will be given out will be based on a threat and risk 
assessment.
    Mr. Kirk. Since your report on cyber security hasn't come 
up, can you give us a quick understanding from your viewpoint 
on what the specific areas of responsibility are for NSA, DHS, 
and DOD?
    Secretary Napolitano. Well, Congressman, as you know----
    Mr. Kirk. Not a hundred thousand feet. How do you see a 
lack of duplication of these three agencies?
    Secretary Napolitano. As you know, Congressman, the 
President has that very topic under review. I think, as you can 
also appreciate, it is an ever-changing threat environment in 
the cyber world and one to which we are paying particular 
attention.
    Mr. Kirk. I am not asking for his opinion. I am asking for 
your opinion.
    Secretary Napolitano. Congressman, I think we are 
participating in that review. I believe the President will be 
making announcements there shortly. However, I think it is fair 
to say that where DHS's role is preeminent is in the dot gov 
realm and the interaction with the private sector realm.
    Mr. Kirk. Thank you.
    Mr. Price. Mrs. Lowey.

                             ASSAULT RIFLES

    Mrs. Lowey. Thank you. Madam Secretary, welcome. I do want 
to say we are very fortunate to have a person of your caliber, 
conviction, and intelligence in this position and we thank you. 
And before I ask a question I just wanted to mention a couple 
of issues, because our time is limited, that I look forward to 
working with you on.
    First of all, bolstering aviation security. TSA employees 
should be given executive bargaining rights, and I have been 
working on this issue and I hope we can be successful.
    Number two, improved emergency communications for our first 
responders. More focused urban area grants to cities that are 
truly high risk. Improved cyber security for critical 
infrastructure, decreased border violence, and the 
identification, removal of dangerous criminal aliens which my 
Chair has focused on before.
    I want to a ask you a brief question about an issue that I 
think is urgent, having just returned a couple of months ago 
leading a congressional delegation to Mexico.
    The ATF estimates that 90 percent of firearms recovered in 
Mexico come from dealers in the United States, and many of the 
6,600 licensed U.S. Gun dealers, licensed U.S. Gun dealers 
along the southern border, operate out of their houses and sell 
assault weapons that fall into the hands of Mexican drug 
cartels. In one case that was recently dismissed, a gun shop 
owner had sold hundreds of AK-47 rifles to smugglers.
    Maybe you can share with us, do your think the availability 
of assault rifles from the United States, which are illegal in 
Mexico, increase border violence?
    Secretary Napolitano. Congresswoman, I think what we are 
trying to do on the gun issue going south is to do a more 
robust job of actually intercepting and interdicting them, and 
also working with Mexico so that we get real-time exchange of 
information about the guns that are seized that have been used 
in the commission of a crime, so that appropriate tracing can 
be done for purposes of pattern analysis and possible 
prosecution under our gun laws now.
    So to the extent the budget has additional resources from 
our Department for those efforts, that is how they are 
tailored.

                          SECURING THE CITIES

    Mrs. Lowey. I will move on to another subject. Your fiscal 
year 2010 budget proposal does not request any funding for 
securing the cities, a Federal and local effort, to prevent 
illicit radiological and nuclear material from being detonated 
in Manhattan; and for the past 2 years, the program has been 
funded at $30 million, which is less than one-hundredth of 1 
percent of the budget for a program that seeks to eliminate the 
catastrophic attacks scenario.
    Given that President Obama has called the threat of nuclear 
terrorism the most immediate and extreme threat to global 
security, why is this program not funded in this request?
    Secretary Napolitano. The answer is several-fold. Securing 
the Cities was a pilot program involving New York, New Jersey, 
that area, on the nuclear threat as you correctly described. It 
was designed to be a 3-year pilot. There is money in the 
pipeline that will pay for the 3-year pilot. Indeed, New York 
hasn't yet submitted its application for the fiscal year 2009 
funds. Therefore, it was the view that new money into the 
program for the pilot wasn't necessary and we want to see how 
the pilot actually works. If the states involved, such as New 
York, want to use other homeland security grant money to take 
it forward for years 4, 5 and 6 beyond the pilot, those grants 
can be requested through those other grant programs. So that 
was the thinking.
    Mrs. Lowey. Thank you. So you agree that it is an important 
program, and pending evaluation you will make that decision as 
to whether additional moneys should be invested in the future.
    Secretary Napolitano. I agree it is an important program. I 
agree that the nuclear issue always will be an important one 
for us. The question will be, and it will be partly for this 
committee and others in the Congress, should the pilot be 
continued under the Securing the Cities issues; or should it 
be, as this budget designs it, shifted over then to the regular 
grant programs once you are through the pilot phase and have 
used those funds up?
    Mrs. Lowey. I will ask one more question.
    Mr. Price. You better make it quick.

                       TSA COLLECTIVE BARGAINING

    Mrs. Lowey. Let me just say, President Obama has publicly 
supported granting all TSA employees collective bargaining 
rights, whistle-blower rights, veterans preference and other 
common workplace protections enjoyed by other DHS employees. 
When you testified before the authorizing committee earlier 
this year, you told Chairman Thompson you were discussing the 
issue of TSA collective bargaining with general counsel. Do you 
have an update, briefly?
    Secretary Napolitano. Other than to say it is still in the 
review. What is really, I will say, Representative, the major 
issue we are waiting for now, is for the President to actually 
nominate a new head of TSA, because you really want, if you are 
going to be moving down that path, to have your TSA head in 
place, and that nomination has not yet been made.
    Mrs. Lowey. Well, Mr. Chairman, I just want to say in 
closing on that issue, it seems that there is tremendous 
turnover, dissatisfaction, disgruntled employees. And if this 
is the first line of defense in the airports, it doesn't make 
sense to me. They should be treated like all other Federal 
employees and have collective bargaining rights. We want them 
to stay in that position for a lengthy period of time so they 
can get the expertise and be professional in their work. So I 
would hope that decision would be made shortly concerning that 
issue.
    Secretary Napolitano. Thank you. If I might add, one of the 
things I think we also--in addition to looking at that, we need 
to be looking at for TSA, which we are also looking at, is a 
real career path for those employees so that, you know, if you 
come in as a frontline screener, that there is a way to move up 
the chain as a way of making a real career with value added and 
training and supervisory responsibility and the like. And I 
think, in part because it is a relatively new agency, you 
really don't have that kind of a defined career path, and we 
want to design one for those employees.
    Mrs. Lowey. Thank you very much. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rothman.

                       CHEMICAL PLANT FACILITIES

    Mr. Rothman. Thank you, Mr. Chairman.
    Madam Secretary, great pleasure to have you here with us. 
The FBI has called a 2-mile stretch in northern New Jersey, 
which links my district to the port of Elizabeth, the most 
dangerous 2 miles in the United States when it comes to 
terrorism. The screening of all cargo at Port Elizabeth is an 
important security concern for my constituents and the entire 
region; and I am glad to see that you have prioritized 
container security and maritime security in general in the 
fiscal year 2010 budget request.
    However, the other challenge that we face in that 2-mile 
stretch has to do with chemical plant facilities. New Jersey's 
chemical plants are known al Qaeda targets. Will the securing 
of those--further securing of those chemical plant facilities 
be a priority in your Department? And in particular, there was 
language enacted in 2008 which said that the States could have 
their own regulations with regard to securing chemical plant 
facilities unless there was a conflict with the Federal 
requirements. Might it be time to revisit that language to 
allow each State to have its own chemical plant security 
regulations even stricter than a national minimum standard, 
even if they conflict?
    Secretary Napolitano. Congressman, two things. One is we 
are actively engaged now on the issue of securing chemical 
facilities through the regulation, design and implementation of 
the regulations known as CFATS, and that has been a huge 
initiative undertaken by the Department over the last years, 
inordinately more complex and complicated than one would think 
at the outset. But you are exactly right to point to that in 
places like your own district about its potential danger to the 
homeland. So it is a key concern of ours and something that is 
ongoing, and we are working very heavily with the private 
sector on that, as you might imagine.
    With respect to the kind of reverse preemption argument, if 
they can go stricter but not looser than federal requirements, 
I must say that is the first time that has been suggested to 
me, and I would be happy to take a look at that.

                 TRANSPORTATION SECURITY GRANT PROGRAM

    Mr. Rothman. Thank you for that and look forward to 
engaging you in that discussion, or members of your Department.
    Also, Madam Secretary, I appreciate your focus on improving 
coordination and communication between the different arms of 
your agency, especially in light of the difficulties DHS has 
encountered, prior to your being sworn in as Secretary, with 
respect to the Transportation Security Grant program, which 
this Subcommittee has held two hearings on earlier. Are you 
familiar with this program and the inability or the apparent 
inability of grantees under the Transportation Security Grant 
program to draw down funds in a timely fashion?
    Secretary Napolitano. I will have to look into that. I know 
that has been a problem with some of our grant programs. I also 
know that this budget eliminates some of these grant programs 
under the fear that they were not risk-based enough to really 
justify going forward.

                        RISK ASSESSMENT FUNDING

    Mr. Rothman. These have to do, of course, with the New 
York-New Jersey metropolitan area. And that comes to my third 
question which has to do with your risk assessment, the request 
for funding for additional risk assessment capabilities. And by 
the way, I hope that you will personally take a further look at 
the Transportation Security Grant program. The second of our 
two subcommittee hearings was more productive than the first 
and gave us a better sense, or a sense that progress was being 
made and appropriate attention was being focused, but if you as 
Secretary could take----
    Mr. Price. This involved the Rail and Transit Grants and 
the problematic nexus that it would seem between TSA and FEMA 
in releasing those funds.
    Mr. Rothman. It seemed that progress was being made, but if 
you could take a personal look at that, that would be great.
    Secretary Napolitano. I would be happy to.
    Mr. Rothman. Finally, the question. I was very delighted to 
see that in the last several years, threat of risk assessment 
was going to be the key criteria upon which the allocation of 
homeland security funds was going to be determined, as opposed 
to simply dividing up a big pie across the country and regions 
that didn't share the same level of threat or risk as others. 
But now that we have a more risk-based allocation of funds, 
there has been an allocation in your request, $5 million, for 
this strategic requirements planning process to judge these 
risks in order of priority. Five million dollars. Do you think 
that that is sufficient to get the job done?
    Secretary Napolitano. Representative, yes, I do. I think 
that given where we are, where we are going, that is a very 
well-based budget request.
    Mr. Rothman. And sufficient?
    Secretary Napolitano. Yes.
    Mr. Rothman. Thank you. Thank you, Mr. Chairman.
    Mr. Price. Mr. Farr.

                           USE OF DOD RESERVE

    Mr. Farr. Thank you, Mr. Chairman.
    Madam Secretary, I want to say how pleased I am that you 
have taken the responsibility of this job. I think it is really 
refreshing to have a Governor come to Washington and 
essentially have experience on the ground with how things 
really operate.
    I find, having come out of local government, State 
government, after being here this many years, I am really glad 
that the Washington Monument isn't round, because if it was, we 
would have a monument that stove-pipes, which is what so much 
goes on.
    What I think is remarkable about your agency is essentially 
the concept of interoperability. I think we have made it, in 
the agency, interoperable, still some struggles; but as a lot 
of your issues and testimony have touched upon, there are these 
around the edges. It is our other Federal agencies that are not 
interoperable with Homeland Security, and I have about probably 
five or six questions. I will get to as many as I can.
    One is in your comments--and I would just like you to 
reflect--I have been through seven Presidentially declared 
disasters. It was very interesting the earthquake Loma Prieta 
in 1989 knocked out all the power and knocked out roads. 
Everybody was stuck. We had Fort Ord at that time, and the 
military could respond to the moment it was declared a Federal 
disaster. Then the military, they had to drop everything. So 
all the generators that they turned on, they couldn't be used.
    And I know that the Governors have indicated that they are 
not keen on using--allowing this sort of the presence of the 
Reserve system because they are under Federal DOD command, 
whereas the National Guard is under the Governor. But the 
Reserve system in America has--the DOD has all the equipment. 
And I wondered if you can work with sort of making these more--
the ability to use the assets of the military for emergency 
response, whenever--you know, whenever it calls for it.
    I know that the Governors have indicated they don't want 
that because they want to maintain control, and it seems to me 
that we are at a cross there. We have Governors who want 
everything they can at the moment the disaster occurs, but they 
don't want--they want to have control. I think you are not 
going to be in the Army Reserves, or the other Reserves, Air 
Force Reserves, to the Governors. And I hope you can maybe look 
at seeing how we can make that more interoperable.

                        FUSION CENTER IN SALINAS

    The other issue I want to bring up to you is I represent 
the city of Salinas. The city of Salinas has 150,000. It is 
essentially responsible for breaking the back of international 
terrorism through the cartels by big gangs in the largest State 
prison there. The town just does not have the resources.
    And what they are asking for, we have gotten other Federal 
help, and we have brought them all together in a whole it-
takes-a-village to solve this problem. But now they want the 
intel issues that you mentioned earlier, and were really 
pursuing a model fusion center in a way it can be drawn that 
the Center for Homeland Security training are teaching master's 
degrees and Ph.D.s at the Naval Postgraduate School. And I 
wonder if we could work with your agency to see if we could 
bring ability in this community to get an intel fusion center. 
We have already got the FBI Gun Checking Lab there, but there 
is still lots of other information that they need. Could you 
respond to that?
    Secretary Napolitano. Yes. First, with respect to your 
first point, having been a Governor longer than I have been a 
Secretary, I can understand the notion that Governors want to 
have equipment available at their immediate command when a 
disaster strikes, because of the need to avoid unnecessary 
delay. That being said, I think we are working very closely now 
with Governors on a whole host of response issues, and so 
hopefully that battle with them, as it were, is going much more 
smoothly.
    With respect to a fusion center in the Salinas area that 
would be particularly geared toward intelligence gathering with 
respect to the quite sizeable gang prison population in that 
part of California, that is something we could certainly look 
at.

                      FEDERAL LICENSED GUN STORES

    Mr. Farr. Thank you very much. Regarding the Southwest 
border, what really struck me in earlier conversations, having 
visited the border and going with the President to Mexico City 
and to meet with all of the Federal agencies, one thing they 
have indicated that the law only allows ATF to go in and 
inspect gun sales through federally licensed, federally 
authorized gun shops once a year. They want that authority 
moved to ICE because ICE has all the officers on the border, 
whereas ATF doesn't have very many, and they want the authority 
to be able to check more than once a year.
    ATF is in the Justice Department, and DHS has many other 
responsibilities under its bailiwick. Buying weapons along the 
SW border and transferring them illegally into Mexico is a huge 
problem, and we need to focus more attention on this particular 
problem.
    Secretary Napolitano. The Bureau of Alcohol, Tobacco and 
Firearms is an agency that we work very closely with. We are 
working very closely with the Attorney General on how we can 
harmonize the joint responsibilities of ICE, DEA and ATF; 
because when you referred earlier to stove pipes, the 
memoranda, the original memoranda really think of them as not 
having any kind of concurrent or overlapping work, when in fact 
they do, particularly at the border. And I think we are very 
close to breaking through that in a formalized agreement.
    Mr. Farr. Well, if you need more authority, could you let 
this committee know?
    Secretary Napolitano. We will do it.
    Mr. Price. Thank you. Mr. Ruppersberger.

                             PORT SECURITY

    Mr. Ruppersberger. Thank you. I think you are very well-
qualified for this. I think Homeland Security has had a lot of 
issues and a lot of bad judgment, lot of calls, a lot of money 
that has been spent that really shouldn't be where it goes. But 
the fact that you were a prosecutor, the fact that you were a 
Governor, in management, and know local and State government, 
and now where you are I think is a good fit. So we are looking 
forward to working with you.
    We are going to have two rounds of questioning. I have got 
three issues I want to raise. So I might not get it all done 
the first round, and where my three areas would be are going to 
be in port security. We talked to you about the nuclear 
components and cargo containers being smuggled in, and we are 
going to get into the cyber issue, and then finally, I want to 
get into the Coast Guard about their resources, and especially 
in Central and South America as it relates to their resources.
    As far as the first one, the nuclear components and cargo 
containers, I represent the port of Baltimore. I am cochair of 
the National Port Security Caucus. So I have done a fair amount 
in the port area, and I understand--I mean, your budget zeroed 
out the--I think it was zeroing out any type of money for 
technology and detecting the nuclear components. I think one of 
the areas was cranes. You know, in port security you have to 
make sure that you balance security with the commerce. I think 
we learned that when there was a strike, I think on the west 
coast, with about 17 ports, and I think it was $1 billion a day 
that it cost us.
    But are you familiar with the DNDO?
    Secretary Napolitano. Yes.
    Mr. Ruppersberger. To my knowledge, they were appropriated 
close to $15 million in fiscal year 2009 to further develop an 
on-dock rail application; namely, a crane-mounted and straddle 
carrier detection system. And the crane-mounted system, which 
scans cargo containers as they are being unloaded, it seems to 
me is the way to go to balance out the commerce versus 
security, and it would not slow down operations.
    But the DNDO has some remaining money, and they just 
haven't spent it. And you know, I am concerned that we need--we 
have a goal of scanning over 100 percent of incoming containers 
at foreign ports. And I really doubt, based on what I know, 
that that is going to be a reality. Just because you scan them 
doesn't mean that you are getting what you need to get.
    I think you look at ports like Hong Kong where they say 
they scan every container, but they are going to miss a lot. So 
it is about technology and getting the right system in place.
    Now, as far as your goal, how do you address--do you think 
we will be able to meet the 100 percent? And secondly, the 
technology of trying to make sure that we can detect these 
nuclear components in cargo containers; because that is 
probably our biggest threat, components of a nuclear bomb 
coming into our country.
    Secretary Napolitano. Congressman, let me if I might----
    Mr. Ruppersberger. In your fiscal year 2010 budget request, 
the acquisition of funding for radiation detection systems was 
zeroed out. That is why I am addressing this.
    Secretary Napolitano. That is right. Fair enough. And if I 
might address your question in several parts. One is, 100 
percent scanning of all cargo from foreign origination by the 
deadline, I think I said even as early as my confirmation 
hearings, I thought that that deadline was not reachable, in 
part because of the logistics of simply negotiating some 700 or 
so international agreements to allow that sort of process to 
proceed.
    That being said, the budget does include expanding the 
ports that are doing 100 percent scanning abroad and adds three 
more of those ports, subtracting Hong Kong which now has 
withdrawn from our secure initiative.
    With respect to, however, scanning or screening at the 
ports as they come into the domestic U.S.--for nuclear, that is 
virtually 100 percent. So I want to make sure we speak a little 
in a differentiated way between what we are doing abroad where 
the cargo is loaded, to what we are doing as they come into 
American ports.
    With respect to DNDO, yes, it was zeroed out for several 
reasons. First, there is money still in the pipeline that has 
not yet been drawn down. And second, the decision that the new-
stage technology that I think the Congress was perceiving would 
be available to buy, really has not met our specifications or 
the expectations that we have; and rather than budget for it, I 
think we need to keep working with the vendors to get something 
that really will be working for us long term.
    Mr. Ruppersberger. If there aren't systems that work now, 
then we have to continue to spend money to develop the systems 
which are going to work.
    Secretary Napolitano. And there is money in the pipeline 
for that, but we are not going to be buying new systems right 
now in fiscal year 2010. That is the money you are referring to 
that was zeroed out.
    Mr. Ruppersberger. Do you have research and development to 
determine there are a lot of inventors out there?
    Secretary Napolitano. There is money in S&T, but there also 
was unspent money in DNDO that could be used for that purpose.
    Mr. Ruppersberger. And as you said before, there clearly is 
an issue of port of embarkation and getting the intel, HUMINT 
and SIGNET, and developing those different countries. But I 
think there are only 70 countries that deliver to our port and 
out of, what, 700 or something, whatever it is, they really are 
limited as far as their resources. So are you working on a plan 
on the point of embarkation and how we get intelligence in 
those ports moving forward?
    Secretary Napolitano. I will try to answer quickly. The 
answer is yes.
    Mr. Ruppersberger. What are you doing?
    Secretary Napolitano. We are working with the Department of 
Defense and other entities on the intel gathering. That is how 
we selected the two or the three new ports that we will install 
the Secure Threat Initiative in this year. But beyond that, we 
have a multilayered risk-based approach that we are now using 
for cargo. I would be happy to make sure your staff or you are 
briefed and can see where we are headed.
    Mr. Ruppersberger. It is kind of tough in a hearing, in 5 
minutes, to do this. So we will have a meeting later and follow 
up.

                           SECURE COMMUNITIES

    Mr. Price. And we will have another round of questions 
which I am going to begin at this very moment.
    So, Madam Secretary, let me follow up on your response to 
my first question which had to do with the prioritizing of 
convicted criminal aliens for deportation proceedings. It was 
significant, I think, that in giving that answer you focused on 
two programs that strive to strengthen the cooperation between 
ICE and local law enforcement, namely the 287(g) program and 
Secure Communities, so I want to take that a little further.
    I am drawing here on some conversations I had recently with 
five sheriffs from North Carolina who discussed what they felt 
the best approach was for ICE to work with State and local law 
enforcement to combat illegal immigration. Specifically, I 
would say the sheriffs, to a person, highlighted the good 
experience they had had with the Secure Communities program, 
which they say gives them important information about the 
criminal histories of the people they arrest, something that 
indisputably they need to know.
    Yet they also stressed that it allows them to maintain good 
relationships with local immigrant communities since it leaves 
to ICE the discussion of which individuals have detainers put 
on them and are to be scheduled for deportation. It leaves that 
discretion with ICE. It does not give local law enforcement a 
role in that.
    Now, the 287(g) program they had more mixed views of, some 
very positive, others not so positive. And that perhaps 
reflects, as I said earlier, the fact that 287(g) doesn't look 
the same in each and every community, and I know the Department 
is exploring that as we speak. The program has been interpreted 
and implemented quite differently in various communities.
    But that aside, generally the 287(g) program allows our 
local officials both to investigate the backgrounds of 
suspected illegal immigrants and to make the determination 
whether an individual is in the country illegally. Now, 
deportation decisions, still a great deal of discretion with 
ICE; but more on intermixing of roles, I think you would agree, 
with local law enforcement; a less clear division of labor than 
we have with Secure Communities.
    In any event, 287(g) requires local officials to receive 
significant training in Federal immigration law that is costly 
and has, in some instances, led to strained relationships 
between local law enforcement and the immigrant community, 
since it does put local officials in the position of trying to 
stop crime while simultaneously being the long arm of ICE, or 
at least part of the enforcement mechanism with respect to 
Federal immigration laws.
    Now, all that by way of asking you, what do you think is 
the best way forward for ICE to build cooperative, working 
relationships with State and local law enforcement? Do you see 
significant differences between Secure Communities and the 
287(g) program? Do you see clear advantages to one approach 
rather than to the other? I think we are going to have to sort 
this out, and you may not have it totally sorted out yet with 
respect to your own review.
    But it does seem to me, some of the pros and cons of the 
two approaches are becoming clear. Certainly they are clearer 
to law enforcement people in my communities. And I wondered 
what your reflections to this point would indicate.
    Secretary Napolitano. Thank you, Mr. Chairman. You are 
right; they are different with some overlap, but they are 
somewhat different approaches to the same problem, which is how 
do you identify for deportation criminal aliens and then get 
them deported. It is not just a matter of identification. It is 
a matter of removal from the country.
    As you correctly note as well, we are looking at 287(g). 
Why? Because it had so many variations across the country and 
no metrics in terms of was it actually producing a benefit for 
our immigration enforcement efforts. We want to really be 
looking at that agreement to look at ways to make it more 
uniform across the country and to put some real metrics, so it 
is an accountable program to us.
    Secure Communities, you know--the easiest model is giving 
local law enforcement access to immigration databases in a 
computerized way so they can identify more immediately and 
clearly who they have got. And to me, that is working. It is 
working very well. It is very popular, and I can predict that 
we will be looking to grow that program over this year and the 
coming years.
    Mr. Price. And can you clarify in your budget for 2010, you 
are proposing a substantial increase in that Secure Communities 
line which is $200 million?
    Secretary Napolitano. That is correct, because it is 
effective. It works and law enforcement knows it.

                        SECURE BORDER INITIATIVE

    Mr. Price. Okay. Thank you. That is helpful, and we will 
continue to work on this with you. Let me shift to the related 
topic of the Secure Border Initiative and the question of 
border infrastructure.
    On April 21 you told the Border Trade Alliance--and I am 
quoting you here--that you cannot build a fence from 
Brownsville to San Diego and call that an anti-illegal 
immigration, anti-illegal drug strategy. Almost 3 years into 
the Secure Border Initiative, SBI's most visible and expensive 
symbol is the physical fence, as well as thousands of new 
Border Patrol agents deployed to the border. The cost of this 
initiative over the past 3 years easily exceeds $4 billion.
    Now, at the same time, you have made it clear that you plan 
to finish the currently planned 670 miles of pedestrian and 
vehicle fencing. Your budget also includes $110 million, the 
same level as fiscal 2009, for tactical infrastructure. And 
your budget notes that the Border Patrol operational 
requirements call for a variety of such infrastructure, 
including additional pedestrian fence.
    However, I understand the Department does not intend to 
build new fence, but will focus on maintaining existing 
infrastructure, further testing and deployment of planned 
technology investments, and northern border technology 
programs.
    Now, as you may know, I have questioned the last 
administration's investment priorities in this area. So as you 
can imagine, I am encouraged by the approach you have 
articulated, but I do have some questions about where we turn 
next. After such massive investments in technology and 
infrastructure and people, what would you say is your vision 
for a sustainable approach to the border security and how do 
you envision these elements fitting together?
    Obviously from your budget, the combination of elements is 
rather different than what we had in the last administration. 
Could you describe that a little more, in a little more detail 
though, how would you characterize the combination of elements 
you are looking to work together to reinforce each other going 
forward?
    Secretary Napolitano. Thank you, Mr. Chairman, and I will 
confine my remarks to the southern border. We can talk about 
the northern border, but they are different in respect to the 
kind of system we are putting in place, but both require a 
system. And to me, the system has several elements.
    One is adequate boots on the ground, manpower. The second 
is technology. For example, we now have just signed off on the 
first phase of SBInet as being operational. It is going into 
place in the Tucson sector and will be added to other sectors 
now along the southern border. That program, as you know, took 
a while to get worked out but it is now being worked out.
    So boots on the ground and technology. And then 
infrastructure is part of a system. So while, for example, on 
the fence the budget does not necessarily ask for new miles and 
miles of fence, it does not say that there can never be another 
portion of fence added on as part of another section of the 
border. As part of a system, we might want to add some more 
fencing in certain more places in a limited way.
    But my statement at the Border Trade Alliance is what I 
have seen and what I have experienced, just building the fence 
across several thousand miles of some of the most rugged 
terrain you will ever see, is not in and of itself an anti-
illegal immigrant or anti-contraband strategy.
    The other part that needs to be added to that is interior 
enforcement. That is why the worksite enforcement has to be 
part and parcel of our efforts here, because it is the demand 
or the draw for jobs that really creates the demand for a lot 
of that illegal immigration over the southern border. So unless 
you marry what you are doing at the border with some interior 
enforcement, all you have done is create a challenge to sort of 
run the gauntlet. And in a home-free system, that is what we 
need to avoid.
    Mr. Price. I assume you would agree beyond that, that 
enforcement alone is not, whatever the different components, 
whatever the different aspects, interior border enforcement; 
enforcement alone is not a sufficient immigration strategy. 
During my first months as Chairman I spent a lot of time down 
on that southwest border and have yet to meet a Border Patrol 
officer, a border agent, who would say enforcement alone is the 
answer to this problem. As long as our overall immigration 
policy is out of whack, as long as there is this gross 
disparity between what our labor market demands and what our 
official policy permits, all the fences in the world aren't 
going to solve this problem.
    Secretary Napolitano. Mr. Chairman, I think the President 
has already indicated that he wishes to, sometime this year, 
take up the issue of underlying immigration reform, and we will 
be fully prepared to help participate in that effort when the 
time comes.
    Mr. Price. Thank you. Mr. Carter.

                COUNTER NARCOTICS AND WEAPONS SMUGGLING

    Mr. Carter. Thank you, Mr. Chairman. To clarify some stuff 
we have been talking about, on the issue of the guns coming 
across, I believe what ATF has reported is that of those seized 
and traced, they are from the United States, but they haven't 
traced anywhere the number of guns that they have seized. So 
there are other places that we should be involved in trying to 
help our allies across the border find out where the guns come 
from and don't presume that they all come from the United 
States, because they have already reported that many of them 
come from being imported for law enforcement, and then law 
enforcement turning to the other side, the Army turning to the 
other side, and so forth. So there are other issues.
    On the 287(g) issue I believe that there are some good 
stats out there, that are available right now, showing that 
this has been a very effective program.
    You mentioned that--and I wasn't in the room but I was told 
of it--that you are formalizing an agreement with ICE, DEA, CBP 
and ATF and others on counter narcotics and counter weapons 
smuggling. Could you give us am idea of what kind of agreement 
you are formalizing and kind of where you think it is going?
    Secretary Napolitano. Certainly, Representative. With 
respect to the gun tracing you are right; that 90 percent 
number comes from guns actually turned over and traced, which 
is not the total universe of guns seized. We know that however, 
a great proportion of the guns seized come from the U.S. But 
there are guns that are coming from other sources as well.
    One of the things we are working on is a better way of 
capturing what guns are actually used in the commission of 
crimes right then and there so they can be traced quickly, 
which was not previously the case.
    With respect to working with the Attorney General, there 
are a number of oral memoranda of understanding, MOUs. Some of 
them date back to the 1970s, for example, between DEA and the 
old INS, and before ICE even was created, that divvy up things 
such as, for example, Title 21 authority. They are stove-pipe 
MOUs. They don't really reflect the modern day that we are 
dealing with, which is a whole region with a whole complex of 
problems. So we are engaged, the Attorney General and I, in 
rectifying that situation now.
    Senator Grassley, for example, a couple of weeks ago 
actually wrote me a letter asking what we were doing. It was a 
GAO report on some of these old MOUs, and I was pleased to 
report to him that we are making good progress. You know, we 
hope to be able to announce something shortly.

                                E-VERIFY

    Mr. Carter. That is a good plan. On the issue of this work 
site enforcement, 2 weeks ago Saturday night, I was at a 
barbecue with a Hispanic American contractor, probably the 
sharpest in my district, a big contractor. He is constantly 
turning over backwards to try to make sure that he is meeting 
every kind of requirement so that he is not going to get in 
trouble. I don't know where he got it or what was said or what 
he read, but he was really concerned, and expressed it to me, 
that it looked like all the effort he had done was going to be 
for nil, including going through E-Verify and other things, 
because it looked like the target of the Department was now 
employers, period. And he was really concerned about it.
    And he was saying that if you do everything right, could 
you still end up being held for crimes charged against you? And 
of course, being an old judge, I said of course not. There are 
laws. But he is worried about shutting down his business, 
throwing him in jail, huge fines, when he says he has done 
everything right, and I believe he has. That is his work ethic 
that he brings to the job.
    So I am real interested in these things, especially a lot 
of this, you are talking about new elements that are out there. 
One of them was then leaked--one of the supposedly secure 
documents was leaked to The New York Times. Are you aware of 
that?
    When you were talking, when you were doing some 
conversations on this new going after the employers, not the 
employees--and maybe this is where he got it--they were law 
enforcement sensitive and you labeled them law enforcement 
sensitive from the new guidelines, and that they were to be 
kept from the public and not for public release, and yet 
somebody released them to The New York Times. Do you have any 
idea about that leak and source of that leak or were you aware 
of it?
    Secretary Napolitano. No, but I will share with you the 
guidelines and how they work. With respect to your constituent, 
if he is doing everything right and he is using E-Verify, and 
he has got a robust I-9 process to check immigration forms, the 
fact of the matter is the law is very tough to prove a case 
against an employer. You have to show knowledge and intent to 
hire illegally, and that requirement is not going away.
    The intent of the guidelines, however, was to say look, it 
is easy to look up numbers and just go on to a place and pick 
up the employees. What I want our agents to do, however, is to 
build cases not just against employees, but if there is an 
employer who is intentionally and knowingly continuing to deal 
in that illegal labor market, then we have a shot at bringing a 
winnable prosecution.
    And so it means really thinking through your evidence 
strategy, your warrant strategy, how you are going to handle 
that, increasing our number of I-9 auditors who can actually go 
in and do more I-9 audits, which are lower-paid employees than 
actual case agents, but help give us some inkling about where 
our case agents ought to be targeting, to help really deal with 
the whole issue of the work site. But if your constituent has 
got a good process and he can show that he routinely uses E-
Verify and I-9 and has got that all in place, then existing 
federal law will not allow us to bring a prosecution.
    Mr. Carter. I agree; build your case before you raid. But I 
guess the whole point is it is targeted at the employer and not 
the employees. So even though you may know there are 500 
illegal aliens working in a place, if you don't know that he 
meets the requisite intent to prove the case, then that 
wouldn't be a place that you would raid?
    Secretary Napolitano. Not necessarily. That would not 
necessarily be this case. We may still serve a warrant and 
bring in workers and interview; what did they do, how did they 
apply, who did they talk to, what kind of documents did they 
use, and what were they asked? Those sorts of things oftentimes 
lead to a case that can actually get you to the employer. So 
these are not mutually exclusive concepts. They are a matter of 
emphasis, however.
    Mr. Carter. Am I through? If I can, I would like to expand 
one question.
    Mr. Price. Just go ahead.
    Mr. Carter. The Seattle issue is what I am curious about. 
Is that going to be our policy, that we are going to release 
the workers back with some kind of permit to let them work?
    Secretary Napolitano. Let me explain that. First of all, 
that was not a new policy. That is the way those cases have 
been done for a long time. Here is what happens. You go onto a 
work site, you serve warrants. You want to bring a case against 
the employer. You need certain of the workers to be able to 
testify, and these have to be able to stay in the country 
legally while you are getting ready to go to court. It also 
means they have got to be able to feed themselves while you are 
waiting to go to court.
    So the practice has been to provide for an extended 
departure date for them. They are allowed to stay in the 
country legally for that period of time while they are 
cooperating. They are allowed to work during that period of 
time while they are cooperating. When the case is over, they 
are deported.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rodriguez.

                             CYBER SECURITY

    Mr. Rodriguez. Thank you very much, and let me follow up on 
the gun-running issue.
    We have got resources for ATF and others to follow up and 
we just started that, and as indicated by Congressman Carter, 
we don't have all the information. I even asked President 
Calderon when he mentioned 50-caliber if he knew where it came 
from. He didn't. And so hopefully we will get some more 
information as we move forward.
    There were some kind of concerns that I started to hear 
that, for example, a lot of those high-caliber guns are not 
sold in the gun shows. We know that. So they are coming from 
somewhere else, some indication possibly from the Contras and 
the war in Central America. So it would be great as we move 
forward to gather that information as to how to best deal with 
that. So I am hoping that we can do that.
    Secondly, on the issue of cyber security, it is an area 
that I know is getting even worse throughout and the number of 
attacks are more serious, and I know that we are--there are 
attempts to hit it from a national perspective down. But there 
is a need also, from the local community up, in educating 
people about the importance of becoming aware.
    I know one of the former Congressmen talked about tribes. I 
got tribes right on the border, the Kickapoo, the Tiguas, and 
the importance also of educating them as to what to look for 
and things that might be happening. So I am hoping--and I was 
glad that you put some additional resources there in terms of 
cyber security from a local perspective and how we can enhance 
that.
    My concerns are that we have not moved enough into 
educating also the private sector, the banking area, the local 
police, for crime and those kind of things. I was wondering if 
you might want to react to that.
    Secretary Napolitano. Congressman, yes. One of I think the 
major efforts that will be underway, it is underway now 
actually, that will be enlarged upon greatly, is cooperation 
with key features of our private sector. It is not just the 
financial infrastructure but the electrical infrastructure, the 
water infrastructure. All of these things now are subject to 
hacking or cyber attack. We know that. We don't control it.
    So we have to work cooperatively on educational and support 
role with the private sector on those things. We have teams now 
working very aggressively with the private sector. We also have 
teams known as CERT teams that are helping with responsive 
reaction when something does happen. There was a virus, the 
Conficker. You may have heard of it, where we really were 
playing a lead in terms of getting information to the private 
and other dot gov sites about what you could do with your own 
system to protect it.

                   DECLARATIONS OF NATURAL DISASTERS

    Mr. Rodriguez. If I could just mention, I was on the 
Services Committee before, and we did one of the major exercise 
drug screens prior to 9/11 in San Antonio, and there are still 
some programs there.
    I also wondered if I had the opportunity to ask you about a 
problem, I have had serious disasters. The last 3 years I had 
two: one, a flood in Presidio which was never declared and is 
still a major problem; a major tornado in Eagle Pass that 
killed seven people, took 17 days to declare it.
    There still seems to be a problem, and maybe we can look at 
it as a committee and as an agency responding to small 
communities that sometimes don't reach that so-called level 
that it has to reach. But when 90,000 acres have been burned in 
West Texas and they say the only damage was to the fences, we 
know that that is not the case, because there are a lot of 
cattle and sheep and goats and other things out there, and just 
somehow we have got to look at some of those areas.
    The flooding that I had in Presidio that also I am not even 
sure when they submitted those requests, that displaced 500 
people there, but it went downstream and also displaced at 
Redford and other communities, and it was never declared by the 
previous administration.
    The tornado that occurred in Eagle Pass, that was not only 
embarrassing but frustrating in having to deal with those 
situations when the Mexican side was taken care of. And they 
called my elected official and said, do you need any help? And 
I couldn't even--we were not at that point.
    So I am hoping that in FEMA we can come to grips with those 
kind of issues and respond more appropriately to natural 
disasters.
    If I can just end it with a comment and to also be very 
cautious during natural disasters, because usually that is the 
best time to create problems, also. Not only--there is a 
natural disaster, but there is also a way of creating man-made 
disaster in times of natural disasters in terms of beefing up 
in that area.
    Secretary Napolitano. Thank you.
    Mr. Price. Mr. Calvert.

                STATE CRIMINAL ALIEN ASSISTANCE FUNDING

    Mr. Calvert. Yes. Thank you, Mr. Chairman.
    This may be a little out of your lane, but I just want to 
bring this issue up. As the Chairman indicated, a high priority 
to the Chairman, and apparently to the administration, is the 
problems with deporting criminal aliens. And as you know, the 
State Criminal Alien Assistance program has helped the States 
incarcerate criminal aliens. It is a small portion of that 
cost. It is one of the things that in border States especially, 
both Republicans and Democrats have really gotten together on, 
is a program worth funding. I am just curious when you were the 
Governor of Arizona did you support SCAP funding?
    Secretary Napolitano. Yes.
    Mr. Calvert. Don't you think it is a little inconsistent on 
the part of the administration on one hand to say that their 
willingness to get more involved in the deportation of these 
criminal aliens, and, second, not to be involved in their 
incarceration, even though as you know in your State I suspect 
it was probably--what, 20, 25 percent of your costs, maybe 
less?
    Secretary Napolitano. Well, we had--in Arizona--we had an 
average daily population of about 34,000 and probably about 
4,000 to 4,500 were illegals.
    Mr. Calvert. As far as the portion of your costs to 
incarcerate some criminal alien versus your cost, what did you 
get back from the Federal Government versus your cost?
    Secretary Napolitano. Oh, I think it was about 10 cents on 
the dollar.
    Mr. Calvert. So you thought it was a great program while 
you were Governor?
    Secretary Napolitano. I recall sending an invoice to the 
Attorney General of the United States for payment and did not 
receive such. The Congress did not fully appropriate the money.
    But let me say this. SCAP, as you know, is funded through 
DOJ, and those budget hearings will take that up, I am sure. My 
job, however, is to do whatever I can to reduce the number of 
illegals that are coming into the States to begin with, and 
that is where I think I can provide the greatest assistance to 
the border states.
    Mr. Calvert. At one time they were talking about a program 
to work with the Mexican Government to incarcerate some of 
these people within their home country at a much less cost, but 
that program never went anywhere. I know that a number of 
Governors were talking about that.
    Secretary Napolitano. We looked at that actually in 
Arizona, Representative; and first of all, there were lots of 
legal impediments to it, treaty and otherwise.
    Secondly, there was a great deal of skepticism, myself 
included, among prosecutors, because in the Mexican system 
oftentimes people can be released before they actually serve 
their time, and we were not confident that people would 
actually serve their time.

                       CBP BORDER PATROL OFFICERS

    Mr. Calvert. In fiscal year 2009, more than 2,500 
additional Border Patrol agents were funded. In this fiscal 
year 2010 budget proposal, you only had 44 agents. In fiscal 
year 2009, more than 1,300 additional CBP officers were funded. 
In this fiscal year 2010 budget proposal, you had 65.
    At a time when we have intense drug smuggling activity, 
growing influence by the Mexican drug cartels, the fiscal year 
2010 budget proposes constraining the growth in the workforce 
of the Border Patrol and CBP officers. Do you think that is a 
wise move?
    Secretary Napolitano. Yes, and several reasons. One is 
because the target hiring for Border Patrol as set by the 
Congress has been 20,000. So what you saw there was a rapid 
ramp-up from a force that, not too long ago, was like 8,500 
agents up to the 20,000 mark, and now the ability to sustain 
that over time. You marry that manpower, as I said earlier, in 
a system with greater use and funding for technology, interior 
enforcement and the like, and the system makes sense, yes.
    Mr. Calvert. So there was a threat of workload analysis 
done to justify keeping that workforce level for the next year.
    Secretary Napolitano. That was the recommendation that was 
carried forward from the previous administration and I accepted 
it, yes.

                 COAST GUARD LEGACY CUTTER SUSTAINMENT

    Mr. Calvert. Since it is estimated that more than 85 
percent of the drugs entering Mexico from South America are 
transported via noncommercial maritime routes, how can the 
fiscal year 2010 budget justifiably shortchange the Coast 
Guard's legacy cutter sustainment--I understand you cut it by 
18 percent--provide no funding for immediate maintenance needs 
of the high-endurance cutter fleet, and cut CBP's air and 
marine procurement by over 11 percent?
    Secretary Napolitano. We would be happy to give you a 
greater briefing on the operational side of that, Congressman, 
but the plain fact of the matter is that the budget provides 
that the Coast Guard do different mixes of programs. We will be 
able to sustain all of its current missions in the maritime 
environment. Right now, we are involved in several surge 
efforts that are by the Coast Guard, in the maritime 
environment, related to the importation of drugs from South 
America.
    Mr. Calvert. One point I want to make as far as the fence 
is concerned. For those of us in California near San Diego, it 
has worked marvelously.
    Secretary Napolitano. It has.
    Mr. Calvert. It has cut down crime significantly. And now 
that that area by the Tijuana Gulch is finally completed, I 
have talked to people in the neighborhood over there, and they 
are greatly appreciative of that infrastructure being 
completed.
    With that, thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Ruppersberger.

                              COAST GUARD

    Mr. Ruppersberger. Two issues. I am going to try to move 
quickly on the first one.
    The issues of the Coast Guard. I think having the Coast 
Guard in Homeland Security is very helpful. I think they are 
probably one of the best organizations that I have worked with 
since I have come to the Hill. What they did, and the admiral 
and the Commandant in Katrina, they just get it. They are well-
disciplined, they are focused, and they are professional. So I 
hope as their leader that you understand how good they are.
    One of the areas--they have so many different areas of 
jurisdiction--the drug problem in Central and South America, 
which is one of our biggest problems as it relates to drugs. 
And a lot of what we want to do is try to get to the drugs 
before they get actually on land, especially Mexico.
    In that area of water near Guatemala and Mexico, where 
really--the Coast Guard is at a disadvantage because they have 
an aging fleet. I mean, they are close to 40 years old. Now, I 
think there are eight ships that are ready to go, and I don't 
know where they are in the budget right now, but I would ask 
you to look at expediting the resources that they have, because 
I think that the ability to have a helicopter--which is 
probably one of the most effective methods that they are using 
now as a deterrent in stopping these ships. It is very 
difficult to stop these fast ships that are moving all over the 
place. But with the helicopter, it puts them in a better 
position.
    And if you could just look at your budget and see what we 
could do, or get back to me or whatever, and see how we can 
give them more resources, because it is just like port 
embarkation; if we are aggressively stopping them ahead of 
time, we might be a lot better off.
    They also, I know, are in the intelligence arena. I think 
it is important that we look at and make sure they are well-
focused because they are not just dealing with the drugs in the 
United States. They are in all parts of the world now, dealing 
with the pirate issue, whatever.

                             CYBER SECURITY

    Now, let me get to cyber. The cyber initiative is probably 
one of the most important issues we are going to deal with, new 
issues that we are going to deal with. I think the good news is 
that President Obama understands this. I know during the 
election both candidates were briefed, along with President 
Bush and whatever, the DNI, Admiral McConnell who really raised 
this as an issue and how we are dealing with cyber defense. We 
know we have been compromised on a regular basis, NASA--I mean, 
this has been going on for a while.
    And the funny thing that the public doesn't understand what 
really this is about. They probably assume that we own the 
Internet, when we don't, and so there is a big process that is 
going on now. And I know the process is--Melissa Hathaway is 
dealing with the President and her report coming out, and you 
have General Alexander on the other side.
    My concern, as you are involved, you look at the history of 
Homeland Security. We have had some embarrassing moments. As a 
former prosecutor, you know there is always an issue between 
State, Federal and local. But the best way to get them all 
working together is a strike force concept, and that works.
    But I am really concerned about the jurisdiction of 
Homeland Security versus maybe where we might have DOD. And I 
just want to know how you can make sure that we are working 
together as a team on the different areas of jurisdiction. I 
remember in the beginning we had an issue where we were closing 
tunnels on 95, where the FBI was supposed to be in charge, and 
Homeland Security got involved and New York City Police, and 
none of them were working together. That is just not going to 
get it now. We need the leadership at the top to make sure 
there is not a turf issue because of jurisdiction--because the 
right person is in the right place.
    And I also think it was Admiral Brown, I think, is 
heading--was one of the people heading your cyber security. The 
good news there is he is well-respected by General Alexander, 
and that is good for Homeland Security and what NSA will be 
looking at.
    So how do you as a manager feel that you can manage those 
issues so there is no turf, that everybody is doing what they 
need to do, and then as the DNI would want us to do, bring us 
together?
    Secretary Napolitano. Representative, first of all, I have 
been involved in several meetings and initiatives already as a 
Secretary where we have had multiple agencies who have a piece 
of cyber there, and there has been a unified effort. But beyond 
that, the product I believe of the President's own review will 
be some decisions made with respect to how, out of the White 
House, things will be coordinated across the Federal 
Government. And so I think the results of that review are 
pretty ripe and should be announced shortly.
    Mr. Ruppersberger. That is the Hathaway review.
    Secretary Napolitano. That is correct.
    Mr. Ruppersberger. I am on the Intelligence Committee and 
deal with this right now, and there are areas we can't talk 
about. But I think--I mean that was a broad answer to a long 
question, but my concern is, I really--if you could focus on 
how we are not going to be involved in the turf issue, because 
all that we do and that we work on, either guidelines or 
standards need to be set. Are you communicating with General 
Alexander, or is Admiral Brown doing that?
    Secretary Napolitano. Yes and yes.
    Mr. Ruppersberger. Okay. Thanks for the answers.
    Mr. Price. Thank you. Mr. Farr.

                CENTER FOR HOMELAND DEFENSE AND SECURITY

    Mr. Farr. Thank you, Mr. Chairman.
    I am very pleased to see your tough stand on some of these 
border issues. It was very interesting, talking to all of the 
personnel associated with our Embassy in Mexico City when I was 
with the President and we had a meeting on the border issues. 
There are civilians and there are law enforcement officers, DHS 
and so on, looking from that side and really supportive of the 
Merida initiative. But I think what they also recognize is that 
for the first time our country has stopped being apologist 
about the fact that the addiction is on this side of the 
border, that the money that is being raised to be laundered is 
on this side of the border, and the fact that the 7,000 gun 
stores that sell guns are on this side of the border, not 
located in California, but located in Texas and your former 
State.
    I mean, this is my comment. I don't even need a response. 
But I think that we are going to get respect around the world 
when we admit to the fact that some of these problems are 
caused by us, and that we have got to do a better job of taking 
care of our own house before we start blaming everybody else 
for the problem.
    Having said that, I would like to switch to another issue 
which is the Center for Homeland Defense and Security. I am 
pleased that your fiscal year 2010 budget recognizes the high 
value of the Homeland Defense and Security because it provides 
our Nation's first responders and Governors and mayors. And I 
note that your personnel were very active and frequent 
participants in the CHDS programs.
    And I wanted to know how we can have a greater impact on 
our national security issues using these centers. And, for 
instance, some of the students in the master's thesis are doing 
cutting-edge research projects, and how can DHS make greater 
use of such research?
    Secretary Napolitano. That is interesting. I have not 
really thought of it that way. Let me see what they are 
producing and get back to you.
    Mr. Farr. One of the interests there--and you might even 
suggest--is that they all have to write master's degrees. They 
come there not necessarily knowing what subject matter, and a 
lot of them, what professors do is give them a list of issues. 
And you know, you might have given some thought as to just some 
of those areas where the Department could really use that kind 
of----
    Secretary Napolitano. Free labor.
    Mr. Farr. Free labor, exactly. I am also pleased that the 
California Homeland Security Consortium is a collaborative 
between 23 academic institutions, Federal, State, and local 
government organizations, private sector firms in the Monterey 
Bay region, dedicated to conducting research, education, field 
experimentation programs, as well as developing new 
technologies to improve homeland security. And I understand 
that DHS officials recently visited the campus to develop and 
coordinate the next round of research projects which can flow 
into these master degree programs. How can DHS continue to be 
supportive of this initiative?
    Secretary Napolitano. Well I think, in part, by what we 
have already done, by also looking for other opportunities. One 
of the things that we are going to need as a country is an 
educated cadre of individuals who really know about homeland 
security, have thought about it. I mean the people who are 
working in our Department now aren't going to be there for 
forever, so it is going to be a useful investment for us to be 
working with our institutions of higher learning on useful 
curricula and training for the next wave of potential 
specialists.

                       STATE DEPARTMENT PROGRAMS

    Mr. Farr. I appreciate that. I think your leadership is 
going to be key, and I would hope that sometime you can share 
with Secretary Clinton--we have created within the State 
Department a whole new Center for Postconflict Security, 
Stabilization and Reconstruction. And the idea is to use State 
Department U.S. AID and then have a Federal Reserve Corps, so 
to speak, of Federal employees and Reserve Corps of State and 
local employees who have the expertise to go overseas to sort 
of a special ops group; but in this case, these are civilians 
who can work with their civilian counterparts and hopefully 
have linguistic or cultural or area studies that would be 
useful. It seems to me it is the next way, for once we develop 
these folks in our country and, you know, from your own State, 
the retired judges and sheriffs and others who can speak 
Spanish or other languages, who might be just perfect in 
retirement or thinking about, you know, where the next step is 
to link them up with the State Department program. And I think 
there is the graduation from homeland security at home to 
international security abroad.
    Secretary Napolitano. It is an interesting thought. Let me 
take a look at that as well.
    Mr. Farr. Do I have any time left?
    Mr. Price. Gentleman's time has just expired.
    Mr. Farr. I have got one more question.

                         STAFFORD ACT DISASTERS

    Mr. Price. We will have a very brief third round. I do want 
to respect the Secretary's time. I know you need to leave at 
3:30 we will all be very brief and efficient here in our third 
final round of questioning, starting with myself.
    I want to turn a question that I suppose comes up every 
time you have a hearing, so we don't want this to be any 
different. And that is the question of the status of FEMA 
within the Department. I am on the record some years ago as 
voting not to make FEMA part of this Department. That doesn't 
mean that I believe now that it is feasible or desirable to 
unscramble the eggs, so to speak. I believe that, in fact, 
there are very good reasons not to subject FEMA to yet another 
reorganization and to yet more organizational uncertainty. And 
so I am hopeful that we will leave FEMA where it is and make it 
work. I think that is the main question. It is not the main 
question whether FEMA is in or out; it is whether the agency 
works well.
    And as far as that goes historically, you can demonstrate 
that during certain parts of its history that FEMA was an 
independent agency, didn't work all that well as an independent 
agency. What happened in the nineties was the Clinton 
administration made it work very well. But as I said, the 
question is making the agency work wherever it is.
    Now, there are some continuing issues with regard to FEMA's 
integration within your Department and the tug-of-war that we 
have seen between incident management and emergency management 
and who is the chief Federal officer in charge after disasters, 
all of that is indicative, I think, of some continuing 
uncertainty here or some continuing debate.
    Who is the principal Federal official after a major 
disaster? There was some uncertainty about that after Hurricane 
Katrina and after other disasters.
    Emergency managers have sometimes complained bitterly that 
PFOs, the Principal Federal Position in a post, can muddle the 
chain of command in the field, and that FEMA statutorily 
required Federal coordinating officers have always been the 
point of contact in the field for States and should remain so. 
You probably have some experience with that as a Governor.
    You probably also know that this Subcommittee had an 
ongoing discussion with your predecessor about this very issue, 
and partly as a result of that, we have carried a prohibition 
on designating PFOs during a Stafford Act declared disaster in 
the last two appropriations bills to deal with the issue.
    So one question I would like for you to clarify is whether 
you agree for Stafford Act disasters, FEMA should lead the 
Federal response, pure and simple? And then I guess there are 
some other somewhat more complicated disasters where there has 
been some debate and some uncertainty, and I wonder what you 
think there. Are there other disasters and incidents you can 
identify where FEMA shouldn't serve as the lead Federal 
response agency?
    Secretary Napolitano. Well, thank you, Mr. Chairman. Yes, 
for your general Stafford Act disaster, FEMA should be the lead 
agency. We have had several natural disasters already since I 
have served as Secretary, actually quite a few, and we are 
heading now into hurricane season. I am hopeful that the FEMA 
Administrator will be confirmed shortly.
    With respect to the amendment or rider, whatever you call 
it, in appropriations bills that precludes, however, the 
appointment of other Principal Federal Officials, I would hope 
that the Committee would rethink that for the following reason 
with the following example. It is too broad a prohibition. And 
the example is what we need to do now in the wake of the H1N1 
outbreak. We really need to do quite a bit of work over this 
summer with respect to looking at what states and locals have 
done with respect to further training, with making things more 
robust, working, for example, with school districts across the 
country, should the H1N1 rebound and come back in a more lethal 
form.
    To do that it would be very helpful to have regional PFOs 
designated to work to coordinate that training in different 
places around the country. So I hope that over the course of 
this budget negotiation and discussion, we can ask Members of 
Congress to revisit that particular issue.
    Mr. Price. Well, we certainly will want to look at that 
with you. We are looking for language. We will put it in the 
record at this point.
    [The information follows:]

    From 2009 P.L. 110-329:

    Sec. 526. None of the funds provided by this or previous 
appropriations Acts shall be used to fund any position 
designated as a Principal Federal Official for any Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (42 
U.S.C. 5121 et seq.) declared disasters or emergencies.

    Mr. Price. Let me say that this language was very carefully 
worked out and it was narrowed a good deal in the course of the 
discussion and dialogue back and forth. Certainly, we will 
put----
    Secretary Napolitano. We will work on that with you, Mr. 
Chairman.
    Mr. Price. We agree on the Stafford Act disasters. The 
question is, what is the desired organization of the response 
to more complicated disasters that go beyond those parameters? 
And we certainly want to work this out. We don't want to--we 
want to respond to these disasters effectively, but at the same 
time we don't want to compromise FEMA's authority or the kind 
of relationship that our State and local officials have had 
with FEMA and knowing where to turn in short order when a 
disaster occurs.
    Secretary Napolitano. I think the issue going forward needs 
to be not immediate response. I think those chains of command 
are very clear. I think the issue is the long-term recovery 
issue, and that is where Katrina got so complicated. In fact, 
one of the things I did was eliminate one of those offices, an 
entire level of bureaucracy between claimants and getting 
claims paid in the Katrina situation. But, Mr. Chairman, in 
light of the time, we will work with you on this issue.
    Mr. Price. Thank you. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. And I have really 
enjoyed being with you, Mrs. Napolitano, and I wish you well in 
your job, Madam Secretary.
    Secretary Napolitano. Thank you, sir.

                 MANAGEMENT INCREASES IN BUDGET REQUEST

    Mr. Carter. Couple of questions I want to ask you about.
    You have got about a 30 percent increase in the Office of 
the Secretary and a 76 percent increase in the Office of Under 
Secretary for Management, which I think Mr. Lewis brought up; 
$220 million for the consolidation of electronic data, and you 
explained that.
    But then at the operational level we have gone from 2,500 
authorized additional Border Patrol in 2009 to 44 in 2010; and 
1,300 in 2009 of CBP officers to 65 in fiscal year 2010. So it 
looks like this budget seems to lean more towards the 
administrative than the boots on the ground, and everybody 
acknowledges that boots on the ground is the solution to the 
problem. I just wanted to know what the curiosity was on the 
heavy load on the management side.
    Secretary Napolitano. I think if you are actually, 
Congressman, if you actually look at the budget as a whole in 
terms of everything that is funded and how it all fits 
together, that would not be a correct categorization of the 
budget.
    It funds the Border Patrol at the level that Congress says 
they want to get the Border Patrol to. CBP, as well, has great 
increases for technology and other supports to that manpower 
which makes them much more effective for the man-hours that 
they do have on the border.
    So, as I said, it is not just your boots on the ground. 
That is step one. Then you have to have the technology and the 
technical infrastructure. That is the system. Then you have to 
have the interior enforcement backing them up.
    With respect to how management looks, really what we are 
doing is now building the ribs of the Department. This 
Department was kind of put together in a hurry, but now we are 
in the process of creating one Department of Homeland Security. 
So we have moved money that previously had been at CBP and some 
of the components into one headquarters. We have moved money 
that previously had been in the components to move from 35 
different locations into far fewer locations, which I have got 
to say from a management standpoint is going to be inordinately 
helpful and cheaper over the next several years.
    And I ought to explain that the issue with the IT and the 
infrastructure of the Department was diverse, and the moneys 
for that were spread all over the Department. It looks like a 
big increase to admin when you put them all in one place. In 
actuality, we create a lot more efficiencies by doing that.
    Mr. Carter. This work you are doing on management, which I 
am glad you clarified that--thank you for clarifying it--will 
that assist us? We seem to constantly be having somebody come 
in here to testify in the last week before they leave again. I 
bet there must have been a dozen people who testified over the 
4 years I have been on this committee that were leaving right 
after that testimony. Will this help us retain some of those 
people if we get a better, more efficient management structure?
    Secretary Napolitano. I hope so.

                          SOUTHBOUND CHECKING

    Mr. Carter. I hope so, too. Finally, right now I understand 
from talking to some of the Border Patrol people down in 
Laredo, when we are checking for guns and money going out----
    Secretary Napolitano. South.
    Mr. Carter. South. Our machine is set up--and I am talking 
about on trains--our machine is set to get things coming in, 
okay. To test going out, we just reverse the machine. We don't 
move it. We just transfer it this way. But the issue is when 
they are running south, they almost immediately run into the 
Mexican jurisdiction. So if we recognize--in fact, they do 
immediately run into the Mexican jurisdiction in Laredo. So if 
we recognize guns or money inside a boxcar, it has got to be 
seized in Mexico.
    Are you aware of that? Because that is very inefficient 
from our guys' standpoint, because they don't know--all they 
can do is call them and say car number five has got guns and 
money in it, or whatever it has got in it. The Mexicans then do 
the seizing. The Mexicans, I guess, get the cash unless you all 
have got some deal that you have worked out to give us the 
cash, because I know my DA used to always want to get the cash.
    Secretary Napolitano. I understand that, yes.
    Mr. Carter. But I am just curious about that, because it is 
a little thing but it is really irritating to them because they 
are not in control of what they have identified.
    Secretary Napolitano. Congressman, this is why I like these 
hearings, because I hear about these things that I haven't 
heard about before. I will follow up on that. Prior to this 
initiative, we weren't doing any southbound checking. So, 
undoubtedly, some wrinkles to unwind.
    Mr. Carter. That is exactly what it is, a wrinkle.
    Secretary Napolitano. We will take a look at it.
    Mr. Price. All right. Thank you. Mr. Rodriguez.

                       POST DISASTER CONTRACTING

    Mr. Rodriguez. Thank you very much, and once again, thank 
you very much, and your success is going to be our success, so 
we wish you the best.
    But let me just bring up two quick issues. One--and this is 
not necessarily your agency or Homeland Security, but I had 
some figures for Armed Services and DOD, Department of Defense, 
where there was $300 billion overruns in contracts. And I would 
just ask you to look at FEMA and those contracts. Nothing is 
worse than to see a disaster and all of these people coming in, 
knowing full well they are sticking their hands out for getting 
contracts and looking at those disasters as a way of making 
money. And so we need to come to grips with that.
    I also saw the statistics that also show that since 2004 
not only are there overruns of over $300 billion in that one 
agency, but also in terms of--and that is DOD, not yours--and 
also in terms of the doubling of the time to complete the 
contracts.
    So I would hope our responsibility is oversight but that 
the agencies take the responsibility. And I know that you will 
do that, and especially on those contracts, and start doing the 
right thing.

                              BORDER FENCE

    Finally on the fence, we and the Chairman did some good 
language on that. Just to be practical in some of those 
situations, not to put a fence where it is going to create a 
problem for us in terms of flooding, and endanger not only our 
communities but others and create a problem for us, the 
importance of reaching out to our constituencies.
    And I still recall the comments from the Chief of Border 
Patrol that says the fence is only as good as the amount of 
time that allows that individual to capture someone. So that we 
have got to get smart about this. We have got to get practical 
and look at other forms of technology that might be more cost-
effective than to going that route. And so thank you for being 
here with us today.
    Secretary Napolitano. Thank you. Thank you, sir.
    Mr. Price. Thank you. Mr. Farr.

                       PORTS OF ENTRY FACILITIES

    Mr. Farr. Thank you very much, Mr. Chairman. Thank you for 
having this hearing. It is a long one, but it is a huge 
Department and a a lot of issues there.
    One of the issues I would like to bring out is sort the 
image of America when you arrive here and what you have to go 
through at the small ports of entry idea, and the fact that 
declining international travel to the United States where we 
had been--international travelers consider the United States to 
have the world's worst entry process due to poor and rude 
treatment at ports of entry.
    What I was thinking when I went out to Dulles Airport, 
where we were bragging about these smaller ports of entry, 
first of all, it is ugly. It does not feel like welcome to 
America. And the structure is not under your jurisdiction, but 
the personnel inside of it are yours. And again, in working 
with the Secretary of State to see if we could--we have put a 
lot of effort into making sure our Embassies are beautiful 
places when people visit them. There is art in there and there 
is sculpture. There are other things. There are things I think 
we can--at least posters and pictures of America welcoming 
people to this land.
    The irony of an Embassy is you can't get in unless you are 
a VIP, because they are all fenced around; but ports of entry 
are supposed to be the friendly welcoming to America.
    I think the problem is also that when we are changing 
policy, why they feel that they are treated rudely is the visa 
has been given by State Department overseas in the host 
country. They arrive here and the protocols they have to go 
through are Immigration and Customs. And oftentimes, the 
officers are saying, well, we have changed this or that, that 
the incoming passenger has no idea.
    And maybe you can get the Embassies and consulates to issue 
what the procedure is when they are going to arrive in the 
United States, what they are going to have to expect and go 
through, so that if there are changes in protocol, that you 
want the arriving traveler to know that we could give them out 
when we give them the visa.
    So I hope that you can look into this. I am chair of the 
Traveling Tourism Caucus, and there is just a lot of concerns 
about, and I find it--I mean, there are other countries you go 
to and it is just that first impression, the look, and you feel 
really good and comfortable. And if our our model entry, and 
the Dulles airport is one of them, it is a scary operation.

               U.S. CITIZENSHIP AND IMMIGRATION SERVICES

    The other issue that I wanted to talk to you about was that 
we have a Citizenship and Immigration Service office in San 
Jose. It is a sub-office. It is 100 miles and over an hour to 
get there from the Salinas Valley where we have probably the 
most at-risk kind of people living. When they are not in the 
Simi Valley, they are down in Yuma, in your old territory, but 
a lot of those growers are from my district.
    And we did have a mobile outreach office that came down to 
answer questions. DHS did away with that. I remember changing 
from the old disaster assistance centers, where we used to set 
these up after a President declared disasters, to a 
registration by phone. Could we do that? Could we look into 
doing that registration by phone or at least a process to 
answer questions? Once you have sent your application in for 
your change of status or your citizenship issues, could we have 
a system where people do not have to go all the way to San Jose 
when there are questions that they could phone in?
    I understand that there is an answering machine that 
answers questions, but it doesn't answer specific questions 
about the casework. And I just thought, since you have done it 
with disasters, where you handle hundreds of different issues 
with thousands of different people, that perhaps the 
Immigration Service could look at some of that.

                    IMMIGRATION INTEGRATION PROGRAM

    And last comment I would like to make, I read about your 
immigration integration program, where you provide grants to 
community-based organizations for citizenship preparation 
programs for new citizens and for integration of new citizens. 
I have been doing a swearing-in ceremony every year around the 
Fourth of July, and we call it Proud to be an American Day. I 
get more publicity on that event than on anything I have ever 
done in Congress, because of the stories of all the people that 
are becoming citizens. There is no funding for that.
    There ought to be for the whole country, to encourage 
communities to put on these ceremonies so that new citizens 
don't have to travel to the capital cities where the Federal 
offices are. The nice thing about doing it in your community, 
one, is that it makes the community realize what becoming an 
American citizen is all about.
    Secondly, it allows the community to say, ``thank you for 
doing this''. It is wonderful to do it around the Fourth of 
July.
    And third, it allows those people getting sworn in to bring 
their families, relatives, and workplace partners who can come 
and see them, rather than having to take a day off and drive 
100 miles to get sworn in.
    So I think your immigration integration program is very 
smart. I just hope we can take it one step further to the 
swearing-in ceremonies as well.
    Secretary Napolitano. I can take a look at that, yes.
    Mr. Farr. Thank you. How about the ports of entry? Can you 
take a look at that one, too?
    Secretary Napolitano. Yes. You are not the first person 
that has raised that particular issue with me, and I understand 
the concerns. So, yes, we will take a look at that.
    Mr. Farr. We just don't want to be recognized in the world 
as the worst place to come to. That is just unacceptable.
    Mr. Price. Thank you. I want to thank all members for a 
good hearing with lots of participation. And Madam Secretary, 
we appreciate you coming at this point when we are all busy, 
but nothing is more important than getting your take on this 
budget proposal as we prepare to write this bill. So we thank 
you for your good work and for all the things you have done in 
a short period of time already. Look forward to this being a 
long relationship where we work together productively.
    Secretary Napolitano. Thank you. Thank you, Chairman. Thank 
you, Members.
    Mr. Price. Thank you very much. The Subcommittee is 
adjourned.

[GRAPHIC] [TIFF OMITTED] T2999A.028

[GRAPHIC] [TIFF OMITTED] T2999A.029

[GRAPHIC] [TIFF OMITTED] T2999A.030

[GRAPHIC] [TIFF OMITTED] T2999A.031

[GRAPHIC] [TIFF OMITTED] T2999A.032

[GRAPHIC] [TIFF OMITTED] T2999A.033

[GRAPHIC] [TIFF OMITTED] T2999A.034

[GRAPHIC] [TIFF OMITTED] T2999A.035

[GRAPHIC] [TIFF OMITTED] T2999A.036

[GRAPHIC] [TIFF OMITTED] T2999A.037

[GRAPHIC] [TIFF OMITTED] T2999A.038

[GRAPHIC] [TIFF OMITTED] T2999A.039

[GRAPHIC] [TIFF OMITTED] T2999A.040

[GRAPHIC] [TIFF OMITTED] T2999A.041

[GRAPHIC] [TIFF OMITTED] T2999A.042

[GRAPHIC] [TIFF OMITTED] T2999A.043

[GRAPHIC] [TIFF OMITTED] T2999A.044

[GRAPHIC] [TIFF OMITTED] T2999A.045

[GRAPHIC] [TIFF OMITTED] T2999A.046

[GRAPHIC] [TIFF OMITTED] T2999A.047

[GRAPHIC] [TIFF OMITTED] T2999A.048

[GRAPHIC] [TIFF OMITTED] T2999A.049

[GRAPHIC] [TIFF OMITTED] T2999A.050

[GRAPHIC] [TIFF OMITTED] T2999A.051

[GRAPHIC] [TIFF OMITTED] T2999A.052

[GRAPHIC] [TIFF OMITTED] T2999A.053

[GRAPHIC] [TIFF OMITTED] T2999A.054

[GRAPHIC] [TIFF OMITTED] T2999A.055

[GRAPHIC] [TIFF OMITTED] T2999A.056

[GRAPHIC] [TIFF OMITTED] T2999A.057

[GRAPHIC] [TIFF OMITTED] T2999A.058

[GRAPHIC] [TIFF OMITTED] T2999A.059

[GRAPHIC] [TIFF OMITTED] T2999A.060

[GRAPHIC] [TIFF OMITTED] T2999A.061

[GRAPHIC] [TIFF OMITTED] T2999A.062

[GRAPHIC] [TIFF OMITTED] T2999A.063

[GRAPHIC] [TIFF OMITTED] T2999A.064

[GRAPHIC] [TIFF OMITTED] T2999A.065

[GRAPHIC] [TIFF OMITTED] T2999A.066

[GRAPHIC] [TIFF OMITTED] T2999A.067

[GRAPHIC] [TIFF OMITTED] T2999A.068

[GRAPHIC] [TIFF OMITTED] T2999A.069

[GRAPHIC] [TIFF OMITTED] T2999A.070

[GRAPHIC] [TIFF OMITTED] T2999A.071

[GRAPHIC] [TIFF OMITTED] T2999A.072

[GRAPHIC] [TIFF OMITTED] T2999A.073

[GRAPHIC] [TIFF OMITTED] T2999A.074

[GRAPHIC] [TIFF OMITTED] T2999A.075

[GRAPHIC] [TIFF OMITTED] T2999A.076

[GRAPHIC] [TIFF OMITTED] T2999A.077

[GRAPHIC] [TIFF OMITTED] T2999A.078

[GRAPHIC] [TIFF OMITTED] T2999A.079

[GRAPHIC] [TIFF OMITTED] T2999A.080

[GRAPHIC] [TIFF OMITTED] T2999A.081

[GRAPHIC] [TIFF OMITTED] T2999A.082

[GRAPHIC] [TIFF OMITTED] T2999A.083

[GRAPHIC] [TIFF OMITTED] T2999A.084

[GRAPHIC] [TIFF OMITTED] T2999A.085

[GRAPHIC] [TIFF OMITTED] T2999A.086

[GRAPHIC] [TIFF OMITTED] T2999A.087

[GRAPHIC] [TIFF OMITTED] T2999A.088

[GRAPHIC] [TIFF OMITTED] T2999A.089

[GRAPHIC] [TIFF OMITTED] T2999A.090

[GRAPHIC] [TIFF OMITTED] T2999A.091

[GRAPHIC] [TIFF OMITTED] T2999A.092

[GRAPHIC] [TIFF OMITTED] T2999A.093

[GRAPHIC] [TIFF OMITTED] T2999A.094

[GRAPHIC] [TIFF OMITTED] T2999A.095

[GRAPHIC] [TIFF OMITTED] T2999A.096

[GRAPHIC] [TIFF OMITTED] T2999A.097

[GRAPHIC] [TIFF OMITTED] T2999A.098

[GRAPHIC] [TIFF OMITTED] T2999A.099

[GRAPHIC] [TIFF OMITTED] T2999A.100

[GRAPHIC] [TIFF OMITTED] T2999A.101

[GRAPHIC] [TIFF OMITTED] T2999A.102

[GRAPHIC] [TIFF OMITTED] T2999A.103

[GRAPHIC] [TIFF OMITTED] T2999A.104

[GRAPHIC] [TIFF OMITTED] T2999A.105

[GRAPHIC] [TIFF OMITTED] T2999A.106

[GRAPHIC] [TIFF OMITTED] T2999A.107

[GRAPHIC] [TIFF OMITTED] T2999A.108

[GRAPHIC] [TIFF OMITTED] T2999A.109

[GRAPHIC] [TIFF OMITTED] T2999A.110

[GRAPHIC] [TIFF OMITTED] T2999A.111

[GRAPHIC] [TIFF OMITTED] T2999A.112

[GRAPHIC] [TIFF OMITTED] T2999A.113

[GRAPHIC] [TIFF OMITTED] T2999A.114

[GRAPHIC] [TIFF OMITTED] T2999A.115

[GRAPHIC] [TIFF OMITTED] T2999A.116

[GRAPHIC] [TIFF OMITTED] T2999A.117

[GRAPHIC] [TIFF OMITTED] T2999A.118

[GRAPHIC] [TIFF OMITTED] T2999A.119

                                           Tuesday, March 10, 2009.

          SECURE BORDER INITIATIVE AND CONTROL OF LAND BORDER

                               WITNESSES

JAYSON AHERN, ACTING COMMISSIONER UNITED STATES CUSTOMS AND BORDER 
    PROTECTION, DEPARTMENT OF HOMELAND SECURITY
DAVID AGUILAR, U.S. BORDER PATROL CHIEF
MARK BORKOWSKI, EXECUTIVE DIRECTOR, SECURE BORDER INITIATIVE.

                  Opening Statement by Chairman Price

    Mr. Price. The Subcommittee will come to order. Good 
morning everyone. We are happy to have witnesses here to 
discuss with us the Secure Border Initiative, and then in a 
second panel, the Homeland Security Department's response to 
violence on our border with Mexico. $3.6 billion, that is what 
Congress provided in the past 3 years to the border security 
fencing infrastructure and technology account, BSFIT, targeted 
at securing about 6,000 miles of land borders as part of the 
Secure Border Initiative. SBI, originally intended as a 
coordinated effort as broader investment, interior immigration 
enforcement and immigration reform, has tilted toward 
enforcement and physical barriers between the land ports of 
entry on the southwest border. As a result, BSFIT has taken 
prior border control attempts to new and more expensive levels.
    Today we want to take stock of this progress. How is it 
progressing? Is it working? Are we spending enough or too much, 
or are we spending our dollars in the right way? On one hand, 
DHS reports that it has ``effective control,'' meaning it can 
detect and respond to most illegal entries on over 31 percent 
of the Southwest border. That is up 12 percent--that is up from 
12 percent in 2005. Apprehensions are lower in most places. But 
it is unclear how much of that is attributable to BSFIT 
investment and staffing and how much is attributable simply to 
a weaker economy on our side.
    And the San Diego sector with the most robust 
infrastructure and substantial agent presence actually recorded 
increased apprehensions last year. So the picture is somewhat 
mixed. Anecdotally we hear that the impact of the new 
infrastructure is not clear with breaches and invasion of 
barriers continuing. Up north is a different story. DHS lacks 
effective control over 99 percent of our 4,000 mile border with 
Canada. I am pleased with progress in placing agents on the 
northern border, but remain concerned that BSFIT investment has 
largely bypassed the north. And we hope to hear today about the 
status of the northern border project that was funded in fiscal 
2007. Border patrol and field operations are experiencing 
historic increases in their numbers, but many are in the 
pipeline, in training or otherwise not deployed.
    And a year after the National Guard ended Operation Jump 
Start, there is a vacuum in operational support there that CBP 
has been unable to fill. Do we have boots on the ground that we 
all agree are the most important ingredient for border 
security? Initially BSFIT targeted technology to leverage 
border security. However, its spending now does not reflect 
such an emphasis with over $2 billion, 55 percent, going to 
pedestrian fencing, vehicle barriers and roads. At this time, 
about 600 miles of 670 planned for construction has been built 
or is under construction. The remainder, chiefly in the lower 
Rio Grande Valley in Texas is delayed owing to technical, 
economic or legal obstacles.
    I expect to hear from our witnesses today about the cost of 
the fence, prospects for its completion, the impact it has and 
is likely to have on operational control of the border and how 
the Department is meeting the requirements for consultation, 
for minimizing environmental and community impacts of 
construction of the fence. SBI technology has taken a more 
deliberate path. While we have not seen Department plans for 
the $100 million provided in the American Recovery and 
Reinvestment Act, I look forward to hearing the current plans 
for testing and deployment of technology solutions intended for 
the Arizona border and the plans for the remainder of this 
year. To address these issues, we welcome Deputy Commissioner 
Jayson Ahern, the Acting Commissioner of U.S. Customs and 
Border Protection, to testify on the Secure Border Initiative 
and its impact on gaining control over the physical borders of 
this country. Accompanying him are U.S. Border Patrol Chief 
David Aguilar and Mr. Mark Borkowski, Executive Director of the 
Secure Border Initiative. While any discussion of border 
security would naturally turn to the instability and increased 
criminal violence in northern Mexico, I would ask Members to 
defer questions regarding that for our second panel devoted to 
that topic immediately following this panel.
    So, gentlemen, we look forward to your testimony, look 
forward to a thorough discussion of how BSFIT and border patrol 
deployments have improved border security and the challenges 
ahead as we strive to find an effective approach to control our 
borders. Let me now turn to our distinguished Ranking Member, 
Mr. Rogers, for his comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.120
    
    [GRAPHIC] [TIFF OMITTED] T2999A.121
    
    [GRAPHIC] [TIFF OMITTED] T2999A.122
    
                    Opening Statement by Mr. Rogers

    Mr. Rogers. Well, thank you, Mr. Chairman. Welcome to our 
distinguished panel. As we discuss the effectiveness of the 
Secure Border Initiative during this first panel and the 
Mexican drug war during the second, I think its important that 
we keep in mind the big picture at what is at stake here; no 
less than our Nation's sovereignty and the unquestionably 
urgent need for robust border security. We must not forget that 
after 9/11, there was universal recognition for the need to 
gain control of our borders and protect the Nation from 
dangerous people and dangerous goods. And with the creation of 
CBP, we established a unified front line border security agency 
to carry out this vital chore. Simply put, CBP serves as our 
Nation's filter letting in legitimate travel and trade while 
keeping out all forms of contraband from WMD and terrorists to 
illegal drugs, illegal aliens, counterfeit goods, even 
agricultural hazards. So I think it is obvious that this 
mission is as important today, if not more so, than it was 
right after 9/11. Failure is not an option.
    It has now been just over three years since the SBI was 
launched, 3 years and billions upon billions of dollars. And 
over this period with these sizable funds we have made some 
significant progress; doubling the size of the border patrol to 
now more than 18,000 agents, expanding the CBP officer 
workforce to more than 20,000 officers, ending the flawed 
practice of catch and release, constructing over 600 miles of 
pedestrian and vehicular fencing along some of the most 
frequently traversed sections of our southwest border, and 
improved performance marked by notable drug seizures and a 
steady decline in apprehensions of illegal aliens along the 
border.
    Positive steps for sure, but perhaps not nearly enough when 
we consider the unacceptable delays in the development of the 
SBInet technology system against a backdrop of intensifying 
threats, threats that include, but are not limited to, this 
bloody turf war between Mexico's drug cartels, a war that is 
responsible for some 7,000 murders since the beginning of last 
year. Sprawling cross-border criminal enterprises, exploiting 
the flow of illegal weapons and bulk cash and the evils of 
human trafficking and vile drugs, travel of known and suspected 
terrorists along our northern border, and increasingly 
innovative smuggling techniques ranging from sophisticated 
underground tunnels to advanced semi-submersible maritime 
craft, to hidden compartments in vehicles, to devious attempts 
at corrupting legitimate modes of cargo conveyance.
    The complexity and cutthroat nature of these tactics speak 
to the challenges that you face, but they also tell me you are 
actually making a real dent in the smugglers' operations. So 
now that you have made some progress, and gotten these thugs' 
attention, I must ask all of you, what are you prepared to do 
now? Are you prepared to follow through on the needed fencing, 
fix the problems with SBInet and get serious about deploying 
the tools your agents in the field so desperately need to not 
only sustain this border security fight but to actually win it?
    Well, from where I sit here, there is no question, there is 
no debate. A sovereign nation has effective control of its 
borders, and that is the standard we are duty bound to uphold. 
I can assure all of you this subcommittee is absolutely 
committed to doing all that is necessary to ensure CBP has the 
tools it needs to facilitate the legitimate trade that our 
economy thrives on while also stopping the threats we can't 
allow to penetrate into our country. I want to thank the 
witnesses for appearing today. We look forward to discussion.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.123
    
    [GRAPHIC] [TIFF OMITTED] T2999A.124
    
    [GRAPHIC] [TIFF OMITTED] T2999A.125
    
    Mr. Price. Mr. Ahern, we will be happy to insert your full 
statement into the hearing record, but we would appreciate a 
five minutes or so oral presentation to get us started.

                     Opening Statement of Mr. Ahern

    Mr. Ahern. Very good. Chairman Price, Ranking Member 
Rogers, Members of the Subcommittee, we will be doing one 
statement for both this panel and also for the second panel. 
Thank you for the opportunity to discuss CBP's efforts to 
secure our borders. I look forward to joining our sister agency 
Immigration and Customs Enforcement and my DHS colleague on the 
second panel to discuss the current situation on our southwest 
border with Mexico. With me today is David Aguilar, Chief of 
the Border Patrol, and Mark Borkowski, the Executive Director 
of the Secure Border Initiative. I would like to first begin by 
saying that every investment we make in Customs and Border 
Protection is to protect our Nation against a variety of 
threats. And for that reason, we are very grateful for the $680 
million provided to CBP in the economic stimulus package, along 
with $300 million that went to GSA for land ports of entry. We 
appreciate your strong support and continued support and will 
certainly make sure we put this money to good use by improving 
our aging infrastructure, as well as adding the technology 
needed at our borders.
    Over the past few years we have made tremendous strides in 
securing both our southern and our northern borders through the 
deployment of personnel, technology, as well as tactical 
infrastructure. It is clear that our Secretary, Janet 
Napolitano, is extremely supportive of our efforts. Along our 
Southwest border, we completed 610 miles of fencing where 
border patrol determined it was an operational requirement. But 
we are not only just building fence, we are deploying 
technology through the SBInet program, we are currently 
completing engineering assessments, which we are conducting 
with the appropriate rigor and deliberation. And once we are 
satisfied we will begin to deploy technology in the first of 
two projects that will cover 53 miles in Arizona. And it's 
important to note that our agents, who will actually be using 
the technology, have been--and will continue to be--fully 
engaged in this process. We are testing the technological 
solutions in both a laboratory and a field environment before 
full deployment to ensure that we make wise investments and 
will meet our operational needs.
    A couple of weeks I, personally, along with the Chief, 
visited our testing facilities supplies to Mexico to see 
firsthand our progress. At the same time, we are rolling out 
these systems in Arizona we have also deployed 40 mobile 
surveillance systems that provide more immediate radar and 
camera surveillance coverage along our borders, and we are 
currently developing plans for additional MSS deployments 
elsewhere. We also have 272 remote video surveillance systems 
in place, over 9,707 ground surveillance and ground sensor 
systems, as well as five unmanned aerial systems on the 
southern border, one of which is also on the northern border.
    So you can see it is a variety of technological solutions 
we have employed, not just one. The investments in 
infrastructure and technology are an important component to our 
boots on the ground, and we thank the Committee for supporting 
the hiring of more border patrol agents. We currently do have 
18,566 border patrol agents on board and will have over 20,000 
by the end of the fiscal year. With respect to the northern 
border we have been approaching challenges to our north in a 
thoughtful and systematic way.
    In 2008, we opened our fifth air wing location on the 
northern border, and just last month we deployed our first UAS 
on the northern border in Grand Forks, North Dakota. Also the 
fiscal year 2008 and 2009 appropriations provided funds for 11 
marine units, six of which are on the northern border. And 
later this spring, we plan to deploy additional camera systems 
along the northern border locations in Detroit, as well as in 
Swanton, Buffalo and will continue to make further deployments 
once we have stabilized going forward.
    I think it is also important to talk about our continued 
partnership with our other law enforcement partners both in the 
United States and Canada through the IBETs, as well as through 
our collaborative efforts with ICE through the best of the 
border's enforcement security task forces. Now, to talk about 
some of the issues on the Southwest border, it certainly is a 
fact of life that our officers and our Border Patrol agents 
deal with border related violence and encounter drug 
traffickers on a daily basis. In terms of drug trends I think 
it is important just to give you an indicator. Year to date 
there has been a 47 percent increase for marijuana seized by 
the Border Patrol, over 1.1 million pounds. At the ports of 
entry, cocaine seizures are up 119 percent. However, I think 
important and very notable to make this Subcommittee aware of, 
are the coordinated efforts that we are seeing in the transit 
zone.
    Certainly as far as to highlight a series of days that 
actually occurred in the first part of January, our P-3 
aircraft working in coordinated effort with the JIATF South 
folks with the Coast Guard, as well as the Navy, coordinated 
the interdiction of 25 metric tons of cocaine carried by semi-
submersible, self-propelled semi-submersible submarines heading 
towards the coast of Mexico. The point of that is that is an 
opportunity for us to take larger quantities down through our 
coordinated efforts in the transit zone. We are also seeing 
that our enforcement efforts are frustrating drug traffickers 
and as a result are becoming much more violent.
    When we talk about violence, I think it is important to 
make a distinction, the violence we are seeing on our agents 
and officers, the rockings, the vehicle assaults, the physical 
assaults and gun attacks and the gang and the cartel violence 
that is occurring in Mexico. This fiscal year alone we have had 
327 incidents of violence against our officers and agents, 204 
against the Border Patrol agents and 123 assaults at our ports 
of entry. Additionally, in 2008 reporting indicates that, as 
you mentioned, Ranking Member Rogers, close to 7,000 deaths in 
Mexico have occurred. So far that kind of violence has been 
contained in Mexico, but we certainly do not want to see it 
spill over into the United States.
    And to that end, we have developed very detailed 
contingency plans to maintain control of the border as we move 
forward. While in recent years, we have certainly focused on 
threats coming into the United States, Secretary Napolitano has 
made it clear that southbound enforcement, keeping guns and 
money out of the hand of criminals in Mexico will be a priority 
to us. To this end, we will dedicate additional personnel and 
technology to combat this threat and we are finalizing on hands 
operational plans at this time.
    Again, Mr. Chairman, other members of this Subcommittee, I 
thank you for allowing us to testify today and will look 
forward to answering your questions about both topics today.
    Mr. Price. Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.126
    
    [GRAPHIC] [TIFF OMITTED] T2999A.127
    
    [GRAPHIC] [TIFF OMITTED] T2999A.128
    
    [GRAPHIC] [TIFF OMITTED] T2999A.129
    
    [GRAPHIC] [TIFF OMITTED] T2999A.130
    
    [GRAPHIC] [TIFF OMITTED] T2999A.131
    
    [GRAPHIC] [TIFF OMITTED] T2999A.132
    
    [GRAPHIC] [TIFF OMITTED] T2999A.133
    
    [GRAPHIC] [TIFF OMITTED] T2999A.134
    
    [GRAPHIC] [TIFF OMITTED] T2999A.135
    
    [GRAPHIC] [TIFF OMITTED] T2999A.136
    
    [GRAPHIC] [TIFF OMITTED] T2999A.137
    
              OPERATIONAL CONTROL VERSUS EFFECTIVE CONTROL

    Mr. Price. And thanks to all of you for being here. Let me 
start us off by asking some questions about the term of art 
that you used to describe the results of our efforts, namely 
operational control, exactly what the projections are and how 
that is achieved in terms of infrastructure. Operational 
control is a key measure of SBI effectiveness. As I understand 
it, DHS assigns four levels of control ranging from ``remote 
low activity'' for the lowest level of control to ``effective 
control,'' the level of which CBP can generally detect and 
appropriately respond to and resolve illegal entry. Such 
control also entails being able to achieve what you call 
persistent impedance of illegal crossing.
    DHS reports that between October of 2005 and October of 
2008, the percentage of the Southwest border miles under 
effective control grew from 12 percent to 31 percent. That is 
625 miles, almost a third of the border. Mr. Ahern or Mr. 
Aguilar, I would appreciate your bringing us up to date on that 
figure so far in fiscal 2009. Also, how does that relate to the 
construction of fencing? We ask on this Subcommittee, as you 
well know, for an expenditure plan and some detailed 
justifications for the fence construction that you had 
projected. We caught a little flak for that, but as a matter of 
fact, it was nothing less than we would ask of any major 
governmental expenditure.
    And the Department worked with us cooperatively in 
providing detailed information segment-by-segment on the plans 
for fence construction. We were puzzled at the time because for 
at least 25 segments of the border, for which border fencing 
was proposed, you described those segments as already being 
under, ``effective control.'' However, the argument we 
understood was that to sustain this without a physical fence 
could require increases, maybe vast increases in border patrol 
deployments.
    Now, this raised the question whether we were maybe skewing 
too much toward a physical fence, a physical infrastructure as 
the way to deal with this problem as opposed to a mixture of 
approaches. So in the context that you said this morning, I 
would like to hear you reflect on that. There, of course, is an 
uncanny resemblance between the number of miles you describe as 
being under ``effective control'' and the number of miles of 
fence that we have constructed. But I gather you are not 
necessarily arguing for a 1-to-1 equivalence. Does ``effective 
control'' mean something more or different from an area with 
physical infrastructure? After all, you described early on 
areas without fencing as a number of them as being under 
``effective control.'' If it is not a 1-to-1 equivalence, how 
much of the improvement and security is due to more 
infrastructure? How much ``effective control'' on the other 
hand is due to additional or more mobile or better coordinated 
Border Patrol agents?
    Are you, in fact, redeploying agents that are freed up by 
the construction of new fencing to achieve ``effective 
control'' in nonfenced areas? So bring us up to date on the 
``effective control'' mileage, if you will, but also help us 
understand the kinds of infrastructure that are relevant to 
achieving ``effective control.''
    Mr. Ahern. Thank you very much. I will just give a very 
broad overview, then I will ask the Chief of the Border Patrol 
to give a more specific detailed answer to you. But I think 
certainly, as I believe we have made significant attempts to 
explain to this Subcommittee and others, that the strategy is 
to make sure that we have a combination of personnel 
infrastructure and the technology. There is no single solution 
to gaining ``effective control'' in the operational 
environment. That is why it was essential for the national 
Chief of the Border Patrol to deal with the Southwest border 
sectors to have that mile-by-mile assessment done that led to a 
lot of the analysis of alternatives we did for this 
Subcommittee back in the fall of this year.
    But certainly as far as the types of fencing, whether it be 
pedestrian fence or vehicle fence, that was done based on 
assessments, again, based on smuggling patterns, based on what 
we saw from an intelligence perspective, and based on the 
experience of the individuals in those locations. And we have 
seen dramatic shifts for some of the patterns that have 
occurred. We can certainly speak to some of the numbers in the 
Yuma sector where we have seen just dramatic drops for the 
apprehension to that environment. It is significant. But 
clearly as far as the types of infrastructure, it does need to 
be complemented with people to be able to respond once we have 
actually slowed down some of these individuals that have been 
previously able to drive through our Nation's borders. That was 
unacceptable. And the technology to be able to spot this so we 
can have a more enhanced response time. So it is a 
complementary package in each one of these environments that 
needs to be assessed. One of the things that I don't believe we 
have done a good enough job on over the last couple of years is 
to express that it is not a single solution. It is not just 
fence, it is not just SBInet, it is not just more people. It 
has to be a well thought-out strategy that this Border Patrol 
and this Agency have put together. The Chief might like to go 
ahead and elaborate further.
    Chief Aguilar. Thank you, Mr. Chairman, for asking that 
question, because it always comes up and we always take the 
opportunity to explain in such a fashion that it makes sense, 
because we do need to be held accountable for the amounts of 
money that we are spending. One of the first things I would 
like to begin with is what ``effective control'' means. 
Effective control means giving our agency the ability to 
detect, deter, identify any kind of illegal incursion between 
our ports of entry. The ability to classify it, identify it, 
and bring it to some kind of resolution.
    Now, as the Acting Commissioner said, one of the things 
that comes into play is that each piece of the border, there is 
an enforcement model, if you will, that is designed by the 
chiefs that has ownership over that piece of the border that 
takes into account what it is that he or she needs in order to 
bring each one of those components to bear on the criminal 
organizations that are operating on our border. The term is 
``persistent impedance''. Persistent impedance refers to the 
outcome produced by some kind of barrier, whether it is 
pedestrian or vehicular barrier, that is placed only in those 
areas where the chiefs believe it is absolutely necessary. But 
that is only one piece of the enforcement model. Because along 
with that persistent impedance where it is required we need the 
right amount of personnel and the technology to give us that 
full enforcement model that then creates that capability for 
our people to keep those illegal incursions from happening.
    One of the things that you talked about in your opening 
statement, Mr. Chairman, was the fact that San Diego did see an 
increase last year. We fully expected that. The reason we 
expect that is because the cartels, which basically for the 
longest time in this country's history, basically felt as if 
they owned the border, they acted with impunity. Well, when we 
were slowly addressing in a post-9/11 world our border, we 
would address with either personnel a very small amount of 
technology and very small amount of tactical infrastructure. 
There would be a displacement within what they felt was a piece 
of border that they owned.
    Over the last 3 years, we have applied so much technology, 
so many personnel and tactical infrastructure that the 
displacement now is coming across several cartel areas of 
operation. That results in some of the infighting, some of the 
border violence that we are seeing. They are fighting for 
territory that they no longer operate with impunity.
    Today what we are seeing is, in the area of success, for 
example, we are seeing Ultralights flying over our fences and 
below our radars, our AMOC, trying to penetrate our forces. We 
have detected over 102 tunnels since 1990, 89 to 90 of them 
post-9/11, because of what we have added to the border. The 
personnel that we have added, all of these things have made a 
world of difference on our borders. The 25 segments that we 
talked about that were already under control, we fully expected 
and anticipated that as we gained control of these pieces of 
border, these parcels of border, there will be a back flow into 
some of these areas that were previously under control. That is 
the back flow that we are seeing now. But the chiefs have 
designed the number of personnel, the type and amount of 
tactical infrastructure and the technology that is coming, to 
give us that entire persistent impedance of any kind of flow 
that comes at our borders.

                       COST FOR EFFECTIVE CONTROL

    Mr. Price. Could you give us the figure, either you or Mr. 
Ahern, the estimated figure for ``effective control'' as of the 
end of this fiscal year and some indication of the extent to 
which that simply coincides with the amount of fence 
constructed? And I guess another way to ask the question would 
be are there areas where the fence has been constructed that 
you don't deem to be under ``effective control'' because of 
various evasive efforts?
    Chief Aguilar. Well, that is a very important question, 
because one of the things that the chiefs have termed now in 
the field is the fence that existed before we took on building 
the fence, the 660 miles of fence, was basically put together 
by the border patrol. We used to weld it ourselves, we used to 
put it up with landing mat fence and things of this nature. The 
designs that Mr. Borkowski are putting forth now are designs 
that stand up to what is coming across at us. Having said that, 
the actual strengths that we had in the past pre-660 miles have 
now become some of our weaknesses, because the new 
infrastructure that we have put up is so strong that they are 
going back to some of the old fencing areas, if you will, 
trying to find a way to come into the country. What the 
criminal organizations are looking for, Mr. Chairman, is the 
infrastructure that exists south of us in Mexico in order to 
stage, in order to jump off into the United States. But the 
successes have been tremendous on holding them back.
    Some of the things that we used, for example, is the 
violence against our officers. As the Acting Commissioner 
pointed out, the violence and the type of violence against our 
officers has gone up. We actually use that as a measure of our 
success. We are starting to see where the displacement is going 
into areas where we never intended to use fence. Now, we are 
going through a transformation of the border. Are there areas 
where the chiefs today deem that they do not need fence where 
they may in the future? That may be a situation that we are 
looking at. We don't anticipate that to be a large number.

               PERCENTAGE ESTIMATE FOR EFFECTIVE CONTROL

    Mr. Price. Mr. Ahern, what would be the percentage estimate 
for the end of fiscal 2009 for effective control?
    Mr. Ahern. I think we would be better served if we actually 
gave you a detailed written response on what we project as we 
go on for the rest of the year. As we have got the 610 miles 
that are currently done, we have the remaining of the 661 that 
will actually be done over the next couple of months, as well 
as we have gone through getting the orders of possession from 
the court down in the Rio Grande south Texas area. And as we go 
ahead and begin the deployment for the additional mobile 
surveillance systems and we actually do stabilize the 
deployment for the Tucson-1 and the Ajo-1 deployment of the 
SBInet technology for an additional 53 miles, I think we would 
be best served for you if we actually provided that detailed 
response of what we project as we add all these things 
incrementally forward towards gaining that level of control by 
the end of the fiscal year.
    Mr. Price. Fine. Please do that. And do as much as you can 
to square this up with the kind of technology that is deployed 
over these miles that you are estimating will be under 
``effective control''. Mr. Rogers.
    [The information follows:]

    Chairman Price. What percentage of the Southwest Border 
does CBO estimate will be under effective control by the end of 
fiscal year 2009.
    We estimate that 34.2% of the southwest border (683 miles) 
will be under effective control by the end of fiscal year 2009.

                           COMPLETED FENCING

    Mr. Rogers. Thank you, Mr. Chairman. Well, briefly on the 
point the Chairman has raised. As I understand it, you now have 
completed 307 miles of pedestrians fencing, is that correct, 
which is about 86 percent of what you had intended to complete? 
As I understand it, the optimist is 358 miles, right?
    Mr. Ahern. Yes, sir.
    Mr. Rogers. And you have made 307 of those miles with 
fencing?
    Mr. Ahern. 309 actually for pedestrian fence.
    Mr. Rogers. All right. And of vehicular fencing you have 
completed 300 of the planned 303 miles, right?
    Mr. Ahern. 301. 301 and the 309 give us our 610 figure 
currently.
    Mr. Rogers. All right. And of the fencing yet to be 
completed, most of that, if not all, is in Texas, where I 
understand you have had some complications with land 
condemnation cases that has held you up on building the fence 
there, right?
    Mr. Ahern. That is absolutely correct. We have had several 
challenges in court that still remain.

                      ATTEMPTS TO GO OVER FENCING

    Mr. Rogers. Where you have built a fence have we seen 
attempts to get over the fence or tear it down or what have 
you? Who can answer that?
    Mr. Ahern. Certainly I think both the Chief and I can speak 
to. When we were out going to fly us to Mexico last week just 
the day prior that we were arriving out there, that we did see 
an attempt to go ahead and ramp one of the vehicle fences. But 
I think one of the key factors here is it does go ahead and 
slow down their ability to gain entry into the United States. 
And just observing it from the air as we were flying from El 
Paso out to New Mexico what had previously been heavily scarred 
surface areas actually is now starting to diminish greatly 
which shows to us that there is not that number of driving 
coming through in those remote areas. So if you want to respond 
to that, David.
    Chief Aguilar. The only thing I would add, Congressman, is 
that the fence is not a solution in and of itself. It still 
needs to be protected by the agent and we still need the 
technology in order to detect any kind of attempted defeat of 
the fence also to include tunnels; the Ultralights that I 
talked about flying just above it, the rampings, the ladders 
and things of that nature. So it is that proper mix that gives 
us that capability.

                       REDUCTION IN APPREHENSIONS

    Mr. Rogers. Can you attribute the reduction in 
apprehensions in some measure to the fencing?
    Chief Aguilar. Yes, sir we can. We can, based on what we 
refer to as overall activity, third-party indicators, the 
smuggling activity that occurs south of us in Mexico. We gauge 
that both on social impacts, on the staging areas in Mexico, 
information from the government of Mexico as to what is 
happening, the levels of traffic that are occurring and things 
of this nature. One of the things that I think we can now 
associate with the level of success of the fence as a part of 
the enforcement model is what is happening within the cartels, 
the violence. It is because of the impedance that we have 
established as some of these historical areas that they used to 
operate with impunity, that they are now fighting themselves 
for what is remaining of the border that they consider to be an 
opportunity of free flow. And that is where they are fighting 
for those remnants.

                             VIRTUAL FENCE

    Mr. Rogers. Mr. Borkowski, the rest is up to you, as they 
say. That is the SBInet, which is supposed to be using 
electronic and modern day means where we can't build or have 
not built a fence to build a virtual fence. And we have been at 
this now for many years and we have been disappointed along the 
way quite a bit. In fact, frustrated I think is the word that 
all of us and you and others down there have used. Now, you are 
a former Air Force aerospace engineer, a rocket scientist. And 
I have got confidence that a rocket scientist can get us out of 
this mess. Help me out.
    Mr. Borkowski. Yes, those were the good old days, Mr. 
Congressman. I don't think it is going to take rocket science 
to get us out of this mess. I do think that some of the 
principles, the rigor, the discipline that rocket scientists 
and others apply to problems will help us with this mess, and 
that is what we are going to try to bring to this. I would just 
like to say that it is actually not the rest up to me. SBInet 
is a very significant contributor to this, and we intend to 
deliver on our obligations to contribute to this.
    But again, there is a great deal more to this than me. 
There are the agents on the ground, there is our Air and Marine 
resources. And I think what we will be spending a great deal of 
time doing over the next couple of years as we deliver, and I 
understand we owe you a commitment to deliver, as we deliver is 
starting to think more carefully about how we apply all of 
those things in an integrated way. So while we are a very 
important part, and yes we are committed to even bringing 
rocket science if that is what it takes to this, we are one 
part of a much bigger picture that we think we can bring to 
bear on the problem.
    Mr. Rogers. Tell us where we are.
    Mr. Borkowski. Okay. Where we are. We have designed what we 
refer to now as SBInet Block 1, SBInet technology Block 1. That 
Block 1 is, and it implies, that there will be other blocks. So 
what we are doing is we are taking a measured step here in 
providing something that is good. The SBInet Block 1 consists 
of hardware. That hardware is fixed towers. Those towers have 
cameras and radars on them. It includes a command and control 
capability, which we call the COP, the common operating 
picture. That common operating picture basically can integrate 
the activity of cameras and radars and in effect the unattended 
ground systems that Mr. Ahern mentioned earlier, and can give 
you a common picture. So it can link a radar track, for 
example, to a camera so it can link what one tower sees to what 
another tower sees. So that is the SBInet Block 1 design.
    What we have done over about the past 9 months to a year is 
tightened up that design and tested it. And Mr. Ahern mentioned 
to you that the facility in Playas, New Mexico, which is a 
facility that can put this whole system together so we can test 
it together, we can test multiple towers, we can actually build 
the real production tower we intend to use. We can have 
vehicles, people, vehicles, animals go through the desert there 
and detect how well we can detect them, how well we can respond 
to them, how well we can link cameras and radars to unintended 
ground systems, how that does or doesn't improve our response, 
and we can even use it to allow the agents to start to 
experiment how they will adapt to their operations with this 
technology.
    That Block 1 went through a series of tests culminating in 
something called system qualification test down at Playas that 
took place in December. That is a test that is designed to 
stress the system. That test went reasonably well, but not 
completely well, frankly. It did demonstrate the fundamental 
soundness of the design but it did leave us with open issues 
which we are in the process of closing. Pending closure of 
those issues we intend to begin deployment of Block 1 into two 
areas of Arizona. We call them Tucson-1 and Ajo-1. Those are 
the two areas that Mr. Ahern mentioned earlier that are about 
53 total miles of border. There are two purposes of doing that 
in a kind of measured way. And one is so that we can put a 
system out there that the border patrol itself can evaluate.
    In other words, we are spending time at this point, 
convincing the engineers that the system is effective. And we 
are about to complete that confirmation but it is very 
important that we get a reading from the Border Patrol about 
whether or not it is effective. So we need to deploy this in a 
real Border Patrol environment so that the Border Patrol can 
make that assessment. We want to deploy in two places because 
we want to convince ourselves we can build these things, we can 
build them on a schedule, we can build them for cost and we can 
do that in more than one area. That is the focus of activity 
this year for SBInet Block 1. It leads to a decision scheduled 
toward the end of the calendar year or early next year. And 
that decision will basically evaluate all of these results and 
say yes this is the system we want or no it is not.
    We are presuming the answer will be yes. And that will lead 
to a decision to deploy fully throughout Arizona. That 
deployment would be scheduled to complete in 2011 or 2012, 
depending on budget decisions and priorities. So that is the 
quick summary of SBInet as applied to the Southwest border.

                              SBINET AREAS

    Mr. Rogers. I am holding a map here that shows the border 
of Arizona with Mexico, and the two red areas are the two test 
areas that you are establishing that you described, is that 
correct?
    Mr. Borkowski. Yes. And they are not intended to be test 
areas. Let me be clear about that so that we don't have any 
misperceptions. At the point we deploy those, that is an 
operational system. It is my assertion to the chief that that 
is the operational system. It is not a prototype, it is a 
system we expect to work. However, we are putting the two in 
before we give go ahead for all of the rest because we still do 
need to give the Chief an opportunity to say yes in fact this 
system works the way I want it to work before we give full 
approval through the rest of Arizona. But yes, those areas that 
you have cited there are the two areas we are talking about.
    Mr. Rogers. Well, our patience is running real thin, 
because we have been at this now for several years and we were 
led to believe at the onset it was not a big deal. It has 
turned into a big deal. The Boeing contract has been severely 
criticized, and so we are expecting results. Can you--at this 
time next year--when you come back here tell us this is a 
success 100 percent?
    Mr. Borkowski. If I cannot tell you that, I will have 
failed. So I expect not to fail, so I expect to give you that 
answer a year from now.
    Mr. Rogers. Thank you.
    Mr. Price. Mr. Farr.

                              SBINET COST

    Mr. Farr. Thank you, Mr. Chairman. Just a follow-up 
question on that. How much is the total cost of SBInet?
    Mr. Borkowski. In terms of going through----
    Mr. Farr. Just a price, what is the total price?
    Mr. Borkowski. We have about $600 million that we have 
applied to SBInet to this point.
    Mr. Farr. How much is the entire program budgeted? It is in 
the billions, right?
    Mr. Borkowski. Pardon me?
    Mr. Farr. It is in the billions, isn't it?
    Mr. Borkowski. Oh, yes, it certainly is, sir.
    Mr. Farr. Do you know how many billion?
    Mr. Borkowski. In the expenditure plan we talk about $6.7 
billion.
    Mr. Farr. $6.7 billion. How much of that is spent on the 
Canadian border?
    Mr. Borkowski. Of the $6.7 billion in that plan, about $100 
million.
    Mr. Farr. $100 million.
    Mr. Borkowski. About on the order of $100 million from 
SBInet. Now, there are other investments on the northern 
border, but from SBInet, that is about right.

                  INTEGRATED BORDER ENFORCEMENT TEAMS

    Mr. Farr. Thank you. I wanted to ask Mr. Ahern, I really 
enjoyed reading your testimony. I started thinking more 
questions than we have time for. But one of them is last week 
ICE was in here. And ICE's budget, they have a $6 billion 
budget. They said they have 20,000 employees. I read yours and 
you have a $7 billion budget and 20,000 employees. And then 
when we get these drug seizures you were talking about the 
submarines, interesting, because the Coast Guard also takes 
credit for that.
    What I think this whole discussion is about, frankly, it is 
really about the Mexican border and it is really about a lot of 
innocent people trying to get here to get a better job and make 
money. And we are putting a lot of effort into it. And it seems 
to me that we are not, and I think Mr. Rogers' opening 
statement was about a lot of violence going on on that border. 
And what I am very interested in is that you have created, you 
are very interested in the IBET program, the Integrated Border 
Enforcement. And you talk about that between Canada and the 
United States as a model of bi-national collaborative efforts 
in securing our shared border. Do we have an IBET with Mexico?

                     BEST TEAMS ON SOUTHWEST BORDER

    Mr. Ahern. Currently on the southwest border we have the 
BEST teams that are there.
    Mr. Farr. Is it bilateral?
    Mr. Ahern. There are representatives from the government of 
Mexico and some of the BEST task forces, yes.
    Mr. Farr. Is it the same as the Canadian one, is it that 
integrated?
    Mr. Ahern. I would say as far as you need to look at IBETs 
and BESTs as kind of two different iterations. The integrated 
border enforcement teams actually began many years ago where 
you did have a lot of the intelligence and the interdiction 
focus. When ICE actually developed the BEST concept, I believe 
it was last fiscal year, perhaps the end of 2007 and beginning 
of 2008, it was actually to bring the investigative piece to 
the entire wheel of enforcement that had been lacking prior, so 
we think that is a complementary program as you go forward.

                     WEAPONS SMUGGLING INTO MEXICO

    Mr. Farr. Well, it seems to me the ounce of prevention is 
really trying to do as much as we can to try to collaborate 
with Mexico. I mean, you, and I am very sorry for the officers 
that were threatened and attacked, I mean that is a serious 
issue, but, of course, Mexico is pretty concerned that 850 of 
their police and soldiers were killed. And it seems to me that 
you are also very proud in your testimony about the ability to 
stop the smuggling of weapons into the United States. And I am 
wondering why your ability to nonintrusively screen and examine 
cargo and conveyance allows to more effectively interdict 
weapons of mass effect and other contraband, how come we can do 
it coming in but not going out?
    Mr. Ahern. I think it just goes back to as far as the way 
that the operational process has been laid out. We don't have 
the facilities, we don't have the technology or the personnel 
to be able to do redundant processing for things exiting the 
country. And that is one of the things that the current 
Secretary is asking us to do in a more robust way, is doing 
more southbound processing for vehicles of people going into 
Mexico that could be taking money and weapons.
    Mr. Farr. The other day, the Washington Post and New York 
Times had articles about the 12,000 gun stores on just the 
Arizona and Texas borders alone. Is it the responsibility of 
ICE, is it the responsibility of ATF, is it the responsibility 
of Customs and Border Protection? Who is the responsible entity 
for policing those gun shops? You saw the pictures of those 
weapons, they aren't little hunting rifles, these are big 
assault weapons and everything, and grenade launchers and all 
kinds of things. Which agency is responsible for policing that?
    Mr. Ahern. I think, first off, it is a shared 
responsibility not only just within the agencies here in the 
United States, but also with Mexico as well. Certainly Mexico 
can be doing more for the inbound processing of people and 
things coming into their country.
    Mr. Farr. Can we help them? Can we give them resources and 
so on?
    Mr. Ahern. That is going to be part of the Merida 
initiative about building capacity, providing training, 
providing technology to build a capacity at their borders. But 
certainly as far as to make sure that we actually look in a 
much more thoughtful way of being intelligence driven, 
investigative information driven so that we can do southbound 
processing going into Mexico to make sure that we have the 
ability to apprehend the weapons. Also we have taken a look 
just within the last couple of months at a couple of things 
beyond just the money. For fiscal year 2009 to date, we have 
actually had $23 million in money being smuggled in these 
southbound lanes going into Mexico. One of the things that is a 
challenge operationally without having 100 percent requirement 
to process everybody and everything going into Mexico is 
smuggling organizations can wait. If they see us doing an 
enforcement operation or a southbound operation or a protocol, 
they just pull off and wait until we actually pull back and it 
becomes a high stakes game of cat and mouse. So being 
intelligence driven and having the use of technology gives us a 
much better opportunity for success.
    Mr. Farr. I don't have any time left, but I just want to 
say that I think it is as important that we do bilateral 
investment in professionalizing, upgrading and sharing intel 
information with Mexico as we do with Canada. And I think that 
if we did that in a smarter way the burden wouldn't just be on 
one side of the border. It is a two sides to this issue. And it 
seems to me that we are ignoring our responsibility for what we 
are smuggling into Mexico from our side, and we are only paying 
concentration on what they are smuggling into the United 
States. And we can't win this war against the cartels, which I 
don't know of any country that supports them, unless we have a 
lot stronger collaborative relationships, and I do think we 
need to build those better with Mexico.
    Mr. Price. Thank you. We will have a chance on the second 
panel to address more explicitly the violence on the border and 
also the international cooperative efforts. Mr. Calvert.

                            SMUGGLER'S GULCH

    Mr. Calvert. Thank you, Mr. Chairman. Mr. Ahern, I live a 
couple hours from the border in California. I am down south. So 
I have been on the border a number of times. And I have been 
reviewing your advancement of building the physical barrier 
along the border. One area that was a concern to me and my 
predecessor Duncan Hunter was the so-called Smuggler's Gulch. 
And I was there just prior to the letting of that contract. I 
know it has been a constant problem in the San Diego area. Can 
you provide us an update on what is going on with that 
contract?
    Mr. Ahern. Sir, actually that construction is substantially 
underway at this particular point in time, and actually the 
conclusion should be happening in the very near future. When 
you look at the amount of earth that has actually been moved 
there to bring the operational control it has been substantial. 
We can provide you an exact answer on that. I don't know if the 
Chief or Mark would like to give the update on that particular 
project.
    Chief Aguilar. The Smuggler's Gulch is probably one of the 
most prominent successes we have had out there. That one area 
of a little over a mile used to be one of our most problematic 
areas in the most problematic sector in the Nation. As we 
speak, finishing touches are being placed on Smuggler's Gulch. 
Once that is up completely we will have basically finished off 
what started off about 16 years ago as a directive for us to 
finish. We have accelerated to a point that it is literally 
being done within a year's time from when we actually started 
with a contract on things of that nature.
    [The information follows:]

    The construction of Smugglers Gulch is mostly complete, 
with two remaining activities to be performed:
    1. The contractor will attempt to begin seeding in the fall 
to meet the minimum requirement for vegetative coverage in the 
project area.
    CBP is working with the local power company and the 
contractor to provide power hookup for lights and gates in this 
area. Until a permanent power hookup is established San Diego 
Sector Border Patrol plans to supply power via temporary 
generator.

                      METHAMPHETAMINE IMPORTATION

    Mr. Calvert. Great. I look forward to getting over there 
and looking at the results of that. I also co-chair the meth 
caucus here in the House. As you know, methamphetamine probably 
is one of the larger problems of drug importation from Mexico, 
and one of the reasons why this violence is taking place in 
Mexico. So I see this physical barrier, not just physical 
barrier from people trying to enter the United States, a 
physical barrier from trying to keep this drug from coming into 
the United States. What kind of results are you seeing as far 
as limiting the amount of importation of methamphetamine as far 
as along the southern border?
    Mr. Ahern. One of the things I will give you is a couple of 
things. First up, on the methamphetamine, what we are seeing at 
the ports of entry we have actually seen the increase of 
methamphetamine coming up at about 79 percent increase over 
last year, so that the seizures are going up. But I think more 
important than the seizures it is actually taking the 
precursors off before they go to Mexico. And we have some 
undertakings that I won't speak about in this open hearing 
without actually identifying a lot of the precursor chemicals 
that actually do go to Mexico that actually transit the United 
States on commercial vessels that we actually have had some 
very successful opportunities in making sure that we identify 
those before they get into Mexico to start to get put into the 
meth labs down there.

              EFFECTIVENESS OF PHYSICAL AND VIRTUAL FENCE

    Mr. Calvert. Also, the debate we are having today on the 
physical fence versus the virtual fence or a combination of 
both, do you see more results as far as apprehensions and the 
ability to stop folks from coming across the border with a 
physical fence, a virtual fence or a combination of both? Let 
us get your opinion on that.
    Chief Aguilar. It is going to be a combination of both, 
sir. The physical fence, whether it is a vehicle barrier or a 
pedestrian barrier, is specifically to create what we refer to 
as persistent impedance, which basically addresses a time 
distance factor that is a part of the enforcement model. Time 
distance in that the persistent impedance gives our agents the 
time and the capability to respond. What is very critical is 
the ability to detect by virtual means, by technological means, 
to not only detect, but very importantly, as Mr. Borkowski 
pointed out, to tag and track that incursion over a given area 
of operation. In some cases, we would like to tag and track for 
hours at a time. In some case we can't afford that luxury. It 
is only a matter of minutes because of the areas in which we 
are working. So it is that combination of both that makes us 
solid on the border.

                           REPAIRS TO FENCING

    Mr. Calvert. How often do you have to maintain--I have been 
on the border a number of times. I noticed almost every time 
people try to defeat your fencing system, and either welding or 
using helicopters. I was up there where one of your agents were 
telling me about using physical cranes to get people across and 
the rest. How often do you have to maintain that? Do we have to 
have crews every day going along and trying to fix the areas in 
which folks are trying to break it down?
    Chief Aguilar. Well, like any good property owner, any good 
ranch owner, we actually ride the fence on a daily basis in 
order to identify where attempted breaches have occurred. Now, 
the good news is, is that the fence that are being designed and 
placed today are designed with those attempted breaches in 
mind. So those have been mitigated, those have been minimized. 
But the human factor is they are going to try to defeat them, 
they are going to try to knock down those bollards, they are 
going to try and ramp over them. Hydraulic ramps are being 
used, I am not going to say on a daily basis, but pretty often 
on our fences out there.
    Mr. Price. Thank you. Mr. Rothman.

         NUMBER OF ILLEGAL IMMIGRANTS COMING ACROSS THE BORDER

    Mr. Rothman. Thank you, Mr. Chairman. I would like to get a 
bigger picture of where we have been and where we are today and 
what you anticipate for the future in terms of illegal 
immigration into the United States. So if you will, let us say 
that 3 years ago, we would assign the number of 100 to the 
number of illegal immigrants crossing our borders from the 
south and north. What number would you give that today 
reflecting an accurate number of illegal immigrants crossing 
those borders?
    Chief Aguilar. Well, I can give you approximate numbers on 
those 3 years. Last year we finished off the fiscal year with 
apprehensions totaling 723,000 between the ports of entry. The 
year before that was about----
    Mr. Rothman. Excuse me, Chief. I didn't ask that. I asked 
not your number of apprehensions, how many of illegal 
immigrants are crossing those borders?
    Chief Aguilar. To include the ones that we didn't get.
    Mr. Rothman. Correct, sir.
    Chief Aguilar. We are asked that question time and again, 
and there has not been anybody, both in the academic or 
enforcement field, that has been able to figure that out, sir.
    Mr. Rothman. No one in our government has any idea how many 
illegal immigrants are coming in?
    Chief Aguilar. No, that is a bottom line.
    Mr. Rothman. Do each of you three gentlemen share that same 
opinion?
    Chief Aguilar. We share the opinion that, I believe we 
share the opinion, I know my opinion is that we are more 
successful today than we have in the past. We are stemming the 
flow, not only because of the numbers, both the theoretical and 
the actual numbers, but what we are seeing to support the 
numbers that we are seeing.
    Mr. Rothman. Then give me a--I will assume by their silence 
they are acquiescing to your statement that they don't have any 
idea either. You don't even have a--do you have a guess? Is it 
10 million a year crossing, 100 million, 1 billion, more or 
less than 1 billion?
    Chief Aguilar. It won't be 1 billion, I can tell you that.
    Mr. Rothman. Okay. Can you narrow it down more than that?
    Chief Aguilar. No. I would not venture to give that, 
because again some of the best thinkers in this Nation have 
tried that; universities, colleges.
    Mr. Rothman. Chief, with all due respect, American people 
are going to find that hard to swallow that you can't tell much 
less--give or take 1 billion. I can understand maybe you don't 
want to get nailed down to thousands or a couple of hundred. 
Can I ask for that for the record to the extent that someone in 
your operation wants to rethink the answer to that question, 
please?
    Chief Aguilar. Yes.

                        NUMBER OF APPREHENSIONS

    Mr. Rothman. Thank you. Then please, Chief, give me the 
number of apprehensions again 3 years ago versus today?
    Chief Aguilar. About 3 years ago, it would have been about 
closer to 900,000; 819,000 2 years ago; 723,000 last fiscal 
year.
    Mr. Rothman. Okay. Now, people can say you know the 
anticipation rate having gone down as a result of one or two 
things, you are catching more or you are catching less. You are 
deterring more by catching, by having caught so many 3 years 
ago, or people are getting around your defense mechanisms and 
are coming in notwithstanding that. How do we know as a 
committee, as a Congress, which it is, since you don't know how 
many are coming in in total?
    Chief Aguilar. There are several factors that come into 
play. One prime example that is used, for example, is 
remittances into Mexico for people to come into this country 
specifically for work purposes, those have fallen dramatically. 
At a peak I believe it was about 24 billion. Last year I 
believe it was down to about 16 billion, and I will have to 
verify those for you.
    Mr. Rothman. But Chief, can't that be related to more 
illegals being out of work?
    Chief Aguilar. Absolutely, and not crossing, because we are 
not seeing them.
    Mr. Rothman. How about those who are here out of work and 
simply here and out of work and not sending money home because 
they are using whatever money they do make here to pay their 
living expenses here?
    Chief Aguilar. If they are here we wouldn't see them on the 
border, sir.
    Mr. Rothman. So again, that doesn't strike me as a 
completely accurate or foolproof way of figuring out how many 
have come. What other indicators do we have, sir, or gentlemen, 
to know whether we are making progress in stopping illegal 
immigration into this country? Any of you other gentlemen?
    Chief Aguilar. If I might follow up on this. The first 
thing I feel is absolutely critical that we bring out to this 
question, this is not about illegal immigration, this is about 
all threats on our borders of which illegal immigration is but 
one component, sir. 1.6-1.8 million pounds of narcotics 
apprehended last year. 723,000 illegal aliens coming across 
that border. Over 115,000 criminal aliens. Over 38,000 OTMs, 
other than Mexicans. Over 600 special interest country aliens 
coming across. These are the forces that are coming at our 
borders. This is not about illegal immigration. This is about 
everything coming at us that is creating the vulnerabilities 
because of the high levels of activity between our ports of 
entry, vulnerabilities that could be exploited by the people 
that are really looking to do us harm. So it is mitigating 
everything, not just illegal immigration. We engage activity 
levels.
    Mr. Rothman. Okay. I thank you, gentlemen.
    Mr. Price. Thank you.
    Mr. Carter.

     MOVING PEOPLE INTO AREAS WE HAVE A BETTER CHANCE TO APPREHEND

    Mr. Carter. Thank you, Mr. Chairman. I had another hearing. 
Somehow we have got to figure out how to not have these 
conflicting hearings, because this is one I really wanted to be 
at.
    Like my friend Mr. Calvert, I live relatively close to the 
Mexico border. I went to school in Mexico, so I feel pretty 
close to that part of the world.
    Speaker Hastert told me that years ago, way before I came 
to Congress, that he was working with the drug enforcement 
people. The concept was you want to funnel them into areas 
where you can get them, catch them. And so you are trying to 
move them towards the port of entries as best you can, make it 
harder and harder out to make them go there so you have an area 
that you can contain.
    Are we still using that basic concept of protecting our 
border by the fences, by the virtual fences, and the other 
things that we are using to try to move people into areas where 
you could have a better chance to prevent them from coming in? 
Is that still our concept?
    Mr. Ahern. I think that is a fair assessment. I think when 
you take a look at the assessments that were done by the nine 
Southwest border chiefs assessing each mile on that border, 
what is needed for the tactical infrastructure, the 
apprehension rates that we are seeing in those particular areas 
help indicate if we need to advise the local and the national 
chiefs of additional changes that need to be made.
    But I think as you talk about opportunities for 
apprehension, certainly each one of those border areas is 
unique to itself. They are not all urban areas. Some of the 
remote areas you have an opportunity for interception further 
inland across the border where there is no impact into any kind 
of urban society.
    The ports of entry you bring up, though, I think is also a 
critical conversation piece. Certainly, as I stated in my 
opening statement here, we are very pleased that the Congress 
gave this organization $420 million directly to our budget and 
$300 million to GSA for land-border ports of entry 
infrastructure, because certainly, as we look to channel into 
these ports of entry, we need to make sure, again, the same 
strategy, the infrastructure, better port facilities, the 
technology. And there was also $100 million for NII for large-
scale X-ray systems and the personnel to make sure that we have 
got the right capabilities at the port as we are having that 
funneling effect coming into the ports of entry.
    So I think, yes, that strategy is accurate.
    Mr. Carter. And in reality, you get out somewhere around 
the Big Bend country, crossing there is going to be pretty 
tedious once you get into Texas. So nature helps you out a 
little bit out there so you don't have to spend your resources 
so thick in that area. And people have asked me about fences. I 
don't think anybody in their right mind would fence out in that 
part of that world.
    I was with one of your Border Patrol agents, who told me 
the only time he thought about fencing was when he is sitting 
there in the dark in Laredo. If he can just slow them down from 
going across that street, he can catch them; but once they get 
across that four-lane street, they are in amongst people, and 
he doesn't know who to catch and who not to catch. So at least 
I got from a guy in the trenches that he liked the idea.
    I commend you for doing something that I think is an 
important part of the defense system of this Nation. We, in 
Texas, know how important you are, and we appreciate you. Thank 
you.
    Mr. Price. Ms. Roybal-Allard.

                      WOMEN AND CHILDREN DETAINEES

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    I would like to switch gears a little bit and talk about 
detainees, particularly women and children, because some of 
what I have been reading in reports and that I have been 
hearing are quite troubling to me both as an American and as a 
mother.
    According to a report in 2008 by the Women's Refugee 
Commission, immigrant youths that are being detained by the 
Border Patrol are being kept in cold, crowded cells, sleep on 
hard cement benches, and receive inadequate food and water. And 
at one facility in Texas, children were reported to be without 
blankets. I am just wondering what is being done to address 
these conditions and to make sure that children that are 
detained are being treated properly and humanely at our Border 
Patrol stations?
    Chief Aguilar. Yes, ma'am. Thank you for that question 
because it is a question that we deal with on an ongoing basis, 
and we should, very frankly, be addressing.
    Let me begin by saying the following: There is probably no 
group of individuals, men and women, that feel more for these 
children and these females that are accompanying them sometimes 
than the men and women of the Border Patrol, who actually see 
what it is they actually go through in getting to the point 
where they are detained by us or detained by law enforcement 
officers and handed over to us.
    When they are detained, it is a fair statement to make that 
the Border Patrol is not equipped to house them, nor should we 
be equipped to house them.
    The actual housing is done by ICE. They do a very good job 
of responding to us, but, in addition to that, there is a third 
agency that gets involved in actually detaining these people on 
a longer-term basis, HHS, Office of Refugee and Resettlement. 
It is the process between the points of detention, handing off 
to ICE, and ICE on to HHS, that unfortunately extends the 
period of time that these children and these females stay in 
our custody.
    But the policies that we have in place are very strict in 
that we ensure that we feed them, clothe them, provide them 
with what they need to have in the interim as we continue that, 
as callous as it may sound, that hand-off process to the proper 
department.
    We have come closer together over the last couple of years 
in making sure that we are gaining greater efficiencies between 
the three entities. We have gotten a lot better. But I can 
assure you, Congresswoman, that the men and women of the Border 
Patrol take very good care of these children and these females 
that we apprehend, 59,000 last year.
    Ms. Roybal-Allard. How do you account for these reports? 
Are you saying that these are more isolated incidences?
    Chief Aguilar. They are isolated in the sense that when we 
apprehend or detain these children, we bring them into our 
facilities, and, as I said, we are not equipped to house them. 
So when these folks visit us, they do see children basically in 
a detention room cell or in a room where they are being given 
blankets, fed, and things of this nature. It is not a proper 
housing facility, but we can't do anything other than hold them 
until we can pass them off, hand them off to the proper 
authorities. That does happen, but we focus on those situations 
where we reduce that from happening as often as we can.
    Ms. Roybal-Allard. You mentioned that Border Patrol isn't 
properly trained to really handle women and children. Would you 
consider hiring or working with social workers to ensure they 
are?
    Chief Aguilar. I wouldn't say that we are not trained, 
Congresswoman. Our officers do go through a lot of training.
    Ms. Roybal-Allard. I meant trained to work with children.
    Chief Aguilar. Our stations each have, in fact, a juvenile 
officer that handles each one of those specific incidences. ICE 
also has a juvenile officer component that immediately begins 
when the process starts in order to ensure the effectiveness of 
that hand-off process.
    Ms. Roybal-Allard. It is just hard to understand, then, 
when you are talking about the different policies and that you 
see the proper treatment of women and children, and we get 
reports like this. For example, there is another report by the 
human rights group that is known as No More Death where 
immigrants are apprehended by the Border Patrol officer, are 
frequently subjected to grievous verbal and physical abuse. And 
it is documented that three women were pushed into cactus, were 
not able to get any treatment.
    I am just wondering why, if what you are saying is 
accurate, why is it the Department of Homeland Security, for 
example, has issued 38 standards for immigrants held longer 
than 72 hours, but there are no regulations governing the 
treatment of individuals in short-term custody?
    Perhaps there needs to be some kind of very clear guideline 
so these incidents don't continue to happen.
    Chief Aguilar. We do have some of those policies. I would 
be glad to share those.
    [The information follows:]

    CBP, Office of Border Patrol (OBP), currently has differing 
policies on holding immigrants less than 72 hours and longer 
than 72 hours. These national policies cover the short-term 
custody of persons arrested or detained by OBP and detained in 
hold rooms at stations, checkpoints and processing facilities. 
These policies also contain requirements regarding the handling 
of juveniles. These policies have been designated as ``For 
Official Use Only'' and cannot be placed in the record or 
released to the public. DHS staff have provided these policies 
to the Committees separate from this document.

    Mr. Price. Mr. Kirk.

                     DRUG GANG MOVEMENT IN THE U.S.

    Mr. Kirk. Thank you, Mr. Chairman.
    I think I am the only member of this Subcommittee that is a 
graduate of La Universidad Nacional Autonoma in Mexico.
    I watch Mexico very closely. We are seeing a disturbing 
trend of the movement in Mexican drug gangs into the United 
States. I think DEA now estimates about 200 cities that have 
major Mexican drug gang presence. And I will just randomly pick 
out one, Raleigh, North Carolina, for example, where they 
happen to be.
    We are seeing a practice, which we do not see in Iraq, now 
common in Mexico, which is beheading and leaving the heads of 
their drug cartel victims in coolers. And apparently this 
practice has now come to Alabama, is now across our border.
    Another common Mexican practice in the drug world is what 
is called the ``public statement body dump,'' which apparently 
has now moved from northern Mexico into Arizona. And now we 
have had some Rhode Island victims treated exactly the way, I 
guess, the drug cartels would handle them.
    And a new status for the city of Phoenix, that is now the 
kidnap capital of the world, with more kidnappings in Phoenix, 
I think, than in Baghdad.
    So let me ask you this: We have had a great debate on the 
fence, but we have seen another fence being built in the last 
couple of years, and that is the fence that Israel has built 
opposite the West Bank and Gaza. Have you guys compared and 
contrasted technology there? Because my understanding is we are 
seeing 80 and 90 percent reduction in terrorism due to the 
Israeli fence, and I am wondering if you have done any 
comparative work with them on that.

                     COMPARISON WITH ISRAELI FENCE

    Mr. Borkowski. Probably not as much as you are suggesting. 
We are aware of the Israeli fence. We are also aware of Israeli 
technologies in terms of tunnels. We use, frankly, an Israeli 
radar. So we do have some dialogue with Israel, and we have 
looked at that to some degree, probably not to the degree that 
you are suggesting. We are aware of it.

                      LONG TERM POLICY FOR FENCING

    Mr. Kirk. I have been struck by how much--we have had a 
tremendous increase in violence in northern Israel as the fence 
was built. And also just on a more theological point, for me, I 
have become very close to a couple of towns in Mexico, 
particularly one in Michoacan, and we have seen people 
encourage families to come to the United States. And the 
stories that you hear is a family has led their kids across the 
border into the Arizona or New Mexico desert by a coyote, and 
then they die.
    Isn't it a more humane policy in the long term that that 
family see a well-administered fence and not try to walk their 
kids across the desert?
    Chief Aguilar. Absolutely, sir. And it is not so much just 
a fence, it is a matter of high-profile status of our borders 
to remove any kind of thinking that they can freely flow 
between the ports of entry. It is a combination of fence, 
technology, and infrastructure. Even in the absence of fence, 
something that they can see; the high-profile nature of our 
enforcement efforts should be that they cannot cross without 
being detected, deterred, identified, classified, and 
apprehended.
    Mr. Kirk. In the villages that I have been to, a lot of 
folks say in many ways they would prefer to see a well-
administered fence so that people would not think of crossing 
the American desert; and then either orderly enter the United 
States, or don't and stay in Michoacan, or the other big town 
that I have become very close to is in Estado Mexico, and to do 
it that way.
    So my thinking overall is we have a danger from drug 
cartels moving their practices into the United States, now 
beheadings, public statement body dumps, and kidnappings now. 
And it also would send a better message: Don't try to walk your 
family across the desert if we have this.
    Mr. Price. Thank you. Again, we will have an opportunity to 
take up these questions of Mexican violence in our next panel, 
which is going to convene very shortly.
    Mr. Ruppersberger.

                       COORDINATION OF TECHNOLOGY

    Mr. Ruppersberger. First thing, I agree with Mr. Kirk's 
comment. I know I voted for the fence. I got some criticism, 
but I based my thoughts on what I saw in Israel. I chair the 
Intelligence Technical and Tactical Subcommittee. We oversee 
NSA, the satellite program, and their technology out there does 
work.
    And one of my concerns is when we have such an issue, we 
can't secure our own borders the way we should, whether it is 
illegal immigrants or it is also the drugs, which are the major 
problem; probably drugs. Drugs are more of a problem then 
terrorism generally on the impact on us and our community and 
our country.
    I have had this argument and debate also with the head of 
the FBI Mr. Mueller about why can't your agency get with NSA, 
CIA. They have technology that does work. That technology is 
being used in other parts of the world, in Afghanistan, in 
Iraq, and has been used effectively.
    I am going to ask you the question and if--whether you have 
the contacts or not, I will set it up for you as far as getting 
set up with our other agencies in getting the technologies that 
work. And the reason for that is basic. You know the technology 
situation is in deep trouble. It has been poorly mismanaged. 
You have a situation that GAO said it is really hurting, a lot 
of wasted Federal dollars, and where are we. And we can't even 
secure our own border.
    Now, Mr. Borkowski, you are the new guy in charge, and so 
you have a clean track record right now, but you have got to 
produce because failure is not an option. What is your plan to 
take the technological issue that we are dealing with on the 
borders, coordinate with other United States of America 
agencies that make it work, and then there is a cost factor, 
and that is what our committee has to look at.
    Mr. Borkowski. There is a balance, and I know you know 
that, but we don't want to overdesign this either at this 
point.
    However, having said that, yes, we do have contact with the 
Department of Defense. There is a very, I think, aggressive 
program in the DHS science and technology who does this on our 
behalf, identify these technologies and then brings them to us 
as candidates.
    So going forward with SBInet, where we are at this point, 
and we discussed this a little bit earlier, Block 1.
    The longer-term question is how can we build on a basic 
kind of capability, a capability to see and detect with radar 
and expand that capability with some of these other 
technologies as we go forward. So we are trying to get a 
baseline at this point and an option to build up with those 
other resources. So we do have some of those contacts, and we 
have a robust program with DHS science and technology.

                    SBI MAJOR CONTRACTOR PERFORMANCE

    Mr. Ruppersberger. It is just not what you talk about, 
radar and other issues. There are UAVs. We need desperately 
VEA. And here we are all over the world. We are in two theaters 
right now. And yet if we could take just a small amount of our 
intelligence group, our CIA, our NSA, our Department of 
Defense, and focus with you all, with the FBI, on our borders, 
we could go a long way. And we haven't made that a priority.
    Answer my question. Would you be willing to meet and see 
what you have there on your baseline, what is working, what is 
not? You have the GAO report. Who is the major contractor?
    Mr. Borkowski. It is Boeing.
    Mr. Ruppersberger. What is Boeing doing as far as the past 
record? You have got to sit down with Boeing and see where they 
are. How do you plan on dealing with the main contractor?
    Mr. Borkowski. The main answer to your question is yes, I 
would meet with those people.
    In terms of Boeing, some of the issues we have with Boeing 
is, frankly, due to us as well. But I think that we also have 
concerns about Boeing as you have. And many companies in these 
kinds of programs have these kinds of problems, so I don't 
think this is unique to Boeing. But Boeing is who we have at 
this point, and we have had some issues with Boeing.
    So what we have tried to do is put again in some program 
management discipline structures to manage the contractor, to 
set clearer expectations, to define baselines, to define ways 
to better measure progress. I don't think those things existed 
to the level that they needed to.
    Mr. Ruppersberger. It is also do you need different 
technology that works in other parts of the world as being 
successful? That has to be looked at.
    Mr. Borkowski. Yes, it does.
    Mr. Ruppersberger. Let me say this. My time is running out. 
Mr. Chairman, I am going to have my staff get with you, and 
maybe we can talk more about the technical side of this.
    Do I have more time?
    Mr. Price. About to run out.
    Mr. Ruppersberger. I was going to ask the Chief something, 
but at another date.
    Mr. Price. With that, we will bring this first panel to a 
close. Mr. Borkowski, we will thank you. And we will ask Mr. 
Koumans and Ms. Forman to replace you at the table.

[GRAPHIC] [TIFF OMITTED] T2999A.138

[GRAPHIC] [TIFF OMITTED] T2999A.139

[GRAPHIC] [TIFF OMITTED] T2999A.140

[GRAPHIC] [TIFF OMITTED] T2999A.141

[GRAPHIC] [TIFF OMITTED] T2999A.142

[GRAPHIC] [TIFF OMITTED] T2999A.143

[GRAPHIC] [TIFF OMITTED] T2999A.144

[GRAPHIC] [TIFF OMITTED] T2999A.145

[GRAPHIC] [TIFF OMITTED] T2999A.146

[GRAPHIC] [TIFF OMITTED] T2999A.147

[GRAPHIC] [TIFF OMITTED] T2999A.148

[GRAPHIC] [TIFF OMITTED] T2999A.149

[GRAPHIC] [TIFF OMITTED] T2999A.150

[GRAPHIC] [TIFF OMITTED] T2999A.151

[GRAPHIC] [TIFF OMITTED] T2999A.152

[GRAPHIC] [TIFF OMITTED] T2999A.153

[GRAPHIC] [TIFF OMITTED] T2999A.154

[GRAPHIC] [TIFF OMITTED] T2999A.155

[GRAPHIC] [TIFF OMITTED] T2999A.156

[GRAPHIC] [TIFF OMITTED] T2999A.157

[GRAPHIC] [TIFF OMITTED] T2999A.158

[GRAPHIC] [TIFF OMITTED] T2999A.159

[GRAPHIC] [TIFF OMITTED] T2999A.160

[GRAPHIC] [TIFF OMITTED] T2999A.161

[GRAPHIC] [TIFF OMITTED] T2999A.162

[GRAPHIC] [TIFF OMITTED] T2999A.163

[GRAPHIC] [TIFF OMITTED] T2999A.164

[GRAPHIC] [TIFF OMITTED] T2999A.165

[GRAPHIC] [TIFF OMITTED] T2999A.166

[GRAPHIC] [TIFF OMITTED] T2999A.167

[GRAPHIC] [TIFF OMITTED] T2999A.168

[GRAPHIC] [TIFF OMITTED] T2999A.169

[GRAPHIC] [TIFF OMITTED] T2999A.170

[GRAPHIC] [TIFF OMITTED] T2999A.171

[GRAPHIC] [TIFF OMITTED] T2999A.172

[GRAPHIC] [TIFF OMITTED] T2999A.173

[GRAPHIC] [TIFF OMITTED] T2999A.174

[GRAPHIC] [TIFF OMITTED] T2999A.175

[GRAPHIC] [TIFF OMITTED] T2999A.176

[GRAPHIC] [TIFF OMITTED] T2999A.177

[GRAPHIC] [TIFF OMITTED] T2999A.178

[GRAPHIC] [TIFF OMITTED] T2999A.179

[GRAPHIC] [TIFF OMITTED] T2999A.180

[GRAPHIC] [TIFF OMITTED] T2999A.181

[GRAPHIC] [TIFF OMITTED] T2999A.182

[GRAPHIC] [TIFF OMITTED] T2999A.183

[GRAPHIC] [TIFF OMITTED] T2999A.184

[GRAPHIC] [TIFF OMITTED] T2999A.185

[GRAPHIC] [TIFF OMITTED] T2999A.186

[GRAPHIC] [TIFF OMITTED] T2999A.187

[GRAPHIC] [TIFF OMITTED] T2999A.188

[GRAPHIC] [TIFF OMITTED] T2999A.189

[GRAPHIC] [TIFF OMITTED] T2999A.190

[GRAPHIC] [TIFF OMITTED] T2999A.191

[GRAPHIC] [TIFF OMITTED] T2999A.192

[GRAPHIC] [TIFF OMITTED] T2999A.193

[GRAPHIC] [TIFF OMITTED] T2999A.194

[GRAPHIC] [TIFF OMITTED] T2999A.195

[GRAPHIC] [TIFF OMITTED] T2999A.196

[GRAPHIC] [TIFF OMITTED] T2999A.197

[GRAPHIC] [TIFF OMITTED] T2999A.198

[GRAPHIC] [TIFF OMITTED] T2999A.199

[GRAPHIC] [TIFF OMITTED] T2999A.200

[GRAPHIC] [TIFF OMITTED] T2999A.201

[GRAPHIC] [TIFF OMITTED] T2999A.202

[GRAPHIC] [TIFF OMITTED] T2999A.203

[GRAPHIC] [TIFF OMITTED] T2999A.204

[GRAPHIC] [TIFF OMITTED] T2999A.205

[GRAPHIC] [TIFF OMITTED] T2999A.206

[GRAPHIC] [TIFF OMITTED] T2999A.207

[GRAPHIC] [TIFF OMITTED] T2999A.208

[GRAPHIC] [TIFF OMITTED] T2999A.209

[GRAPHIC] [TIFF OMITTED] T2999A.210

[GRAPHIC] [TIFF OMITTED] T2999A.211

[GRAPHIC] [TIFF OMITTED] T2999A.212

[GRAPHIC] [TIFF OMITTED] T2999A.213

[GRAPHIC] [TIFF OMITTED] T2999A.214

[GRAPHIC] [TIFF OMITTED] T2999A.215

[GRAPHIC] [TIFF OMITTED] T2999A.216

[GRAPHIC] [TIFF OMITTED] T2999A.217

[GRAPHIC] [TIFF OMITTED] T2999A.218

[GRAPHIC] [TIFF OMITTED] T2999A.219

[GRAPHIC] [TIFF OMITTED] T2999A.220

[GRAPHIC] [TIFF OMITTED] T2999A.221

[GRAPHIC] [TIFF OMITTED] T2999A.222

[GRAPHIC] [TIFF OMITTED] T2999A.223

[GRAPHIC] [TIFF OMITTED] T2999A.224

[GRAPHIC] [TIFF OMITTED] T2999A.225

[GRAPHIC] [TIFF OMITTED] T2999A.226

[GRAPHIC] [TIFF OMITTED] T2999A.227

[GRAPHIC] [TIFF OMITTED] T2999A.228

[GRAPHIC] [TIFF OMITTED] T2999A.229

[GRAPHIC] [TIFF OMITTED] T2999A.230

[GRAPHIC] [TIFF OMITTED] T2999A.231

[GRAPHIC] [TIFF OMITTED] T2999A.232

[GRAPHIC] [TIFF OMITTED] T2999A.233

[GRAPHIC] [TIFF OMITTED] T2999A.234

[GRAPHIC] [TIFF OMITTED] T2999A.235

[GRAPHIC] [TIFF OMITTED] T2999A.236

[GRAPHIC] [TIFF OMITTED] T2999A.237

[GRAPHIC] [TIFF OMITTED] T2999A.238

[GRAPHIC] [TIFF OMITTED] T2999A.239

[GRAPHIC] [TIFF OMITTED] T2999A.240

[GRAPHIC] [TIFF OMITTED] T2999A.241

[GRAPHIC] [TIFF OMITTED] T2999A.242

[GRAPHIC] [TIFF OMITTED] T2999A.243

[GRAPHIC] [TIFF OMITTED] T2999A.244

[GRAPHIC] [TIFF OMITTED] T2999A.245

[GRAPHIC] [TIFF OMITTED] T2999A.246

[GRAPHIC] [TIFF OMITTED] T2999A.247

[GRAPHIC] [TIFF OMITTED] T2999A.248

[GRAPHIC] [TIFF OMITTED] T2999A.249

[GRAPHIC] [TIFF OMITTED] T2999A.250

[GRAPHIC] [TIFF OMITTED] T2999A.251

[GRAPHIC] [TIFF OMITTED] T2999A.252

[GRAPHIC] [TIFF OMITTED] T2999A.253

[GRAPHIC] [TIFF OMITTED] T2999A.254

[GRAPHIC] [TIFF OMITTED] T2999A.255

[GRAPHIC] [TIFF OMITTED] T2999A.256

[GRAPHIC] [TIFF OMITTED] T2999A.257

[GRAPHIC] [TIFF OMITTED] T2999A.258

[GRAPHIC] [TIFF OMITTED] T2999A.259

[GRAPHIC] [TIFF OMITTED] T2999A.260

[GRAPHIC] [TIFF OMITTED] T2999A.261

[GRAPHIC] [TIFF OMITTED] T2999A.262

[GRAPHIC] [TIFF OMITTED] T2999A.263

[GRAPHIC] [TIFF OMITTED] T2999A.264

[GRAPHIC] [TIFF OMITTED] T2999A.265

[GRAPHIC] [TIFF OMITTED] T2999A.266

[GRAPHIC] [TIFF OMITTED] T2999A.267

[GRAPHIC] [TIFF OMITTED] T2999A.268

[GRAPHIC] [TIFF OMITTED] T2999A.269

[GRAPHIC] [TIFF OMITTED] T2999A.270

[GRAPHIC] [TIFF OMITTED] T2999A.271

[GRAPHIC] [TIFF OMITTED] T2999A.272

[GRAPHIC] [TIFF OMITTED] T2999A.273

[GRAPHIC] [TIFF OMITTED] T2999A.274

[GRAPHIC] [TIFF OMITTED] T2999A.275

[GRAPHIC] [TIFF OMITTED] T2999A.276

[GRAPHIC] [TIFF OMITTED] T2999A.277

[GRAPHIC] [TIFF OMITTED] T2999A.278

[GRAPHIC] [TIFF OMITTED] T2999A.279

[GRAPHIC] [TIFF OMITTED] T2999A.280

[GRAPHIC] [TIFF OMITTED] T2999A.281

[GRAPHIC] [TIFF OMITTED] T2999A.282

[GRAPHIC] [TIFF OMITTED] T2999A.283

[GRAPHIC] [TIFF OMITTED] T2999A.284

[GRAPHIC] [TIFF OMITTED] T2999A.285

[GRAPHIC] [TIFF OMITTED] T2999A.286

[GRAPHIC] [TIFF OMITTED] T2999A.287

[GRAPHIC] [TIFF OMITTED] T2999A.288

[GRAPHIC] [TIFF OMITTED] T2999A.289

[GRAPHIC] [TIFF OMITTED] T2999A.290

[GRAPHIC] [TIFF OMITTED] T2999A.291

[GRAPHIC] [TIFF OMITTED] T2999A.292

[GRAPHIC] [TIFF OMITTED] T2999A.293

                                         Tuesday, March 10, 2009.  

DEPARTMENT OF HOMELAND SECURITY RESPONSE TO VIOLENCE ON THE BORDER WITH 
                                 MEXICO

                               WITNESSES

MARK KOUMANS, DEPUTY ASSISTANT SECRETARY, OFFICE OF INTERNATIONAL 
    AFFAIRS, DEPARTMENT OF HOMELAND SECURITY
MARCY FORMAN, DIRECTOR, OFFICE OF INVESTIGATIONS, U.S. IMMIGRATION AND 
    CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY
JAYSON P. AHERN, ACTING COMMISSIONER, U.S. CUSTOMS AND BORDER 
    PROTECTION
DAVID AGUILAR, CHIEF, U.S. BORDER PATROL, U.S. CUSTOMS AND BORDER 
    PROTECTION

                     Opening Statement by Mr. Price

    Mr. Price. We are going to move directly to consideration 
of the violence on the border with Mexico and the U.S. Response 
hearing.
    With over 6,000 dead in 2008, and with over 1,000 dead in 
January of 2009 alone, the violent clash of drug cartels in 
Mexico has caught the attention of many of us in Congress, and 
it certainly has caught the attention of Americans, especially 
those living near the border.
    Mexico has sent its military to its border region and has 
assumed control of police in hotspots like Ciudad Juarez. As 
Secretary Napolitano testified last week, the situation 
deserves our utmost attention.
    And we need to put this in perspective. We are not talking 
about anything like the raids of Pancho Villa during the 
Mexican Revolution, nor are these fears of mass migrations 
northward necessarily justified. But while Mexican President 
Calderon has dismissed reports that Mexico is at risk of 
becoming a failed state, nonetheless, concern is rising about 
the impact of the violence on the region and beyond.
    The U.S. is providing the assistance to Mexico through the 
Merida Initiative, and Chairman Lowey is holding a hearing on 
that initiative this very morning. Defense Secretary Gates has 
offered to provide additional assistance to Mexico, Texas 
Governor Perry has asked for Federal troops to provide 
immediate relief for his State, the State Department has warned 
U.S. travelers to stay away, and the Attorney General has 
promised to destroy the cartels. Secretary Napolitano has 
testified that she has asked the National Security Adviser, 
Attorney General and State and local law enforcement to review 
ways to help the Mexican Government stop the flow of guns and 
cash to the cartels and to identify areas where more resources 
may be needed.
    Now, there have been reports of contract killings and high-
profile kidnapping in the U.S., as we have already heard this 
morning. There also are some statistics on the other side, 
statistics that show decline in such violence in border 
communities such as El Paso and Phoenix even, which is often 
cited as a hotbed for such activity.
    It appears thus far that the violence is not yet 
systematically spilling over, as some have alleged. The 
violence has so far been limited largely to Mexico, but that 
doesn't mean it is not a matter of grave U.S. concern, and we 
want our witnesses today to help us understand why Mexican 
violence threatens the homeland security of the United States. 
And our assumption is that we are not just talking about 
violence spilling over. We are talking about what is going on 
in Mexico itself and how that affects our ability to 
coordinate, to collaborate with the Mexican Government in 
dealing with a whole array of border issues.
    I would think we shouldn't frame this issue too narrowly, 
simply asking if it is spilling over into U.S. communities. 
There are much broader implications for the Mexican 
Government's control of its own territory and of our 
government's ability to coordinate and collaborate with the 
Mexican Government effectively in addressing a whole range of 
issues. So I would hope we could adopt that broader 
perspective.
    Unfortunately, we have also heard this morning the U.S. 
plays some role in fueling the violence by its huge demands for 
illegal drugs, and, as the State Department reported last 
month, as the main source of the cartels' weapons. We hope to 
hear today what the U.S. can do, and how and why the U.S. 
Government is getting more engaged.
    This issue touches the missions of many agencies, not only 
DHS, but also Justice, State, Defense. In this panel, we are 
going to focus on the DHS role in helping stem this violence, 
to confront its spillover on our borders and within our 
communities, and to prepare for contingencies.
    We welcome Mark Koumans, the Deputy Assistant Secretary for 
International Affairs, to describe the Department's interaction 
with its Mexican counterparts; and Marcy Forman, Director of 
the Office of Investigations for U.S. Immigration and Customs 
Enforcement, to discuss how ICE is helping attack cartel 
networks and organizations. We also welcome back our CBP 
witnesses from the first panel, Acting Commissioner Ahern and 
Border Patrol Chief Aguilar, to discuss CBP's efforts to 
address the risk of violence and its impact on trade, 
immigration and border security.
    We also expect to hear about interagency and 
intergovernmental initiatives, such as the Border Enforcement 
Security Teams, or BEST, which have been established in 
response to violence in areas such as Laredo, El Paso, and 
Tucson.
    We will insert your complete statements in the hearing 
records and look forward to 5-minute oral presentations from 
Deputy Assistant Secretary Koumans followed by Ms. Forman. We 
have already heard a statement of that kind from the Acting 
Commissioner on the first panel.
    Let me first turn to our Ranking Member Mr. Rogers for his 
comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.294
    
    [GRAPHIC] [TIFF OMITTED] T2999A.295
    
    [GRAPHIC] [TIFF OMITTED] T2999A.296
    
                    Opening Statement by Mr. Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome to those 
of you just joining us.
    Before I make a few comments, I want to thank the Chairman 
for honoring our Minority request to convene this separate 
hearing on the Mexican drug war aspect of the border situation, 
an issue that I believe is at the forefront of our homeland 
security challenges that we face today.
    With that said, let me be clear when I say the current turf 
battle between the Mexican drug cartels is, in fact, an all-out 
war; 7,000 casualties, if you will, 7,000 murders since the 
beginning of last year, including the torture and assassination 
of numerous Mexican law enforcement officials. That is as much 
an indicator of warfare as you would need. And this is a war 
with potentially devastating consequences for the United 
States, but we need to judge these consequences amid facts.
    We have all read the reports of beheadings, kidnapping, 
tunneling, human trafficking, but we must understand the facts 
to determine the appropriate response in terms of dollars and 
force. We need to fully appreciate the Mexican Government's 
stability, strength, and resolve to counter these 
narcoterrorists, and we need a truthful account of how and 
where violence is actually creeping across our border. After 
all, this war is on our doorstep.
    If this savage criminality is left unchecked, the cartels 
will only continue to expand their influence across the border, 
exploit our trade lanes, and bring their brands of terror into 
communities across our country. And that is something we simply 
cannot allow to happen.
    The escalation in violence and territorial infighting 
suggest Homeland Security's efforts to improve our border 
security, coupled with the truly courageous actions of Mexico's 
leadership, have gotten the cartels' attention. Unfortunately, 
this also means things might even get worse before they get 
better. So the challenge being presented to Homeland Security 
by this war is clear. My question is whether or not we are up 
to the challenge.
    And when I ask this question, I am not wondering whether we 
have the proper resources in place to just disrupt this 
organized crime; I am wondering whether we have the tools and 
the will to actually break its back. I realize that is a mighty 
tough chore, but I am certain it is a worthy fight.
    Today I hope we can learn more about the ongoing efforts to 
wage this good fight as well as what more can be done by DHS--
not only DHS, but by its interagency partners at Justice and 
State. After all, this is an intricate issue that demands the 
full attention of all of those responsible for supporting 
security here at home and within neighbors as strategically 
important to us as Mexico.
    Mr. Chairman, I look forward to our discussion.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.297
    
    [GRAPHIC] [TIFF OMITTED] T2999A.298
    
    [GRAPHIC] [TIFF OMITTED] T2999A.299
    
    Mr. Price. Mr. Koumans.

                   Opening Statement of Mark Koumans

    Mr. Koumans. Chairman Price, Ranking Member Rogers, 
distinguished members of the Subcommittee, thank you for the 
opportunity to join today's panel on the subject Secretary 
Napolitano has called one of her top priorities that requires 
our utmost attention.
    I was asked to speak about DHS initiatives with Mexico to 
address the shared challenge of violence, organized crime, and 
weapon smuggling across our southern border. The DHS Office of 
International Affairs is charged with coordinating the 
Department's international policies and programs, which are 
often carried out by operational components like ICE, CBP, and 
the U.S. Coast Guard. My expert colleagues on this panel can 
speak in more detail about some of the programs they oversee. 
My testimony will focus more broadly on the steps the 
Department has taken.
    Let me begin by outlining the seriousness of the problem. 
On February 25th, Secretary Napolitano told the Homeland 
Security Committee that Mexico right now has issues of violence 
that are of a different degree and level than we have seen 
before.
    In January of 2009, there were three times as many murders 
in Ciudad Juarez as in January 2008, so there appears to be no 
abatement. This bloodshed is the work of networks of organized 
crime that exists along the U.S.-Mexican border. These well-
funded and well-armed criminal groups traffic in narcotics, 
firearms, currency, and human beings, and commit shocking 
atrocities to protect their commerce. Mexican President 
Calderon has taken aggressive and successful actions to fight 
these cartels, and the traffickers have predictably responded 
with more brutality.
    Secretary Napolitano has acknowledged Mexico's courageous 
battle as well as the DHS's responsibility to support it, 
stating that the cash that is feeding these cartels is cash 
that is made off the sale of illegal drugs. The weapons are 
primarily coming from the United States. There is an 
interconnection there.
    DHS brings a range of capabilities and statutory 
authorities to bear on the mission of securing our southwestern 
border while facilitating the legitimate movement of people and 
goods. I will highlight initiatives in fighting border 
violence, armed smuggling, illegal immigration, money 
laundering, and narcotics and bulk cash smuggling.
    The Merida Initiative is the focal point of the U.S. 
Security cooperation with Mexico, embodying a shared 
responsibility and commitment to eliminate the threat of 
organized crime. We envision the Merida Initiative as a 
multiyear program to provide Mexico and Central America with 
equipment, training, and long-term reform assistance to better 
enable law enforcement agencies to complete their missions. DHS 
sees Merida as an important tool to multiply capabilities on 
both sides of the border. The DHS works hand in hand with the 
Department of State, which, as you know, leads the Merida 
efforts to make sure that funds are directed to priority areas.
    Let me now turn to some specific DHS initiatives.
    To better coordinate law enforcement efforts, and address 
violence along the southwest border, ICE leads interagency 
Border Enforcement Security Taskforces, BESTs, which include 
U.S. and Mexican law enforcement agencies. The ICE attache 
office in Mexico City has also established Mexican vetted 
units, 70-plus officers strong, that work with ICE to expand 
criminal investigations and target cross-border crimes.
    To combat illicit weapon smuggling, ICE and CBP have 
spearheaded Operation Armas Cruzadas in partnership with Mexico 
to identify, disrupt and dismantle gun-running criminal 
networks. As is the case in other areas, the equipment and 
training Merida promises to provide will increase Mexican 
capabilities. For its part, Mexico is also taking new steps to 
address smuggling via pilot programs to screen incoming 
traffic.
    In the area of counternarcotics, DHS components and their 
Mexican counterparts work together to disrupt drug-trafficking 
organizations on land, sea, and air. The Merida Initiative will 
help enhance our work by supporting bilateral information 
sharing with vetted investigative units, law enforcement 
training, and interdiction efforts.
    Secretary Napolitano has stressed the need to target the 
cash flow of organized crime. Through Operation Firewall, ICE 
is teamed up with CBP to implement the drug initiative that 
targets both cash smuggling with strategic interdiction 
operations.
    Finally, to address human trafficking and illegal 
immigration, CBP has implemented Operation OASIS in 
collaboration with Mexican authorities. Under OASIS, the two 
sides cooperate to identify and prosecute violent human 
smugglers. Under the Merida Initiative, we in Mexico intend to 
expand OASIS across the entire U.S.-Mexican border.
    In conclusion, I hope these brief descriptions do justice 
to the impressive efforts of the brave men and women of ICE, 
CBP, and other parts of DHS. They have achieved a remarkable 
level of cooperation between DHS and Mexican counterparts. This 
cooperation is supported by the Secretary's commitment to team 
up with Mexico in its fight with organized crime.
    Secretary Napolitano has already discussed these issues 
with Mexican Ambassador Sarukhan and Mexican Attorney General 
Medina Mora, and she has announced her intention to travel to 
Mexico in April to continue these efforts. She has committed 
DHS to do all it can to cooperate with Mexico against these 
common threats.
    DHS is proud to be at the forefront of the strategic 
partnership with our southern neighbor, and we share a 
responsibility, and we have a commitment to assist Mexico in 
defeating the criminal elements that undermine the rule of law 
and cause such violence.
    I thank you for the opportunity to testify and look forward 
to answering your questions.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.300
    
    [GRAPHIC] [TIFF OMITTED] T2999A.301
    
    [GRAPHIC] [TIFF OMITTED] T2999A.302
    
    [GRAPHIC] [TIFF OMITTED] T2999A.303
    
    [GRAPHIC] [TIFF OMITTED] T2999A.304
    
    [GRAPHIC] [TIFF OMITTED] T2999A.305
    
    [GRAPHIC] [TIFF OMITTED] T2999A.306
    
    [GRAPHIC] [TIFF OMITTED] T2999A.307
    
    [GRAPHIC] [TIFF OMITTED] T2999A.308
    
    Mr. Price. Ms. Forman.

                   Opening Statement of Marcy Forman

    Ms. Forman. Chairman Price, Ranking Member Rogers, and 
distinguished members of the Subcommittee, on behalf of 
Secretary Napolitano and Acting Assistant Secretary Torres, I 
would like to thank you for the opportunity to discuss ICE's 
efforts to combat cross-border crime.
    Secretary Napolitano is committed to addressing the 
violence and the sociocrime on the border, and augmenting the 
Department's existing resources of additional ICE assets to 
meet the threat of weapons and bulk cash smuggling. The ICE-led 
Border Enforcement Security Taskforce, better known as BEST, 
leverages the authorities and resources of its federal, state, 
local, tribal and international partners to combat border 
violence.
    I would like to share an example that illustrates the 
critical role that ICE has in fighting transnational 
organizations.
    On August 16, 2007, ICE agents and task force officers from 
the BEST, located in Rio Grande Valley, Texas, were conducting 
surveillance on Eric Aguayez, a suspect involved in weapons 
trafficking. Agents observed him exit a residence, place a 
black duffel bag in his vehicle, and drive towards Mexico. 
Agents then coordinated with CBP to establish an outbound 
inspection at the Brownsville-Matamoros bridge of entry. A 
search of his vehicle resulted in the discovery of a 
disassembled .50-caliber semiautomatic rifle and a 10-round 
magazine. This weapon retails for approximately $9,000, but is 
sold on the black market for three times that price and is used 
primarily for military purposes.
    BEST agents were able to link Aguayez to a significant 
arms-smuggling organization. This criminal enterprise supplied 
weapons to the members of the violent gulf cartel security 
forces known as Los Zetas. Aguayez was arrested on Federal 
smuggling charges and subsequently convicted on export charges.
    ICE and the BEST counter the illicit movement of people, 
money and contraband across our borders with a comprehensive 
mix of cross-border authorities and expertise. ICE maintains 
the largest Federal investigative workforce along the Southwest 
border. ICE and the BEST extend the reach of their 
investigations into the heart of Mexico through our ICE attache 
offices and trusted Mexican partners.
    ICE works closely across agency and international 
boundaries to disrupt and dismantle criminal organizations both 
in the United States and abroad. The following example 
illustrates how ICE leverages its international partnerships to 
get results. Just last week, on March 6, 2009, ICE agents 
provided intelligence to the Mexican Federal Police regarding a 
residence in Mexico suspected of housing weapons, tactical 
gear, and marijuana associated with a violent drug-trafficking 
organization. The Mexican Federal Police executed a search 
warrant and arrested 15 alleged hitmen. In addition to the 
arrest, Mexican authorities seized two military-grade Colt M-4 
rifles with grenade launchers and ammunition.
    Weapons and related materials provided by smugglers to 
criminal organizations perpetuate the violence along the U.S.-
Mexico border. ICE contributes to the fight by two bilateral 
initiatives: Operation Firewall, to address bulk cash 
smuggling, and Operation Armas Cruzadas, to address weapons 
smuggling.
    In June 2008, ICE launched Operation Armas Cruzadas. As 
part of this initiative, DHS and the Government of Mexico 
agreed to partner an unprecedented bilateral cooperation to 
disrupt the flow of weapons from the United States to Mexico. 
Since the initiation of Armas Cruzadas, the operation has 
netted 104 criminal arrests and the seizure of 420 weapons and 
over 110,000 rounds of ammunition. Armas Cruzadas utilizes the 
BEST as the multiagency platform to combat weapons smuggling 
and other transborder crimes.
    Just this past week in Rio Grande Valley, the BEST in Rio 
Grande Valley and CBP officers seized 64 handgun primers and 19 
pounds of smokeless ammunition powder. Collectively these items 
have the ability to produce ammunition. Also seized were over 
1,000 rounds of high-caliber bullets.
    Since July 2005, the 12 strategically located BESTs at our 
Nation's southern, northern, and sea borders, have been 
responsible for over 2,000 criminal arrests and the seizure of 
almost 170,000 pounds of narcotics, 515 weapons, and over $22 
million in cash.
    Operation Firewall targets illicit money couriers who 
utilize commercial and private transportation bound for Mexico 
and South America to identify the source of their illegal funds 
and the responsible criminal organizations. Since inception, 
Operation Firewall has resulted in the seizure of $178 million 
and 416 arrests. Of the 178 million seized, over 62 million 
were seized in Mexico, Central, and South America.
    The following are examples of successes of Operation 
Firewall: On July 22, 2008, Mexican Customs seized over $2 
million in U.S. currencies discovered inside radiator heaters 
bound for Colombia. In November 2008, CBP officers and ICE 
agents found over 500,000 in bulk currency in Laredo, Texas, 
concealed inside the rear quarter panels of a vehicle. Also 
concealed with the currency was a Glock .40-caliber handgun, 3 
magazines and 100 rounds of ammunition. The subject was 
arrested and charged with bulk cash smuggling.
    DHS, under the leadership of Secretary Napolitano, and ICE 
is committed to stemming the cross-border criminal activity 
associated with the violence through the deployment of the 
BEST, Operation Armas Cruzadas and Operation Firewall.
    I thank the Subcommittee for all its support of ICE and the 
law enforcement mission.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999A.309
    
    [GRAPHIC] [TIFF OMITTED] T2999A.310
    
    [GRAPHIC] [TIFF OMITTED] T2999A.311
    
    [GRAPHIC] [TIFF OMITTED] T2999A.312
    
    [GRAPHIC] [TIFF OMITTED] T2999A.313
    
    [GRAPHIC] [TIFF OMITTED] T2999A.314
    
    [GRAPHIC] [TIFF OMITTED] T2999A.315
    
    [GRAPHIC] [TIFF OMITTED] T2999A.316
    
    [GRAPHIC] [TIFF OMITTED] T2999A.317
    
    [GRAPHIC] [TIFF OMITTED] T2999A.318
    
    [GRAPHIC] [TIFF OMITTED] T2999A.319
    
    [GRAPHIC] [TIFF OMITTED] T2999A.320
    
              BORDER SECURITY RAMIFICATIONS ON CBP MISSION

    Mr. Price. Thanks to all of you for appearing here and 
helping us address this critical aspect of border security. And 
that is really the question I want to start with, returning to 
the theme enunciated in my own statement. What are the broader 
border security ramifications of this development on the 
Mexican side? So much of the discussion does have to do with 
the spillover onto our side of the border and incidents of 
violence, horrific in some cases, that involve U.S. communities 
and U.S. citizens, but I take it that is not the only issue.
    Secretary Napolitano says this situation deserves our 
utmost attention. There is a broader issue at stake with 
respect to the Mexican Government's control of its own 
territory, a broader concern with respect to the kinds of 
coordination and cooperation that we need with that government 
for a whole range of border security functions.
    So let me just pose a couple of questions along these 
lines.
    Mr. Ahern, I would like you to reflect on the breadth of 
this concern and how it affects your basic mission, and the 
kind of charge you have to protect the border and all of the 
ramifications of that.
    And then, Mr. Koumans, maybe you in particular--you and Ms. 
Forman have both done a good job of outlining the current 
efforts, and we appreciate those efforts--but I wonder if you 
could just elaborate for us what it means to give this our 
utmost attention. What are the main ways in which these efforts 
need to be stepped up and accelerated and taken to a different 
level?
    But, Mr. Ahern, at first I am interested in this broader 
impact, because I don't think we capture the danger here 
totally in simply looking at the cross-border incursions.
    Mr. Ahern. Thank you for the opportunity to give my 
thoughts on this topic.
    I think, first off, when you take a look at Mexico, you 
have to look at its strategic location to United States, 
obviously one of our closest neighbors in addition to Canada, 
so just its proximity creates a threat to begin with.
    You also then look at their value as one of our most 
significant trading partners. You see as far as a significant 
impact that this violence can have occurring in Mexico to the 
production capabilities within Mexico, and generating wealth 
for the economy, and then stability for that nation and its 
cross-border movement of trade into the United States. I think 
that is a key aspect.
    When you take a look at the violence, you are seeing 
diminishment on the amount of cross-border travel that occurs 
with a lot of people who would routinely go to some of these 
Mexican communities just south of the border for routine travel 
and tourism-type things. We are seeing that as far as an 
impact. So that, again, leads to the instability that is 
occurring in these areas.
    When you take a look at it certainly from the threat that 
it poses to our organization, I spoke of the violence on our 
officers and agents, and I won't cover that point again. That 
is also a very real issue that is out there, not so much as far 
as the cartel violence that is occurring for the fights over 
the plazas south of the border in these Mexican communities, 
but as far as just the consequence of the drug trafficking, and 
also as far--as the Chief speaks about, as far as the 
transformation of the border. As we gain more operational 
control, we are stressing them greatly. So we are seeing that 
manifest itself in violence on our officers.
    But when you take a look at where we are with Mexico, I 
think it is certainly important to note that we have had a 
significant undertaking with Mexico for the last several years. 
It is not just as far as within the last few months or in the 
last couple of years under Merida. We have been working with 
them at strategic levels in all areas of the government down 
there and along the cross-border communities to make sure that 
we provide them with the training, the assistance, and the 
capacity building to make sure that they are able to fight this 
fight as they go forward.
    I think certainly when you take a look at the initiatives 
that are now being considered as we get into this year and 
beyond, the Merida Initiative will certainly add some 
additional value for training assistance, but also as far as 
bringing technology and other capabilities to Mexico to 
continue to sustain this effort as it goes further. I think 
those will be key aspects going forward.
    Finally, two remaining pieces for our responsibilities 
within CBP: First, making sure that we are, as the Secretary 
has directed us to do, stepping up the southbound efforts going 
into Mexico; and second making sure that we actually have the 
ability to take off some of the drug proceeds going into Mexico 
that is actually being smuggled back as part of the proceeds of 
this illicit trade going on in Mexico. In partnering with ICE 
in that, we have had over $23 million in the first few months 
of this fiscal year. That is substantially higher than last 
year. Weapons as well.
    One of the things I think this government has to do a 
better job of doing is defining this 95 percent representation 
that continues to get made out there. About 95 percent of the 
weapons that are actually found in Mexico come from the United 
States. I think there is some nuance to that, and we need to 
continue to drill down with the U.S. law enforcement agencies 
that it is 95 percent of the commercially sourced weapons that 
are actually available in the United States that make their way 
to Mexico, and there are a lot more military grade that are 
coming in from other sources. We need to make a better 
definition so there is not the assumption they are all coming 
from here.
    But those are just some initial thoughts.

                     ACCELERATE COOPERATION LEVELS

    Mr. Price. Mr. Koumans, just briefly, if you can telegraph 
a few areas, and we will explore them further.
    Mr. Koumans. If I understood your question correctly, and 
thank you for the opportunity, you asked how to accelerate and 
how to take our cooperation to new levels?
    Mr. Price. What are the main dimensions of a stepped-up 
effort as you envision it?
    Mr. Koumans. I will try to give a two-part answer. One is 
on the Mexican side of the border; one is on the U.S. side.
    On the Mexican side, the centerpiece of the stepped-up 
cooperation is the Merida Initiative. It is a long-term 
partnership in terms of training and capacity building and 
equipment that we would be able to jointly work with Mexico. I 
want to stress that this is not the way it has occasionally 
been portrayed, as funding that would be provided to Mexico 
directly. I don't believe any of it is being provided directly 
to Mexico.
    This equipment that we discussed with them, discussed their 
needs, understand what they are, and then provide the 
equipment, provide the training to them so that it is not a 
question of cash that is being provided to Mexico. I want to 
make that clear.
    Also, the information and intelligence exchange that comes 
with the closer partnership, I think that is the ramping-up on 
that side, if I could just encapsulate it that way.
    On the U.S. side, I think Acting Commissioner Ahern has 
mentioned it is the weapons, it is the cash, it is trying to 
make sure--and Secretary Napolitano has asked us to really 
think outside the box, so to speak, if there is more that we 
could do, whether it is with respect to dogs or with respect to 
southbound inspections? Let us just sort of canvass the entire 
area and see if this isn't something we can do anywhere. That 
is an assessment that is ongoing, and that is something that 
she definitely wants to spend a lot of time focusing on.
    Mr. Price. Thank you.
    Mr. Rogers.

               SPILLOVER VIOLENCE INTO THE UNITED STATES

    Mr. Rogers. I am sorry. I don't think our government is, A, 
admitting to the truth of what is going on in Mexico; or, B, 
sufficiently tackling it. I think we are conveniently hiding 
our head in the sands of Cancun beach, and we are not seeing 
what the real problem is. It is a real problem for the United 
States of America.
    Now, the Intelligence Community, the U.S. Intelligence 
Community, and DHS both view the escalating violence as a major 
security concern, but they do not yet view this turf war 
between the cartels as a serious threat to the political 
stability of Mexico or conclude that there is notable spillover 
violence into the U.S.
    Let me point out we just arrested 750 people associated 
with the Mexican drug trade across the United States 2 weeks 
ago, 750 members of the cartel from Mexico and in U.S. cities. 
Don't tell me there are no spillover possibilities in the 
United States. Every major city in this country has legs of the 
Mexican drug cartel; do they not? Anyone want to dispute that? 
Didn't think so.
    An estimated 90 percent of the cocaine entering the United 
States transits Mexico from South America. In exchange, it is 
estimated there is $23 billion a year that flows south from the 
United States predominantly to the Mexican drug cartels, not to 
mention the weapons that go along with it.
    Mexico serves as the main foreign supplier of marijuana, 
major supplier of methamphetamines to the United States. Mexico 
accounts for only a small share of worldwide heroin production, 
but it supplies a large share of heroin consumed in the United 
States. In other words, it is transiting Mexico.
    Mexican drug cartels now dominate the wholesale illicit 
drug market in the U.S. It is Mexico, and it is the drug 
cartels in Mexico. Now, do you think they bring those drugs and 
leave them on the border with the United States, and that is 
the end of it? No. Of course not. They have to distribute the 
drugs in the United States and receive the proceeds from that 
and transit the proceeds back to the cartels in Mexico. For 
that you need an organization in the United States.
    And they are the dominant supplier of all drugs in the 
United States in every city and town in this country. And yet 
we have our head in the sand saying there is no notable 
spillover violence into the U.S. Give me a break.
    Do you think the killings, and the beheadings, and the 
torture, and the assassinations and the corruption in Mexico is 
limited to Mexico? Of course not. It is a major problem inside 
the U.S., and yet I don't see us taking it seriously. Please 
tell me I am wrong, Mr. Ahern.
    Mr. Ahern. I think one of the things we obviously led you 
to conclude is that we didn't believe there was a certain 
amount of drug activity that actually transits our borders in 
United States, and the criminal enterprise that becomes part of 
that with the proceeds and the weapons that go back south, and 
that actually leaves a lot of crime in the city. That was not 
the intent of our statement.
    What we were alluding to is that we have not seen the 
spillover in mass quantities of people looking to mass 
migration out of Mexico or fleeing of individuals from Mexico 
because of that violence coming north across our border. So 
that was the characterization that we were looking to achieve 
in our statement, not that there has not been a result of the 
drug product that is being sourced or transited through Mexico 
ending up here in the consumption in the United States and the 
whole criminal enterprise surrounding that. We are not ignoring 
that fact at all.
    Mr. Rogers. Well, thank you. And I don't see a 
corresponding action. Admittedly the State Department, Justice 
Department notably, ought to be on this with all four feet. And 
the BEST groups are working. But I don't think there is a 
realization by our government yet of the seriousness to the 
instability of Mexico, and we are talking about armed gangs of 
maybe 100,000 people belonging to these cartels, which rivals 
the Army of Mexico, armed probably better than the Army of 
Mexico. And the President, God bless him, is moving those 
troops to the U.S. border. I think some 7,000 were moved up to 
El Paso or Juarez just recently.
    So the Mexican Government realizes the difficulties. And, 
you know, you can only imagine what would happen if the gangs 
took over Mexico, the Government of Mexico. It is not beyond 
comprehension. And the difficulties that that would cause the 
United States are unimaginable. And yet I do not see the U.S. 
taking this thing as serious as they need to take it.
    Let me just close with this, Mr. Chairman, to remind us of 
what we are in for here: the brutal kidnapping, torture, and 
murder of retired Brigadier General Enrique Tello, a high-
ranking counterdrug official in Mexico, in Cancun a couple of 
weeks ago. They broke his wrists, they broke his elbows, they 
broke his knees in the torturing process, and then finally 
murdered him; especially troubling because it involved a 
corrupt chief of police in Cancun and violated a long-standing 
cartel tradition of making sure that Cancun remains a safe 
tourist destination and a safe haven for the cartels' 
operation. They want to keep that place untouched, and yet that 
is where they tortured and murdered this high-ranking general 
in the Mexican operation.
    And so, I am sorry, Mr. Chairman, I don't think we are 
taking this nearly as seriously as we need to take it.
    Mr. Price. Thank you.

                       LICENSED FIREARMS DEALERS

    Mr. Farr. Thank you very much, Mr. Chairman.
    I can't help but think that this is a border with bilateral 
issues, and certainly Mexico is one of our largest neighbors 
next to Canada, is really one of the leading countries in the 
world. I think it ranks 15th in the world in GDP, and it is 
California's number one trading partner and is obviously very 
important to our economy, and yet a country that is very 
serious about the problems of transnational cartels that are 
passing through their country and corrupting their people.
    But if we were a panel today of Mexican Congress Members, 
and we were having the same hearings, we might look at this 
border a little bit differently, because last year 5,376 
people, citizens of Mexico, were killed by the cartel. Of those 
were 850 police and military. If we had lost 850 Border Patrol 
and Marine officers last year, we, Congress, would be 
absolutely livid. Why is this happening?
    And what they would be asking is, what is going on? Why is 
all of this cash from America being able to flow down here to 
buy this stuff, and why are all of these arms--95 percent of 
the weapons seized were American arms. They would be looking at 
it as an American arms cartel. And I think a lot of people, at 
least in my State or in my district, would argue that those 
guns killed a hell of a lot more people than marijuana that was 
smuggled into this country.
    I mean, I think we have to put this into perspective, and I 
think to get it into perspective is we have bureaucracy 
jurisdictional disputes here. We have 7,600 Federal firearms-
licensed dealers in the border States. And the ATF is 
responsible for inspecting those, and they don't get around in 
less than 5 percent of them. And they don't have the manpower. 
And so you say, well, it is their responsibility. Well, let us 
change it, because our Secretary emphasized in her testimony 
the necessity for a broad, multiagency response to attack the 
flow of weapons and money that continues to fuel the violence. 
That is our side. That is us.
    So what are you doing, as law enforcement, to make sure 
that every one of those 7,600 Federal firearms-licensed 
firearms dealers are inspected regularly? And what is your plan 
to do that this year?
    Mr. Ahern. Well, I think certainly from Custom and Border 
Protection's perspective, you correctly stated this is not 
necessarily the responsibility of this organization.
    Mr. Farr. Let us make it the responsibility. Can you do 
that?
    Mr. Ahern. I don't think that is within our jurisdictional 
responsibility.
    Mr. Farr. Can you do it if we give you the jurisdiction?
    Mr. Ahern. I think this needs to be looked at in a 
comprehensive way, sir. And I think one of the things--going 
back to even the Ranking Member's comments, I think that the 
United States Government has not acknowledged necessarily, or 
this Subcommittee who has actually provided significant 
appropriations, to taking a look at one of the most significant 
parts of this problem, and that is the drug trade coming north 
from Mexico to the United States.
    Mr. Farr. The Merida Initiative is about investing in the 
infrastructure of Mexico to handle that problem. I am asking 
about what we are doing in this country to handle our problem.
    Mr. Ahern. I was going to get to that point when I take a 
look at what we have done to actually provide greater 
responsibilities and securities of our border so that the drugs 
do not come to the United States to then turn into proceeds to 
go back south. That is a key part of any strategy. That is 
going to be an essential component going forth. That is our 
responsibility, and that is what this committee has been very 
good as far as doubling the funds of our organization from 2004 
to 2009.
    Mr. Farr. How much funding does the ATF have for inspecting 
those 7,000 gun dealers, and obviously they are on the border 
because it is good business.
    Mr. Ahern. I don't have what the funding is for it.
    Mr. Farr. The ICE has 20,000 employees, and CBP has 20,000 
employees. You each have budgets in the billions, and it is 
about this border, it is about transborder stuff. If the ATF 
can't do the job, then let us put it in the hands of somebody 
who can that is already there along the border. Maybe the ICE 
can respond to that.
    Ms. Forman. Sir, as Commissioner Ahern alluded to, it has 
to be done together with the collective resources. We work very 
closely with the Alcohol, Tobacco and Firearm, ATF, in 
addressing this, and that is the benefit of the Border 
Enforcement Security Taskforces.
    Mr. Farr. Let me just ask the question. What is it going to 
take to inspect all of these gun dealers? If I were a Mexican 
legislator, and all of these people had been killed in my law 
enforcement and military people, I would want to know what the 
heck the United States is going to do. And you haven't been 
able to give me an answer.
    Ms. Forman. You would have to get with ATF since they have 
the jurisdiction, and they can give a better assessment, sir.
    Mr. Farr. I pity your Ambassador.
    Mr. Price. All right. Thank you.
    We are happy to welcome our Full Committee Ranking Member. 
And, with unanimous consent, we will run him ahead of his 
colleagues here and invite him to make whatever statement he 
would like at this point.

        STRENGTHEN OUR ABILITY TO COORDINATE WITH OTHER AGENCIES

    Mr. Lewis. Thank you very much, Mr. Chairman.
    I am very sorry to arrive late, but I was at a hearing 
regarding the Merida Initiative in the Foreign Operations 
Subcommittee. The need for coordination between our 
Subcommittees and our various responsibilities is very obvious.
    Mr. Farr began by raising the right questions regarding 
some of the arms questions, but we have to change the law to 
give them that authority. And we are just beginning to think 
through what our responsibility is here. It seems to me that it 
is very important for us to know that this is a crisis.
    For the first time in my memory, suddenly the responsible 
leadership of Mexico is attempting to reach out to the United 
States in a foreign, kind of, policy way. Historically, their 
sovereignty issues have said, we don't want foreign aid from 
the United States, et cetera. But this problem is so serious in 
terms of impacting the lives of their people and so serious 
also in terms of dollar flows that can corrupt their society. 
It is obviously a huge problem on our side. Even though some 
people would say ``relatively small numbers,'' et cetera, my 
God, what is happening with those drugs to kids in Chicago and 
New York and Los Angeles is unacceptable from an American 
perspective.
    Historically, the border towns along our border, from a 
Mexican perspective, have really been the million-dollar 
slumlord circumstance. They could have cared less about Tijuana 
and Juarez, et cetera. Mexico City is pretty snooty about their 
northern border. Now, because of the drug circumstance and the 
challenges, that is changing. They are allowing for some 
serious coordination. And I would hope you would give us some 
ideas as to how we can better strengthen your ability to 
coordinate with other agencies.
    In the other hearing I just came from, I learned that one 
of our problems is the Department of Defense, in some way, puts 
Afghanistan ahead of the challenges on the Mexican border. I 
used to chair that Subcommittee, the Defense Subcommittee. 
Today I will tell you I think what is going on between our 
biggest trading partner, from a California perspective, and 
this drug problem makes it our number-one challenge. And so I 
would hope we would re-examine what we have done with the law 
to allow all of these agencies to work better together.
    In terms of just equipment, UAVs are being used on both the 
northern and the southern border of the United States 
reasonably effectively. But the Department of Defense is not 
making available helicopters. You can't chase these people 
around in trucks, for goodness sakes, and yet they are, kind 
of, awaiting the newest of helicopters to come off the assembly 
line. We have helicopters in mothballs that can be pulled out 
if we give this crisis proportion.
    And I would hope your voices would help us look at our law 
and the agencies that you coordinate with to allow you to 
better do the job I know you want to do. It is killing kids in 
the United States, but it potentially could destroy this great 
country, our neighbor to the south, Mexico.
    So I really come today largely to listen to you but also 
deliver that message. All of us must help us better figure out 
how we can change our law, broaden the regulations otherwise to 
allow you to be more effective at your job. So that is a long 
way of saying that I have great respect for what you are trying 
to do, but we haven't done a very good job of examining how we 
can help you do it better. Mr. Chairman.
    Mr. Price. Thank you. We welcome your comment.
    Mr. Ahern. I think certainly, to the aspect of UASs, we do 
have six in our inventory now. We are using them very 
effectively. We have been in discussions with the DOD about any 
additional assets for light helicopters to be able to take a 
lot of chief's response teams into certain areas. We are still 
continuing those discussions.
    I think, again, I want to try to make another attempt at 
talking about a comprehensive approach here. We need to make 
sure as far as that we are doing things from a variety of 
perspectives. We need to be looking, as this Subcommittee has 
funded Customs and Border Protection to the tune of well over 
$100 million, to go ahead and provide service life extension to 
our P-3 aircraft, so we can do more interdiction in the transit 
zone, which I spoke about in the first hearing, where, just in 
the first few days of January of this year, we had four semi-
submersible subs that had 25 metric tons that did not get into 
Mexico.
    So you have the ability to have a defense-in-depth 
strategy, you can go ahead and be more successful, take out the 
transportation, take out the violence that is occurring in 
Mexico by having a better defense-in-depth strategy. We are 
doing more of that again. Thank you to this committee for 
providing the extension for our P-3s to keep them up. They are 
working in coordination with the Navy and the Coast Guard 
through JIATF-South out of Key West. That has to be a key 
component.
    And then certainly, as far as it was spoken about, is we 
need to help Mexico, we need to help build the capacity through 
training assistance and deployment of additional technology and 
help them manage their borders to the south as well as to the 
north. We are prepared to do that under the Merida Initiative. 
And we will continue to have other initiatives through Firewall 
and other things that we have been doing with Mexico for a 
number of years to continue to take a full-court press in those 
aspects as well.
    Again, I don't think it should be just dismissed, what this 
Subcommittee has funded for Customs and Border Protection, for 
building 610 miles of fence and doubling the size of the Border 
Patrol and adding additional assets for ports of entry to make 
sure that we do have a good, strategic defense at our borders 
to make sure that we continue to interdict more and provide 
that level of security here. I think those are just some 
examples of what we need to continue to build that defense-in-
depth strategy, not a single solution to this very significant 
problem, sir.

             WEAPONRY FROM CHINA, INDIA, AND OTHER SOURCES

    Mr. Lewis. Mr. Chairman, I would hope that we wouldn't, as 
a Committee, get so wrapped up in the gun control rhetoric here 
that we fail to recognize there are monies being used to buy 
weaponry from China, from India and other number of sources 
that are major factors in their ability--that is, the drug 
gangs, to exercise themselves in a very violent way. We 
absolutely must plug in our intelligence agencies in a way that 
they are really helping us but helping the Mexican Government 
better understand how we go beyond just building a wall between 
Mexico and the United States.
    Mr. Price. Thank you.
    Mr. Ruppersberger.

                    STRIKE FORCE CONCEPT AND FUNDING

    Mr. Ruppersberger. I agree with Mr. Ahern. You need a 
comprehensive approach. But I would like to talk about some 
solutions. Can we state our positions? Sometimes we might not 
know what your jurisdiction is.
    Number one, we are successful in other parts of the world. 
I said that in the last round. And if we want to make a 
difference here in our own borders, that we have not been able 
to do, it has to start at the top. It has to start with the 
President. And the President needs to be able to fund what 
needs to happen. You have to have a plan.
    Now, let's look at some of the things that work. I think 
probably one of the best organizations that I have seen that 
probably helped us with the issue of terrorism but other issues 
is JTTF. You all are involved. You have Federal, State, and 
local. You have NSA, you have CIA, you have a strike force 
concept. And when you have a strike force concept, it is team 
work. You know, it is not one agency pitted against another. I 
mean, I have seen personally Homeland Security battling with 
the FBI on some issues, or with the New York City Police. So, 
you know, you need that concept. And do you agree with a strike 
force concept? Because then you have the team looking at where 
you need to go. I am going to ask you that.
    Secondly is the funding. If we don't take seriously what is 
happening in Mexico and how it is affecting and impacting our 
crime, our drug gangs in the United States, then we are really 
saying we are going to spend more money in other parts of the 
world than we are right at our own border. If a country can't 
control its borders, what can they do?
    And the other issue that I think is extremely important is 
that we need to look at successes. I think we need to look at 
Colombia, those of us who have been involved in intelligence 
and other areas. Colombia is working because of a couple of 
reasons. One is you have a president at the top who is not 
corrupt and is taking a strong position. You have that with 
Calderon right now. Fox didn't have the power; Calderon does. 
So we have a window of opportunity to deal with that.
    You have to deal--when are dealing with another country, 
you have to develop the relationships with the people, who you 
can trust and who you don't, and you have to take out those 
corrupt people, whether it is policemen, military, whatever. 
But I think with Calderon there and his ability to move the 
troops to the front line right now, it makes a difference, with 
our help. It can only be done with our help.
    Intelligence, as Mr. Lewis said, is so important. You need 
the intelligence, not only to collect it, but you also need it 
to analyze it so we know where our priorities are and where we 
need to go and how we need to do it.
    Now, I have just thrown out some issues. Please comment on 
some of my comments.
    Mr. Ahern. I think, certainly, when you two talk about as 
far as the task force concept, that makes perfect sense to us. 
And I think on probably just about everything you stated there 
is----
    Mr. Ruppersberger. Because you don't get involved in the 
jurisdiction issue. Like, Mr. Farr was right; what can you do? 
Well, you can't because by law you can't, and you don't have 
the resources either.
    Mr. Ahern. Right. So I think that makes sense for us to 
continue to work through those. And, as Ms. Forman can speak 
to, the BEST task force is what we are doing jointly with ICE 
and CBP again. We are actually the interdiction agency, which 
actually feeds off a lot of the intelligence and the 
investigative information. So it is in our interest to be 
closely aligned with a lot of the task forces and be part of 
those. That makes great sense for us.
    One of the final points that you talked about for, you 
know, intelligence-driven--certainly when you look at the 
traffic going into Mexico of weapons and money, I believe one 
of the most effective ways that we will be successful going 
forward is to be much more intel-driven and investigative-
driven. Because, again, people going into Mexico can actually 
predict and they can kind of pulse their time when they are 
going to be trying to smuggle weapons or currency into Mexico. 
So they can actually hold off, whereas, northbound, they know 
they have to come through that process for being admitted into 
the United States. There is not that same rigor going in the 
southbound mode.
    That is one of the things the Secretary has challenged us 
to put it together. And, actually, I don't want to get ahead of 
the Secretary or the President's budget, which will be coming 
forward very shortly, but you will see some initiatives in 
there. And, certainly, the Congress will have an opportunity to 
enhance that, if you see so fit.
    Mr. Ruppersberger. I agree with that. All you have to look 
at is Iraq and our sophistication now and our ability to take 
out bad guys in Iraq, al Qaeda. One of the things that has 
occurred in Iraq is that we have been able to really hurt al 
Qaeda. If we use those same resources and same focus at the 
Mexican border, we could be able to do the same thing. And we 
have not done it. And, again, it starts at the top, with 
Congress approving it.
    Thank you.
    Mr. Price. Thank you.
    Mr. Calvert.

                              COORDINATION

    Mr. Calvert. Thank you, Mr. Chairman.
    I would just like to carry on with the theme that seems to 
be coming around here, and that is coordination. Putting aside 
marijuana, crack cocaine, heroin, or methamphetamine, I don't 
want to dwell on it, but it seems to me thousands of people's 
lives have been lost to methamphetamine and thousands of 
families destroyed because of drugs, including cocaine and 
certainly heroin and the rest of it. It is a poison that is 
affecting our country.
    Our jails in California are jammed full of prisoners. We 
can't get more prisoners in our jails. As a matter of fact, we 
are going to have to do a release, apparently, of so-called 
nonviolent criminals in order to get more room for the 
criminals, many of which, if not the majority, are drug-
related.
    And there is a lot of cash involved in this. And we are 
talking about corruption in Mexico, but when you have this much 
money, as Mr. Rogers indicated, $25 billion approximately, in 
profits from this drug trade supposedly moving back south to 
Mexico, I suspect a lot of it stays in the United States.
    And while we are doing this coordination, I remember back 
years ago when we had the problems in south Florida with the 
Colombian drug trade, the U.S. Treasury had a lot to do with 
stopping that trafficking by using their ability to go after 
the cash and go after the individuals who were distributing 
both the drugs and hoarding the cash and sending it back to 
Colombia. What efforts are we doing to work with Treasury and 
other agencies to go after these folks and to capture them?
    Ms. Forman. If I can address that, Congressman, I actually 
was around during the 1980s when Miami had that influx of cash, 
and we are using a lot of the same tools. We work in 
partnership with Treasury. ICE, through the Homeland Security 
Act, has adopted all the authorities necessary to go work with 
our partners at CBP to go after the money that fuels this 
criminal activity.
    We are using the Bank Secrecy Act. We are using the new 
authorities under the PATRIOT Act to go after bulk cash 
smuggling, which actually criminalized the smuggling of 
currency outside this country. And the number-one requirement 
is those criminal organizations who obviously will not report 
that money going----

                          BULK CASH SMUGGLING

    Mr. Calvert. Let me ask quickly, on this bulk cash 
smuggling, is that primarily going across the border by land, 
or is it going by air, or is it going by sea, or all of the 
above?
    Ms. Forman. All of the above.
    Mr. Calvert. Is it going back into Mexico, or is it going 
to other third-party countries?
    Ms. Forman. Some of it is staying in Mexico. Some of it is 
being transferred through Central and South America.
    Mr. Calvert. Some of it is staying in the United States 
being laundered into other so-called legitimate enterprises?
    Ms. Forman. Yes, yes. Some of it is being disguised in what 
we refer to as trade-based money laundering, where legitimate 
goods are being used and purchased by corrupt individuals and 
exported into Mexico and other countries.

                      PUBLIC OFFICIALS' CORRUPTION

    Mr. Calvert. So this corruption is not just affecting 
Mexico, it is affecting the United States, there is too much 
money out there. Has there been evidence that you have been 
able to obtain where any public officials have been 
contaminated by this?
    Ms. Forman. Not to the best of my recollection. Oftentimes 
the products themselves in this trade-based money laundering 
scheme--the manufacturers and the importers are willingly 
selling to third parties when they don't know that the origin 
of the funds are actually from narcotics or some other illicit 
activity.

                    AIR AND MARINE OPERATIONS CENTER

    Mr. Calvert. Any other comments from the rest of the panel?
    One of the things I want to mention, AMOC is in my 
congressional district at the March Air Reserve Base. You 
mentioned the use of ultralights and this technology, and 
Chairman Lewis mentioned the problems of not using helicopters.
    Wouldn't helicopters be helpful in these ultralights? I 
imagine you can see them, but there is not a lot you can do 
when they are flying by. Would helicopters be helpful if you 
had that equipment on the scene?
    Chief Aguilar. Yes, sir, we do have helicopters; of course 
we could always use more. The capability to detect those 
ultralights flying through our borders is what we are working 
towards also.
    Mr. Calvert. Could we improve the technology at AMOC to 
have low-altitude detection?
    Chief Aguilar. They are looking at that, but we believe our 
best shot at it is going to be through our SBI technology that 
will cover that gap that exists currently between what AMOC can 
do and----

                              ULTRALIGHTS

    Mr. Calvert. Now, what are they primarily putting on these 
ultralights, is it people or drugs?
    Chief Aguilar. Narcotics.
    Mr. Calvert. So if they are putting them on ultralights, 
high-priced narcotics. What is the primary drug that is on 
these ultralights?
    Chief Aguilar. What we have seen is marijuana on the 
southern border.
    Mr. Calvert. Marijuana?
    Chief Aguilar. Yes.
    Mr. Calvert. They don't put methamphetamine, heroin?
    Chief Aguilar. Not that we have seen yet. Of course, we 
know that there are others that we just have not----
    Mr. Calvert. What is your capture rate on these 
ultralights, is it pretty low?
    Chief Aguilar. Capture rate? We have radar readings. I 
think we have apprehended all of about six. I don't have the 
most up-to-date numbers on the actual radar readings. I can get 
that for you.
    Mr. Calvert. Thank you, Mr. Chairman. I would like to have 
that.
    [The information follows:]

    For FY 2009, there have been a total of 3 ultralights 
seized. All were transporting marijuana. The remains of a 4th 
ultralight was found, which had been modified to transport 
narcotics. However, no narcotics were discovered at the scene 
and it is believed that they had already been loaded up and 
removed.

------------------------------------------------------------------------
             Date seized                    Amount of drug on board
------------------------------------------------------------------------
10/08/2008..........................  223 lbs marijuana
11/28/2008..........................  140 lbs marijuana
12/23/2008..........................  350 lbs marijuana
------------------------------------------------------------------------

    Mr. Price. Thank you.
    Mr. Rodriguez.

                         COORDINATION WITH ATF

    Mr. Rodriguez. Thank you very much.
    And let me apologize. I had a death in the family. I just 
flew in just now.
    But, first of all, let me thank you for what you have been 
doing. And I represent more the border than anybody else in 
Congress. And what is occurring in my area, at least on our 
side of the border, has been really much more than what we had 
seen in the past, and it is pretty safe in comparison to what I 
hear about other places.
    I represent Eagle Pass, and they have a pretty good 
relationship with Piedras Negras. I represent Del Rio, and we 
have a pretty good relationship with Acuna. And we have had 
some little troubles there in Presidio a little bit in terms of 
with the flood and other things, but, you know. And, of course, 
I have parts of El Paso, but not the inner-city. In that area, 
things seem to be going okay. The Border Patrol has a good 
presence, and it has been beefing up. The beefing-up has 
definitely made a difference, at least in that specific area.
    And I know that one of the questions that I would have is 
there were three bridges that were closed, that were small, 
that were not official openings, that create some kind of 
difficulty, not only in terms of trade but also just 
communication with the other side, the ones in Lajitas, 
Lindalu, Boquillas, where people were having dialogue before. 
You know, I have lived on the border all my life. We would go 
across and eat and come back. We don't do that anymore, mainly 
because of the time consumption and other problems that exist 
now.
    And so, I think what has happened now is that--and if we 
are going to displace blame, we all need to take 
responsibility, including the Congress and the Administration 
and previous Administration, and that is that we need to have 
more dialogue with Mexico and we need to work closely with 
Mexico in a variety of different ways. We have started to do 
that. It hasn't happened as much as I would like to see it, 
because it is our number-one training partner for Texas, and I 
hear that it is the same thing for California and number three 
for the Nation. So we have to make sure that we keep trade 
flowing, but at the same time making sure that the cartels 
don't win in Mexico.
    I wanted to ask you about your coordination with ATF. I 
worked hard, along with Senator Hutchison, to get some money 
there to ATF and cut the guns going south. We know that Mexico 
does not allow for their citizens to be able to have guns the 
way they do, and those guns are flowing south. We know money is 
flowing south from the sale of drugs. And we know that we are 
part of that problem; we have an appetite for drugs. I don't 
know what it is; they have estimated $50 billion to $80 billion 
appetite that we have. And so they are filling that appetite 
illegally.
    And so, how do we begin to put a stop to that money flowing 
back, those guns flowing back, and those drugs coming in, as 
well as developing those relationships that I think are 
essential for us to secure our borders?
    Ms. Forman. Congressman, if I could address that, thank you 
for your question. I think the border enforcement security task 
forces are a very good start, a very good platform for a multi-
agency, comprehensive approach to attacking both currency 
smuggling as well as weapon smuggling.
    In response to your question regarding our relationship 
with ATF, we have a very good relationship with ATF. We 
coordinate regularly. Our Armas Cruzadas initiative, targeting 
weapons going south, is done jointly with ATF. We are in the 
process of renegotiating a memorandum of understanding with 
ATF. And we are working side by side. There are participants in 
these Border Enforcement Security Task Forces.
    So we are using all the authorities of federal, state, and 
local. And what makes these BESTs more unique is the fact that 
we actually have Mexican participation in five of our BEST on 
the southwest border. And there is constant flow of 
communication, real-time communication.
    Mr. Rogers. Will the gentleman yield briefly on that point?
    Mr. Rodriguez. Yes, sir.
    Mr. Rogers. The only agency that has authority to prosecute 
arms cases for being smuggled out of the U.S. is ICE in the 
Department of Homeland Security. ATF is an inside-the-U.S. 
operation. ICE could prosecute those smuggling weapons outside 
the country. And I don't think ICE is doing a doggone thing 
about it.
    Mr. Rodriguez. When you talk about the coordination in that 
area, you know, would you respond to that comment that was 
made?
    Ms. Forman. Yes. We currently have eight Border Enforcement 
Security Task Forces on the southwest border, 12 in totality 
nationwide. ATF are participants, actually sitting side by side 
with ICE and our other federal, state, and local partners.
    Mr. Rodriguez. Who is prosecuting the one that came out in 
the New York Times regarding the Phoenix gun sale of those guns 
that were found, you know, that occurred in Mexico?
    Ms. Forman. That case is being worked jointly between the 
Special Agent in Charge Office in Arizona and the Mexican 
Government. Our office in Arizona shared that information with 
the Mexican federal police in order for them to effect that 
enforcement action.
    Mr. Rodriguez. Okay. Now, that is the first one that I hear 
at least--and I apologize, there might be others--but that is 
the first one I hear that is, you know, mainly because it was 
publicized. Are there any others that are occurring as we 
speak?
    Ms. Forman. Yes. We have a number of cases that we are 
working jointly with the Mexican Government, in a number of 
forums. I can get you a list of those investigations, but we 
have quite a few.
    Mr. Rodriguez. What do we need to do to help you get the 
job done?
    Ms. Forman. First, I would like to thank Congress for the 
funding that they provided for the Border Enforcement Security 
Task Forces in 2008. I think this is a very strong platform, 
multi-agency. The Secretary has identified the Border 
Enforcement Security Task Forces. They are our response to the 
Joint Terrorist Task Force, in terms of identifying and working 
and targeting organizations involved in trans-border crime.
    Mr. Rodriguez. If I can ask you maybe later on to give us 
some feedback on some recommendations that might be needed if 
there are some gaps in those areas, okay?
    Thank you.
    Mr. Price. Thank you.
    Mr. Carter.

                           TRACKING THE MONEY

    Mr. Carter. Thank you, Mr. Chairman.
    My office gives me clippings of things of interest. And 
yesterday it was an article about a man who was shot in a 
prominent and popular, according to the Houston Chronicle, 
restaurant, shot exiting this restaurant by drug cartels. He 
was shot dead in the street. And he just happened to be 
innocent; he wasn't the guy they were hunting. But they were 
told to shoot somebody who had on a Dallas Cowboys sweatshirt, 
and this guy, unfortunately, he and his family came out, and he 
was shot dead in front of a very popular restaurant, according 
to the Houston paper.
    They know it was a drug hit because, a day later, in an 
apartment, the man they were hunting, they really were going to 
shoot, opened the door and was shot three times in the head, 
which is pretty much a standard-hit-type shot by anybody that 
is shooting somebody.
    Now, I was born and raised in Houston, so, as far as I am 
concerned, it has spilled across the border, okay.
    Now, I have a couple of questions that I just don't 
understand. If there is $60 billion to $80 billion worth of 
money being made from drug trafficking, you are not telling me 
they are packing $60 billion or $80 billion worth of money 
across that border in cash. It can't be done. It is too bulky. 
It is worse than marijuana, okay? So somebody is wiring money 
someplace if that kind of money is moving, okay?
    If there is $60 billion to $80 billion moving, is anybody 
doing anything about tracking the money? And how are you 
tracking the money.
    Ms. Forman. Congressman, ICE, in conjunction with CBP and 
our other Federal partners, are tracking the money. We have 
recognized for over 30 years that the lifeblood of any criminal 
organization is the money. And there are various ways to move 
that money.
    Due to the stringent regulations now required by the 
traditional banking and nontraditional banking under the Bank 
Secrecy Act and other legislation, these criminals are being 
forced to use more riskier means. In conjunction with our 
partners, with CBP, we have seized millions upon millions of 
dollars in bulk currency on our Nation's highways heading 
south, as well as at the border and the ports of entry.
    Yes, there are other ways. There is trade-based money 
laundering. There are other ways to disguise the origins of the 
funds, which we have also developed initiatives to address, 
such as our Trade Transparency Units working in conjunction 
with our Federal partners, to include Mexico.
    Mr. Carter. I understand we toss around ``billions,'' 
around here, like honey bees. But the facts are, the numbers 
that we just heard said three times, because I have been 
listening, is $60 billion to $80 billion--with a ``B,'' billion 
dollars. So $100 million is a very small portion of $1 billion. 
And if there are $60 billion or $80 billion, somebody is moving 
money somewhere besides hauling it across the border.
    Another question I have, because this came to me from a----
    Mr. Lewis. Excuse me. Before you leave that--the Judge is 
touching on a very, very important item. If there are ways that 
the law needs to be changed or regs need to be changed to 
strengthen your hand to better coordinate with CBP and other 
agencies, our intelligence agencies--the money is fundamental. 
To be happy with $100 million that may have been stopped 
doesn't even begin to touch $23 billion a year, for example. 
One way or another, this needs to be a war on money that 
relates to drugs, because our kids are being killed, let alone 
worrying about Mexico. Thank you.

                    PLANS FOR MASS MIGRATION TO U.S.

    Mr. Carter. A National Guardsman from Texas rode in the 
airplane with me up here to Washington, and we were talking 
about the border. He had just been stationed working down on 
the border with the Texas National Guard. He said that they 
have a pool going for when the first RPG will be fired in the 
United States. And I imagine you may have heard about that.
    The question is, there are people that are working that 
border who think that somebody will shoot an RPG in the United 
States in the near future, which means a war has moved across 
our border. They also are afraid that, if it goes westerly, as 
we say in Texas, down there in the northern part of Mexico, it 
is going to be a war. And when it does, a lot of people are 
going to trek across the border, by the thousands or maybe even 
millions. Joining those people will be people who want to come 
anyway.
    Do we have any contingency plan to deal with the possible 
reality that Mexico blows up and people start walking across 
the border, saying, ``I want to be saved from this violence 
down here'' by the millions? Do we have any plans working on 
that?
    Mr. Ahern. I will offer one thought, and then others may 
want to go ahead and add to it.
    I know that previously Secretary Chertoff, going back to 
June of this past year, chartered a group to actually come up 
with contingency plans for each one of our locations along the 
border. So every single one of our ports of entry, every one of 
our southwest border stations and sectors actually have 
contingency plans if we start to see triggers occurring south 
of the border that could indicate there might be a mass exodus 
from Mexico or a running gun battle, if you will, coming across 
that border, or this predicted RPG coming north.
    So we have actually put those plans in place, and they are 
very detailed at this point in time at each one of the 
locations, so that we have a various tiered approach, if you 
will. And we have presented this to Secretary Napolitano within 
the first couple weeks of her arrival, as well, and we are 
continuing to enhance it upon her request.
    What do we actually need to do to bring additional 
resources within, first, the first responders, if you will, 
Customs and Border Protection at the border. That is, kind of, 
the first tier of the plan. That is then offset by ICE 
additional resources. We are talking about a special response 
team, we are talking about our equivalence of SWAT teams that 
we have within the DHS portfolio.
    A critical piece of this going forward is the State and 
local governments, as well, that are frequently our first 
responders or additional reinforcements that come in right 
away. We have seen it when we have had some of the shootings 
over in Columbus, New Mexico, and when we had some of the 
shootings over in Palomas, just going back last summer as well. 
They are there constantly to go ahead and reinforce our efforts 
in those particular environments.
    Then a lot of it then falls on the back of the State 
governments, what more can they bring to the fight through 
their department of public security or the National Guard, if 
necessary, depending on how things tier going forward.
    So those have been very thoughtfully considered at this 
point, and those plans are ready. And, in fact, we had an 
incident going back a couple weeks ago where we actually 
exercised it based on a piece of intelligence that we are 
fortunate didn't develop.
    Mr. Carter. Do you think that, if you call up the Guard, 
you will give them bullets this time, if that happens?
    Mr. Ahern. Depending on what point in time you are talking 
about, they would certainly be armed and ready to go, sir.
    Mr. Carter. Thank you.
    Mr. Price. Thank you.
    Mrs. Lowey.

                  RECEIPT OF OVERSEAS PASSENGER LISTS

    Mrs. Lowey. Thank you, Mr. Chairman.
    Before I get to my question--and I apologize that I was 
next door at another hearing on Mexico--I just want to make one 
point, Mr. Ahern, since you are before us.
    Chairman Price and I toured JFK Airport in New York. While 
CBP's screening operation for visitors is very impressive, it 
did not receive passenger lists for incoming overseas flights 
until 30 minutes before takeoff, which leaves CBP offices a 
small window of time to run passenger names against the 
terrorist screening database.
    Incoming sea vessels must provide CBP information at least 
24 hours in advance. Airplanes should be no different. If the 
information must be provided at some point, why not do so 24 
hours in advance?
    Mr. Ahern, if you can just say ``yes'' or ``no,'' do you 
think it should be? And then I will go on to my relevant 
question.
    Mr. Ahern. Absolutely I do not think so in the air 
environment. You would cripple the airline industry, because 
they have a lot of last-minute travelers who actually do come.
    What I think is a better solution is the Advance Quick 
Query, known as AQQ, where, as people begin the check-in 
process oftentimes 2 hours in advance, that we have the ability 
to run them individually, versus what is currently happening 
when it gets batched and sent to us for targeting.
    One of the other things, too, for individuals who require a 
visa, that continuum begins when they go through the consular 
office for screening before they get on a plane. And now the 
Department has created the ESTA, which is the visa equivalent 
for individuals coming in. So we can query that before they are 
even given permission to travel in the United States.
    So if we want to deal with an already very fragile 
industry, go ahead and tell them that they need to provide it 
24 hours prior, you would have probably a lesser capacity than 
currently fly coming to the country.

                    PROGRAM COORDINATION WITH MEXICO

    Mrs. Lowey. Well, I obviously strongly disagree with you, 
and I would like to continue the discussion at another time.
    But, relevant to this hearing, as you know, I just came 
from a State and Foreign Operations Subcommittee hearing on the 
Merida Initiative. And I stressed that proper oversight, 
accountability, and increased transparency were essential in 
the program's implementation. I would be interested to hear 
more specifically about how our programs will create greater 
transparency, address impunity, corruption in Mexico's security 
and justice systems.
    We had a great deal of confidence in the President. He is 
just focused working hard trying to develop a strong 
partnership. But I would be very interested how we measure 
progress to ensure the DHS programs are effectively being 
implemented and proper oversight is being conducted.
    Whoever wants to respond.
    Mr. Koumans. Thank you, Congresswoman Lowey, for the 
opportunity.
    I believe the hearing you may have come from is the hearing 
that the State Department is leading, is that correct?
    Mrs. Lowey. My hearing, State and Operations, right.
    Mr. Koumans. Right, yes. And the State Department, of 
course, has the lead for Merida and has asked us--well, they 
have also the lead in determining metrics. Metrics is a key 
part of it; transparency is, as well. And we certainly want 
there to be transparency and clarity in achieving those 
metrics. But the State Department has the lead on that, and so 
we have to defer to them. Obviously, I think we would all like 
to see a decline in violence.
    But one metric that will be hard to measure, but one that 
we have already started to see, is the close cooperation and 
partnership that we are starting to see with our Mexican 
counterparts. Going back to some of the comments that 
Congressman Rodriguez mentioned, and Congressman Lewis earlier, 
this is an unprecedented partnership. And, as Congressman Lewis 
mentioned, there was some reluctance on the Mexican side in 
years gone by about developing this kind of, in some cases, 
somewhat intrusive kind of cooperation, where we sit down with 
them and talk to them about what exactly they are doing and how 
they are doing it and say, ``Well, actually, we do it this way 
and maybe we can consider working together, and let's share 
some of your data, let's take a look at your computer databases 
and see if we can work more closely together.''
    For a country as concerned, you know--the reputation that 
we have heard here from Congressman Lewis is the concern about 
their sovereignty, this a very welcome step, but it is an 
unprecedented step that the Mexicans have taken.
    And, to go back to Congressman Rodriguez's comment, that 
the need to partner with Mexico and the need to recognize and 
to put a priority on this, I, frankly, could hardly imagine a 
higher priority from Secretary Napolitano on this initiative.

                WORKING WITH MEXICO ON SECURITY REFORMS

    Mrs. Lowey. Let me just say this. As I mentioned before, I 
was very impressed with President Calderon's commitment to 
institute the police reforms and restructure the public 
security system. But I am still interested in knowing, what do 
you see as the major challenges in working with Mexico to 
implement these major security reforms?
    Mr. Koumans. Perhaps Mr. Ahern or Ms. Forman want to 
address that, as well. But I would say that there are a number 
of challenges. There are structural challenges. There are 
problems or challenges in terms of bureaucracy of what we are 
doing now, what we are in the stage of doing now.
    This may have been mentioned at the State Department's 
testimony, as well. Having reached agreement with Mexico, the 
bilateral agreement in terms of how we would allocate and how 
the State Department would actually disburse the funds, we are 
now at the stage of going line by line through the various 
proposed projects and identifying, sort of, team leaders, the 
experts in whether it be databases or whether it be a weapons 
issue or the nonintrusive inspection equipment that CBP is 
expected to have a key part in leading, just sitting down with 
them and identifying the people on each side to actually go 
through this.
    And there are considerable challenges, sort of, 
bureaucratically with the Mexicans. But we are making steady 
progress. And we have full confidence that, by fall, that 
virtually all of it we are looking at now will be well on the 
way to being implemented.

                      TRACKING TERRORIST FINANCING

    Mrs. Lowey. And lastly, Ms. Forman, your testimony mentions 
ICE has worked to attack the criminal proceeds that fund 
criminal organizations. Does ICE work with the Treasury 
Department offices that track terrorist financing?
    Ms. Forman. Yes, we do. We have a key role, working with 
Treasury, in the PCC, the Council on Terrorist Financing. And 
we contribute a lot in terms of bulk cash smuggling. As a 
matter of fact, under the Financial Action Task Force, working 
side by side with Treasury, they have adopted as one of the key 
elements cash courier and the targeting of cash couriers 
throughout the world.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman. Or should I go on?
    Mr. Price. No. We will move right along. Thank you.
    Mr. Culberson.

                MERIDA PROGRAM FUNDING AND PROJECT LIST

    Mr. Culberson. Thank you, Mr. Chairman.
    If I could, Mr. Koumans, would you please provide me with a 
snapshot of the amount of money in the Merida Initiative and 
that list of proposed projects that you are going line by line 
through? And my legislative director, Jeff Morehouse, is right 
here. He will work with your staff. Could we have a copy of 
that right away? I would like to know what the proposed 
projects are and where you are today with that money, in 
written form. Thank you very much.
    [Clerk's note.--Information provided in response to this 
inquiry is classified as ``For Official Use Only'' and has been 
retained in Committee files.]

                      NUMBER OF PEOPLE INTERCEPTED

    Also, I want to ask Chief Aguilar, Chief, out of every 100 
people that cross the border illegally for whatever purpose, 
how many, on average, on the southern border are intercepted?
    Is it my understanding, as a general rule, from working 
closely with you--and I just can't tell you how much I 
appreciate the work that all of you guys do. We admire you 
immensely. You truly are in our prayers on a daily basis. You 
are on the front lines of an undeclared war unlike any we have 
ever seen on the southern border, on a scale certainly unlike 
anything we have ever seen on the southern border probably 
since 1916.
    And I think we are at the point today when we need to send 
another ``Black Jack'' Pershing into the southern United States 
and put him in command of a true fast-reaction military force 
that can move up and down that border on the U.S. side. Because 
we are in a state of undeclared war on the southern border that 
has already spilled over, and it is just utterly unrealistic to 
think that it hasn't.
    Chief Aguilar, out of every 100 people that cross the 
border on average, how many are intercepted by U.S. law 
enforcement?
    Chief Aguilar. It all depends on the area where we are 
speaking to.
    Mr. Culberson. Sure. It is very different from area to 
area.
    Chief Aguilar. It varies. In those areas where we have 
effective control and we have operational control, things of 
that nature, it will vary anywhere from as high as 80 percent 
that we do apprehend, where we have means of measuring how many 
got away from us at that immediate tier.
    But, of course, we have a defense-in-depth tier where ICE 
will work with us, in Phoenix for example, make additional 
apprehensions. We have our checkpoints, our transportation 
checks and things of that nature.
    We have other areas, unfortunately, where we need to gain 
greater control. And our effectiveness rate, which is what we 
call it, is as low as 30 to 40 percent, even in those areas 
where we can tell what is crossing there.

                          OPERATION STREAMLINE

    Mr. Culberson. And one of the areas that is most effective, 
Mr. Chairman and Mr. Rogers, that we have talked about before 
in the committee, that I have had the pleasure of working with 
my friends, Ciro Rodriguez and Henry Cuellar, in Del Rio and 
Laredo, we have implemented with support of the Border Patrol 
in implementing Operation Streamline, which is a zero-tolerance 
policy strongly supported by the local community because the 
crime rate has just dropped, as Ciro said.
    In the Del Rio area, for example, Ciro, you have seen over 
a 60 percent decline.
    Mr. Rodriguez. I can only speak for my district. I don't 
include any other cities. But in my area it has been working, 
and they have done a tremendous job in that area. And still 
there are some things that need to be occurring. And the 
resources to the local communities there have been extremely 
helpful.
    Mr. Culberson. And I am happy to yield back and share my 
time with you, Ciro, on this, because it is a great success 
story.
    This is, Mr. Chairman, the win-win solution that I think we 
are looking for, is this program that is operating in Mr. 
Rodriguez's district, Operation Streamline.
    It has the effect of, Ciro, the crime rate has dropped 
dramatically in Del Rio. In the Laredo area, you have seen a 
dramatic drop in the crime rate. And it is simply because the 
law is being enforced, existing law. We have sent you some 
additional recourses.
    But the effect has been, Chief, isn't it correct, in the 
Del Rio area, you are at that essentially 80 to 90 percent 
arrest rate?
    Chief Aguilar. Yes, sir. I would qualify that as one of 
those areas, yes.
    Mr. Culberson. In the Del Rio sector. And then in the 
Laredo sector, where we also have Operation Streamline ramping 
up, aren't you at about a 50 or 60 percent arrest rate?
    Chief Aguilar. About 60.
    Mr. Culberson. Sixty percent in Laredo.
    It is win-win, Mr. Chairman. The local community is very 
supportive because their kids can play in the streets again. 
And we are working on getting it rolled out in the Rio Grande 
Valley.
    Chief Aguilar. Yes, sir.
    Mr. Culberson. You are at about a 25 to 30 percent arrest 
rate down there so far.
    Chief Aguilar. In some areas, yes.
    Mr. Culberson. In the Rio Grande Valley. But it is cranking 
up.
    Now, as you move further west, Mr. Chairman, in the west 
Texas area, which Ciro also represents, some of that rugged 
mountain country, there is not as many people crossing because 
it is a big country and very hot.
    But, now, as you move further west, and of course in the El 
Paso sector, what is the arrest rate in El Paso?
    Chief Aguilar. In El Paso proper right now, it is probably 
sitting between 50 and 60 to 65 percent. New Mexico, which is 
part of El Paso sector, is actually higher. It is probably 
closer to 70 to 75 percent.
    Mr. Culberson. In where?
    Chief Aguilar. In New Mexico.
    Mr. Culberson. In New Mexico, right. Now, then we move into 
the Lordsburg--that is the Lordsburg sector?
    Chief Aguilar. That includes Lordsburg.

                      OPERATION STREAMLINE CONT'D

    Mr. Culberson. That is Lordsburg.
    Now, the sector just immediately to the west, the Tucson 
sector, is a real problem, Mr. Chairman. And this is one that I 
have been out and personally visited with and we have talked to 
the committee about before.
    And this has not changed, to my knowledge, Chief. It may 
have improved a little bit. But you remember, just 12 months 
ago, when I visited the Tucson sector--this is an incredible 
fact, Mr. Chairman, to wrap up--is that if you are arrested in 
the Tucson sector, crossing into the United States illegally, 
carrying less than 500 pounds of marijuana, you have a 99.6 
percent chance of never being prosecuted and never going to 
jail for more than a few hours, which is a source of great 
frustration to your Border Patrol agents, isn't it, Chief?
    Chief Aguilar. Yes, sir.
    Mr. Culberson. And that number has not changed much, has 
it?
    Chief Aguilar. No, not at this point.
    Mr. Culberson. So Tucson is wide-open?
    Chief Aguilar. Tucson is being worked. We are having our 
challenges there.
    Mr. Culberson. You are doing your best, but it is the U.S. 
prosecutor, Mr. Chairman. And that is my other subcommittee, is 
Commerce Justice. We are going to continue to work on that.
    The point is, Mr. Chairman, to wrap up very quickly, is 
that there are wildly different levels of enforcement. The 
border is wide-open in Tucson. We found the solution in Texas, 
and it is real simple: It is law enforcement.

               SPILLOVER VIOLENCE INTO THE UNITED STATES

    Mr. Price. Thank you, sir.
    Well, we have completed the second round. There is 
obviously a lot of interest in this and a lot of Members still 
on the scene here, so we are going to undertake a third round 
of questioning. And we will try to keep the questions and, we 
hope, the answers maybe a little briefer. But, nonetheless, 
there is a lot left to talk about, and so, with your 
indulgence, we will move ahead.
    We earlier had a discussion, several exchanges having to do 
with the spillover of violence. And I think it is fair to say 
that the point at issue there was not whether spillover 
violence was occurring at some serious level or whether we 
should be concerned about it, I don't think there is any 
question about either, but whether, in looking at the effects 
of the development of these drug cartels and the level of 
violence in Mexico, whether spillover violence was the only 
thing we had to be concerned about and what other ways our 
border security efforts might be impeded by this development 
within Mexico, quite apart from how much of it was specifically 
spilling over into American communities. That was certainly my 
intention, and it is what I would like to pursue right now.
    And maybe the way to get at this would be to ask you to 
reflect on the recent situation in Juarez, Mexico. We have all 
read the press accounts of this terrible situation where the 
local chief of police resigned after a threat from the drug 
cartels to assassinate a couple of officers every day until he 
resigned. And under that kind of extreme duress, the police 
chief resigned. Now, the Mexican military has moved in there 
and has some presence there.
    But maybe it would help us get a handle on this if you 
would reflect on that situation as perhaps an example of what 
we are dealing with here and the threat to our border security 
efforts. I mean, in a situation like that, how do you assess 
it, and how are your efforts affected? Is there a power vacuum 
on the Mexican side? The military is, of course, moving in, but 
how are your operations affected and your effectiveness 
impacted by a situation of that sort?
    Maybe that rather extreme example can help us understand 
what is going on here and that this isn't merely a matter of 
how much violence literally spills over into American 
communities.
    Ms. Forman. Chairman, we agree with you. I mean, it is very 
difficult. There are challenges we have to face under those 
circumstances. That is why we recognize this to be a shared 
responsibility. I mean, Mexico has things they need to do, and 
we have things we need to do on the southwest border and our 
interior offices to address the vulnerabilities that are 
allowing the drug trade, the weapons to go out, the money to go 
out.
    And that is why we, collectively, and not just in the 
United States, have to work closely with our partners in Mexico 
to address in totality the entire picture. ICE and DHS all have 
offices in Mexico, working with the Mexican Government. We have 
units we work with. We have border liaison offices. We have 
created secure networks to share timely information with our 
Mexican counterparts and for them to share with us timely, so 
we can take a comprehensive law enforcement approach in 
addressing some of these problems. But it is a challenge.
    Mr. Price. Well, that is clearly an alarming situation, 
where, in this case, the local police leadership was 
intimidated into resigning and removing from the scene. Are we 
in any position to offer assurances and to somehow work more 
effectively with authorities up and down the line in Mexico to 
prevent that kind of outcome? Because it seems to me this 
outcome sends all the wrong signals, quite apart from the 
situation it may create on the ground.

                        TYPES OF BORDER VIOLENCE

    Chief Aguilar. Mr. Chairman, we work very closely, whether 
it is Border Patrol officers at the ports of entry, ICE, ATF, 
and everybody else. We work very closely with the Government of 
Mexico.
    I think one of the challenges that we are facing is the 
type of violence. I talk about defining the border violence 
that we talk about. Right now, to our good fortune, as 
Americans, I believe that most of the violence that we are 
seeing on the south side is what we call DTO-on-DTO, drug-
trafficking organization on drug-trafficking organization. And 
then it spills over into the chiefs of police and things of 
this nature, which of course is not a good thing.
    The second type of violence that we see is assaults against 
our officers, whether it is a Border Patrol agent between the 
ports of entry or an officer at the port of entry or a state 
and local or tribal officer, because we have had all of those 
attacked to some degree over this timeline.
    And then we are very sensitive to the potential migration 
that is going to happen, whether it is legal or illegally, 
because of the violence that is stemming in Mexico.
    The spillover that I think we have to be very careful with 
in engaging correctly is a quality-of-life issue. That 
spillover that Ranking Member Rogers talked about and that the 
gentleman mentioned from North Carolina, I think that is a 
spillover of that drug-trafficking organization culture in 
carrying out what it is they are doing in our country. That is 
very unacceptable also.
    Mr. Price. Absolutely. And, as Mr. Rogers stressed, the 
number, 750, of persons arrested all over this country with 
this operation accelerated. That is a number that gets one's 
attention. I mean, that counts as serious penetration.

                      SYNERGY BETWEEN ALL AGENCIES

    Chief Aguilar. And the only thing--I know that the question 
was asked earlier, what more can we do comprehensively. It has 
to be a comprehensive approach, where every applicable law, 
regulation, statute, or policy synergizes to the degree that we 
can for focus on that border. Because it all comes down to the 
border. It is that synergy between ATF, ICE, DEA, us, every 
other three-letter agency out there that can apply not just to 
existing laws, rules, and regulations, but the policies and how 
we focus those resources.
    Now, that is domestically and, very importantly--and this 
is a lot harder to do, in my opinion--internationally, to gain 
all the efficiencies and create that density of effort to fight 
against those cartels, these criminal organizations.

                  INTERAGENCY CHALLENGE OF GUN RUNNING

    Mr. Price. I want to turn to Mr. Rogers, because we do need 
to move along here. But, just again, reflecting on earlier 
discussion, the obvious interagency challenge of the gun-
running and gun-smuggling headed the other way is one that I 
don't think we achieved a very satisfactory resolution of here 
this morning, in terms of our understanding. And it clearly is 
a challenge to the Secretary and to the administration going 
forward.
    So I simply want to stress that, yes, there is ATF 
jurisdiction, there is CBP jurisdiction, there is also ICE 
jurisdiction over the smuggling per se. And so a lot of this 
does reside--a lot of this responsibility is going to reside 
within DHS. And, to the extent the smuggling of these weapons 
is a major component of this interagency challenge, then it is 
going to--you know, the buck does stop, I think, with your 
Department and with the Secretary. And, of course, it is 
encouraging that she understands that and has announced her 
intention to take this on.
    Mr. Koumans. If I may, Mr. Chairman, I think that might 
lead directly to--well, I thought it would be appropriate to 
add to what--or to capture some of our conversation in the way 
that Secretary Napolitano expressed it, which is a four-step 
process.
    First is working more closely than ever with State and 
local law enforcement. And, obviously, having just come from 
being a Governor of a border State, it is something that she 
feels very strongly about and something that we have started to 
ramp up in the recent days and weeks.
    Second is working more closely than ever with Mexico, and 
we see that day to day. And that is also where Merida comes in 
and the capacity building, the assistance there. So that we 
hope that in the coming months and years that we will be better 
positioned to deal with the situation as you explained it, the 
unsatisfactory situation of where they feel under such 
pressure.
    The third step is the southbound issue, weapons and cash 
heading south and the ramping up of that.
    And fourth is the contingency plan that Mr. Ahern already 
explained.
    Mr. Price. Thank you very much.
    Mr. Rogers.
    Mr. Rogers. Well, thank you.

                         JIATF TASK FORCE MODEL

    And it has been mentioned here in passing, sort of, the 
JIATF task force in Key West, which we have had for several 
years, trying to manage the war against drugs in the 
Caribbean--a coordinated effort between all of the relevant 
agencies, which has been very greatly successful.
    I hope these BEST initiatives, the Border Enforcement 
Security Task Force, I hope they are modeled on the JIATF task 
force in Key West. Is it or not?
    Ms. Forman. It is modeled in the sense that it is multi-
agency and it is a comprehensive approach. It is also modeled 
on the Joint Terrorist Task Forces, applying all the 
authorities of its participants to go after----

                            ASSAULT WEAPONS

    Mr. Rogers. Well, I hope so. You have ICE, you have Border 
Protection, you have DEA, ATF, FBI, Coast Guard, U.S. 
Attorney's Office, and so on, and the Justice Department. That 
is a good start. I just hope that it is funded to the level it 
needs to be.
    Now, the fiscal 2010 budget, I am told, will reportedly 
include $45 million enhancement for ICE and CBP to address the 
outbound smuggling of weapons and bulk cash. I am not sure that 
is enough. But that initiative builds on the success of what 
was called Operation Armas Cruzadas, which was an ICE-led, 
bilateral, Mexico-American law enforcement and intelligence-
sharing operation between ATF and Mexican law enforcement.
    So maybe there is help on the way. Everyone is saying, and 
it is true, we will not solve this thing without across-the-
government cooperation within the U.S. Government and within 
the Mexican Government. And I can't say enough about how good I 
feel about the President of Mexico and the job he is tackling.
    But, now, bear in mind, apparently the heavy volume of 
shipments of weapons from the U.S. are apparently small 
weapons, handguns, but the cartels are relying upon the use of 
Chinese assault rifles and AK-47s, neither of which can be 
purchased legally in the U.S. Am I correct on that? Does anyone 
have a fact on it?
    Ms. Forman. The assault weapons are not legally purchased 
in the United States.
    Mr. Rogers. Right. Do we know whether or not the heavy 
weapons that the drug cartels are using in Mexico are Chinese-
made?
    Ms. Forman. There are some Chinese-made weapons also being 
utilized.
    Mr. Rogers. Well, now, are there any American heavy assault 
weapons being used?
    Ms. Forman. I would have to go back and research that for 
you.
    Mr. Rogers. Surely you know.
    Ms. Forman. There are U.S.-made weapons being used, in 
addition to Chinese- and Israeli-made weapons. That is what we 
have seen in some of the seizures, yes.
    Mr. Rogers. Do you know how they got there, where they came 
from?
    Ms. Forman. Some of them were purchased here in the United 
States.
    Mr. Rogers. Illegally.
    Ms. Forman. Illegally.
    Mr. Rogers. And ICE has jurisdiction for that very crime, 
do they not?
    Ms. Forman. For the export, yes, yes, we do.
    Mr. Rogers. And what is ICE doing about it?
    Ms. Forman. ICE has established initiatives to address, in 
partnership with our federal, state, and local and foreign 
partners, the export of these weapons as well as the bulk 
currency. And we have done that in many platforms, using the 
Border Enforcement Security Task Forces, using intel. Armas 
Cruzadas was based on an intel-driven, strategic-type 
information, working with ICE intel, the Department information 
and intelligence, and CBP's intel, to go after those 
vulnerabilities that are supplying these types of weapons.
    And that was phase one of Armas Cruzadas. Phase two is the 
implementation, the enforcement arm of those individuals who 
are purchasing or having other individuals purchase these type 
of weapons.

                             ARMAS CRUZADAS

    Mr. Rogers. Well, we know that--or we think that there will 
be a $45 million enhancement requested in the 2010 budget to 
fight this very thing. But there needs to be enhancements to 
the other agencies--State, Justice, and so on, maybe DOD. We 
don't know whether they are going to be enhanced or not, do we?
    But CNN reported just the other day that the President, 
President Obama, and the chairman of the Joint Chiefs of Staff, 
Admiral Mullen, met this past Saturday to discuss options for 
assistance to Mexico from the U.S. military, with specific 
interest by the President in surveillance technology, among 
other things.
    Do you know anything about that, any of you?
    Well, it is time for our agencies to work together, because 
we are confronted with a massive problem, and we all admit 
that. And with a country that is as important as Mexico is to 
us, for any number of reasons but including economically--
almost a fourth of all of the inbound containers into the U.S. 
come out of Mexico. It is an enormous trading partner. It is a 
strategic partner. It is the place where terrorists can try to 
gain entry to infiltrate into the U.S., so it is a national 
security matter.
    And I want to--actually, Mr. Chairman, we are preaching to 
the wrong choir here. We ought to have ICE before us, and we 
ought to have ATF and DEA and law enforcement agencies. And we 
have been pummeling these poor people here today on a matter 
about which they do not have jurisdiction, by and large.
    So thank you for putting up with us today.
    Mr. Price. That is true. But they are members, however, of 
a department that, in a number of its aspects, will have the 
responsibility here. So we hope our concern gets transmitted. 
We are sure it will.
    Mr. Farr.

                         GUNS GOING INTO MEXICO

    Mr. Farr. Thank you, Mr. Chairman.
    I would like to follow up on both your questions. Because 
what is different about this Subcommittee than in the past is 
this is a Subcommittee hearing about border violence, which has 
essentially increased to a point where we really haven't been 
discussing that much in the past. We have been dealing with the 
cartels and the supply side of trying to cut off the supply. 
The difference here is now there are a lot of weapons on the 
border that haven't heretofore been. And they are there because 
of the cartels being able to get their drugs into this country. 
We buy them, and we generate billions of dollars for them. And 
a lot of those funds are turned around to buy weapons inside 
the United States.
    So the violence is--you know, we are the supply side of the 
guns. And I think none of the members have gotten a clear 
answer to that question of, what are we doing to essentially 
stop the U.S. gun cartel from going into Mexico? And I think we 
ought to hold up the request for additional money until we get 
a comprehensive response.
    What is it going to take to stop the guns from getting into 
Mexico? It is illegal to take them in, just like it is illegal 
to bring guns and drugs into the United States. So what are we 
going to do on our side of the border to stop guns from going 
into Mexico?
    And until we get what is needed--I don't care whether it 
is--whoever writes it, I think Director Foreman perhaps, 
respond to the Subcommittee in writing on what it takes to do 
that, whether it is ATF or ICE or Border Patrol or whatever. 
Because the answers are that you are all working on these 
agreements. And that is not what we want to know. We want to 
know, what is it going to take to stop the guns from going that 
way that are illegal?
    So if you can get that in writing, I would appreciate it, 
and I think the Subcommittee would too.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2999A.321
    
    But I really want to shift my questions to the commissioner 
regarding--in your testimony, you said that you apprehended 
720,000 people last year. ICE told us the other day that they 
detain 440,000. Are those the same people? Are we counting them 
twice? You are counting them as apprehendees and they are 
counting them as detainees?

                             APPREHENSIONS

    Chief Aguilar. The 723,000 that I pointed out was the 
apprehensions between the ports of entry by the United States 
Border Patrol last year.
    Mr. Farr. Okay. And how many of those led to conviction?
    Chief Aguilar. There was prosecutions of some of those.
    Some of the ones that we talked about in Operation 
Streamline, I don't have that exact number. The year before 
last, I believe it was 53,000. I will get you the numbers for 
last year on those.
    Mr. Farr. So we know how many we are detaining, but we 
don't know how many we are convicting?
    Chief Aguilar. Oh, no, no. We have them. I just don't have 
it with me. No, I can give you those figures, absolutely.
    Mr. Farr. Because if we are really trying to go after the 
bad guys, it doesn't seem like we are detaining an awful lot of 
dishwashers rather than bad guys.
    Chief Aguilar. We are detaining a lot of people that are 
causing clutter, chaos, and vulnerability, sir, on the border, 
that are taking up the time of our officers as opposed to 
concentrating on the people that are looking to get into this 
country to bring us harm. That is why we are working to 
mitigate that down.
    Now, for example, we are up by about 48 percent our 
narcotics apprehensions this year. We are down by illegal 
immigrant apprehensions by about 28 percent. Because we are not 
spending a lot of time on the illegal aliens, we are able to 
address the other threats, narcotics trafficking being one of 
them.
    Mr. Farr. And in the law, that is your highest priority, 
isn't it?
    Chief Aguilar. Absolutely. Yes, sir.
    Mr. Farr. That is good. I would appreciate to find out how 
many we actually lead to prosecution and conviction.
    Chief Aguilar. We will get you that number.
    Mr. Farr. Thank you very much.
    [The information follows:]

    Representative Farr. Of the 723,000 apprehensions which 
took place in 2008, how many were prosecuted?
    Of the 723,000 apprehensions which took place in 2008, the 
Border Patrol referred 49,971 cases for federal prosecution. Of 
this number, 46,671 were accepted for federal prosecution. In 
addition, the Border Patrol referred 197 cases for state and 
local prosecution, of which 189 were accepted.

    What about this number, versus the you apprehend and they 
detain? Border Patrol apprehends 720,000; ICE detains 440,000.
    Chief Aguilar. I am not sure where that number is coming 
from, 440,000.
    Mr. Farr. Well, both days, the leading witness in the 
opening statements, you know, claiming the success, ICE, they 
will detain 440,000 people this year. And the issue was, you 
know, where are you going to place them and what is the process 
afterwards and all that other stuff. So I just find it is kind 
of different that these are big numbers.
    And, you know, there are over a million people a year that 
are essentially brought into custody and have to be housed for 
a moment or detained for a moment or apprehended and done 
something with. That is a lot of volume of people. And is it 
really those numbers, or are you counting--is it you are 
detaining and apprehending 300,000 more--the Border Patrol is 
apprehending 300,000 more people than ICE is? Are they the same 
numbers, that is what I am trying to get at?
    I know they go after warrants, but they have a very 
failed--they are only getting about 20 percent of the warrants 
they are going after, and the rest is bycatch.
    Chief Aguilar. The numbers that the Border Patrol 
apprehends--of those, certain numbers get prosecuted, which the 
U.S. Marshals then detain once prosecution occurs.
    Of that 723,000, there is another universe that is detained 
by ICE, on our behalf, for administrative deportation, 
administrative adjudication, of which goes into that 440,000, 
if that figure is correct. I don't know that figure.
    In addition to that--and I won't speak for ICE, but ICE has 
their own investigative and apprehension activity that then 
they detain also for purposes of adjudication, administrative 
functions, not prosecutorial.
    Mr. Farr. Well, perhaps what we ought to do is get the 
numbers down as to what is apprehended and then given over to 
ICE. I mean, we shouldn't be counting those people twice.
    Chief Aguilar. I can tell you that they are not being 
counted twice. They are for purposes of arrest versus arrest or 
detention versus detention.
    Mr. Farr. Okay, well, we will look forward to those.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Culberson.

               PROSECUTIONS AND ARRESTS IN TUCSON SECTOR

    Mr. Culberson. Thank you, Mr. Chairman.
    To follow up a little bit on Mr. Farr's question, and if I 
could ask each of the witnesses to keep the answers as short as 
you can, I have a series of questions I need to ask, and my 
time is limited.
    Chief Aguilar, I wanted to continue working our way down 
the southern border. In the Tucson sector, less than--excuse 
me, let me say it this way. In the Tucson sector, 99 percent of 
the people arrested by either the Border Patrol or other 
Federal law enforcement are never prosecuted in the Tucson 
sector.
    Chief Aguilar. I can't answer for others, but for Border 
Patrol that would be about correct, yes, sir.
    Mr. Culberson. Let that sink in, members. That is 
incredible. Ninety-nine percent of the people arrested by the 
Border Patrol in the Tucson sector are never prosecuted; they 
are immediately released.
    Now, think about this number. Now, Chief, out of every 100 
people that cross illegally in the Tucson sector, how many is 
the Border Patrol arresting, a third?
    Chief Aguilar. That would be a rough guess for Tucson.
    Mr. Culberson. Okay. So, think about that. We are only 
arresting one out of three. And of those one out of three, 99 
percent of those are going free and they are never prosecuted.
    So it is true, Chief, that Tucson is wide open?
    Chief Aguilar. Tucson is our most challenging sector as we 
speak, yes, sir.
    Mr. Culberson. Yes, sir. You would agree with that 
statement, the Tucson sector is wide open?
    Chief Aguilar. It is our most challenging sector, and we 
are working very hard.
    Mr. Culberson. You are very gracious and diplomatic.
    But, Mr. Chairman, the point of this is----
    Chief Aguilar. I would clarify that, for prosecution 
purposes in specific, it is wide open.
    Mr. Culberson. And that is what matters. As the word gets 
out, these guys are not the brightest bulbs in the world, but 
they figure out real quick if they go to my friend Ciro 
Rodriguez's district and they cross into Del Rio, they are 
going to be hammered and they are going to be arrested. Eighty 
percent of the people that cross in the Del Rio sector are 
arrested and prosecuted, and they are deported. And, of course, 
women and children, Sam, these guys use good common sense. They 
are not throwing women and children in jail. They are doing 
this as good, thoughtful law enforcement officers should, and 
with the support of the local community.
    In the Laredo sector, they have a 60 percent now arrest and 
prosecution rate. And that is of everybody crossing. I mean, 
everybody--you guys are picking up almost everybody.
    Chief Aguilar. In the areas where we are focusing on----

                    ARRESTS AND PROSECUTIONS IN YUMA

    Mr. Culberson. That is right. You are picking up almost 
everybody. West Texas, again, that is big open country.
    Now, in the Yuma sector, you have implemented Operation 
Streamline, and you are at close to 80 to 90 percent arrest and 
prosecution rate in Yuma. Is that correct?
    Chief Aguilar. Actually, in Yuma, that is our pride when it 
comes to prosecution programs. About 98% of persons apprehended 
are delivered a consequence other than a voluntary return.
    Mr. Culberson. Okay. And 98 percent of the people 
apprehended are prosecuted in the Yuma sector. You think, 
again, you are intercepting about a third of those that cross?
    Chief Aguilar. In the Yuma sector, we are a lot more 
effective. We are probably at about 90 percent. Yuma has a 90% 
enforcement rate--includes apprehension and turn back.

                     ARREST RATE IN IMPERIAL VALLEY

    Mr. Culberson. Mr. Chairman, that is astonishing. They are 
arresting nine out of 10 people that are crossing Yuma and a 98 
percent prosecution rate.
    Now, moving right next door, in Imperial Valley sector, 
what is your arrest rate? And, of those arrested, what is the 
prosecution rate? ELC arrest rate--66% 08 ELC prosecution 
rate--FY08 0.4% FY09--0.5% 65% 09 YTD
    Chief Aguilar. I don't have that figure with me, sir.
    Mr. Culberson. It is pretty low.
    Chief Aguilar. It is low. I don't have that figure.

                  PROSECUTION RATE IN SAN DIEGO SECTOR

    Mr. Culberson. It is very low.
    And in the San Diego sector, other than where the area 
where the fence is, of those that you arrest, what percentage 
are prosecuted?
    Chief Aguilar. San Diego, I would have to get that back to 
you. In San Diego zones 8 through 15 the Border Patrol had a 
50% consequence tate (other than a local voluntary return) to 
aliens apprehended within those zones.
    [The information follows:]

    Representative Culberson. For the areas in the San Diego 
Sector that does not have any infrastructure, what is the 
apprehension rate? Of that amount, what percentage is 
convicted?
    CBP can only provide apprehension statistics by sector, not 
areas within the sector that have or do not have 
infrastructure. In FY 2008, San Diego Sector Border Patrol made 
162,390 apprehensions. CBP does not compile conviction rates, 
DOJ would have those statistics. However, we do know that in 
our priority enforcement area in the San Diego Sector, 50% of 
the illegal aliens apprehended in FY 2008 suffered a 
consequence other than a voluntary return to Mexico, which 
could have included prosecution and conviction.

                          OPERATION STREAMLINE

    Mr. Culberson. Okay. If I could, Chief--and my time is 
limited, and I got one or two follow-ups, Mr. Chairman, and I 
can wrap this up for the subcommittee--but if you could get 
that to me in writing, Chief, I would really appreciate it so I 
can share it with the committee.
    And if I could ask all of the witnesses, isn't it true that 
the safest areas of the border are those areas where current 
law is being enforced rigorously and uniformly under Operation 
Streamline?
    Those sectors that I just went through, certainly the areas 
where the United States is safest, where we are actually 
securing the border, winning the war are those sectors where 
the chief just indicated you have an 80, 60 percent, 90 
percent-plus arrest and prosecution rate. Isn't it true that 
those are the safest areas of the border where we are actually 
winning the war?
    Chief Aguilar. Those are the areas where our activity 
levels are very low, yes, sir, and quality of life is higher 
because of the legal incursions being minimized.
    Mr. Culberson. The quality of life is significantly better 
because of the apprehensions in law enforcement. Would all the 
witnesses agree with Chief Aguilar's statement.
    Ms. Forman. Yes.
    Mr. Culberson. There you go, Mr. Chairman.
    If I could, on that note, this is really--Texas has always 
understood this. It is just about law enforcement, to protect 
quality of life, to make sure that kids can play in the 
streets, so that people can come here legally to work, so that 
the United States is safe, so that we are actually deterring 
the spillover of what is actually a civil war in northern 
Mexico, Mr. Chairman.
    Would all the witnesses agree--would your best 
recommendation be to the subcommittee that we get behind the 
Border Patrol, our U.S. Marshals, our law enforcement officers, 
and implement Operation Streamline from San Diego to 
Brownsville? Wouldn't that be the most effective way to secure 
the border? Start with the fundamentals, enforce existing law, 
rigorously, uniformly, fairly in Operation Streamline from San 
Diego to Brownsville, wouldn't that be the best way to secure 
the border?
    Chief Aguilar. A prosecution program like Operation 
Streamline across the border would certainly be a very big part 
of a comprehensive enforcement model, yes, sir.
    Mr. Culberson. The best place to start. If you are flat on 
your back, the best thing to do is get on your feet. This is 
the best way for us to get back on our feet.
    Would all the witnesses agree with Chief Aguilar?
    Mr. Ahern. I would not say that the prosecution solely. 
Certainly there has to be a----
    Mr. Culberson. It is a starting point.
    Mr. Ahern. Again, there has to be many layers of that 
program. First we need to have a good deterrent system in 
place. We need to make sure we have got a stable border with, 
again, tactical infrastructure technology----
    Mr. Culberson. Yeah, but deterrent is prosecution.
    Mr. Ahern. Well, that is certainly one of them----
    Mr. Culberson. If I am going to smuggle, I am going to go 
through Tucson because it is wide-open. I am not going to go to 
Del Rio.
    Mr. Ahern. It needs to be comprehensively thought through.
    Mr. Culberson. But you have to start with prosecution, 
uniform, right?
    Mr. Ahern. Every element of the strategy has----
    Mr. Culberson. Beginning with enforcement of the law.
    Mr. Price. Thank you.
    Mr. Rodriguez. 

                        SIZING TECHNOLOGY STATUS

    Mr. Rodriguez. Let me ask you, I know that in last few 
sessions there has been a lot of talk about the fence. And I 
know we have moved on some of those areas and the locations.
    Where are we at right now in terms of technology--and I 
guess Chief Aguilar--in terms of the technology that is needed? 
I know that in some cases, yes, the fence makes sense; in 
others, it doesn't. And we really need to beef up in much 
better technology in those areas.
    Where are we at on that?
    Chief Aguilar. The SBInet director was here for the last 
hearing. All of Arizona will be done, covered by the technology 
that we are shooting to have in place by 2011 if we get the 
budgets that we are looking for.
    But that is not all we are doing, sir. In addition to that, 
we are purchasing what we refer to as commodity purchases of 
technology that is literally off the shelf, but stand-alone, 
not a part of the system. One of the examples we gave earlier, 
we have 40 ground surveillance units--we call them MSSs, mobile 
surveillance systems--that give a team of agents basically the 
ability to detect and identify and classify and tag and track 
any kind of illegal incursion for an area of between eight to 
12 miles along our border.
    Mr. Rodriguez. And those are moveable?
    Chief Aguilar. Yes, sir, those are mobile. And we have 40 
of those in our cadre right now.
    Mr. Rodriguez. I think some of those would be something 
that would be really important. I recall before, in my previous 
congressional district, going to the border. And it seemed 
like--and it was in Roma and Rio Grande--that every time I came 
in, they would catch an 18-wheeler coming in with drugs and 
marijuana mainly. And I was very blunt when I told them, ``What 
is this? Are you staging this for me or what?'' And they said, 
``No. I have to be honest with you''--and these were in the 
ports of entry, so it wasn't anything that you had to do with. 
And he says, ``We just don't have the dogs around this time 
when you are coming in.'' So the mobility of that and moving 
around makes a lot of sense in terms of being able to capture 
some of that.
    Chief Aguilar. That, in fact, with that same capability 
that you are describing, VACAS and backscatter machines, we are 
now starting to get at our checkpoints away from the ports of 
entry.
    In addition to that, of course, we are maintaining our 
remote video surveillance systems in such a fashion that, when 
SBInet does get to the 272 locations that we have right now, we 
will be able to tie that in to SBInet. We have thousands of 
sensors on the ground. So we are constantly building up the 
technological capability.
    Mr. Rodriguez. So are you saying we won't be there until 
about 2011?
    Chief Aguilar. 2011 for the State of Arizona.
    Mr. Rodriguez. Where about in terms of west Texas, where I 
am at?
    Chief Aguilar. I am trying to think. Right now we have 
added some of those mobile surveillance units over in your part 
of the country, sir.
    Mr. Rodriguez. And let me ask you, in addition to that, are 
there any other moveable, mobile types that you can quickly 
move from one area to another? Because I hear mainly that where 
Border Patrol usually gets in and they stay there. Do you have 
any ones that can beef up real quickly from one week to another 
or be transferred across to the northern border, for example?
    Chief Aguilar. In fact, some of the mobile surveillance 
systems are, in fact, going to the northern border by the end 
of this year as part of our Northern Border Project. Any one of 
those 40 could literally be moved anywhere in the country on a 
moment's notice.

               SPILLOVER VIOLENCE INTO THE UNITED STATES

    Mr. Rodriguez. Okay. In terms of the spillover, what do we 
have in terms of actual number of cases that have actually--as 
a result of what is going on in Mexico, actually have occurred 
and we have had problems on this side? Besides direct drugs 
that come over, you know.
    Ms. Forman. Congressman, I can get you those numbers. I can 
just tell you that our approach is to attack the entire 
continuum of transnational organized crime, pushing the borders 
out and working with our foreign governments, working with our 
interdictors with CBP, and then working on the interior. It has 
to be a totality to disrupt and dismantle these criminal 
organizations. And that is our approach in every one of our 
investigations, is to cut off the head of the snake as opposed 
to just the tail.
    Mr. Rodriguez. Yeah. And I know that there is no doubt that 
things are getting more serious in Mexico, and we need to do 
whatever we can to protect our borders and also work with 
Mexico. And so I will be looking for any types of 
recommendations that you might have on the Merida effort, in 
terms of working with them as to what is best that would 
benefit us in the long term from that perspective.
    Okay, thank you.
    Mr. Price. Thank you.
    Well, I want to thank all the Members for not only 
attending and staying with us through a long hearing but also 
posing some important questions.
    And certainly want to thank our witnesses from panel one 
and panel two for being so forthcoming and also for the good 
work you are doing and the help you have given us in charting 
the course going forward.
    I do want to just say, before we break up here, that I want 
your agencies, CBP and ICE, to jointly produce for us some 
information on this southbound flow of weapons that I think--I 
don't know who is pulling this together, but I think we are as 
good a candidate as any to get some transagency information 
here, and of course get what you need from ATF as well.
    And what we are looking for here is, first of all, I think, 
a delineation of the different agency responsibilities for this 
matter, what the relevant laws are. But also help us sort out 
the dimensions of this problem. What kind of weapons are we 
talking about? There has been some ambiguity about that here 
today. What kind of weapons are we talking about? What kind of 
range of legal and illegal weapons, in terms of U.S. purchasers 
being able to buy them? And then what the relevant agency is 
for dealing with the problem, whether it is an illegal purchase 
problem or a smuggling problem or something else.
    We know that you have this under advisement, and so, if you 
could share with the committee an insertion for the record of 
that sort, I think that would be very helpful to us. Clearly, 
this has come up a number of times today, and we are in need, I 
think, basically of just good information, to begin with.
    [Clerk's note.--Information provided in response to this 
inquiry is classified as ``For Official Use Only'' and has been 
retained in Committee files.]
    Well, we could go on, but we won't. We thank you for your 
time and your testimony today. And we look forward to working 
with you, as we put the 2010 budget together. Thank you.
    And, with that, the subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2999A.322
    
    [GRAPHIC] [TIFF OMITTED] T2999A.323
    
    [GRAPHIC] [TIFF OMITTED] T2999A.324
    
    [GRAPHIC] [TIFF OMITTED] T2999A.325
    
    [GRAPHIC] [TIFF OMITTED] T2999A.326
    
    [GRAPHIC] [TIFF OMITTED] T2999A.327
    
    [GRAPHIC] [TIFF OMITTED] T2999A.328
    
    [GRAPHIC] [TIFF OMITTED] T2999A.329
    
    [GRAPHIC] [TIFF OMITTED] T2999A.330
    
    [GRAPHIC] [TIFF OMITTED] T2999A.331
    
    [GRAPHIC] [TIFF OMITTED] T2999A.332
    
    [GRAPHIC] [TIFF OMITTED] T2999A.333
    
    [GRAPHIC] [TIFF OMITTED] T2999A.334
    
    [GRAPHIC] [TIFF OMITTED] T2999A.335
    
    [GRAPHIC] [TIFF OMITTED] T2999A.336
    
    [GRAPHIC] [TIFF OMITTED] T2999A.337
    
    [GRAPHIC] [TIFF OMITTED] T2999A.338
    
    [GRAPHIC] [TIFF OMITTED] T2999A.339
    
    [GRAPHIC] [TIFF OMITTED] T2999A.340
    
    [GRAPHIC] [TIFF OMITTED] T2999A.341
    
    [GRAPHIC] [TIFF OMITTED] T2999A.342
    
    [GRAPHIC] [TIFF OMITTED] T2999A.343
    
    [GRAPHIC] [TIFF OMITTED] T2999A.344
    
    [GRAPHIC] [TIFF OMITTED] T2999A.345
    
    [GRAPHIC] [TIFF OMITTED] T2999A.346
    
                                            Tuesday, March 3, 2009.

HEALTH SERVICES FOR DETAINEES IN U.S. IMMIGRATION & CUSTOMS ENFORCEMENT 
                             (ICE) CUSTODY

                               WITNESSES

JAMES T. HAYES, JR., DIRECTOR, OFFICE OF DETENTION AND REMOVAL 
    OPERATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
    DEPARTMENT OF HOMELAND SECURITY
JOSE H. RODRIGUEZ, MD, MBA, CHE, CAPTAIN, U.S. PUBLIC HEALTH SERVICE, 
    DIRECTOR, DIVISION OF IMMIGRATION HEALTH SERVICES, U.S. IMMIGRATION 
    AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY
ALICIA PUENTE CACKLEY, DIRECTOR, HEALTH CARE DIVISION, GOVERNMENT 
    ACCOUNTABILITY OFFICE
DORA SCHRIRO, SPECIAL ADVISOR TO SECRETARY NAPOLITANO ON DETENTION AND 
    REMOVAL OPERATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
    DEPARTMENT OF HOMELAND SECURITY

                  Opening Statement of Chairman Price

    Mr. Price. The subcommittee will come to order.
    We are pleased to have this morning four witnesses 
concerning health services for detainees in U.S. Immigration 
and Customs Enforcement custody. We have before us Jim Hayes, 
the Director of Detention and Removal Operations at U.S. 
Immigration and Customs Enforcement, otherwise known as ICE; 
Captain Jose Rodriguez, Director of the ICE Division of 
Immigrant Health Services; Ms. Alicia Puente Cackley, Director 
of the Health Care Division at the Government Accountability 
Office, or GAO; and Ms. Dora Schriro, Special Advisor to 
Secretary Napolitano on ICE Detention and Removal. We welcome 
you and look forward to your testimony this morning.
    The purpose of this hearing is to investigate the health 
care services ICE provides to individuals held in its custody 
at detention centers around the country, and to discuss efforts 
that DHS will make to improve those services. Over the past 
several years, there have been troubling media reports about 
detainee deaths that appear to be preventable had the 
individuals in question been given appropriate and timely 
medical attention.
    Certainly not every death is preventable or avoidable; 
however, the incidence of death among ICE detainees, as well as 
the conditions under which some of those deaths occurred, 
raises serious questions about the health care provided by ICE 
for those it detains. I am concerned that cases of preventable 
deaths in ICE custody may only be the most glaring examples of 
breakdowns in the detainee health care system.
    When ICE holds individuals in Federal custody, it has the 
responsibility to treat those people fairly and humanely and to 
provide access to necessary medical care when requested. 
Unfortunately, ICE and the local and contract prisons it uses 
to detain illegal immigrants do not always seem able or willing 
to fulfill that responsibility.
    In several recent examples, individuals have died of late-
diagnosed or undiagnosed cancerous infections even though they 
had repeatedly requested and been denied more comprehensive 
medical examinations.
    There are troubling reports of ICE personnel in Washington, 
D.C. denying medical services for individuals held in detention 
centers around the country, often based on little more than a 
faxed treatment request from a detention center doctor.
    Other investigations of ICE medical services have shown a 
failure to provide physical examinations of all new detainees 
although ICE standards require such exams to be completed 
within 14 days of intake. A lack of transferable medical 
records, as well as the policy that removes all medicines from 
detainees upon intake, has also resulted in medical problems, 
particularly for those suffering from chronic conditions such 
as HIV infection, diabetes, and hypertension.
    Lest anyone try to deny the problem, let me share some 
statistics. Nine detainees have died in the first 5 months of 
fiscal year 2009. If deaths continue at this rate, more 
detainees will die in ICE custody this year than at any time 
since 2004. Eleven detainees died in ICE custody in fiscal year 
2008. And of the 90 detainees that died since fiscal 2004, 6 
have died at privately owned detention centers, 8 have died 
after being transported to a hospital or other treatment 
location, 22 have died at Federal facilities, and 54 have died 
at local prisons or jails.
    This distribution of deaths suggests a problem that is both 
pervasive and ongoing. While it doesn't prove causality, I 
think it is worth noting that at least 60 percent of the deaths 
occurred at local prisons and jails, even though fewer than 50 
percent of detainees are held there.
    Last summer Senator Byrd, the Chairman of the Senate 
Appropriations Subcommittee on Homeland Security, Senator Byrd 
and I requested the GAO investigate these and other troubling 
symptoms of poor health services for ICE detainees. In 
particular, we asked GAO to review the bureaucratic structure 
providing medical services to detainees, including an 
investigation into why responsibility was transferred from the 
Department of Health and Human Services to ICE in the fall of 
2007.
    Further, we asked GAO to identify the health care 
expenditures made by ICE over the last several years. We also 
asked GAO to evaluate the mortality rates for ICE detainees in 
comparison to others held in Federal custody, such as those 
within the Bureau of Prisons System. Ms. Cackley, we look 
forward to hearing about what you found.
    In the 2009 Appropriations Act, Congress provided $2 
million for ICE and the DHS Office of Health Affairs to hire 
outside experts to review the ICE medical system and to offer 
recommendations on how it could be improved. I understand that 
this contract has not yet been awarded, which I find 
unsettling, given that the funds for it have been available for 
more than 5 months.
    Mr. Hayes, Captain Rodriguez, Ms. Schriro, I would like for 
you explain how you plan to use these funds, when the study 
will be initiated, and what you will do with the 
recommendations that are made.
    In the broader context, I would like to hear from our 
witnesses about what can be done in the short term and over the 
longer term to reduce the rate of deaths and other medical 
problems at ICE detention facilities.
    Past reports by the GAO, the DHS inspector general, and 
others have recommended such changes as an electronic medical 
records system; an independent oversight and appeals board; 
standardized reporting on detainee morbidity and mortality; and 
more rigorous inspection and standards compliance reviews. 
Which of any of these recommendations has ICE implemented? Why, 
if these recommendations have not been implemented, have they 
not been undertaken? And what else do DHS and ICE plan to do to 
improve health services that ICE provides?
    These are significant issues that literally involve matters 
of life and death. I am sure that you all understand that our 
government has a moral obligation to ensure the well-being of 
those in its custody. So I hope that our witnesses from ICE and 
DHS will explain what the agency is doing to improve its health 
services for detainees. I expect GAO to have some concrete 
observations and recommendations for strengthening those 
improvements.
    We will ask each of you to summarize your written 
statements in 5-minute oral presentations. We will reprint your 
full statements in the hearing record.
    Mr. Hayes and Captain Rodriguez, I will ask you to speak 
first about the current state of ICE detainee health services. 
Ms. Cackley, you will follow the ICE witnesses, explaining the 
work that you and your team have just completed. And then, Ms. 
Schriro, we will then ask you to discuss how you and Secretary 
Napolitano expect to address these and any other issues you 
have discovered about ICE detainee health care.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.001
    
    [GRAPHIC] [TIFF OMITTED] T2999B.002
    
    [GRAPHIC] [TIFF OMITTED] T2999B.003
    
    Mr. Price. Before we hear from our witnesses, I want to 
turn to our Ranking Member, Al Rogers, for any comments he 
wishes to make.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome to our distinguished guests.
    ICE has a legal and moral obligation to care for the safety 
and well-being of all those in its custody. I think I speak for 
all of us when I say that our goal should be to prevent any 
death. One death is too many. So, I sincerely appreciate the 
efforts of those appearing before us today, as well as the 
thousands of ICE personnel in the field, to ensure the agency 
lives up to the solemn duty of providing sufficient health care 
for all of its detainees.
    I must stress that ICE is, in fact, performing a 
humanitarian mission as it provides basic and essential medical 
services to its detainees, some 1\1/2\ million since the agency 
was created in 2003. In most of these cases, ICE is likely 
providing what amounts to the first real health care these 
individuals have been given for their entire life.
    As I understand it, each and every detainee is required to 
undergo a thorough medical screening; and, for those remaining 
in ICE custody at least 14 days, a comprehensive physical exam, 
as well as additional and specific medical treatment, as is 
indicated.
    That is full health care coverage at the American 
taxpayers' expense and at a level of quality that far exceeds 
what might otherwise be available to many of these individuals, 
evidenced by a mortality rate that is substantially lower for 
ICE detainees than for U.S. prisons and jail populations, U.S. 
hospitals, even the general U.S. population as a whole.
    The bottom line is that providing for the safe and humane 
confinement of the hundreds of thousands of detainees that pass 
through ICE detention facilities each year is an unquestioned 
requirement and priority--a priority that is reflected by a 
doubling of budgetary resources over the last 5 years, from 
$74.3 million in fiscal 2004 to a projected $151 million in 
ICE's 2009 budget, and, I might add, a priority that this 
subcommittee most certainly supports.
    Now, as the Chairman has stated, ICE's performance in this 
area has been punctuated by some unfortunate deaths and 
illnesses. Today I hope to learn more about these tragic cases. 
How ICE addressed these situations and what the agency is doing 
to try to prevent such incidents from ever occurring again.
    We thank our witnesses for appearing today. We look forward 
to discussion on this critical issue.
    Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.004
    
    [GRAPHIC] [TIFF OMITTED] T2999B.005
    
    [GRAPHIC] [TIFF OMITTED] T2999B.006
    
    Mr. Price. Gentlemen, please proceed.

                Opening Statement of James Hayes/ICE-DRO

    Mr. Hayes. Good after morning, Chairman Price, Congressman 
Rogers, and distinguished members of the committee. My name is 
Jim Hayes, and since September 2008, I have been Director of 
Detention and Removal Operations at U.S. Immigration and 
Customs Enforcement. It is my privilege to appear before you 
today to discuss the detention process and medical care and 
treatment of ICE detainees.
    DRO's core mission is the arrest, detention, and removal of 
inadmissible and deportable aliens. In doing so, we enforce 
laws that have been enacted by the Congress. Our authority to 
arrest and detain aliens is contained in the Immigration and 
Nationality Act.
    In carrying out our mission, one of our highest priorities 
is to provide a safe, secure, and humane detention environment 
for detainees, including providing health care to those in our 
custody. We take this responsibility very seriously, and I 
assure you that I am personally committed to ensuring that ICE 
detainees are treated humanely and receive adequate medical 
care for the duration of their time in custody.
    I look forward to working very closely with Secretary 
Napolitano's special advisor, Dr. Doria Schriro, who is here 
today, to review and implement recommendations made by the 
Department's Working Group on Detainee Health Care, which 
considered detainee health care improvements. The working group 
included the Office of Health Affairs at DHS, and individual 
external medical experts reviewed their report.
    Further, Chairman, as you noted, this committee funded an 
assessment of medical care provided to ICE detainees that will 
be performed by our Office of Professional Responsibility in 
consultation with the Department's Office of Health Affairs. We 
look forward to cooperating fully with that review.
    ICE uses detention as a tool to ensure that aliens amenable 
to removal from the United States are, in fact, removed. In 
fiscal year 2009, the ICE detention program is funded for 
33,400 beds. Currently ICE estimates that more than 440,000 
detainees will spend some time in ICE custody this year. The 
vast majority of these detainees will be in ICE care for 
approximately 30 days or less prior to their removal from the 
United States.
    ICE uses both internal and external programs to ensure that 
all facilities we use to house detainees provide safe, humane 
conditions of confinement, including private contractors and an 
internal group within our Office of Professional 
Responsibility.
    To further ensure that any deficiencies identified in any 
facility that we use are immediately addressed, in January of 
this year I directed that any deficiency be immediately 
reported to me for review so that I can closely track the 
progress in correcting them.
    It has always been ICE's policy to address and correct 
deficiencies involving life and health safety issues 
immediately. However, I believe that this higher level of 
visibility will speed remediation efforts.
    To ensure detainees receive medical treatment in accordance 
with community standards of care, my office partners with U.S. 
Public Health Service commissioned officers to provide or 
arrange for health care in 23 detention facilities that ICE 
uses, including all 7 ICE-owned service processing centers.
    During fiscal year 2008, I spent more than $128 million on 
detainee health care, including basic and advanced care for 
detainees at the above-mentioned facilities, as well as 
advanced care for detainees housed at other detention 
facilities.
    Since the creation of ICE in 2003, more than 1.7 million 
individuals have passed through ICE detention facilities. Last 
summer we began developing plans to add health records to our 
modernization of detainee records, with the goal of tracking 
all health care provided to all detainees in ICE custody.
    Mr. Rogers, as you mentioned, each detainee receives an 
initial health screening once they come into ICE custody. These 
initial health screenings have proven, in some cases, to be 
lifesaving.
    In the 5 months since I became the permanent DRO Director, 
I have reviewed our detention system, including the health care 
delivery system currently used. We are faced with a variety of 
challenges, including the fact that 90 percent of our detainee 
population has generally not received adequate health care 
prior to entering ICE custody; the fact that of the detainees 
medically screened by DIHS in fiscal year 2008, 34 percent were 
identified as having chronic medical attention, including 
hypertension and diabetes that was previously undiagnosed; the 
fact that we face a lack of available detention space in areas 
that we are busiest, southern California, New England, and 
right here in the Mid-Atlantic region; as well as the fact of 
rising health care costs for our generally poor health 
population.
    However, the mortality rate for ICE detainees in 2008 was 
2.7 deaths per 100,000 detainees. As GAO reported, given the 
generally poor health of detainees in ICE custody, the 
comparatively low death rate among ICE detainees provides 
evidence of the extraordinary measures that ICE takes to 
prevent the death of any ICE detainee in our custody.
    When a death does occur, ICE reports it immediately to our 
own Office of Professional Responsibility and the DHS Office of 
Inspector General to determine if an investigation into the 
circumstances of the detainee's passing is warranted. 
Facilities are also required to report all deaths to the local 
medical examiner or coroner's office, who will conduct an 
autopsy, if required.
    DIHS also conducts an independent review of some in-custody 
deaths based on individual circumstances, and I am proud to 
report that this year we will begin recording all deaths in ICE 
custody to the Department of Justice's Bureau of Justice 
Statistics.
    Despite steady improvement and increased investment in 
recent years, I believe our detention management system can be 
further strengthened. We have recognized the need for such 
improvement and have taken significant steps in working toward 
our goal of having the safest detention management system in 
the United States, if not the world. I look forward to working 
with Dr. Schriro to build upon this progress.
    Our comprehensive detainee health program is based on 
comprehensive medical care, sound management, continuous 
review, and process improvement. Our detention oversight 
procedures work to ensure a safe, secure, and humane detention 
environment. ICE detention and medical service processes are 
continually monitored by both internal and external experts, 
with the ultimate goal of providing the best possible 
conditions of confinement and health care to those in our 
custody. As I mentioned at the start of my statement, the well-
being of our detainees is among our highest priorities and most 
important responsibilities.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering any questions you may have.
    Mr. Price. Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.007
    
    [GRAPHIC] [TIFF OMITTED] T2999B.008
    
    [GRAPHIC] [TIFF OMITTED] T2999B.009
    
    [GRAPHIC] [TIFF OMITTED] T2999B.010
    
    [GRAPHIC] [TIFF OMITTED] T2999B.011
    
    [GRAPHIC] [TIFF OMITTED] T2999B.012
    
    [GRAPHIC] [TIFF OMITTED] T2999B.013
    
    [GRAPHIC] [TIFF OMITTED] T2999B.014
    
    [GRAPHIC] [TIFF OMITTED] T2999B.015
    
    [GRAPHIC] [TIFF OMITTED] T2999B.016
    
    [GRAPHIC] [TIFF OMITTED] T2999B.017
    
    Mr. Price. Captain Rodriguez.

            Opening Statement of Captain Rodriguez/ICE-DIHS

    Captain Rodriguez. Good morning, Chairman Price, Ranking 
Member Rogers, distinguished members of the committee. My name 
is Captain Jose Rodriguez. I am a family physician and a 
commissioned officer of the U.S. Public Health Service, 
currently serving as the Director of ICE's Division of 
Immigration Health Services since October of 2008. Thank you 
for allowing me to appear before you today.
    The mission of DIHS is to protect America by providing 
health care and public health services in support of 
immigration law enforcement. DIHS consists of U.S. Public 
Health Services, GS employees, and contracted medical staff. 
Our medical staff has provided health care and made medical 
recommendations about medical and mental health treatment of 
detainees in ICE facilities since ICE was created. The PHS 
officers are detailed from the Department of Health and Human 
Services to DHS. These health professionals exercise their 
independent medical judgments about all matters pertaining to a 
detainee's health care, and seek to ensure that everyone they 
see receives appropriate medical treatment consistent with 
accepted community standards of care.
    DIHS is responsible for protecting America's borders 
utilizing disease screening and prevention controls for ICE 
detainees through the administration of a comprehensive health 
care delivery system incorporating medical, mental health, and 
environmental services. ICE, through its National Detention 
Standards, requires that each detainee receive an initial 
medical screening, including a mental health and dental 
examination, within 12 hours of arrival into custody. Those 
remaining in ICE custody for at least 14 days also receive a 
comprehensive health assessment, which includes a detailed 
medical history and a complete medical examination.
    Many of these detainees learn of a medical ailment or 
receive medical care and treatment for the first time in their 
lives through this comprehensive screening. In fiscal year 
2008, of the 236,006 detainee screenings, 81,352 detainees, or 
approximately 34 percent, were identified as having chronic 
conditions such as diabetes, hypertension, or a mental illness. 
Some detainees suffer from multiple chronic conditions.
    Each DIHS-staffed facility has a written plan for the 
delivery of 24-hour emergency health care or immediate outside 
medical attention. All facilities have arrangements with nearby 
medical facilities or health care providers for health care not 
provided within the facility. When an ICE detainee is 
hospitalized, the hospital assumes medical decisionmaking 
authority on all treatment matters.
    Each DIHS clinic has a mechanism that allows detainees to 
request health care services provided by a physician or other 
qualified medical officer in a clinical setting. Detainees, 
including those who are illiterate or do not speak or read 
English, can receive assistance in filling out the request slip 
to access a health care provider.
    Patients are treated in accordance with nationally 
recognized standards and guidelines. Individuals who have acute 
or chronic health care needs are referred to a primary care 
provider for evaluation and medical treatment. Those found to 
have an infectious disease are placed in an appropriate health 
care setting and receive treatment for their condition.
    Access to health care outside of DIHS facilities are 
available to detainees when their needed medical care cannot be 
provided on site. DIHS oversees the financial authorization of 
the off-site specialty and emergency care for all detainees in 
ICE custody, wherever they are housed.
    The demands on DIHS to provide mental health care services 
for detainees continue to grow with the size of the detainee 
population. To address these mental health needs, the 
psychologists and social workers of DIHS have provided some 
27,000 combined patient encounters for psychological services. 
One of our initial developments in the mental health area has 
been the development and implementation of a training program 
on suicide prevention for DIHS staff members to increase their 
awareness of early indicators for potential suicidal behavior.
    The DIHS Epidemiology Branch monitors tuberculosis cases to 
ensure continuity of care, whether the detainee is to be 
released into custody in the United States or returned to his 
or her country of origin. Between January 1, 2007, and May 31, 
2008, ICE coordinated the repatriations to home countries of 
individuals with active or suspected active tuberculosis. DIHS 
seeks to minimize threats to public health domestically and 
globally and prevent transmission of drug-resistant or multi-
drug-resistant tuberculosis.
    DIHS is committed to providing quality medical care to 
detainees. To help ensure that consistent and quality care is 
provided, all facilities run by DIHS maintain accreditation 
from three nationally recognized accrediting bodies to ensure 
the quality of health care meets industry standards: The 
American Correctional Association, the National Commission on 
Correctional Health Care, and the Joint Commission.
    Detainee facilities are also assessed by using ICE National 
Detention Standards to ensure that adequate and appropriate 
medical care is provided to detainees. All DIHS health care 
providers are required to be licensed and credentialed under 
the same guidelines as those serving in other Federal and 
community facilities.
    DIHS continues to make improvements to ensure that 
consistent quality medical care is accessible to all ICE 
detainees. This is accomplished through regular and frequent 
communication with ICE DRO leadership and enhancements to 
existing programs. DIHS is actively participating in the 
Electronic Medical Record Workgroup that is evaluating several 
electronic health care record systems for deployment in the 
near future.
    Thank you for allowing me to provide testimony before your 
committee today. I will be happy to answer any questions you 
have at this time.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.018
    
    [GRAPHIC] [TIFF OMITTED] T2999B.019
    
    [GRAPHIC] [TIFF OMITTED] T2999B.020
    
    [GRAPHIC] [TIFF OMITTED] T2999B.021
    
    [GRAPHIC] [TIFF OMITTED] T2999B.022
    
    [GRAPHIC] [TIFF OMITTED] T2999B.023
    
    [GRAPHIC] [TIFF OMITTED] T2999B.024
    
    Mr. Price. We will now turn to the GAO report.
    Ms. Cackley, you may proceed.

                  Opening Statement of Ms. Cackley/GAO

    Ms. Cackley. Thank you. Chairman Price, Ranking Member 
Rogers, and members of the subcommittee, I am pleased to be 
with you today as you examine health care for immigration 
detainees in the custody of U.S. Immigration and Customs 
Enforcement, or ICE.
    Health care for detainees has been an issue of concern as 
cases of poor health outcomes and even deaths of ICE detainees 
have come to light. My remarks this morning are based on a 
report we prepared for the subcommittee, which you released 
yesterday, entitled ``DHS: Organizational Structure and 
Resources for Providing Health Care to Immigration Detainees.''
    My remarks will cover two key areas that you asked us to 
examine. The first is ICE's organizational structure for 
providing health care to detainees. The second is ICE's annual 
spending and staffing for detainee health care, as well as the 
number and types of services provided. We did not address the 
quality of care that detainees in ICE custody receive.
    As our first graphic shows, ICE mainly uses three types of 
facilities to house detainees. Of the three facility types, 
intergovernmental service agreement facilities, or IGSAs, are 
the most common. ICE uses 514 IGSAs, which are generally State 
and local jails under contract with ICE to hold detainees.
    As the next graphic shows, the majority of the population 
is housed at IGSAs. In fiscal year 2007, almost two-thirds of 
the detainee population was held in IGSAs. The remaining ICE 
detainees were held at 15 service processing centers and 
contract detention facilities.
    I need to note that ICE is not able to provide reliable 
data on the number of unique individuals it detains each year. 
Throughout our work, we use data on the number of beds ICE used 
on an average day during the fiscal year, or what is called the 
average daily population, because this is the only reliable 
measure that ICE could provide.
    In general, ICE organizational structure for providing 
health care to detainees differs by type of facility. At the 
largest facilities, staff from the Division of Immigration 
Health Services, or DIHS, provide health care services. DIHS is 
comprised of contract employees and officers from the U.S. 
Public Health Service Commission Corps.
    About half of all ICE detainees receive health care at 
facilities staffed by DIHS providers. In contrast, some IGSA 
facilities engage on-site clinicians, while others have no 
health care staff on site and rely on community providers to 
deliver care.
    Until October 1, 2007, HHS and DHS had agreements that 
enabled the use of DIHS medical personnel to provide detainee 
health care. DIHS is no longer a component of HHS, and Public 
Health Service officers are now detailed to DHS.
    DHS officials reported that ICE now has a component named 
DIHS that provides health care services to detainees. However, 
DHS could not provide us an organizational chart to show DIHS's 
placement within the agency.
    During our work, ICE officials told us that its facilities 
are not required to keep standardized records or to report 
routinely on detainee health care. Although facilities are 
responsible for transferring detainees' medical information 
when detainees are transferred, the completion of these medical 
transfer summaries are not monitored.
    In terms of resource utilization, we found that it was 
difficult to get a complete picture of health care spending, 
staffing, and services provided to detainees. Data are not 
available on many of the health care expenditures incurred by 
IGSAs. Likewise, data on medical claims submitted by community 
medical providers could not be reported by facility type, such 
as IGSAs.
    Given those caveats, ICE's available data on health care 
spending, staffing and services provided generally indicated 
growth in all three areas. The available data for medical 
claims and DIHS program operations showed that from fiscal 
years 2003 through 2007, spending on detainee health care rose 
by 47 percent. Over the same period, the average daily 
population increased by about 40 percent. Likewise, the number 
of DIHS health care staff and the number of services they 
provided both increased during this time.
    In conclusion, some aspects of DHS's organizational 
structure and its current management practices may affect the 
agency's ability to oversee spending, staffing, and services 
for detainee health care. Our work identified a number of areas 
that may merit additional study. These include ICE's ability to 
account for the number of individuals in custody; reporting 
relationships between DIHS and ICE; IGSA health care 
recordkeeping and reporting requirements; ICE ability to ensure 
the transfer of medical records when detainees are transferred 
between facilities; ICE's ability to identify expenditures 
incurred by IGSAs for detainee health care; and ICE's ability 
to identify medical claims expenditures by facility type, such 
as IGSAs.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to any questions you or members of the 
subcommittee may have.
    Mr. Price. Thank you. We will return to those findings when 
we do turn to questions.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T2999B.025
    
    [GRAPHIC] [TIFF OMITTED] T2999B.026
    
    [GRAPHIC] [TIFF OMITTED] T2999B.027
    
    [GRAPHIC] [TIFF OMITTED] T2999B.028
    
    [GRAPHIC] [TIFF OMITTED] T2999B.029
    
    [GRAPHIC] [TIFF OMITTED] T2999B.030
    
    [GRAPHIC] [TIFF OMITTED] T2999B.031
    
    Mr. Price. Dr. Schriro, welcome. Please proceed.

                Opening Statement of Dr. Schriro/ICE-DRO

    Ms. Schriro. Good morning, Chairman Price, Congressman 
Rogers, and distinguished members of the subcommittee. My name 
is Dora Schriro. I am the newly appointed Special Advisor on 
Detention Removal Operations to Secretary Napolitano at U.S. 
Immigration and Customs Enforcement. The Secretary created this 
position to focus exclusively on the significant growth in 
immigration detention over the last 5 years and its related 
issues at ICE.
    Just prior to joining DHS, I served as director of the 
Arizona Department of Corrections in Governor Napolitano's 
administration. I also led the Missouri Department of 
Corrections. In both States, we put systems in place to find 
and fix the root causes of concern, cutting new lawsuit filings 
about conditions of confinement by greater than 70 percent. I 
also have considerable experience working with pretrial 
detainees, first as assistant commissioner of the New York City 
Department of Corrections, and later as warden and then 
commissioner of the St. Louis City jails. In each of these 
jurisdictions alternatives to confinement were also of concern, 
and great strides were made.
    I am otherwise active in making improvements; 
participating, for example, in an ABA workgroup that reviewed 
and revised standards for the treatment of prisoners and 
detainees.
    I appreciate the similarities and the differences in civil 
detention and criminal confinement. It has informed my early 
assessment during my first several weeks of work and will 
continue to do so.
    Thank you for this opportunity to appear before you this 
morning to share my early impressions about the medical care 
and treatment of immigration detainees, including deaths in DRO 
custody, and to outline steps for a course of action to bring 
about the changes we all want.
    Within ICE, Detention and Removal Operations oversees the 
apprehension, supervision, and removal of inadmissible and 
deportable aliens. DRO provides, either directly or by 
contract, as has been testified, for the safety and well-being 
of detainees pending their removal with policies, processes, 
and appropriated funds. Its affirmative obligation to ensure 
appropriate medical care is afforded to detainees in its 
custody regardless of location includes a medical screening 
within 12 hours; a physical exam within 2 weeks of detention; 
timely and appropriate responses to emergent medical requests; 
medical care suitable to the anticipated length of detention; 
and a plan to continue care after removal, as warranted.
    As documented in GAO reports, among others, we know that 
this does not always happen. Likewise, since the inception of 
ICE in 2003, there have been 90 detainee deaths in ICE custody, 
including 76 natural causes, 13 by suicide, and 1 by accidental 
overdose. Despite gains made over time, in several recent 
accounts the medical or custodial care provided appeared 
contrary to DRO policy.
    DRO has an average daily census approaching 33,400 in 
detention, and as many as 17,000 in the community on 
supervision on any day. By year's end, over 400,000 will have 
been detained, its size rivaling that of any other system.
    DRO, however, unlike its pretrial counterparts, oversees as 
many as 350 detention facilities, of which relatively few are 
under its direct control. Its delivery of health care is shared 
by DIHS and several hundred State and local partners with which 
DRO maintains intergovernmental agreements. As we have heard, 
DIHS is the direct care provider to many of the population, 
with the remainder receiving routine health care on site by 
IGSA providers or others, and emergent and specialty care off 
site through DIHS.
    DRO expended about $128 million through per diem payments 
in DIHS during fiscal year 2008 for the medical, dental, and 
mental health care afforded. DRO is expected to get larger in 
the immediate future. ICE plans to increase its detention 
capacity by 1,400 beds during fiscal year 2009.
    We recognize that we need to do more, quickly. Concern has 
been expressed within government and by the community for some 
time about the medical care and treatment that ICE detainees 
receive and detention deaths in custody. In my view, there is 
reason for concern. There is also real possibility for 
measurable, sustainable improvement.
    The fiscal year 2009 appropriation provided for $2 million 
to ICE to undertake immediately a review of the medical care 
provided to people detained by DHS. This is an important 
opportunity for ICE to convene stakeholders and subject matter 
experts to build upon the body of knowledge already in print, 
including a recently completed report by the DHS working group 
that was formed last summer.
    While this review gets underway, I will complete my 
overview of written materials and continue to tour facilities 
in every part of the country, speaking with staff and detainees 
wherever possible, and meeting with my colleagues in State and 
local enforcement and nongovernmental organizations in each 
area that I visit. And to inform future budget and planning for 
a delivery system consistent with medically accepted community 
standards of care, DRO and DIHS will redouble its collection of 
data, yielding more news and less noise.
    Last, Secretary Napolitano has asked that I submit 
preliminary findings and recommendations to her shortly, and I 
am prepared to do so. I anticipate that an assessment will be 
ready for your review shortly thereafter, and that it will 
include deliverables upon which you can count.
    Again, thank you, Mr. Chair. We can make a difference, and 
we will.
    Mr. Price. Thank very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.032
    
    [GRAPHIC] [TIFF OMITTED] T2999B.033
    
    [GRAPHIC] [TIFF OMITTED] T2999B.034
    
    [GRAPHIC] [TIFF OMITTED] T2999B.035
    
    [GRAPHIC] [TIFF OMITTED] T2999B.036
    
    [GRAPHIC] [TIFF OMITTED] T2999B.037
    
    [GRAPHIC] [TIFF OMITTED] T2999B.038
    
               MEDICAL STANDARDS FOR DETENTION FACILITIES

    Mr. Price. Thanks to all of you.
    We will turn to the questions now. And I would like to 
focus initially on one aspect of this challenge, which is the 
question of timely access to medical care. There have been 
disturbing reports, as you know, including last summer's 
inspector general report, that indicate some detainees have had 
to wait weeks or months to receive simple requested medical 
care. Generally this seems to be because the facility in which 
they were detained either does not have an on-site doctor or 
nurse, or because a doctor or nurse is available only 
sporadically on a part-time basis.
    Recently the Washington Post highlighted how a man in ICE 
custody in Virginia complained of sharp pains in his back and 
abdomen, but was not examined by a doctor for more than a week, 
and, according to the article, the man later died of a 
bacterial infection that could have been and should have been 
caught.
    Mr. Hayes and Captain Rodriguez, I would like to ask you in 
turn to help us understand the situation here. What kind of 
medical standard or requirements are imposed on the different 
categories of facilities, the Federal facilities, the privately 
owned, and the intergovernmental service agreement facilities, 
that house individuals in ICE detention? Are all facilities 
required to have doctors or nurses on staff at the facility? If 
not, what kind of arrangements are they required to have? And 
what kind of standard are they supposed to observe for timely 
medical attention?
    Captain Rodriguez in particular, does ICE routinely measure 
the amount of time its detainees have to wait for medical care 
so there can be some indication of whether the standards are 
being met? If so, what is the figure that you have? And do you 
maintain separate statistics for, again, the different classes 
of facilities; the Federal facilities, the privately owned, and 
the IGSA facilities?
    Mr. Hayes, if you will begin.
    Mr. Hayes. Certainly, Mr. Chairman.
    All facilities are required to have a medical authority 
that governs the care that is provided in that facility. They 
are also required to have plans in place to provide routine 
care, day-to-day care, emergency care.
    One of the things that we began doing just a few months 
ago, in consultation and together with DIHS, is reviewing 
weekly cases that we believe are involving individuals who are 
faced with significant medical conditions. It is our first step 
toward building a real medical risk classification system.
    One of the challenges that goes to a number of your points 
that we face has to do with our ability to collect data, our 
data management information systems that we are actively 
working to improve. That is the whole point behind the 
electronic health record system is to be able to capture 
information related to the delivery of health care to every 
detainee who comes into our custody, regardless of what type of 
facility it is; whether it is an intergovernmental service 
agreement facility, a contract detention facility, or one of 
our own facilities.
    And so the goal where we want to get to is where every 
detainee that comes in and receives these screenings is 
classified based on risk, and therefore, once we identify 
detainees with a particular risk, we can move them, if need be, 
to a different facility in a location or with a community 
around them that can provide a better standard of care.
    Certainly I think Dr. Rodriguez can discuss some of the 
things that DIHS does and some of the things that DIHS is 
prepared to do when it becomes aware of cases in those IGSA 
facilities where DIHS is not. Certainly we are as well----

               AVAILABILITY OF MEDICAL PERSONNEL ON SITE

    Mr. Price. Excuse me. Just one question that springs from 
your comments. Do these facilities now have the kind of medical 
personnel on the premises or available to even contemplate that 
kind of initial screening and that kind of initial 
categorization?
    Mr. Hayes. Currently they are required to be in a position 
to provide health care. It does not require a specific on-
premise personnel, per se. That is what is laid out in most of 
the IGSA contracts and in the detention standards. Now, we are 
actively reviewing all of the IGSA contracts that we currently 
have to make them much stronger for the health and the care of 
our detainees.
    And then I will leave it to Dr. Rodriguez to answer the 
questions that you specifically posed to him.

                    TREATMENT AUTHORIZATION REQUESTS

    Captain Rodriguez. When it comes to the standard for access 
of care, all the care that cannot be provided on site by the 
facility, regardless of IGSA or DHS staff facility, goes 
through a process called the TAR request, which means Treatment 
Authorization Request. Depending on whether that request for 
medical care is part of our benefit package, then if it is, it 
is approved automatically; if it is not, then it is our medical 
director who will then either approve or disapprove based upon 
only medical necessity.
    Some of these approvals have to do with lack of information 
on the TAR request, and then they are sent back to a facility 
so they can provide more information that will allow for that 
TAR request to be approved. I can tell you that our last 
statistics for approval of the TAR show that we have approved 
98 percent of the TAR requests, so most of them are not 
disapproved. And the ones that are disapproved are based only 
on lack of information to make a determination or because of 
the request is for what we consider to be not medically 
necessary or elective care.

                   TIME IT TAKES TO GET MEDICAL CARE

    Mr. Price. What about my question about whether you have 
accurate measurement of the amount of time it takes for 
detainees to get medical care? Do you have those statistics; do 
you gather them; and do you have them separately for these 
different kinds of facility?
    Captain Rodriguez. We do not, sir.
    Mr. Price. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Hayes, tell us, what happens to a detainee within 12 
hours of his or her apprehension.
    Mr. Hayes. Within 12 hours of booking into an ICE facility, 
they receive an initial intake screening, which will be a 
visual observation, as well as documentation of their medical 
history, being asked questions related to any pain or suffering 
that they may be currently undergoing. They will be asked if 
they are currently taking any medication, anything of that 
nature. And certainly I think the doctor--if you want more in-
depth information, Captain Rodriguez can speak to even more in 
depth on that process.
    Mr. Rogers. Captain Rodriguez, what happens to the detainee 
in the first hours of his or her detention, medically?
    Captain Rodriguez. As was mentioned by Mr. Hayes, they 
receive an initial what we call intake screening, consisting of 
simple medical questions that address issues about past medical 
history, medications, anything that is medically related. It 
does not involve at that time a medical hands-on examination. 
It is just based on a series of questions.
    Also they are going to receive screening for tuberculosis, 
either by doing a skin test or by having X-rays, which is what 
happens in most of our facilities. And also, if the detainee--
in this case, female detainees between the age of 10 and 55, 
they get a pregnancy test also.
    Mr. Rogers. Now, 90 percent of the detainees come from 10 
of the world's most underdeveloped countries; is that not 
correct?
    Captain Rodriguez. That is correct, sir.

               BASELINE INCIDENCE OF ILLNESS AND DISEASE

    Mr. Rogers. So you would expect to see a lot of illness and 
disease amongst the people that you apprehend, is that not 
correct, because of that?
    Captain Rodriguez. That is correct, sir.
    Mr. Rogers. So I am assuming that you are going to find all 
sorts of mental, dental, physical illnesses amongst this group 
of people.
    Captain Rodriguez. That is correct.
    Mr. Rogers. Much higher than amongst the general population 
of, say, this country, right?
    Captain Rodriguez. Yes, sir. 
    Mr. Rogers. Have there been times when, because of your 
examination of these people, that you have saved lives, do you 
think?

                          MEDICAL EXAMINATIONS

    Captain Rodriguez. Yes, we have. We have found conditions 
that, if not treated within weeks or months from the diagnosis, 
they would have died, regardless of whether they will be in the 
general population or in our facility. So those screenings have 
been lifesaving for these detainees.
    Mr. Rogers. Do you have an opinion as to whether or not the 
examination that you give a detainee upon their arrest, as to 
whether or not your examination is the first they ever received 
in their life?
    Captain Rodriguez. Yes. Most of these have had no type of 
medical care in their lives, not even going to a doctor or 
clinic, outpatient clinic. So we are sometimes the first time 
they see a physician who do an examination on them.
    Mr. Rogers. What percentage of the detainees that you bring 
in are getting their first examination in their life? What 
percent?
    Captain Rodriguez. I don't have those numbers.
    Mr. Rogers. Give me a guess. Half?
    Captain Rodriguez. I would say more than that, sir.
    Mr. Rogers. Three-fourths?
    Captain Rodriguez. Probably.
    Mr. Rogers. Two-thirds.
    Mr. Hayes. If I may, Mr. Rogers, it is definitely 
information we want to begin collecting because of the very 
fact that you point out, that we don't have numbers to quantify 
it, but in the medical opinion of the DIHS experts that are 
screening these individuals, it is, in fact, many instances the 
first time in years or their lives that they have been seen by 
a medical doctor and asked these types of questions.
    Mr. Rogers. I would assume that in the course of those 
examinations, you discover hypertension, diabetes, 
tuberculosis, asthma, HIV/AIDS, seizures, dental needs, heart 
disease, what have you, right?
    Captain Rodriguez. That is correct. For example, people 
have even gotten a procedure such as a bypass or stent 
placement for heart disease that they would not have dreamed to 
receive in their native countries because they were not 
diagnosed and they have a potentially lethal heart disease.
    Mr. Rogers. Have you intervened in those types of cases?
    Captain Rodriguez. Yes, we have, sir.
    Mr. Rogers. With what?
    Captain Rodriguez. Sending them to a specialist who will 
perform the surgery.
    Mr. Rogers. Cardiac surgery?
    Captain Rodriguez. That is correct.
    Mr. Rogers. Has that happened other than once?
    Captain Rodriguez. I don't know the numbers, but I know of 
a few, sir.

                            MORTALITY RATES

    Mr. Rogers. The mortality rate in 2008, as has been 
described, is 2.7 deaths per 100,000 detainees. Mr. Hayes, can 
you compare that to other mortality rates that might be 
relevant to this discussion?
    Mr. Hayes. Well, GAO recognized in their report that our 
mortality rate was lower than other prison populations. 
However, one of the factors that makes it difficult to compare 
is the fact that we have been talking about for the last couple 
of minutes, which is our population is generally in poorer 
health certainly than the prison population of other prison 
populations in the United States.
    Mr. Rogers. If I could just briefly, quickly, because it is 
relevant. I have before me here a chart that shows the detainee 
mortality rates from 2004 to 2008. I think this was supplied to 
me by ICE.
    Mr. Hayes. I believe so.
    Mr. Rogers. Is that accurate, Mr. Hayes?
    Mr. Hayes. I believe it is.
    Mr. Rogers. I would like to enter that in the record, Mr. 
Chairman. It shows the mortality rate has decreased from 10.8 
per 100,000 in 2004, down to 2.7 in 2008.
    And, secondly, the ICE health care spending that this 
subcommittee has approved for the Department from 2004 to 2009, 
$74 million in 2004, to $151 million for the current fiscal 
year. Is that accurate?
    Mr. Hayes. I believe it is, sir.
    Mr. Rogers. I would like to enter that in the record, too, 
Mr. Chairman.
    Mr. Price. Those charts will be entered in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.039
    
    [GRAPHIC] [TIFF OMITTED] T2999B.040
    
    Mr. Price. Now we return to Mr. Rodriguez.

                          STANDARDIZED RECORDS

    Mr. Rodriguez of Texas. Thank you very much.
    If I gather anything--I want you to tell me if I am correct 
or not--from the GAO, is that you indicated that there are no 
standardized records; that the picture is vague; that health 
care records are not being kept appropriately, or not there. Is 
that correct? You don't have a good feel for what is occurring.
    Ms. Cackley. When I say that there is no standardized 
recordkeeping, I mean that there is no standardized--it is not 
that no records are being kept, it is that they are not being 
kept in a standardized way. So, in some places there may be 
electronic records, and in other places there may be paper 
records, and they can't be----
    Mr. Rodriguez of Texas. You are having difficulty gathering 
and making an assessment.
    Ms. Cackley. Exactly.

                           LISTING OF DEATHS

    Mr. Rodriguez of Texas. Mr. Hayes, you indicated that--I 
think I quoted you right when you said that not all deaths are 
listed.
    Mr. Hayes. I am sorry?
    Mr. Rodriguez of Texas. When you talked about and reported 
in terms of the deaths and the low death rates, but did you 
also indicate that not all the deaths were listed?
    Mr. Hayes. No. I am sorry. I don't recall saying that.
    Mr. Rodriguez of Texas. So all the deaths are listed.
    Mr. Hayes. When you say ``listed''----
    Mr. Rodriguez of Texas. I think I picked that up from you 
when you were talking.
    Mr. Hayes. I am sorry, reported. I was talking about all 
deaths being reported to the Office of Professional 
Responsibility, the Office of the Inspector General, the local 
health authorities.
    Mr. Rodriguez of Texas. They are?
    Mr. Hayes. They are, sir.
    Mr. Rodriguez of Texas. Was that picked up from the GAO, 
all the deaths that occur within all the different existing 
groups?
    Ms. Cackley. The information that we had on the deaths was 
information that was given to us by ICE. We didn't do any 
separate confirmation.

                         REPORT ON DEFICIENCIES

    Mr. Rodriguez of Texas. You didn't confirm.
    You indicated also, Mr. Hayes, that you were also following 
up to get a report on your deficiencies. Were any other 
deficiencies outlined based on your reports that you received 
that were not indicated by the GAO?
    Mr. Hayes. Again, this began in January of this year. I 
directed this process to happen. And the process as it happens 
now is there is a closeout every time a detention facility is 
inspected by either a private contractor or our own Office of 
Professional Responsibility. And what I have directed is that 
if a deficiency is identified in any standard in any facility, 
that it be reported to me the same day so I can personally 
track the progress on correcting those deficiencies or, if 
necessary and warranted, make a determination where immediate 
action is necessary.
    Mr. Rodriguez of Texas. Does the GAO have a list of those 
deficiencies that have been outlined?
    Mr. Hayes. No, sir. I believe the GAO conducted their work 
last year, and this has only been ongoing since January.

                     FAMILY HEALTH CARE FACILITIES

    Mr. Rodriguez of Texas. I am concerned about two types of 
facilities. Of course, I am concerned about the others, but one 
is where the families are being held--we have one, the Hutto 
facility in Texas--in terms of how they would get access to 
health care.
    The second is, we also have facilities where only young 
people were there, under 18. I know we have one in San Antonio, 
and others. I know we are talking about health care, access to 
health care, but one of the--I know they didn't have 
appropriate legal access to attorneys, especially the young 
people that don't have their parents with them. Some were 5 
years old, others are a little older. In order for them to get 
any kind of service, I think that they would need legal 
services. Do you know in terms of how that is coming about in 
those types of facilities?
    Mr. Hayes. In the facilities that you reference, where 
juveniles are held, they are actually managed by the Office of 
Refugee and Resettlement. And that is within, I believe, the 
Department of Health and Human Services. And so we are 
responsible, actually required by statute, to turn juveniles 
over to them within 72 hours of their arrest.

                             HUTTO FACILITY

    When you reference family detention facilities, if I may, I 
know you are talking about the Hutto facility. And we have a 
facility, Berks facility, in Berks County, Pennsylvania. The 
reason why the facility in particular in San Antonio became 
necessary was because of the desire to end the policies of 
catch and release along the southwest border, as well as to end 
the practice of tremendously horrific exploitation of minors by 
violent alien smugglers who were using children to pretend that 
they were family units and therefore expecting release upon 
arrest by the Border Patrol.
    We have done a tremendous amount of work in making sure 
that the facility in Hutto not only conforms to the standards, 
but really exceeds the standard in many ways in both the 
amenability of medical care, as well as just a family-friendly 
atmosphere. It is not your typical detention setting. We 
understand that there are certain special differences when we 
are talking about detaining family units, in particular 
children, and we have made great strides to make sure that 
Hutto is as friendly and as convenient an atmosphere to be 
detained as possible.
    Mr. Rodriguez of Texas. Dr. Schriro, I would just make a 
comment that I would ask you to please follow up, especially on 
those sites that we have families being held, as well as those 
sites where we have just young people that are being held, not 
only in terms of access to quality care or appropriate care, 
but also in terms of legal services.
    With that, I will stop. Thank you.
    Mr. Price. Thank you. Mr. Calvert.

                          DEATHS IN ICE SYSTEM

    Mr. Calvert. Thank you, Mr. Chairman. And thank you for 
having this hearing. I think it is important because obviously 
perceptions here in the United States and outside of our 
country are extremely important.
    With that, Mr. Hayes, is this correct; a statistic that you 
gave us, approximately 1.5 million people have gone through the 
system, ICE system, since the beginning and there have been 
approximately 76 natural caused deaths and approximately 13 
suicides? Is that a correct number?
    Mr. Hayes. Yes, sir.
    Mr. Calvert. I think perfection in any organization is a 
noble goal whether you are in business or in government. And, 
Dr. Schriro, you have the experience with both Missouri and the 
State of Arizona. What was the statistic approximately per 
death per 100,000? Do you have that number available?
    Ms. Schriro. Mr. Calvert, I do not----
    Mr. Calvert. Did it exceed 2.7 deaths per 100,000?
    Ms. Schriro. I believe that it did. We, like all State 
systems, report also to the Department of Justice, the Bureau 
of----
    Mr. Calvert. If you could find that number in the future 
and submit it for the record, I would appreciate it. But your 
belief is that it exceeded 2.7 per 100,000 both in the State of 
Missouri and in Arizona?
    [The information follows:]

    Mr. Calvert: If you could find that number in the future and submit 
it for the record, I would appreciate it. But your belief is that it 
exceeded 2.7 per 100,000 both in the State of Missouri and in Arizona? 
(1027-1030)
    Provided by the Department of Homeland Security: Yes. According to 
the most recently published U.S. Department of Justice Bureau of 
Justice Statistics (BJS) report, the mortality rate per 100,000 state 
prisoners on June 30, 2006 was 219 for the State of Missouri and 202 
for the State of Arizona.

    Ms. Schriro. Both the actual and proportionate deaths for 
the size of this population is appreciably small.

                                VACCINES

    Mr. Calvert. Dr. Rodriguez, obviously you have a 
significant number of people that are going through the system 
every year. If you have determined that a detainee has never 
received medical care in their life, are vaccines provided for 
the individuals? Are you doing any of that kind of preventative 
medical care?
    Captain Rodriguez. Usually we provide for acute and chronic 
illness on any patient care that is required at the facility, 
but we don't routinely provide the vaccinations because usually 
they have to be provided as part of a protocol. So just one 
shot isn't going to provide the protection. And if the country 
to which they are being returned cannot follow through with 
that, then you haven't accomplished much when it comes to 
vaccinations.

                              TUBERCULOSIS

    Mr. Calvert. I see. One of the comments you made in your 
testimony I would like to follow through on, and that is the 
issue of tuberculosis, especially drug-resistant TB. And you 
have found a number of cases that have been going through your 
detention centers. Do you work with the Center of Disease 
Control when you find a case of tuberculosis? Do you report 
that to the CDC?
    Captain Rodriguez. Yes. Our epidemiology unit has contacts 
with the CDC and also they have--even though a network of 
treatment centers in different countries to which these 
detainees might be deported to, to ensure that they have 
continuity of care and they can continue the treatment that has 
been started in the U.S.
    Mr. Calvert. Does the Center for Disease Control--once you 
have a detainee, do you determine where they have been in the 
United States to see if, in fact, any infections have been 
transmitted to other populations?
    Captain Rodriguez. Well, we try to get as much information 
as possible, despite we find out sometimes the detainees may 
not be forthcoming in telling us where they have been 
sometimes, because they don't want to expose other friends or 
family members to detention. So it is sometimes difficult to 
collect all the data that we might need.
    Mr. Calvert. To your knowledge, is there any evidence of 
tuberculosis now resurging back into the general population of 
the United States, especially in the Southwest?
    Captain Rodriguez. I have no such information.
    Mr. Calvert. Any evidence of any other disease that could 
be transmitted, such as--have you ever come in contact, say, 
with malaria?
    Captain Rodriguez. No, sir.
    Mr. Calvert. Any other disease, contagious diseases?
    Captain Rodriguez. No, sir.
    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    Mr. Price. Thank you, Mr. Farr.
    Mr. Farr. Thank you very much, for this hearing, Mr. 
Chairman.
    Mr. Hayes, how big is ICE? What is the budget?
    Mr. Hayes. The agency budget--forgive me--off the top of my 
head, it is somewhere in the neighborhood of $5 billion.
    Mr. Farr. And how many people are in ICE?
    Mr. Hayes. It is approaching 20,000, sir. I am sorry. I 
don't have the number.
    Mr. Farr. It is a big law enforcement agency.
    Mr. Hayes. Yes, sir.

                             ORAL SCREENING

    Mr. Farr. I want to follow up on what Mr. Rogers said. You 
said that each and every detainee is given an oral screening? 
Is that what I heard?
    Mr. Hayes. That is the expectation. Obviously we are aware 
of instances where it may have been delayed, but that is our 
expectation.
    Mr. Farr. And are the oral screenings in the detainee's 
native language?
    Mr. Hayes. There are either officers available who are 
native speakers in that language----
    Mr. Farr. Do they have officers that speak Triqui and the 
Indian dialects of Mexico that are non-Spanish speaking?
    Mr. Hayes. Generally, no. But we do have translation 
services available through private contractors. So in the 
instance where someone----
    Mr. Farr. That is the telephone kind?
    Mr. Hayes. Generally, yes, sir.
    Mr. Farr. So then you try to do the oral screening and then 
from the oral screening you determine whether they ought to 
have a physical exam or further screening?
    Mr. Hayes. That can lead to that more quickly. All 
detainees will have that prior to their 14th day in custody. 
But certainly where more serious conditions are noted in the 
initial intake, then that would prompt more immediate action, 
depending on the type of the condition, the severity----
    Mr. Farr. But not every detainee sees the doctor? Those 
oral screenings are done by officers or by staff?
    Mr. Hayes. It could be done by someone other than a doctor, 
yes.
    Mr. Farr. So the doctors just see the referral cases, 
right?
    Mr. Hayes. I will leave it to Dr. Rodriguez to specifically 
state when a doctor gets involved.

                          PHYSICAL EXAMINATION

    Captain Rodriguez. That would be at the time when the 
physical exam is performed, which, like I mentioned, is a 
detailed medical history and also a hands-on physical 
examination.
    Mr. Farr. That doesn't occur with everyone, only the 
detainees that are still detained after a certain period of 
time?
    Captain Rodriguez. If they are detained 14 days or more, 
they would get that.
    Mr. Farr. After 2 weeks, then they would have that exam?
    Captain Rodriguez. That is correct.

                   FACILITY STANDARDS AND PROCEDURES

    Mr. Farr. I looked in your chart here. Roughly of the 529 
facilities, do you have a common operating process so that 
every one of those facilities goes by the same standards and 
procedures?
    Captain Rodriguez. The only standard we have is going to be 
the intake screen within 12 hours and the physical exam done 
within 14 days.
    Mr. Farr. All that is done in every single facility?
    Captain Rodriguez. That is our policy.
    Mr. Farr. That is your policy, but----
    Captain Rodriguez. But, of course, like--it was mentioned 
before that some facilities have been found to be deficient and 
some other facilities got too big in one of those two areas. 
When we identify that, we go to the facility and ask them to 
correct that.
    Mr. Farr. It seems very complicated. You have 414 that are 
intergovernmental agencies that could be anything from local 
law enforcement to private, you have eight service processing 
centers and seven contract detention facilities. It seems to me 
that one of the things you want to do is make sure that for all 
the questioning you are getting here, that the protocol is 
exactly the same in all of them.
    Captain Rodriguez. The problem is that at some of these 
facilities, they are only required to comply with State 
standards and that can vary from one State to the next. And the 
only thing that we expect them to be consistent with would be 
the intake screening and the 14-day physical.

                            DETAINEE CHARGES

    Mr. Farr. Are every one of the detainees charged, Mr. 
Hayes?
    Mr. Hayes. They are being held on immigration violations, 
so they are booked in for removal proceedings.
    Mr. Farr. Unlike prisons, where inmates are serving a 
sentence or awaiting trial, these detainees are not. They could 
challenge and everyone could ask for a trial, could they not?
    Mr. Hayes. They could. They have the option of going 
through removal proceedings before an immigration judge. Some 
of the detainees that we are holding have already been ordered 
removed and are pending either our acquisition of travel 
documents or our ability to make travel arrangements for them. 
Additionally, obviously, some of these individuals have been 
fugitives; so they have been ordered removed, and we found them 
and they are awaiting removal to their own country.
    Mr. Farr. And you expect 440,000 to be detained this year 
up 100,000 from last year? That is a big number increase.
    Mr. Hayes. Yes, sir.
    Mr. Farr. How many of those people are being detained 
because you arrest them on warrants?
    Mr. Hayes. They are all arrested on warrants of arrest.
    Mr. Farr. No. You arrest people just because they open the 
door and they don't have papers, they are undocumented.
    Mr. Hayes. They are all detained for committing immigration 
violations.
    Mr. Farr. But they are not all detained because they have 
an outstanding warrant.
    Captain Rodriguez. Some of those cases of warrant of arrest 
will be filed after the arrest. That is correct.
    Mr. Farr. No more questions, Mr. Chairman. Thank you.
    Mr. Price. Thank you. Mr. Carter.

                 CHALLENGES UNIQUE TO FAMILY FACILITIES

    Mr. Carter. Thank you, Mr. Chairman. I represent the T. Don 
Hutto detention facility. It is in my district. It is about 15 
miles from my house. I have visited the facility many times and 
my staff has visited as well. Can you talk to us about the 
specific challenges that are unique to family facilities and 
what ICE has had to do, including some of the things we have 
had to do to convert and make sure that T. Don Hutto is meeting 
its responsibilities?
    Mr. Hayes. Some of the specific challenges--obviously your 
traditional prison settings aren't appropriate for children, 
and it can be certainly somewhat challenging to find such an 
environment and to create such an environment where it doesn't 
appear to be a traditional detention setting. However, we felt 
it necessary based on some of the things that we saw, trends 
with regard to alien smugglers and their usage, exploitation of 
minors coming over the border with their goal of being released 
if the Border Patrol believed that they were a family unit.
    I can tell you that the cost of operating the facilities in 
Hutto and Berks are greater than the cost of most of our other 
facilities. And certainly the health care costs there are 
greater too, because with children you are dealing with a 
vulnerable population in terms of opportunistic infections. And 
maybe Dr. Rodriguez can talk to the specific pediatric needs 
that are dealt with there.
    Captain Rodriguez. Yes. In these facilities, one of our 
main concerns is the mental well-being of these children 
because they may have gone through who knows what kind of 
emotional trauma on their way to the United States. So that is 
why we have probably twice as many social workers, 
psychologists and that kind of mental health personnel in that 
facility than anywhere else in the Nation. We also want to 
provide them--and some don't appear to be like they are in a 
correctional facility, if you will, because of course that will 
add to the emotional trauma that they go through. So that is 
why they are provided with schooling that is age appropriate, 
sources for them to have entertainment that is appropriate for 
the age group, and everything that probably you might expect to 
see in any U.S. school system.
    Because I have been once also to Hutto. I was very 
impressed with what I saw there. And it doesn't look like your 
are entering a correctional facility. It looks like some kind 
of a private school where you have computer labs, you have all 
kinds of things provided to those children. And it looks like a 
family-type setting, not a correctional facility. We believe 
that is important for those children's families so that they 
can move away from whatever experience they had, especially 
emotionally, and carry on with their lives in a healthier way.
    Mr. Carter. They have organized sports activities, they 
have cartoon characters on the walls. The painting is more 
family friendly. They have game rooms that would be a game room 
at the YMCA or anyplace else.
    On this issue of health care, when I was visiting, they had 
a full-time nurse at that facility. And the Lone Star Circle of 
Care provided doctors and nurses anytime they had to go outside 
of the facility. And they had the health department doctors 
regularly in and out of that facility. And when screenings are 
made, a question was asked--if it is a health screening, some 
type of health professional does that screening, a nurse, a 
nurse's aide, somebody with some training. It is not just an 
intake officer that gives an X-ray and tuberculosis skin test. 
Or is it? I don't know the answer to that question.

              SPECIAL SCREENING FOR MENTAL HEALTH PROBLEMS

    Captain Rodriguez. Yeah, that is correct. We have developed 
a special screening tool for mental health problems that we 
really don't--haven't used in your facility because we believe 
that that kind of a facility requires a higher level of 
screening to make sure that the family as a whole is healthy 
enough, and, if they are not healthy enough, that they can 
receive the type of mental health service that they require as 
a family unit.
    Mr. Carter. They have gymnasium facilities and all types of 
facilities; is that correct?
    Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Serrano.

                         RESOURCES AND TRAINING

    Mr. Serrano. Thank you, Mr. Chairman. And thank you for 
holding this hearing. One of the dangers in this back-and-forth 
between Members of Congress and the panel is that it becomes a 
numbers discussion rather than a discussion about people. So it 
seems to me that I also should mention numbers.
    If you analyze this and say, well, we are not doing badly, 
we are doing the same or better than the general prison 
population, well, that is not correct because those folks stay 
there longer. So if a prisoner or an inmate dies or has a 
severe medical condition while serving a 5-year sentence, that 
is not the same as some situations where a person stays a day 
with you or a week with you or a month with you and has the 
same result.
    Secondly, there seems to be a lot of emphasis--and 
rightfully so in a way--on people detained while coming here. 
But not all the folks that are at these detention centers are 
people that were caught on their way here. Some have been here 
a long time. In fact, the German immigrant who died in Virginia 
had been here 42 years out of his 48 years. So obviously this 
was not a person detained. This was a person who was here, who 
probably was no different health-wise than the rest of the 
American population. He wasn't introducing anything on himself 
or to the population at the detention center. So I think the 
numbers are important.
    Now, I know that there is an attempt by you folks to do 
better, or at least to take care of these problems. But my 
question to you, at the risk of having you behave like all 
Federal agencies and say we need more resources, is do you have 
the resources to do what you are supposed to do? And that is 
one question.
    And my second follow-up question would be in the cases 
where people cannot identify or have no ability or don't care 
about a person's complaint about a pain, a condition, can we 
train those folks to understand the way a doctor would? If I 
came to you and said my back hurts--and knowing me I would 
complain about everything hurting--but you as a physician would 
say, okay, let us talk about that. But I suspect a prison guard 
or detention center employee may not know how to react to that. 
So what are we doing to make sure that when a person says I am 
in pain, I am hurting, I have a problem, someone doesn't say 
what the New York Times and other papers have reported, 
basically, you know, you are out of luck.
    Mr. Hayes. I will take, obviously, your first question with 
resources and I will try not to behave bureaucratically. But 
the fact of the matter is we have grown tremendously. We went 
from detaining just over 18,000 people on a daily basis in 2003 
to where we are at 33,400 now. One of the challenges was 
providing health care, and that is why in 2007 we arranged for 
this new agreement with the division of immigration and health 
services and they have grown tremendously.
    I think, obviously, some of the things that we have done 
over the course of the last couple of years, such as 
contracting out the inspections of these facilities, are 
important. It is important because prior to doing that, these 
inspections were conducted by our own deportation officers on a 
collateral duty basis. So 2 weeks out of the year, they would 
go and inspect a particular facility, and we found that that 
was not the level of expertise that we wanted to tell us in a 
very transparent way whether or not a facility was meeting our 
standards and our expectations, as well as our detention 
facilities inspection group.
    These are things, including the enhanced health care that 
we are seeking to provide, that are going to be resource-
intensive. It will require more resources as we continue to 
increase this population. But certainly the Congress has been 
very generous when it comes to appropriating funds to allow us 
to deal with these issues.
    With respect to the training, I completely agree with you. 
And I don't want to have lay people trying to diagnose certain 
things. I don't want our detention enforcement officers to have 
to feel like they have to diagnose things or make medical 
determinations. And we are exploring ways that we can make it 
much easier for detainees to have immediate, direct contact 
with trained health professionals, or at the very least, 
department personnel to immediately signal that they have some 
type of problem that they feel isn't being taken care of or 
appropriately addressed.
    I appreciate your comment that you recognize that we are 
and have been working very hard over the last 2 years to make 
these improvements. And as I sit here before you, I tell you we 
are not satisfied. There are more improvements that we can make 
and we are in the process of doing that.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                      TREATMENT OF PREGNANT WOMEN

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Actually I wish that all detained children were being 
housed in these nice day-care centers, as was described by Mr. 
Carter and by Dr. Rodriguez. But unfortunately, we are still 
getting reports that children are being kept overnight in 
border jails, that they are being put in cells with adults, 
often don't even have blankets to keep them warm.
    So perhaps one of the problems is that when you evaluate 
these different facilities--this is my understanding--that 
these yearly evaluations, they are given 30 days' notice that 
they will be evaluated, and perhaps if these were just drop-ins 
without any notice you may be able to pick up some things that 
are not obvious in the 30 days the facilities have to prepare 
for your visit.
    The one thing that I wanted to raise is the treatment, the 
actual treatment of detainees, particularly pregnant women. And 
I want to just give you one example, which is really a horrific 
example, of Juana Villegas who was an 8\1/2\-month-pregnant 
Mexican detainee, who went into labor last July. At the 
hospital she remained chained to her bed by the foot and the 
wrist until the final stages of her delivery, even though the 
nurses asked for the handcuffs to be removed. The officers 
refused to do that until just about the time of delivery. 
Afterward, Ms. Villegas was taken back to the county jail where 
she developed infections in both breasts because officers 
denied her the use of a breast pump. She was also separated 
from her baby for 2 days.
    So can you explain how you justify this type of treatment 
for pregnant women and do you intend to recommend changes in 
policies with regards to the detention of pregnant women by, 
for example, considering expanding the use of parole for women 
who do not pose a flight risk, particularly pregnant or nursing 
mothers?
    Mr. Hayes. If I may, I would like to respond to the first 
issue that you posed, and then I will move onto the second. 
With respect to the drop-in or the unannounced inspections, I 
completely agree. I think that is one of the best ways that you 
can really get a true feel of what is going on at a facility is 
when they don't have time to prepare. That is one of the things 
our detention facilities inspection group will do. Whether I 
request it or the assistant secretary can request it, they will 
do unannounced inspections.
    Additionally, one of the reasons why I directed that all 
deficiencies be immediately reported to me is because I wasn't 
satisfied with the 30-day notice either. I want to know 
immediately about deficiencies to determine if there is more 
immediate action that should be taken, as in past inspections, 
you know, there could have been.
    With respect to Ms. Villegas, is that a case out of 
Tennessee, I believe?
    Ms. Roybal-Allard. I believe so.
    Mr. Hayes. I researched that case. And actually she was not 
in ICE custody when that occurred. She was in the custody of 
the county. At the time of her release from the county, we 
processed her and did place her on a form of alternative to 
detention, actually placed her out on an order of supervision. 
The treatment, if accurate, was certainly regrettable, but it 
did not occur while she was in ICE----

                      CONTRACTS WITH COUNTY JAILS

    Ms. Roybal-Allard. But that brings up the point that you 
contract with these county jails and these officers in order to 
house these detainees; and therefore, in having these contracts 
or these agreements, you do not ask these local governments to 
adhere to any standards.
    So I think that brings up another point that perhaps you 
need to look at so that whoever you have agreements with, they 
are using the standards of DISH, which, by the way, even DISH 
detainee standards do not have the force of law, which is one 
reason why you have all these discrepancies and I have 
introduced a bill to address that issue.

                           STANDARDS OF CARE

    Mr. Rodriguez, as has already been highlighted, detention 
facilities across the country are often failing to meet even 
basic standards of care. And in a 2008 article, The Washington 
Post quoted an e-mail sent by a Division of Immigration Health 
Services doctor who expressed concern that the DIHS mission 
of--and this is a quote: ``Keeping the detainee medically ready 
for deportation often conflicts with the standards of care in 
the wider medical community.'' End of quote.
    He then went on to say again quote, ``I know in my gut I am 
exposing myself to the U.S. legal standard of care argument.''
    Are you aware of these concerns that doctors have? And what 
recommendations do you have to address the concerns and to 
improve the quality of health care at ICE detention facilities?
    Captain Rodriguez. DIHS is the medical authority on all 
health matters relating to detainees. Nobody else in ICE has 
used their authority to circumvent our recommendation when it 
comes to recommended health care for a particular detainee. So 
what we do, we inform them of the medical condition of the 
patient, what the treatment that is required is, and we make 
sure that once the decision is made to either release or deport 
the detainee, we provide information about where that person is 
fit to be deported or released.
    Ms. Roybal-Allard. So you don't agree with the concerns 
raised by the doctors?
    Captain Rodriguez. In the 4 months I have been the 
director, I haven't seen that situation happen. And I meet 
regularly with DRO leadership and they know that I am the 
medical authority and they should not go against our 
recommendations when it comes to providing health care to our 
detainees.
    Ms. Roybal-Allard. Perhaps you should find the doctor and--
--
    Captain Rodriguez. I would like to know who that person was 
so I can have a conversation, yes.
    Mr. Price. Thank you. Mrs. Lowey.

                        ICE SCREENING PROTOCOLS

    Mrs. Lowey. Thank you very much, Mr. Chairman, for holding 
this important meeting.
    I believe that in response to Congressman Farr, Dr. 
Rodriguez, you said there was first an oral exam and then 
hopefully a physical exam within 14 days, correct?
    Captain Rodriguez. That is correct.
    Mrs. Lowey. But what if the detainee doesn't know he has an 
infectious disease, which is probably the case most of the 
time? Why isn't there an immediate physical exam? And does ICE 
need more money to be able to do this? How long is the average 
wait before a detainee has his first--he or she has the first 
physical examination?
    Captain Rodriguez. Okay. Let me see if I understand the 
question. You said why don't we perform the physical exam 
before the----
    Mrs. Lowey. You said you perform an oral exam.
    Captain Rodriguez. Yeah, within the first 12 hours.
    Mrs. Lowey. And it is probably if the detainee doesn't know 
they have an infectious disease, they are not going to say I 
have TB or I have--they probably don't even know it. So isn't 
this very dangerous to wait 14 days?
    Captain Rodriguez. Let me clarify that. We go through a 
questionnaire which is just asking about health issues. They 
get a dental evaluation and they also get testing for 
tuberculosis, which is done via skin testing or via chest X-
rays. So it is not just an oral exam like has been said.
    Mrs. Lowey. I thought you said that they have to wait 14 
days.
    Captain Rodriguez. That is for the head-to-toe complete 
detailed CCR exam and for a detailed medical history. They do 
get the brief health treatment through questioning. They get 
the tuberculosis testing and they get a dental exam, plus they 
also get--if they are a female within the ages of 10 to 55, 
they get also a pregnancy test.
    Mrs. Lowey. Now, do you feel that those tests that they get 
immediately, not having to wait 14 days, are adequate to 
prevent the spread of an infectious disease? Are you saying 
that all the potential infectious disease tests are covered 
maybe at the beginning and not for 14 days?
    Captain Rodriguez. No, I am not saying that. But if we were 
to test for any possible infectious disease that there is, we 
would have to do a whole battery of blood tests. And I don't 
think even in the civilian sector or in the community it is 
done on a regular basis on anybody, except based on patient 
complaints.
    Mrs. Lowey. So let me just clarify, following up on Mr. 
Farr. When a person is detained and placed in a facility, you 
have not done at that point sufficient tests so that you can 
say publicly we feel confident that every person who is 
admitted does not have an infectious disease. There may be some 
infectious disease that you are not testing for?
    Captain Rodriguez. That is correct.
    Mrs. Lowey. Okay. Could you tell me at how many facilities 
are there backlogs for medical appointments? How long is the 
average backlog? As you know, The Washington Post reported in 
May 2008 that a facility in Pearsall, Texas had a backlog of 
2,097 appointments. And I would be interested to know, again, 
what steps are currently in place, not just from our questions 
here, to make a determination if a detainee has an infectious 
disease? And if a detainee is found to be carrying a disease, 
what procedures are in place to prevent the disease from 
spreading? What do you do with that person?
    Captain Rodriguez. Let me see if I remember all the----
    Mrs. Lowey. No, just--okay. I don't want to confuse you. 
Let me continue with the--if someone is found to have an 
infectious disease, they come in with a hacking cough, what are 
the current policies with that person?
    Captain Rodriguez. Okay. I guess the most important example 
of that would be somebody with tuberculosis. Okay. We have in 
our facilities--and they have the patient isolation rooms where 
we used to segregate those patients from the rest of the 
population to prevent any potential spread of tuberculosis to 
other detainees. And they are put there even if we just suspect 
that they have that illness, even before we can prove by either 
a chest X-ray or a culture that they do have tuberculosis. 
Because, of course, when it comes to testing with skin testing, 
that just means that the person has been exposed to the 
disease, not necessarily that they have an active case of 
tuberculosis. But we try to be very proactive and aggressive in 
trying to separate them from the rest of the population until 
we can determine that they actually do not have a contagious 
form of tuberculosis.
    Mrs. Lowey. Well, my time is up. I am just very pleased 
that many of these issues came up, Mr. Chairman. And I am 
hoping that we can, Mr. Chairman, pursue adequate responses to 
what many of us have suggested are very, very serious 
challenges. Thank you.

                            MORTALITY RATES

    Mr. Price. Thank you. Before we begin the second round of 
questioning, I wanted to make sure we don't lose a point raised 
by both Mr. Calvert and Mr. Serrano regarding the statistical 
challenges here just in assessing where we are.
    One of the findings of the GAO analysis is that mortality 
rates for ICE detainees cannot be easily compared to penal 
inmates, other penal inmates, be they Federal or State 
institutions, given the differences in the age and the origin 
of the life history of the population. I think beyond that, 
there has been some testimony before the Judiciary Committee in 
this House by Dr. Homer Venters of the Bellevue/NYU program for 
survivors of torture. And he recommended that the standardized 
mortality rate calculation take into account the length of 
detention, precisely the point that Mr. Serrano was raising.
    So rather than get into that in too much detail at this 
point, I would appreciate, Ms. Cackley, if you could maybe 
elaborate your testimony with respect to that particular 
problem, the controlling for the length of detention and 
reflect on the issue as it has been raised here about how 
comparable these figures really are?
    Ms. Cackley. I would be happy to. We did find that it was 
not possible to compare the death rates amongst the detainee 
population with either the U.S. Marshals Service or the Bureau 
of Prisons populations. And exactly as has already been 
discussed and a result of the fact that we don't know enough 
about the total population, the age distribution, the health 
histories, the difference in the amount of time that people are 
in custody and all of those things, would need to be 
standardized so that an accurate comparison could be made, 
both--a death rate is a--the numerator is the number of deaths 
and the denominator is amongst the whole population. But those 
populations are so different that you need to do a statistical 
calculation to compare them accurately.

             TREATMENT AUTHORIZATION REQUEST (TAR) PROCESS

    Mr. Price. Dr. Schriro, as you get back to us on this, I 
would think that the Department would also want to take these 
factors into account in the interest of an apples-to-apples 
comparison of these numbers.
    Let me turn to some findings of the GAO report and, in 
particular, the kind of reporting that takes place from the 
IGSA facilities, the State's contracted at the State and local 
level. We have discussed already at some length the various 
kinds of facilities we are dealing with here. There appears to 
be perhaps a special problem with respect to the IGSA 
facilities. ICE, as I understand it, requires these facilities 
to fax a so-called treatment authorization form to Washington, 
D.C. If the on-site doctor believes the detainee requires more 
medical care than the facility can provide. There have been a 
number of reports however, that suggest that these forms are 
reviewed by nurses who never examined the patients, who may 
deny the treatment requests without review by medical doctors, 
and that the requesting physicians have very little if any 
ability to appeal these denials.
    Last summer there was just an almost unbelievable case 
highlighted by the television show 60 Minutes, a man in ICE 
custody, whose doctors requested for 10 months that lesions on 
his genitals be biopsied, only to have those requests denied. 
The man was later released from ICE custody, received an 
immediate diagnosis of cancer, had his genitals amputated and 
died a year later after the cancer had spread to other parts of 
his body.
    Now, Captain Rodriguez, is the treatment authorization 
request still the primary method by which ICE manages the 
health care provided to detainees in these IGSAs? And who does 
review these requests? And how are the denials decided? And 
what rights of appeal do the on-site doctors have?
    Captain Rodriguez. We still use the entire process to 
authorize care of those facilities when the care is not 
available at the facility. First of all, the requests are 
reviewed by a nurse. Because if the requested procedure or 
consultation is within our benefit package, then it is going to 
be automatically approved. So it doesn't require any higher 
level of review. If it is not there or the nurse has a question 
about whether it should be approved, then he goes to the 
director, who is the physician, and only the physician has 
authority to deny a health-care request that is submitted by 
the facility.
    Mr. Price. So the nurse does not have the power to deny?
    Captain Rodriguez. Correct. But the nurse can ask a 
facility to submit any clarifying information if she feels that 
the request is incomplete. So that is one of the reasons why--
was incomplete on number two--well, because that was seen by 
the director and the director felt that it was not a problem.
    Mr. Price. Well, the case I cited, it is hard to believe 
that anyone wouldn't think this was a legitimate case. But 
beyond that, you are telling me that either a case is approved 
by this nurse through this screening process or there is a 
medical officer who reviews the case?
    Captain Rodriguez. That is correct, sir.
    Mr. Price. In your opinion, has that been a reliable 
routinized process or has there been some slippage?
    Captain Rodriguez. Well, in the 4 months I have been in the 
division, I have not seen any cases that rose to that level. 
That happened before my time. And I can tell that I don't know 
how that happened. I can tell you that. But since I have been 
in the division, we have made sure that we respond within 72 
hours, and that there is no request that are required, 
treatments that have been denied by our division.
    Mr. Price. Dr. Schriro, the best I can do at this moment is 
to suggest that this whole situation appears to be ripe for 
your review as you come into the Department, whether this is a 
problem of the scope that has been suggested by some of these 
reports. And in any case, what kind of review process needs to 
be maintained going forward from these IGSAs in terms of 
authorizing treatment? One issue is surely cost control, but it 
clearly needs to be more than that. There needs to be some 
assurance that legitimate health problems are being attended 
to.
    Ms. Schriro. Mr. Chair, I agree. What I have heard in 
various remarks and questions from the members of the 
subcommittee is concern that there is not yet one system in 
place, and that we all share the expectation that there ought 
to be common expectations and common characteristics, 
regardless of the location to which you are assigned pending 
your removal. So having reliable data and making apples-to-
apples comparisons and being able to base future budget and 
other planning decisions on that reliable information that we 
have all been discussing is going to be critical.
    Mr. Price. Thank you. Mr. Rogers.

                            MORTALITY RATES

    Mr. Rogers. Well, I think we have to keep in mind that this 
is the detention program for people who are illegally in the 
country. It is not a health program. We are not talking about a 
health screening program here or a hospitalization. We are 
talking about detaining illegals before they are deported and 
whether or not we are furnishing adequate medical health while 
they are in our custody. I think we have to keep that in mind 
when we talk about how we are screening and are not screening 
people.
    But the basic fact remains--and, Ms. Cackley, I think you 
would have to agree--that the chart that shows the detainee 
mortality rates from 2004 to 2008 is quite remarkable, is it 
not?
    Ms. Cackley. Mr. Rogers, the mortality rate that--we did 
not attempt to calculate a mortality rate because we didn't 
feel that we had an actual population----
    Mr. Rogers. I am showing you what the facts are. What is 
your comment on the reduction in the mortality rate from 10.8 
in 2004 to 2.7 in 2008? That is quite remarkable, is it not?
    Ms. Cackley. I don't know what the basis of that 
calculation is because I don't have the population numbers.
    Mr. Rogers. Well, assuming this is correct, which it is, is 
that not remarkable?
    Ms. Cackley. It is a significant decrease, yes, sir.
    Mr. Rogers. Yes. Now, Mr. Hayes, how many detainees have 
you handled since 2004?
    Mr. Hayes. I believe the number, sir, is greater than 1.7 
million.
    Mr. Rogers. 1.7 million people. And you have had 90 deaths, 
correct?
    Mr. Hayes. Yes, sir.
    Mr. Rogers. And only seven of those were females, correct?
    Mr. Hayes. I believe that is correct.
    Mr. Rogers. And 17 are Cuban. And they died of such things 
as sudden cardiac death, coronary artery disease, AIDS, cardiac 
arrhythmia, brain tumor glioblastoma or whatever. Ninety people 
out of a million, what?
    Mr. Hayes. Seven.
    Mr. Rogers. A million 7. To me that is remarkable. I don't 
know what we are complaining of here. In fact, I think we ought 
to be complimenting you for this tremendous reduction. How did 
you achieve that it?
    Mr. Hayes. Well, I mentioned some of the things that we 
have done to increase the oversight on how we provide medical 
care to detainees. Certainly a big step was increasing the 
percentage of facilities where DIHS is and I think that has a 
lot to do with it.
    Mr. Rogers. I have a list of the people who have died in--
detainees who have died, their names, their sex, their date of 
birth, their country of origin, the date they died, the 
facility where they died, the autopsies and the cause of death. 
Is there anything wrong with that becoming a public list?
    Mr. Hayes. I honestly would have to deflect to the 
Department's general counsel, but we can certainly get back to 
you with an answer, sir.
    Mr. Rogers. I am prepared to file the list, unless it would 
violate some privacy provisions or what have you.
    Mr. Chairman, I will tender the list. And if it is 
appropriate, it might be good to be a part of the record.
    Mr. Price. Based on appropriate review, we will put it in 
the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999B.041
    
    [GRAPHIC] [TIFF OMITTED] T2999B.042
    
    [GRAPHIC] [TIFF OMITTED] T2999B.043
    
    [GRAPHIC] [TIFF OMITTED] T2999B.044
    
    [GRAPHIC] [TIFF OMITTED] T2999B.045
    
    [GRAPHIC] [TIFF OMITTED] T2999B.046
    
    [GRAPHIC] [TIFF OMITTED] T2999B.047
    
    [GRAPHIC] [TIFF OMITTED] T2999B.048
    
    [GRAPHIC] [TIFF OMITTED] T2999B.049
    
    [GRAPHIC] [TIFF OMITTED] T2999B.050
    
    [GRAPHIC] [TIFF OMITTED] T2999B.051
    
    Mr. Rogers. These people died all over the country. I am 
looking at Middlesex, New Jersey, Louisiana, Pennsylvania, 
Virginia, South Carolina and so on. It seems to me that what we 
need to do is to be sure that you are providing, with whatever 
funds we can give you, the best medical treatment you can 
provide under the circumstances that we are dealing with people 
who are here illegally, who are being detained previous to 
deportation, and that we are not running a medical clinic, we 
are running a detention facility, whether it be State, county 
or Federal. Is that not correct?
    Mr. Hayes. Yes, sir. Our goal is to provide the most 
adequate level of medical care that the detainees in our 
custody need.
    Mr. Rogers. I don't think you are hurting for money. Are 
you? Do you need more money?
    Mr. Hayes. No, sir.
    Mr. Rogers. I didn't think so, because you have got $151 
million for the current year. That is up from $60 million in 
2005. So we have almost tripled your budget in these last 3 or 
4 years. And if money is the problem, let us know. But all of 
you are saying, are you not, that we don't need more money 
thrown at this problem? Anybody disagree with that?
    Mr. Hayes. I am not prepared to disagree with you, sir.
    Mr. Rogers. I bet your budget officer would like to ask you 
that.
    Mr. Chairman, I don't see any problem here. We have got 2.7 
per 100,000. I know it doesn't compare--you can't compare 
apples to oranges, but the mortality rate in the BOP is 16 per 
100,000. In U.S. hospitals, it is from 11 to 16 deaths per 
100,000 patients. And so I know none of those are comparable. 
But 2.7 out of 100,000, dealing with 1,700,000 people, to me is 
remarkable that we are doing as good as we are. Not perfect, 
but pretty doggone good. I yield.
    Mr. Price. Thank you. I would like to ask our GAO witness--
not orally, but just for the record--for an elaboration of one 
statistic I think you can evaluate apples-to-apples, and that 
is within the figures that Mr. Rogers cited. What about the 
distribution of those deaths between the Federal and the 
contract facilities and the IGSAs? There does appear to be a 
disproportionate number in the IGSAs.
    Ms. Cackley. We would be happy to provide that analysis.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2999B.052
    
    [GRAPHIC] [TIFF OMITTED] T2999B.053
    
    [GRAPHIC] [TIFF OMITTED] T2999B.054
    
    Mr. Price. Thank you. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I am looking at the big 
picture here. Everybody arrested in the United States, whether 
they are here legally or illegally, is entitled to a trial by 
jury and is innocent until proven guilty. What is remarkable 
about the immigration system is it works almost totally 
voluntarily, that people decide to be deported. So detainees 
really haven't been convicted of a crime. They are charged that 
they did not have appropriate papers. And if you want to 
challenge that, you can go out and hire lawyers.
    I think the bigger problem here is, how do you better 
prioritize your workforce and manpower force? This issue is 
important because the California State prison system is dealing 
with a Federal court order, saying that the state has not been 
providing the kind of care that people should get, and 
therefore we ought to let a lot of people out of prison. The 
prisons are just overcrowded and I can see logically at 
someplace this comes to that--there are 11 million estimated 
undocumented people here. You are rounding up 440,000. Of 
those, only one in four you are intentionally going after. The 
others are just are there, they don't have papers.
    You know, in the fishing business, we call that by-catch. 
When you go after the intended person, you also just pull in 
others. So three-quarters of the people that are being detained 
are not the people that ICE is looking for. And that is why you 
get this pushback from communities and local law enforcement. 
They don't want you in there busting somebody who is just a 
dishwasher and doing their job and staying out of trouble. When 
you take the dishwasher out of the community, as you have in 
our community, there have sometimes been children in the house. 
Both parents have had to leave and make arrangements for the 
children. The children are American citizens so they can stay 
here or go home if there are young children.
    I know you have been successful in getting voluntary 
detentions just by sending letters to people saying, show up at 
the detention center at the ICE station or leave the country. 
And immigrants have left the country, not wanting their kids to 
know that they were taken by law enforcement. So there are all 
kinds of social issues here.
    So my interest here is in making sure that, one, we ought 
to be professional in how we treat people, regardless of 
whether they are legal or illegal. That is the American way. 
Secondly, that I think you ought to try to concentrate, Mr. 
Hayes, on really going after only people with warrants.
    The failure rate on warrants that are given for people who 
have failed to report or failed for other reasons, that really 
have a court order, is pathetic. You ought to focus on that 
workforce that you have. That is where you ought to concentrate 
it, because I think if you are just going to go up and grow and 
grow more people--440,000 you think is going to be the number 
you are going to detain this year--I would be curious to know 
how many of those 440,000 have warrants and where the failure 
rate on ICE to find the people that the court has ordered to 
remove. And I think that is where the priorities ought to be 
because that is what the priority in law, Congress wrote the 
law to say that the highest priority for ICE is to remove 
people with criminal involvement.
    Jail checks are very important. Those people are obviously 
not in jail if they haven't done something wrong. And it was 
really hard to get people to do jail checks. So I think that if 
you essentially do the job that--in a priority way that is laid 
out in the law, you are going to have less of these other kinds 
of incidents. And the way it came off, and I am sure that you 
didn't mean it that way, that these people with these illnesses 
would have died anyway, whether they were detained by us or 
not, and I am not sure that that is correct.
    I was in the Peace Corps and I know what it is in the 
culture of poverty where people don't understand the terms that 
you use in their own language because they have never--
particularly if your culture isn't oriented to having been 
examined by a doctor and never having been asked those 
questions before, it is very difficult to respond to them in a 
proper way.
    So I hope that the emphasis here, Mr. Chairman, on this 
committee is that we focus on ICE's role to really go in and to 
remove, prioritize removing those that are undocumented, and 
less emphasis on sort of the innocent bystander who, for no 
purposes, caused any crime or has done anything wrong.
    They do have undocumented papers and that is why we are 
trying to do immigration reform. So you are in a tough 
situation. If you could respond to what it would take to round 
up more people under warrant than you have been doing, what 
would make that more successful?

                        ICE STANDARDS OF CONDUCT

    Mr. Hayes. There are a couple of points that I think I can 
respond to. First of all, we agree that our officers should at 
all times conduct themselves as professionals and we hold our 
officers and agents to the highest standards. And our officers, 
it is my belief, the deportation officers, immigration 
enforcement agents, men and women of the Federal Protective 
Service and the Special Agents with our Office of 
Investigations, are dedicated public servants who do conduct 
themselves professionally. Our data actually shows that the 
success that we are having in actually identifying and 
arresting fugitives and criminals is increasing from 70 percent 
in fiscal year 2007 to, thus far this year, 85 percent of 
arrests made through our Fugitive Operations Program have been 
individuals who are either immigration fugitives or criminals 
or both.

                      FUGITIVE OPERATIONS PROGRAM

    Mr. Farr. How does that percent go to your 440,000 you told 
the committee?
    Mr. Hayes. Last year we made approximately 34,000 arrests 
in the Fugitive Operations Program. This year we anticipate 
that that percentage will be higher. A great deal of the people 
who are going to come through our custody, however, will come 
into your custody through our work in the Criminal Alien 
Program. And that is where you mentioned the jail screening, 
the jail checks.
    We have greatly, through the generosity and determination 
of Congress, been able to expand that program from where in 
fiscal year 2006 we identified 64,000 illegal aliens or 
individuals who were in violation of immigration law in U.S. 
jails and prisons to over 260,000 last year identified 
individuals in U.S. jails or prisons who were either in the 
country illegally or subject to removal proceedings. That is, 
within our enforcement platform, the highest priority that we 
have is to identify those criminal aliens who are in U.S. jails 
and prisons.
    Additionally we believe that for some of those individuals, 
deportation has not proven an effective enough deterrent. So we 
began a program in fiscal year 2006 to target the most 
egregious recidivist criminal aliens, those individuals who 
come to the United States, commit crimes, get deported and come 
back again. And starting from zero in fiscal year 2006, we 
secured 3,000 convictions last year for those types of 
individuals. And we expect that that number will grow higher 
this year. So I hope that gives you some comfort in the fact 
that we are targeting the worst of the worst, people who are 
demonstrated public safety threats.
    Mr. Farr. In your own testimony, that is essentially just 
10 percent of the number of people that you are rounding up. 
And I think that those statistics need to be flipped.
    Mr. Hayes. Sir, actually if I may, more than 34,000 arrests 
in the Fugitive Operations Program, and we anticipate charging 
as many as 280,000 through the Criminal Alien Program this 
year, I would suggest that makes up the bulk of the people we 
expect to target this year and have in our populations.

                   IMMIGRATION ENFORCEMENT PRIORITIES

    Mr. Price. This subcommittee will on April 2nd have a 
hearing on immigration enforcement priorities. So we will 
return to those matters at that time. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. I assumed we were 
having a hearing on that subject and I understand Mr. Farr's 
concern. An officer goes in search of a warrant violation or 
comes across someone who has got another violation, maybe an 
international warrant, an outstanding criminal warrant, an 
outstanding fugitive warrant. As a law enforcement officer, 
they are supposed to enforce the law, isn't that correct?
    Mr. Hayes. That is correct.
    Mr. Carter. And just because they don't have an ICE warrant 
to give them, it doesn't mean when they go to question them and 
discover other issues that would cause them to be detained--it 
is their responsibility to go forward with that detention; 
isn't that right?
    Mr. Hayes. It is a sworn obligation, yes, sir.
    Mr. Carter. This woman in Tennessee that was mentioned, was 
she under other criminal charges besides an ICE warrant; or do 
you know?
    Mr. Hayes. She was pending criminal charges during the time 
that incident occurred.
    Mr. Carter. So she would have been treated by that 
sheriff's deputy or police officer like any other American 
citizen charged with a crime and who was ill and had to go to 
the hospital? The reason I say that is because we have to take 
people to the hospital all the time out of our county jails, 
and I used to have to oversee a county jail for 20 years. And, 
yes, they are not going to leave that hospital room; and if 
they don't have the ability to put an officer sitting at the 
door, then they may put some type of detention to the bed, 
because they are under criminal charges pending in the courts.
    Mr. Carter. So that wasn't an ICE issue, it was a criminal 
justice issue that the lady was handcuffed to the bed.
    Mr. Hayes. That is correct. I can't obviously speak to that 
Department's policy.
    Mr. Carter. Whether or not that policy is material or not, 
it is generally the policy of almost every prison system that I 
have ever run across in any State or in any county 
jurisdiction. They are going to make sure those people don't 
leave.
    Mr. Hayes. What I can say, she was not in ICE custody when 
that incident occurred.
    Mr. Carter. It wasn't an ICE issue.
    When we talk about those contract folks, that would include 
county jails, right?
    Mr. Hayes. Yes, sir.

                   MEDICAL STANDARDS FOR COUNTY JAILS

    Mr. Carter. So, if a county jail has got a bunch of people 
in there--and I guess I address this to the GAO--if we have to 
come up with different standards, will that change imposing new 
medical standards on county jails and local police holding 
tanks? In other words, if we are going to come up with new 
standards to your studies of medical treatment for people who 
are being held and turn out to be of an immigrant status, will 
we then be imposing those standards clear down to the level of 
the city jail of Austin, Texas, or the county jail of 
Williamson County, or will it just be for the ICE facilities?
    Because the questions I am hearing are contract people, and 
they fall within the category of contract people. They get paid 
the day for the time that those people are in there by ICE.
    So my question is: When we impose these standards, is that 
going to be an imposition upon every incarceration facility in 
the United States?
    Ms. Cackley. GAO isn't recommending imposing standards on 
the other facilities. The work that we did was to point out the 
differences in the organizational structure of the different 
facilities and the implications for ICE's oversight of the 
facilities. But we didn't do the work to look at the standards.
    Mr. Carter. Okay. So did you take into consideration that 
the contract people might be local county jails?
    Ms. Cackley. Absolutely. We understood that the contract 
people were, in many cases, State and county and local jails.
    Mr. Carter. You are just basically giving statistical 
evaluation----
    Ms. Cackley. We were asked to describe the structure, the 
organizational structure, and what the implications were for 
oversight.
    Mr. Carter. So there could be clearly different standards 
that just are the mores of that community.
    Ms. Cackley. Absolutely. We expect that there would be 
different standards, and the question for ICE is what do they 
know, and how do they oversee the care that is being given to 
the detainees.
    Mr. Carter. I think that is it. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Serrano.

                           CUBAN IMMIGRATION

    Mr. Serrano. Thank you, Mr. Chairman.
    There is a running gag between Mr. Rogers and Mr. Wolf of 
Virginia about my ability to bring up the issue of Cuba or 
Puerto Rico at every hearing. I didn't do that today. Mr. 
Rogers did. I thought you said 17 Cubans. Is that what you 
said? Which sparks my attention. I thought Cubans enjoyed--I 
know this is a general immigration issue--a special immigration 
status and therefore do not get detained.
    So, just on a general immigration issue, the 17 Cubans who 
died, these were folks who were living in this country and then 
were going to get deported. But then Cubans don't get deported 
because, again, they enjoy a special immigration status. So 
what are we talking about here?
    Mr. Hayes. Obviously, without having specific direct 
knowledge of each of those cases, generally the people from 
Cuba that we have in custody are individuals who we have 
encountered through the criminal justice system, and they go 
through removal proceedings, as would anyone else from other 
foreign countries if they have committed violations of 
immigration law.
    Mr. Serrano. But I am saying Cubans do not commit violation 
of immigration law. The minute they touch ground here, they 
stay. And if they can throw a curve ball or a fast ball, they 
are encouraged to stay through a third country. I know it is 
funny, and it is funny to me, too, but it is true. The two 
Hernandez brothers, one is here as a Costa Rican, the other one 
is here as a Dominican, because they didn't make it to land. 
Had they made it to land here, then they would be here fleeing 
whatever a pitcher who throws 100 miles an hour flees.
    Mr. Hayes. The status that is confirmed upon them when they 
make it to land can be taken away by an immigration judge for 
certain criminal violations.
    Mr. Serrano. So I am saying they are not detained. My whole 
point is they were not detained because they got into the 
country illegally, since Cubans don't come into the country 
illegally. They are all legal. These were folks who were living 
here for a while, committed a crime, and now somebody is going 
to try to deport them; is that correct?
    Mr. Hayes. In these cases, why they are detained and why we 
would detain anyone from Cuba is because of the mandatory 
detention statute. So these are people who committed a crime or 
crimes that make them subject to mandatory detention during the 
postorder removal period. So, during a period in which an 
immigration judge issues an order, we have 90 days, which is 
the postremoval period, extending to 180 days. We are required 
to detain them for 90 days even though, as you correctly point 
out, removal is not likely with respect to Cuban nationals.
    Mr. Serrano. All right. Mr. Chairman, I am not going to 
push on this point. This is just an issue that we maybe should 
look at later, because my understanding of the law is that any 
Cuban who gets here can stay here. So I don't know at what 
point--and Cubans who commit crimes here usually pay for their 
crime here. They don't get deported as such. That is my 
understanding. So this is somewhat bizarre. And if it ends up 
with 17 deaths, then that is even more bizarre, because these 
are not folks coming over from Cuba with health problems. These 
people have been living here, had acquired health problems 
here. So it is all very strange.
    Mr. Price. Maybe we could just ask for you to look at those 
figures and, first of all, confirm that it is true; and 
secondly, offer whatever explanation you can for how this 
apparent anomaly would occur.
    Mr. Hayes. Certainly.
    Mr. Serrano. Okay. So I did bring up Cuba.
    Captain Rodriguez, I was born in Puerto Rico. Were you? So 
we brought up Puerto Rico.
    Mr. Price. Thank you.
    With that, I want to thank each of our witnesses this 
morning for each bringing a very distinctive contribution to 
this hearing. We appreciate your service to the country and 
your work on what I think we all acknowledge is a difficult and 
challenging issue. We also appreciate your commitment to note 
flaws and deficiencies and to work for improvement. We pledge 
to cooperate with you to that end. That certainly is our 
intention in calling the hearing, and it will be very much on 
our mind as we write next year's appropriations bill.
    With that, again, thank you, and the hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2999B.055
    
    [GRAPHIC] [TIFF OMITTED] T2999B.056
    
    [GRAPHIC] [TIFF OMITTED] T2999B.057
    
    [GRAPHIC] [TIFF OMITTED] T2999B.058
    
    [GRAPHIC] [TIFF OMITTED] T2999B.059
    
    [GRAPHIC] [TIFF OMITTED] T2999B.060
    
    [GRAPHIC] [TIFF OMITTED] T2999B.061
    
    [GRAPHIC] [TIFF OMITTED] T2999B.062
    
    [GRAPHIC] [TIFF OMITTED] T2999B.063
    
    [GRAPHIC] [TIFF OMITTED] T2999B.064
    
    [GRAPHIC] [TIFF OMITTED] T2999B.065
    
    [GRAPHIC] [TIFF OMITTED] T2999B.066
    
    [GRAPHIC] [TIFF OMITTED] T2999B.067
    
    [GRAPHIC] [TIFF OMITTED] T2999B.068
    
    [GRAPHIC] [TIFF OMITTED] T2999B.069
    
    [GRAPHIC] [TIFF OMITTED] T2999B.070
    
    [GRAPHIC] [TIFF OMITTED] T2999B.071
    
    [GRAPHIC] [TIFF OMITTED] T2999B.072
    
    [GRAPHIC] [TIFF OMITTED] T2999B.073
    
    [GRAPHIC] [TIFF OMITTED] T2999B.074
    
    [GRAPHIC] [TIFF OMITTED] T2999B.075
    
    [GRAPHIC] [TIFF OMITTED] T2999B.076
    
    [GRAPHIC] [TIFF OMITTED] T2999B.077
    
    [GRAPHIC] [TIFF OMITTED] T2999B.078
    
    [GRAPHIC] [TIFF OMITTED] T2999B.079
    
    [GRAPHIC] [TIFF OMITTED] T2999B.080
    
    [GRAPHIC] [TIFF OMITTED] T2999B.081
    
    [GRAPHIC] [TIFF OMITTED] T2999B.082
    
    [GRAPHIC] [TIFF OMITTED] T2999B.083
    
    [GRAPHIC] [TIFF OMITTED] T2999B.084
    
    [GRAPHIC] [TIFF OMITTED] T2999B.085
    
    [GRAPHIC] [TIFF OMITTED] T2999B.086
    
    [GRAPHIC] [TIFF OMITTED] T2999B.087
    
    [GRAPHIC] [TIFF OMITTED] T2999B.088
    
    [GRAPHIC] [TIFF OMITTED] T2999B.089
    
    [GRAPHIC] [TIFF OMITTED] T2999B.090
    
    [GRAPHIC] [TIFF OMITTED] T2999B.091
    
    [GRAPHIC] [TIFF OMITTED] T2999B.092
    
    [GRAPHIC] [TIFF OMITTED] T2999B.093
    
    [GRAPHIC] [TIFF OMITTED] T2999B.094
    
    [GRAPHIC] [TIFF OMITTED] T2999B.095
    
    [GRAPHIC] [TIFF OMITTED] T2999B.096
    
    [GRAPHIC] [TIFF OMITTED] T2999B.097
    
    [GRAPHIC] [TIFF OMITTED] T2999B.098
    
    [GRAPHIC] [TIFF OMITTED] T2999B.099
    
    [GRAPHIC] [TIFF OMITTED] T2999B.100
    
    [GRAPHIC] [TIFF OMITTED] T2999B.101
    
    [GRAPHIC] [TIFF OMITTED] T2999B.102
    
    [GRAPHIC] [TIFF OMITTED] T2999B.103
    
    [GRAPHIC] [TIFF OMITTED] T2999B.104
    
    [GRAPHIC] [TIFF OMITTED] T2999B.105
    
    [GRAPHIC] [TIFF OMITTED] T2999B.106
    
    [GRAPHIC] [TIFF OMITTED] T2999B.107
    
    [GRAPHIC] [TIFF OMITTED] T2999B.108
    
    [GRAPHIC] [TIFF OMITTED] T2999B.109
    
    [GRAPHIC] [TIFF OMITTED] T2999B.110
    
    [GRAPHIC] [TIFF OMITTED] T2999B.111
    
    [GRAPHIC] [TIFF OMITTED] T2999B.112
    
    [GRAPHIC] [TIFF OMITTED] T2999B.113
    
    [GRAPHIC] [TIFF OMITTED] T2999B.114
    
    [GRAPHIC] [TIFF OMITTED] T2999B.115
    
    [GRAPHIC] [TIFF OMITTED] T2999B.116
    
    [GRAPHIC] [TIFF OMITTED] T2999B.117
    
    [GRAPHIC] [TIFF OMITTED] T2999B.118
    
    [GRAPHIC] [TIFF OMITTED] T2999B.119
    
    [GRAPHIC] [TIFF OMITTED] T2999B.120
    
    [GRAPHIC] [TIFF OMITTED] T2999B.121
    
    [GRAPHIC] [TIFF OMITTED] T2999B.122
    
    [GRAPHIC] [TIFF OMITTED] T2999B.123
    
    [GRAPHIC] [TIFF OMITTED] T2999B.124
    
    [GRAPHIC] [TIFF OMITTED] T2999B.125
    
    [GRAPHIC] [TIFF OMITTED] T2999B.126
    
    [GRAPHIC] [TIFF OMITTED] T2999B.127
    
    [GRAPHIC] [TIFF OMITTED] T2999B.128
    
    [GRAPHIC] [TIFF OMITTED] T2999B.129
    
    [GRAPHIC] [TIFF OMITTED] T2999B.130
    
    [GRAPHIC] [TIFF OMITTED] T2999B.131
    
    [GRAPHIC] [TIFF OMITTED] T2999B.132
    
    [GRAPHIC] [TIFF OMITTED] T2999B.133
    
    [GRAPHIC] [TIFF OMITTED] T2999B.134
    
    [GRAPHIC] [TIFF OMITTED] T2999B.135
    
    [GRAPHIC] [TIFF OMITTED] T2999B.136
    
    [GRAPHIC] [TIFF OMITTED] T2999B.137
    
    [GRAPHIC] [TIFF OMITTED] T2999B.138
    
    [GRAPHIC] [TIFF OMITTED] T2999B.139
    
    [GRAPHIC] [TIFF OMITTED] T2999B.140
    
    [GRAPHIC] [TIFF OMITTED] T2999B.141
    
    [GRAPHIC] [TIFF OMITTED] T2999B.142
    
    [GRAPHIC] [TIFF OMITTED] T2999B.143
    
    [GRAPHIC] [TIFF OMITTED] T2999B.144
    
    [GRAPHIC] [TIFF OMITTED] T2999B.145
    
    [GRAPHIC] [TIFF OMITTED] T2999B.146
    
    [GRAPHIC] [TIFF OMITTED] T2999B.147
    
    [GRAPHIC] [TIFF OMITTED] T2999B.148
    
    [GRAPHIC] [TIFF OMITTED] T2999B.149
    
    [GRAPHIC] [TIFF OMITTED] T2999B.150
    
    [GRAPHIC] [TIFF OMITTED] T2999B.151
    
    [GRAPHIC] [TIFF OMITTED] T2999B.152
    
    [GRAPHIC] [TIFF OMITTED] T2999B.153
    
    [GRAPHIC] [TIFF OMITTED] T2999B.154
    
    [GRAPHIC] [TIFF OMITTED] T2999B.155
    
    [GRAPHIC] [TIFF OMITTED] T2999B.156
    
    [GRAPHIC] [TIFF OMITTED] T2999B.157
    
    [GRAPHIC] [TIFF OMITTED] T2999B.158
    
    [GRAPHIC] [TIFF OMITTED] T2999B.159
    
    [GRAPHIC] [TIFF OMITTED] T2999B.160
    
    [GRAPHIC] [TIFF OMITTED] T2999B.161
    
    [GRAPHIC] [TIFF OMITTED] T2999B.162
    
    [GRAPHIC] [TIFF OMITTED] T2999B.163
    
    [GRAPHIC] [TIFF OMITTED] T2999B.164
    
    [GRAPHIC] [TIFF OMITTED] T2999B.165
    
    [GRAPHIC] [TIFF OMITTED] T2999B.166
    
    [GRAPHIC] [TIFF OMITTED] T2999B.167
    
    [GRAPHIC] [TIFF OMITTED] T2999B.168
    
    [GRAPHIC] [TIFF OMITTED] T2999B.169
    
    [GRAPHIC] [TIFF OMITTED] T2999B.170
    
    [GRAPHIC] [TIFF OMITTED] T2999B.171
    
    [GRAPHIC] [TIFF OMITTED] T2999B.172
    
    [GRAPHIC] [TIFF OMITTED] T2999B.173
    
    [GRAPHIC] [TIFF OMITTED] T2999B.174
    
    [GRAPHIC] [TIFF OMITTED] T2999B.175
    
    [GRAPHIC] [TIFF OMITTED] T2999B.176
    
    [GRAPHIC] [TIFF OMITTED] T2999B.177
    
    [GRAPHIC] [TIFF OMITTED] T2999B.178
    
    [GRAPHIC] [TIFF OMITTED] T2999B.179
    
    [GRAPHIC] [TIFF OMITTED] T2999B.180
    
    [GRAPHIC] [TIFF OMITTED] T2999B.181
    
    [GRAPHIC] [TIFF OMITTED] T2999B.182
    
    [GRAPHIC] [TIFF OMITTED] T2999B.183
    
    [GRAPHIC] [TIFF OMITTED] T2999B.184
    
    [GRAPHIC] [TIFF OMITTED] T2999B.185
    
    [GRAPHIC] [TIFF OMITTED] T2999B.186
    
    [GRAPHIC] [TIFF OMITTED] T2999B.187
    
    [GRAPHIC] [TIFF OMITTED] T2999B.188
    
    [GRAPHIC] [TIFF OMITTED] T2999B.189
    
    [GRAPHIC] [TIFF OMITTED] T2999B.190
    
    [GRAPHIC] [TIFF OMITTED] T2999B.191
    
    [GRAPHIC] [TIFF OMITTED] T2999B.192
    
    [GRAPHIC] [TIFF OMITTED] T2999B.193
    
    [GRAPHIC] [TIFF OMITTED] T2999B.194
    
    [GRAPHIC] [TIFF OMITTED] T2999B.195
    
    [GRAPHIC] [TIFF OMITTED] T2999B.196
    
    [GRAPHIC] [TIFF OMITTED] T2999B.197
    
    [GRAPHIC] [TIFF OMITTED] T2999B.198
    
    [GRAPHIC] [TIFF OMITTED] T2999B.199
    
    [GRAPHIC] [TIFF OMITTED] T2999B.200
    
    [GRAPHIC] [TIFF OMITTED] T2999B.201
    
    [GRAPHIC] [TIFF OMITTED] T2999B.202
    
    [GRAPHIC] [TIFF OMITTED] T2999B.203
    
    [GRAPHIC] [TIFF OMITTED] T2999B.204
    
    [GRAPHIC] [TIFF OMITTED] T2999B.205
    
    [GRAPHIC] [TIFF OMITTED] T2999B.206
    
    [GRAPHIC] [TIFF OMITTED] T2999B.207
    
    [GRAPHIC] [TIFF OMITTED] T2999B.208
    
    [GRAPHIC] [TIFF OMITTED] T2999B.209
    
    [GRAPHIC] [TIFF OMITTED] T2999B.210
    
    [GRAPHIC] [TIFF OMITTED] T2999B.211
    
    [GRAPHIC] [TIFF OMITTED] T2999B.212
    
    [GRAPHIC] [TIFF OMITTED] T2999B.213
    
    [GRAPHIC] [TIFF OMITTED] T2999B.214
    
    [GRAPHIC] [TIFF OMITTED] T2999B.215
    
    [GRAPHIC] [TIFF OMITTED] T2999B.216
    
    [GRAPHIC] [TIFF OMITTED] T2999B.217
    
    [GRAPHIC] [TIFF OMITTED] T2999B.218
    
    [GRAPHIC] [TIFF OMITTED] T2999B.219
    
    [GRAPHIC] [TIFF OMITTED] T2999B.220
    
    [GRAPHIC] [TIFF OMITTED] T2999B.221
    
    [GRAPHIC] [TIFF OMITTED] T2999B.222
    
    [GRAPHIC] [TIFF OMITTED] T2999B.223
    
    [GRAPHIC] [TIFF OMITTED] T2999B.224
    
    [GRAPHIC] [TIFF OMITTED] T2999B.225
    
    [GRAPHIC] [TIFF OMITTED] T2999B.226
    
    [GRAPHIC] [TIFF OMITTED] T2999B.227
    
    [GRAPHIC] [TIFF OMITTED] T2999B.228
    
    [GRAPHIC] [TIFF OMITTED] T2999B.229
    
    [GRAPHIC] [TIFF OMITTED] T2999B.230
    
    [GRAPHIC] [TIFF OMITTED] T2999B.231
    
    [GRAPHIC] [TIFF OMITTED] T2999B.232
    
    [GRAPHIC] [TIFF OMITTED] T2999B.233
    
    [GRAPHIC] [TIFF OMITTED] T2999B.234
    
    [GRAPHIC] [TIFF OMITTED] T2999B.235
    
    [GRAPHIC] [TIFF OMITTED] T2999B.236
    
    [GRAPHIC] [TIFF OMITTED] T2999B.237
    
    [GRAPHIC] [TIFF OMITTED] T2999B.238
    
    [GRAPHIC] [TIFF OMITTED] T2999B.239
    
    [GRAPHIC] [TIFF OMITTED] T2999B.240
    
    [GRAPHIC] [TIFF OMITTED] T2999B.241
    
    [GRAPHIC] [TIFF OMITTED] T2999B.242
    
    [GRAPHIC] [TIFF OMITTED] T2999B.243
    
    [GRAPHIC] [TIFF OMITTED] T2999B.244
    
    [GRAPHIC] [TIFF OMITTED] T2999B.245
    
    [GRAPHIC] [TIFF OMITTED] T2999B.246
    
    [GRAPHIC] [TIFF OMITTED] T2999B.247
    
    [GRAPHIC] [TIFF OMITTED] T2999B.248
    
    [GRAPHIC] [TIFF OMITTED] T2999B.249
    
    [GRAPHIC] [TIFF OMITTED] T2999B.250
    
    [GRAPHIC] [TIFF OMITTED] T2999B.251
    
    [GRAPHIC] [TIFF OMITTED] T2999B.252
    
    [GRAPHIC] [TIFF OMITTED] T2999B.253
    
    [GRAPHIC] [TIFF OMITTED] T2999B.254
    
    [GRAPHIC] [TIFF OMITTED] T2999B.255
    
    [GRAPHIC] [TIFF OMITTED] T2999B.256
    
    [GRAPHIC] [TIFF OMITTED] T2999B.257
    
    [GRAPHIC] [TIFF OMITTED] T2999B.258
    
    [GRAPHIC] [TIFF OMITTED] T2999B.259
    
    [GRAPHIC] [TIFF OMITTED] T2999B.260
    
    [GRAPHIC] [TIFF OMITTED] T2999B.261
    
    [GRAPHIC] [TIFF OMITTED] T2999B.262
    
    [GRAPHIC] [TIFF OMITTED] T2999B.263
    
    [GRAPHIC] [TIFF OMITTED] T2999B.264
    
    [GRAPHIC] [TIFF OMITTED] T2999B.265
    
    [GRAPHIC] [TIFF OMITTED] T2999B.266
    
    [GRAPHIC] [TIFF OMITTED] T2999B.267
    
    [GRAPHIC] [TIFF OMITTED] T2999B.268
    
    [GRAPHIC] [TIFF OMITTED] T2999B.269
    
    [GRAPHIC] [TIFF OMITTED] T2999B.270
    
    [GRAPHIC] [TIFF OMITTED] T2999B.271
    
    [GRAPHIC] [TIFF OMITTED] T2999B.272
    
    [GRAPHIC] [TIFF OMITTED] T2999B.273
    
    [GRAPHIC] [TIFF OMITTED] T2999B.274
    
    [GRAPHIC] [TIFF OMITTED] T2999B.275
    
    [GRAPHIC] [TIFF OMITTED] T2999B.276
    
    [GRAPHIC] [TIFF OMITTED] T2999B.277
    
    [GRAPHIC] [TIFF OMITTED] T2999B.278
    
    [GRAPHIC] [TIFF OMITTED] T2999B.279
    
    [GRAPHIC] [TIFF OMITTED] T2999B.280
    
    [GRAPHIC] [TIFF OMITTED] T2999B.281
    
    [GRAPHIC] [TIFF OMITTED] T2999B.282
    
    [GRAPHIC] [TIFF OMITTED] T2999B.283
    
    [GRAPHIC] [TIFF OMITTED] T2999B.284
    
    [GRAPHIC] [TIFF OMITTED] T2999B.285
    
    [GRAPHIC] [TIFF OMITTED] T2999B.286
    
    [GRAPHIC] [TIFF OMITTED] T2999B.287
    
    [GRAPHIC] [TIFF OMITTED] T2999B.288
    
    [GRAPHIC] [TIFF OMITTED] T2999B.289
    
    [GRAPHIC] [TIFF OMITTED] T2999B.290
    
    [GRAPHIC] [TIFF OMITTED] T2999B.291
    
    [GRAPHIC] [TIFF OMITTED] T2999B.292
    
    [GRAPHIC] [TIFF OMITTED] T2999B.293
    
    [GRAPHIC] [TIFF OMITTED] T2999B.294
    
    [GRAPHIC] [TIFF OMITTED] T2999B.295
    
    [GRAPHIC] [TIFF OMITTED] T2999B.296
    
    [GRAPHIC] [TIFF OMITTED] T2999B.297
    
    [GRAPHIC] [TIFF OMITTED] T2999B.298
    
    [GRAPHIC] [TIFF OMITTED] T2999B.299
    
    [GRAPHIC] [TIFF OMITTED] T2999B.300
    
    [GRAPHIC] [TIFF OMITTED] T2999B.301
    
    [GRAPHIC] [TIFF OMITTED] T2999B.302
    
    [GRAPHIC] [TIFF OMITTED] T2999B.303
    
    [GRAPHIC] [TIFF OMITTED] T2999B.304
    
    [GRAPHIC] [TIFF OMITTED] T2999B.305
    
    [GRAPHIC] [TIFF OMITTED] T2999B.306
    
    [GRAPHIC] [TIFF OMITTED] T2999B.307
    
    [GRAPHIC] [TIFF OMITTED] T2999B.308
    
    [GRAPHIC] [TIFF OMITTED] T2999B.309
    
    [GRAPHIC] [TIFF OMITTED] T2999B.310
    
    [GRAPHIC] [TIFF OMITTED] T2999B.311
    
    [GRAPHIC] [TIFF OMITTED] T2999B.312
    
    [GRAPHIC] [TIFF OMITTED] T2999B.313
    
    [GRAPHIC] [TIFF OMITTED] T2999B.314
    
    [GRAPHIC] [TIFF OMITTED] T2999B.315
    
    [GRAPHIC] [TIFF OMITTED] T2999B.316
    
    [GRAPHIC] [TIFF OMITTED] T2999B.317
    
    [GRAPHIC] [TIFF OMITTED] T2999B.318
    
    [GRAPHIC] [TIFF OMITTED] T2999B.319
    
    [GRAPHIC] [TIFF OMITTED] T2999B.320
    
    [GRAPHIC] [TIFF OMITTED] T2999B.321
    
    [GRAPHIC] [TIFF OMITTED] T2999B.322
    
    [GRAPHIC] [TIFF OMITTED] T2999B.323
    
    [GRAPHIC] [TIFF OMITTED] T2999B.324
    
    [GRAPHIC] [TIFF OMITTED] T2999B.325
    
    [GRAPHIC] [TIFF OMITTED] T2999B.326
    
    [GRAPHIC] [TIFF OMITTED] T2999B.327
    
    [GRAPHIC] [TIFF OMITTED] T2999B.328
    
    [GRAPHIC] [TIFF OMITTED] T2999B.329
    
    [GRAPHIC] [TIFF OMITTED] T2999B.330
    
    [GRAPHIC] [TIFF OMITTED] T2999B.331
    
    [GRAPHIC] [TIFF OMITTED] T2999B.332
    
    [GRAPHIC] [TIFF OMITTED] T2999B.333
    
    [GRAPHIC] [TIFF OMITTED] T2999B.334
    
    [GRAPHIC] [TIFF OMITTED] T2999B.335
    
    [GRAPHIC] [TIFF OMITTED] T2999B.336
    
    [GRAPHIC] [TIFF OMITTED] T2999B.337
    
    [GRAPHIC] [TIFF OMITTED] T2999B.338
    
    [GRAPHIC] [TIFF OMITTED] T2999B.339
    
    [GRAPHIC] [TIFF OMITTED] T2999B.340
    
    [GRAPHIC] [TIFF OMITTED] T2999B.341
    
    [GRAPHIC] [TIFF OMITTED] T2999B.342
    
    [GRAPHIC] [TIFF OMITTED] T2999B.343
    
    [GRAPHIC] [TIFF OMITTED] T2999B.344
    
    [GRAPHIC] [TIFF OMITTED] T2999B.345
    
    [GRAPHIC] [TIFF OMITTED] T2999B.346
    
    [GRAPHIC] [TIFF OMITTED] T2999B.347
    
    [GRAPHIC] [TIFF OMITTED] T2999B.348
    
    [GRAPHIC] [TIFF OMITTED] T2999B.349
    
    [GRAPHIC] [TIFF OMITTED] T2999B.350
    
    [GRAPHIC] [TIFF OMITTED] T2999B.351
    
    [GRAPHIC] [TIFF OMITTED] T2999B.352
    
    [GRAPHIC] [TIFF OMITTED] T2999B.353
    
    [GRAPHIC] [TIFF OMITTED] T2999B.354
    
    [GRAPHIC] [TIFF OMITTED] T2999B.355
    
    [GRAPHIC] [TIFF OMITTED] T2999B.356
    
    [GRAPHIC] [TIFF OMITTED] T2999B.357
    
    [GRAPHIC] [TIFF OMITTED] T2999B.358
    
    [GRAPHIC] [TIFF OMITTED] T2999B.359
    
    [GRAPHIC] [TIFF OMITTED] T2999B.360
    
    [GRAPHIC] [TIFF OMITTED] T2999B.361
    
    [GRAPHIC] [TIFF OMITTED] T2999B.362
    
    [GRAPHIC] [TIFF OMITTED] T2999B.363
    
    [GRAPHIC] [TIFF OMITTED] T2999B.364
    
    [GRAPHIC] [TIFF OMITTED] T2999B.365
    
    [GRAPHIC] [TIFF OMITTED] T2999B.366
    
    [GRAPHIC] [TIFF OMITTED] T2999B.367
    
    [GRAPHIC] [TIFF OMITTED] T2999B.368
    
    [GRAPHIC] [TIFF OMITTED] T2999B.369
    
    [GRAPHIC] [TIFF OMITTED] T2999B.370
    
    [GRAPHIC] [TIFF OMITTED] T2999B.371
    
    [GRAPHIC] [TIFF OMITTED] T2999B.372
    
    [GRAPHIC] [TIFF OMITTED] T2999B.373
    
    [GRAPHIC] [TIFF OMITTED] T2999B.374
    
    [GRAPHIC] [TIFF OMITTED] T2999B.375
    
    [GRAPHIC] [TIFF OMITTED] T2999B.376
    
    [GRAPHIC] [TIFF OMITTED] T2999B.377
    
    [GRAPHIC] [TIFF OMITTED] T2999B.378
    
    [GRAPHIC] [TIFF OMITTED] T2999B.379
    
    [GRAPHIC] [TIFF OMITTED] T2999B.380
    
    [GRAPHIC] [TIFF OMITTED] T2999B.381
    
    [GRAPHIC] [TIFF OMITTED] T2999B.382
    
    [GRAPHIC] [TIFF OMITTED] T2999B.383
    
    [GRAPHIC] [TIFF OMITTED] T2999B.384
    
    [GRAPHIC] [TIFF OMITTED] T2999B.385
    
    [GRAPHIC] [TIFF OMITTED] T2999B.386
    
    [GRAPHIC] [TIFF OMITTED] T2999B.387
    
    [GRAPHIC] [TIFF OMITTED] T2999B.388
    
    [GRAPHIC] [TIFF OMITTED] T2999B.389
    
    [GRAPHIC] [TIFF OMITTED] T2999B.390
    
    [GRAPHIC] [TIFF OMITTED] T2999B.391
    
    [GRAPHIC] [TIFF OMITTED] T2999B.392
    
    [GRAPHIC] [TIFF OMITTED] T2999B.393
    
    [GRAPHIC] [TIFF OMITTED] T2999B.394
    
    [GRAPHIC] [TIFF OMITTED] T2999B.395
    
    [GRAPHIC] [TIFF OMITTED] T2999B.396
    
    [GRAPHIC] [TIFF OMITTED] T2999B.397
    
    [GRAPHIC] [TIFF OMITTED] T2999B.398
    
    [GRAPHIC] [TIFF OMITTED] T2999B.399
    
    [GRAPHIC] [TIFF OMITTED] T2999B.400
    
    [GRAPHIC] [TIFF OMITTED] T2999B.401
    
    [GRAPHIC] [TIFF OMITTED] T2999B.402
    
    [GRAPHIC] [TIFF OMITTED] T2999B.403
    
    [GRAPHIC] [TIFF OMITTED] T2999B.404
    
    [GRAPHIC] [TIFF OMITTED] T2999B.405
    
    [GRAPHIC] [TIFF OMITTED] T2999B.406
    
    [GRAPHIC] [TIFF OMITTED] T2999B.407
    
    [GRAPHIC] [TIFF OMITTED] T2999B.408
    
    [GRAPHIC] [TIFF OMITTED] T2999B.409
    
                                           Thursday, April 2, 2009.

                  PRIORITIES ENFORCING IMMIGRATION LAW

                               WITNESSES

MARCY M. FORMAN, DIRECTOR OF THE OFFICE OF INVESTIGATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT [ICE]
DAVID J. VENTURELLA, EXECUTIVE DIRECTOR, SECURE COMMUNITIES, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT [ICE]
MICHAEL AYTES, ACTING DEPUTY DIRECTOR, U.S. CITIZENSHIP AND IMMIGRATION 
    SERVICES

                    Chairman Price Opening Statement

    Mr. Price. The Subcommittee will come to order. Good 
morning.
    Our hearing today focuses on the Department of Homeland 
Security's priorities for enforcing immigration laws. We have 
delayed the beginning this morning in anticipation of floor 
votes. Those floor votes, obviously, have not yet occurred, so 
we will go ahead and begin. Unfortunately, though, it is quite 
likely that we will have to take a recess, at some point, to 
cast a series of votes, so let us proceed.
    Let me cite some figures that suggest that DHS's 
immigration agencies have set several new records in Fiscal 
Year 2008, but then I want to cite an additional list, which 
raises some questions that I hope we can discuss today about 
some of the details beneath the surface of these numbers.
    Immigrations and Customs Enforcement [ICE] deported 369,409 
people, the most in any year in U.S. history. ICE held an 
average of 37,429 people in immigration detention per day in 
Fiscal Year 2008, more than any prior year on record.
    ICE initiated 1,191 work site enforcement investigations 
and arrested 6,287 people, the largest number since the 
formation of DHS, and U.S. Citizenship and Immigration Services 
[CIS] enrolled 63,592 companies in the E-Verify program, more 
than tripling the number of participants in a computer-based 
system that verifies the work eligibility of new hires.
    These are remarkable figures, and they result from the 
significant investment the Subcommittee has made in ICE and CIS 
budgets since 2003, as well as the good efforts of other 
players.
    The figures also reflect how hard employees at DHS have 
worked to meet the goals set by the Department leadership.
    But rather than simply trumpeting new records set by DHS, 
this hearing also lets us review the broader implications of 
our investments in these programs.
    This Subcommittee has made billions of dollars available 
for ICE and CIS since 2003. The questions we must all ask are: 
Have these huge investments produced what our country needs and 
expects from the agencies enforcing our immigration laws? Is 
DHS prioritizing its resources most appropriately?
    A closer examination of the data may give some pause. Since 
2002, ICE has increased the deportation of noncriminals by 400 
percent while criminal deportations have only gone up 60 
percent. Of the nearly 370,000 people deported by ICE, less 
than a third, or 114,358, had ever been convicted of a criminal 
offense; this, despite the fact that up to 450,000 criminals 
eligible for deportation are in penal custody in any given 
year, according to ICE's figures.
    Less than one-quarter of those interdicted by ICE's 
fugitive operations teams last year have actually been 
convicted of criminal offenses. Over three-quarters of those 
arrested in ICE work site enforcement raids last year were not 
charged with any crimes, save, of course, illegal presence in 
this country, and while CIS has worked to improve the accuracy 
of E-Verify, the most current system audit found troubling 
inaccuracies that prevent people from working, including the 
fact that one in 10 naturalized citizens are told, erroneously, 
that they cannot be employed in the U.S.
    Since becoming Chairman of this Subcommittee, I have 
emphasized that ICE should have no higher priority than 
deporting those who have proven their intent, and their 
ability, to do harm and have been convicted of serious crimes.
    In 2008, we gave ICE $200 million to identify incarcerated 
criminal aliens and remove them, once judged deportable. Last 
year, we directed ICE to use $1 billion of its resources to 
identify and remove aliens convicted of crimes, whether in 
custody or at large, and mandated that this be ICE's number-one 
mission.
    I continue to believe in the wisdom of this course and want 
to know how ICE plans to make more progress in identifying 
criminal aliens and deporting them once their sentences are 
complete.
    Since her confirmation, I have been encouraged by Secretary 
Napolitano's public statements that she shares this 
perspective. We must make sure that the Department is setting 
the right priorities for immigration enforcement.
    Similarly, this Subcommittee has provided generous 
appropriations to CIS for improving the accuracy and usefulness 
of E-Verify. However, more than $120 million, or three-quarters 
of the funds appropriated over the last two years, remain 
unspent.
    So what we have, at present, is a government database that 
sometimes falsely tells citizens and other residents they 
cannot work while a fair amount of money to fix the problem 
gathers dust. I want to know what is being done to address this 
issue.
    Another area of concern to this Subcommittee is the role of 
local authorities in enforcing immigration law. While I think 
local law enforcement should support and cooperate with ICE, 
the terms of that relationship have to be defined very 
carefully. To that end, we mandated in the 2009 Appropriations 
Act that DHS better oversee local immigration enforcement 
agreements and make certain that their terms were being 
honored.
    Finally, I want to address recent reports that ICE released 
immigrants arrested in a worksite enforcement raid in 
Washington State. Yesterday, after comments on this issue from 
our Ranking Member, I met personally with ICE to get the full 
story.
    While ICE's ongoing investigations limit what we can 
discuss in an open hearing, press reports that this represents 
a new policy, amnesty or otherwise, are simply not accurate.
    As part of its investigation, ICE has employed a 
longstanding law enforcement tactic by granting temporary 
immigration status to certain individuals, which does not 
permanently change the status of these immigrants. It is a 
tactic utilized in many past investigations, and it does not 
represent, as far as we can tell, any change in work site 
enforcement policy.
    We are expecting that one of our ICE witnesses, Director 
Marcy Forman, will address these issues further in her 
testimony. However, I do want to make it clear that we must be 
careful not to compromise an ongoing investigation by drawing 
unnecessary attention to an authorized and routine DHS law 
enforcement tactic.
    Today's three witnesses will help us understand DHS 
priorities in enforcing immigration law.
    Marcy Forman is the director of ICE investigations and, as 
such, oversees all ICE work site enforcement actions; David 
Venturella is executive director of the ICE Secure Communities 
program, which is supposed to ensure the agency's first 
priority is, and remains, the identification and removal of 
people convicted of serious crimes who are eligible for 
deportation; Mike Aytes is the acting deputy director of CIS, 
which administers E-Verify and, of course, many other programs.
    Our witnesses will help us better understand how the 
Department prioritizes its immigration enforcement missions. 
Even with the generous resources DHS receives from Congress, 
there is a limit to what its agencies can do. It only makes 
sense for law enforcement officers to address the most 
dangerous or threatening situations rather than simply pursuing 
the most convenient targets.
    We want to ask each of you to provide a five-minute summary 
of your written testimony, which will, of course, be entered in 
the record in full. We will ask Ms. Forman to speak first, 
followed by Mr. Venturella, and then, finally, Mr. Aytes.
    Before you begin, however, let me turn to Ranking Member 
Rogers for his comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.001
    
    [GRAPHIC] [TIFF OMITTED] T2999C.002
    
    [GRAPHIC] [TIFF OMITTED] T2999C.003
    
               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman. Welcome to our 
distinguished guests.
    Yesterday, we all woke up to some alarming news reports 
from Seattle indicating that ICE had not only released from 
custody, without bond, 28 known, confirmed illegal immigrants 
using false documents and had also given 24 of them work 
permits after having been released, allowing the group to go 
out and get jobs.
    This policy affects every law-abiding American citizen and 
is a slap in the face for those who are struggling every day to 
find a job in this economic downturn.
    Questionable enforcement practices such as these send a 
decidedly mixed message and effectively put illegal immigrants 
at the front of the employment line, in front of American 
citizens seeking a job in these hard times.
    Now, I am cognizant of the sensitivities surrounding an 
ongoing criminal investigation of an employer, make no mistake, 
but I do intend to get some answers today on the consequences 
of these apparent new guidelines and their effect on the 
immigration enforcement missions of the Department; that is, 
the law.
    Having said that, I want to speak to the underlying issue 
of the day. Over the past few years, there has been a concerted 
effort to prioritize ICE's enforcement resources towards the 
identification and removal of criminal aliens. There has also 
been a concerted push to improve the accuracy of E-Verify and 
the process for employment verification. We were told, for so 
many years, employers could not be prosecuted for employing 
illegal aliens because they had no way to verify whether or not 
they were illegal.
    Well, now we have cured that with E-Verify. I support those 
efforts, including the notable initiative, spearheaded by 
Chairman Price, toward removal of criminal aliens, with the 
following caveats: One, that the emphasis upon criminal aliens 
is not at the expense of other critical ICE missions; and, two, 
the push to improve and perfect E-Verify does not undermine the 
system's usage.
    Unfortunately, what I have also seen taking shape, over the 
last two years, is an effort to use prioritization toward 
removal of criminal aliens as a poorly veiled proxy for 
immigration reform.
    To those who see the 2010 bill as a vehicle for such 
reform, or are simply trying to deprive other vital immigration 
enforcement missions of already scarce resources, enough is 
enough. I say that that is exactly the wrong approach.
    Let us be serious about this debate. Every one of us 
supports robust efforts to identify and remove illegal aliens 
who commit crimes, and every one of us supports an accurate, 
workable, E-Verify system. Nevertheless, recent calls from the 
administration and others to ``reprioritize,'' apply greater 
``scrutiny,'' and ``redirect'' valuable ICE resources toward 
criminal alien investigations come at the detriment of other 
critical functions and missions of the Department; that is in 
the law.
    Let us be clear: ICE is a multimission agency with many 
priorities, including disrupting drug smuggling and human 
trafficking, stopping bulk cash shipments, cross-border child 
pornography, illegal export of weapons and munitions, and 
illicit trade practices, protecting export of our national 
security secrets, conducting work site enforcement and document 
fraud prevention, combatting organized criminal gangs and 
terrorist travel, and, of course, apprehending, detaining, and 
deporting illegal immigrants.
    Which one of these missions is not a priority? I believe it 
is abundantly clear that ICE's efforts in all of these areas 
are as vital to law enforcement as they are to homeland 
security. After all, every one of the 9/11 hijackers exploited 
the legal immigration system. None of them could have been 
classified as so-called ``criminal aliens.''
    In the midst of a turbulent economic downturn, perhaps now 
is the absolute worst time to relax any effort that protects 
American workers from fraud, be it illegal imports or a job 
unlawfully filled by an illegal alien.
    So, as we discuss the priorities of immigration enforcement 
and employment verification here today, we must remember that 
it is the Congress that writes the law. ICE and CIS are charged 
with carrying out the law.
    To tell the dedicated men and women of these frontline 
agencies to pick and choose which laws to actually enforce is 
unacceptable to the Congress, and some of us will point that 
out as time goes by; be aware.
    ICE and CIS must have all available tools at their disposal 
to combat the wide range of threats currently confronting our 
country, and I, for one, want to see them succeed, and I wish 
you well in your work.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.004
    
    [GRAPHIC] [TIFF OMITTED] T2999C.005
    
    [GRAPHIC] [TIFF OMITTED] T2999C.006
    
    [GRAPHIC] [TIFF OMITTED] T2999C.007
    
    Mr. Price. Thank you. We will need to recess for a series 
of votes, and it is likely to be an extensive series, I am 
told. We will be back just as quickly as we possibly can.
    [Whereupon, at 10:15 a.m., a recess was taken.]
    Mr. Price. The Subcommittee will reconvene. We regret the 
delay, although it was unavoidable, given the institution we 
are working in. So here we are back with a delay, but we do 
want to go forward, and we will, first, turn to you, Ms. 
Forman.

                    Opening Statement of Ms. Forman

    Ms. Forman. Chairman Price, Ranking Member Rogers, and 
distinguished Members of the Subcommittee, on behalf of 
Secretary Napolitano and Acting Assistant Secretary Torres, 
thank you for the opportunity to discuss ICE's enforcement 
priorities.
    ICE protects national security and upholds public safety by 
targeting transnational terrorists and other criminal networks 
that seek to exploit vulnerabilities at our borders. Indeed, 
the recent escalation of violence along our southwest border by 
drug cartels and other criminal organizations demonstrates this 
point in very stark terms.
    Just last week, Secretary Napolitano announced an 
initiative that commits additional personnel to the southwest 
border, increased intelligence capabilities, and better 
coordination with state, local, and Mexican law enforcement 
authorities.
    Also last week, ICE, with our law enforcement partners, 
established two new border enforcement security task forces in 
New Mexico. After personally meeting with my counterparts at 
ATF, we have agreed to better integrate our combined border 
efforts by exchanging dedicated resources between the ATF's gun 
runner task forces and our best located on the southwest 
border.
    Now, I would like to highlight ICE's immigration 
enforcement programs and initiatives that address many of the 
vulnerabilities at our borders and within our nation's 
interior. These programs help prevent the exploitation of our 
immigration system and combat criminal activities associated 
with terrorists, human smuggling and trafficking, document and 
benefit fraud, transnational gangs, status violators, 
unauthorized employment, human rights violators, and money 
laundering.
    To support these enforcement programs, ICE uses all our 
tools to bring our investigations to a successful conclusion. 
Our ability to issue temporary immigration benefits to victims 
and cooperating witnesses, such as continued presence, parole, 
deferred action, and stays of removal, benefits not only ICE 
investigations but law enforcement, as a whole.
    Criminal smuggling and trafficking organizations provide 
services that begin in countries of origin, pass through 
transit countries, and finally reach into the United States. 
Organizations often charge thousands of dollars to smuggle 
aliens, including those individuals who could pose a threat to 
this country.
    ICE proactively investigates international alien smuggling 
through a joint effort with the Department of Justice. The 
Extraterritorial Criminal Travel Strike Force, also known as 
``ECT,'' formed in June 2006, combines our collective 
investigative, prosecutorial, and intelligence resources to 
target, disrupt, and dismantle foreign-based, criminal-travel 
networks.
    ICE recognizes that combating transnational, alien-
smuggling networks does not stop with the arrest and conviction 
of the alien smuggler. ICE also focuses on criminal 
organizations and individuals who commit identity and benefit 
fraud.
    To combat the vulnerabilities exploited by identity and 
document fraud organizations, ICE created Document and Benefit 
Fraud Task Forces in April 2006. There are currently 17 DBTFs 
located in major U.S. cities that serve as models for multi-
agency cooperation. This cooperative effort leverages multiple 
law enforcement tools and authorities to investigate criminal 
organizations involved in immigration benefit fraud and the 
manufacturing and distribution of fraudulent identity 
documents.
    Within these task forces, ICE works with U.S. Citizenship 
and Immigration Services, the Department of Labor, the Social 
Security Administration, the U.S. Postal Service, the 
Department of State, and state and local law enforcement 
agencies.
    Opportunities for employment remain a primary motivation 
for aliens seeking illegal entry into the United States. As 
noted by Secretary Napolitano, ICE's work site enforcement 
program targets unscrupulous employers who subject unauthorized 
workers to poor or unsafe working conditions, pay substandard 
wages, or employ them in industries that could compromise our 
nation's critical infrastructure.
    ICE's multifaceted work site enforcement strategy targets 
employers whose business model is based upon exploiting an 
unauthorized workforce and employers who place our national 
security at risk.
    ICE has restructured the work site administrative fine 
process, and we expect that the increased use of administrative 
fines will result in meaningful penalties for those who engage 
in employment of unauthorized workers.
    ICE has implemented a debarment policy that prevents 
employers from receiving federal contracts when they are in 
violation of work site laws. Since July 2008, eleven companies 
and nine individuals have been debarred.
    I would like to highlight three of our national security 
programs: our participation on the Joint Terrorism Task Force, 
our Compliance Enforcement program, and the Human Rights 
Violator program.
    ICE is the second-largest federal participant on the JTTF. 
Our broad immigration and customs authorities are critical in 
the conduct of successful terrorism investigations. Last year, 
ICE agents initiated more than 1,300 investigations, in concert 
with the JTTF, resulting in 433 civil immigration arrests and 
215 criminal arrests, the majority for immigration-related 
offenses.
    ICE's Compliance Enforcement Unit focuses on preventing 
terrorists and other criminals from exploiting the Nation's 
immigration system. The CEU develops cases from national 
registration systems that allow ICE to identify people who 
violate their immigration status. Since 2003, more than 6,000 
civil immigration arrests have been made as a result of CEU 
investigations.
    In April 2008, ICE established the Human Rights Violators 
and War Crimes program, which targets those individuals who 
have entered the United States under false or fraudulent 
pretenses and have been linked or associated to regimes or 
countries engaged in war crimes, torture, or genocide.
    Our most notable success was the recent prosecution of 
Charles Emmanuel Taylor, who was sentenced to 97 years for 
committing acts of torture in Liberia. This case was the first 
successful prosecution under the criminal torture statute.
    As you heard from Secretary Napolitano during our hearing 
in February, DHS places great value on our relationship with 
state and local governments. ICE's gang initiative, Operation 
Community Shield, was established in February 2005.
    Through this program, ICE shares intelligence and 
information on transnational gang members with our federal, 
state, and local partners. The initiative focuses on the 
disruption, dismantling, and prosecution of transnational gangs 
who use violence and threats of violence to control territory 
and instill fear in American communities.
    To date, ICE agents, in collaboration with our law 
enforcement partners, have arrested more than 12,000 known gang 
members and associates. The majority of those arrests were 
based on violations of immigration law.
    On behalf of the men and women of ICE, I thank the 
Subcommittee for its continued support, and I am pleased to 
respond to any questions. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.008
    
    [GRAPHIC] [TIFF OMITTED] T2999C.009
    
    [GRAPHIC] [TIFF OMITTED] T2999C.010
    
    [GRAPHIC] [TIFF OMITTED] T2999C.011
    
    [GRAPHIC] [TIFF OMITTED] T2999C.012
    
    [GRAPHIC] [TIFF OMITTED] T2999C.013
    
    [GRAPHIC] [TIFF OMITTED] T2999C.014
    
    [GRAPHIC] [TIFF OMITTED] T2999C.015
    
    [GRAPHIC] [TIFF OMITTED] T2999C.016
    
    [GRAPHIC] [TIFF OMITTED] T2999C.017
    
    [GRAPHIC] [TIFF OMITTED] T2999C.018
    
    [GRAPHIC] [TIFF OMITTED] T2999C.019
    
                WASHINGTON STATE CRIMINAL INVESTIGATION

    Mr. Price. Before we turn to Mr. Venturella, I would 
appreciate, Ms. Forman, if you could, giving whatever response 
you feel you can to the matter I raised in my opening statement 
about the incidents in Washington State and whatever you can 
say without compromising the ongoing investigation. I think we 
need to have that at the front end of the hearing, and my 
questions will focus on other matters, but I do want to give 
you a chance to say what we should know about that.
    Ms. Forman. Thank you, Mr. Chairman, and thank you for the 
opportunity for allowing me to respond.
    This case we are talking about is in Washington State. It 
is an ongoing criminal investigation, so my ability to talk 
about the specifics is very limited.
    What I can tell you is that, as we currently speak and meet 
here, there is a criminal search warrant being executed by ICE 
agents in Washington State to further the criminal 
investigation of this company in the employment of illegal 
aliens. This is being done in conjunction with the U.S. 
Attorney's Office in the Western District of Washington.
    In regards to the tools used in the release of the illegal 
workforce, ``deferred action'' is the legal term given in terms 
of what these employers were authorized, and what this tool 
allows is for the U.S. Government and the Defense the 
opportunity to work with these illegal aliens and elicit 
statements from these illegal aliens in pursuit of the criminal 
case.
    This is done in conjunction with the U.S. Attorney's 
Office, in terms of their prosecutorial strategy, to further 
the investigation. They were released with conditions. They 
were all processed. All of their identifying data was obtained, 
and there are conditions to this deferred action.
    First of all, it is a temporary form of release of 
immigration benefits. It can be taken at any time, and the 
conditions are very limiting. These individuals must report in 
weekly to an ICE agent, and they must meet at least twice a 
month with an ICE agent, and these conditions can be increased 
as needed, based on the needs.
    Each one of these individuals was vetted for national 
security and threat analysis and were then provided with this 
benefit.
    Mr. Price. Thank you. Mr. Venturella.

                  Opening Statement of Mr. Venturella

    Mr. Venturella. Thank you, Chairman Price and Ranking 
Member Rogers, for the opportunity to appear before this 
distinguished Subcommittee.
    On March 28, 2008, I submitted a strategic plan entitled 
``Secure Communities: A Comprehensive Plan To Identify and 
Remove Criminal Aliens,'' also known as ``CIRCA.''
    On behalf of Secretary Janet Napolitano and Acting 
Assistant Secretary John Torres, I would like to thank you for 
the opportunity to discuss ICE's efforts to identify and remove 
criminal aliens.
    I want to express my gratitude to the Subcommittee for the 
resources it has provided over the past two fiscal years and, 
in particular, Chairman Price, for your strong support of our 
efforts to identify and track criminal aliens.
    Secretary Napolitano has made the identification and 
removal of criminal aliens a top priority for ICE. Pursuant to 
her action directive to examine the broad range of the 
Department's authorities and efforts on immigration and border 
security, ICE is examining how it might accelerate the 
deployment of the Secure Communities/CIRCA programs I am 
discussing with you today.
    The focus of Secure Communities/CIRCA is the identification 
and removal of criminal aliens. We are focusing on improved 
information sharing at all levels of government, but especially 
with our state and local partners, to more quickly and 
accurately identify criminal aliens in custody and at large, to 
prioritize our enforcement actions, focusing first on the most 
dangerous criminal aliens, and to transform the processes and 
systems used to detain and transport criminal aliens.
    ICE is using biometric technology in a new and effective 
way to alert us of potential criminal aliens as they enter the 
criminal justice process, especially those who are released 
without being incarcerated.
    Let me illustrate the importance of this enhancement. 
Recently, in Mesa, Arizona, an individual was booked for a 
minor crime and subsequently released on bail. Because the 
biometric identification feature had been deployed to that 
booking facility, the person's fingerprints were automatically 
sent to DHS.
    The search revealed that the individual, though now 
released on bail, was an associate of a violent criminal gang. 
He had previous convictions for aggravated assault with a 
deadly weapon, endangerment, gang-related threats, and 
intimidation. He had also been deported three years ago, after 
serving more than seven years in an Arizona Department of 
Corrections prison, and he was in the United States illegally.
    This information was automatically sent to our local 
detention and removal office, who located him and took him into 
immigration custody within hours.
    Our goal is to make available the biometric identification 
capability to more than 3,100 sites in the United States. As of 
today, we have deployed this capability to 48 sites in seven 
states, serving 2,100 booking locations.
    From the initial deployment this past October, ICE has 
already used this biometric identification capability to 
identify over 19,000 criminal aliens, including 1,436 that have 
been identified as dangerous criminal aliens. All 1,436 aliens 
have either been removed or are in the removal process.
    As the capacity to identify criminal aliens expands with 
the deployment of this technology, the number of known criminal 
aliens will rapidly increase. To accommodate this increased 
volume, we must change the way we prioritize our enforcement 
actions. We have adopted a risk-based strategy that focuses, 
first, on criminal aliens who pose the greatest threat to our 
communities.
    To manage this increased workload and prudently scale the 
system capabilities, we are classifying all criminal aliens 
based on the severity of the crimes they have been convicted 
of.
    For example, the highest-risk category includes those 
individuals who have been convicted of violent crimes, such as 
murder, manslaughter, rape, robbery, kidnapping, or major drug 
offenses. Identifying and removing these dangerous criminal 
aliens are the program's highest priorities and remain the 
focus of our efforts.
    This risk-based strategy also gives us greater flexibility. 
For instance, we have now made it a top priority to first 
deploy this capability to areas along the southwest border, 
based on the emerging risk from increased drug-related violence 
there. This will directly impact enforcement efforts at or near 
the border but will also have an indirect impact and benefit 
for communities far from the border.
    As we deploy these new capabilities, we are using models to 
analyze the impact of an increased number of identified 
dangerous criminal aliens. With this analysis, we will identify 
resource and system improvements required in the detention and 
removal processes.
    For example, we will automate how we manage bed space and 
transportation, and we will track criminal aliens from the time 
we take them into custody until they are removed from the 
United States.
    In summary, Mr. Chairman, I believe we are taking the 
necessary steps to improve and modernize the way we identify 
criminal aliens and remove them from the United States as soon 
as practicable.
    By working with immigration enforcement partners inside and 
outside of ICE, we are looking to leverage the new capabilities 
of this program for maximum impact, and we are proceeding with 
its deployment in a way that we believe is prudent, fiscally 
sound, and protects individual rights and liberties.
    We appreciate both your personal support, Mr. Chairman, and 
the support of Congress in our efforts to secure our nation's 
communities. I would ask that my complete written testimony be 
accepted into the record, and I would be pleased to answer any 
of your questions at this time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.020
    
    [GRAPHIC] [TIFF OMITTED] T2999C.021
    
    [GRAPHIC] [TIFF OMITTED] T2999C.022
    
    [GRAPHIC] [TIFF OMITTED] T2999C.023
    
    [GRAPHIC] [TIFF OMITTED] T2999C.024
    
    [GRAPHIC] [TIFF OMITTED] T2999C.025
    
    [GRAPHIC] [TIFF OMITTED] T2999C.026
    
    [GRAPHIC] [TIFF OMITTED] T2999C.027
    
    [GRAPHIC] [TIFF OMITTED] T2999C.028
    
    [GRAPHIC] [TIFF OMITTED] T2999C.029
    
    [GRAPHIC] [TIFF OMITTED] T2999C.030
    
    [GRAPHIC] [TIFF OMITTED] T2999C.031
    
    [GRAPHIC] [TIFF OMITTED] T2999C.032
    
    [GRAPHIC] [TIFF OMITTED] T2999C.033
    
    Mr. Price. Thank you. Your statement will be in the record. 
All of the statements will be in the record, and we appreciate 
your summarizing it in the way that you did.
    Mr. Aytes.

                     Opening Statement of Mr. Aytes

    Mr. Aytes. Thank you, Mr. Chairman and Ranking Member 
Rogers. As you have noted, our principal contribution with 
respect to this issue is our Employer Verification Program. I 
am grateful for the opportunity to discuss our shared goals in 
this respect, and let me start by thanking the Subcommittee for 
the $100 million appropriation for E-Verify for this year.
    As you have noted, Mr. Chairman, E-Verify has grown 
exponentially in the past few years. Over 117,000 employers are 
now enrolled, representing over 456,000 locations. More 
notably, today, over 14 percent of all nonagricultural new 
hires in the U.S. are run through E-Verify.
    E-Verify is sometimes described as a tool to enforce the 
immigration laws of this country. Others refer to it as a tool 
for employers committed to maintaining a legal workforce. But 
we also recognize that the system must also effectively serve 
workers by giving accurate and quick verification of their 
employment authorization.
    Our goal is to continue to improve E-Verify's ability to 
instantly verify new hires, strengthen employer training, 
monitoring, and compliance functions. At the same time, we want 
to work to protect workers' rights.
    Complaints about E-Verify largely fall into three 
categories: one, that the system is inaccurate and results in 
erroneous, mismatches; second, that it does not effectively 
combat identity theft and document fraud; third, that it can 
result in discrimination if there is an initial mismatch of a 
worker who is actually work authorized, and they do not know 
about the redress opportunities available to them. I would like 
to discuss each briefly in turn.
    Today, over 96 percent of queries result in an automatic 
confirmation that the worker is employment authorized. Of the 
remaining less than four percent, about one worker in 10 
contests the preliminary finding and, after research, we 
ultimately find they are employment authorized.
    We have worked hard to reduce the initial nonconfirmation 
rate for workers who are actually work authorized. For example, 
a simple change significantly reduced typographical errors that 
employers made as they keyed data into the system.
    We have added several new databases to our automated 
checks. This includes real-time arrival and departure data for 
noncitizens, which has effectively eliminated initial 
mismatches for newly arriving workers.
    A partnership with the Department of State to share 
passport data is today significantly reducing initial 
mismatches for naturalized and derivative citizens.
    While we have had significant success in this area, we 
continue to work hard on this problem. We recognize the effect 
it can have on both employers and workers, but we also 
recognize that not every mismatch can be prevented simply by 
adding data.
    For example, if someone changes their name, through a 
marriage or divorce, updates their driver's license but not 
their Social Security account information, it can result in a 
mismatch.
    E-Verify was not initially designed to combat identity 
theft, since, under the preexisting I-9 process, the worker 
must present an identity document, such as a driver's license, 
green card, or passport, but we recognize that identity theft 
and document fraud are growing issues.
    Last year, we added a new photo-screening tool for all DHS 
documents in order to combat document and identity fraud. In 
the future, we plan to add U.S. passport photos and would like 
to be able to verify individual driver's license information, 
all to streamline the process and let an employer quickly 
verify that the document presented by a worker matches what was 
actually issued.
    We are also working to create an initial capability to let 
individuals who have been victims of identity theft lock and 
unlock their Social Security number for the purpose of E-
Verify.
    About nine in 10 initial nonconfirmations become final, 
most without the worker contesting the initial finding. Some 
people have highlighted the potential for discrimination, 
suggesting some of these workers may actually be work 
authorized but simply do not know they can contest the initial 
finding.
    Admittedly, any system can be used incorrectly; however, 
there are an estimated 12 million people illegally in the 
United States. Some studies suggest that about five percent of 
the workforce in the United States currently are not authorized 
to work in this country.
    So the current E-Verify final nonconfirmation rate of three 
and a half percent does not seem inconsistent with that broader 
data, but we agree that E-Verify must protect the rights of 
workers. Any discrimination reduces the effectiveness of a 
program. Thus, we have expanded our information for workers and 
are growing a new monitoring-and-compliance branch to ensure 
that employers use the system correctly and to ensure that 
workers have access to information about redress procedures.
    We have also established a new process that lets employees 
call a U.S. toll-free number to address citizenship mismatches 
as an alternative to visiting SSA, and we are also working to 
refer instances of fraud, discrimination, misuse, and any 
illegal or unauthorized use of the system to appropriate law 
enforcement authorities.
    In summary, E-Verify has made great strides in becoming a 
fast, easy, and accurate tool to help employers and workers who 
are work authorized go through the process of employment 
verification quickly and efficiently. The Administration is 
dedicated to continuing to work to improve this system and 
process.
    Again, thank you for the opportunity to testify, and, 
again, we appreciate the Subcommittee's continued support for 
the E-Verify program.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.034
    
    [GRAPHIC] [TIFF OMITTED] T2999C.035
    
    [GRAPHIC] [TIFF OMITTED] T2999C.036
    
    [GRAPHIC] [TIFF OMITTED] T2999C.037
    
    [GRAPHIC] [TIFF OMITTED] T2999C.038
    
    [GRAPHIC] [TIFF OMITTED] T2999C.039
    
    [GRAPHIC] [TIFF OMITTED] T2999C.040
    
    [GRAPHIC] [TIFF OMITTED] T2999C.041
    
    [GRAPHIC] [TIFF OMITTED] T2999C.042
    
             IDENTIFICATION AND REMOVAL OF CRIMINAL ALIENS

    Mr. Price. Thank you very much. Well, let us turn to 
questions, and I will, first, attack one of the topics that 
stands out, Ms. Forman and Mr. Venturella, in the testimony of 
both of you, and that is the enforcement priority that you give 
to aliens who have committed serious crimes.
    That is a focus that you have brought to us this morning 
for a very good reason, because you have concentrated your 
efforts on improving our enforcement in this area, and it has 
been a hallmark of this Committee's leadership, if I may say 
so, that we want you to move in that direction, and we have put 
not just a mandate out there but also the money to underwrite 
the mandate.
    In the 2008 Appropriations Bill, this Subcommittee provided 
$200 million to identify and deport criminal aliens. Last year, 
we allocated $1 billion for that purpose, some new money and 
some money that we made quite clear was to be channeled in this 
direction.
    It should be clear that Congress's top priority for ICE is 
finding criminals who have no right to be in the country and 
making certain that they do not stay here.
    There are some signs that ICE has been moving in the right 
direction, but I do want to ask you about the progress that we 
are making and what next steps you anticipate.
    I have quoted some figures that are unsettling, to me, at 
least, in my opening statement, and I would like to have you 
react to them. I also have your most recent quarterly report, a 
report which, of course, was mandated by this Committee, this 
one, dated February 17, 2009. With reports of this sort, you 
always can see the glass as half full or half empty, but I do 
think the evidence here is mixed, and that is why I would like 
an oral update and perhaps additional elaboration for the 
record.
    You, for example, talk, in this report, about developing 
100-percent screening at now what amounts to 14.2 percent of 
state and local prisons. That is up from a lower percent, but 
it still leaves us wondering about 85.8 percent of the state 
and local jails who do not have this level of screening and 
what is happening to the people who are incarcerated there and 
then are out on the streets.
    We are told that, at any given point in time, there are 
approximately 450,000 illegal aliens incarcerated in our 
federal, state, and local prison systems. You do have the 100-
percent screening with regard to the federal prison system, and 
I should acknowledge that. The concern is with State or local 
prisons, where at any point in time, 450,000 criminal aliens 
are incarcerated. I think the figure, last year, for criminal 
alien deportations was something like 115,000. Of course, we 
need to know what the release rate per year is to know exactly 
how significant that 450,000 number is.
    What kind of figures do you have on that, and what are your 
current estimates of the number of incarcerated illegal aliens 
who are getting turned back out on the street without us 
knowing their status, let alone moving to deport them, as 
opposed to the 115,000 that, one way or another, you did deport 
last year?
    There is also the question of priorities within the 
Department, and let me say, a ``priority'' is just what we say 
it is. Having something as a priority does not mean you are 
ignoring everything else, but it does mean you are giving this 
priority. As far as I know, nobody seriously disagrees that 
criminal aliens should be at the very top of that list.
    Now, the figures I have for deportations since 2002 are 
that the deportation of noncriminals since 2002 has increased 
by 400 percent while criminal deportations have only gone up 60 
percent.
    So I will stop with that. You may have other figures to 
offer, but you get my direction here. I am encouraged by some 
of the specific actions that are reflected in this most recent 
report. On the other hand, I am not sure that these overall 
figures indicate that we are making the kind of progress in 
getting the kind of closure on this problem that we need to 
get.
    So I would like to know how you would account for the 
continuing lag that these figures indicate in our ability to 
get the capacity out there that we want and how long you think 
it is going to take for us to see these figures decisively turn 
around.
    Mr. Venturella. Well, thank you for the question, Chairman 
Price.
    In regards to the 14-percent screening, as it relates to 
local jails, I think everyone is aware that that is the 
greatest challenge for ICE because of the speed by which 
individuals are processed through the local jail system.
    While we have 14-percent coverage of those facilities, we 
do have the Law Enforcement Support Center available 24/7 for 
local law enforcement officers to initiate immigration queries 
to that center, as well as local protocols in place by which 
the ICE offices can respond to local law enforcement referrals 
when there is not an officer and agent present at those 
facilities.
    So while we have the 14-percent physical coverage, we do 
have other ways of responding to these law enforcement 
referrals.
    Regarding criminal alien removals versus noncriminal alien 
removals, I think, each year, we have shown that those numbers 
continue to go up, again, based on the resources that you have 
provided to ICE, and those numbers will continue to go up.
    I believe we will be able to accelerate those numbers based 
on the strategy that we submitted in March of 2008. We are 
looking, again, to modernize and transform the way we do 
business.
    The biometric capability that we talked about in the 
written testimony is really a game changer for us. It allows us 
to be present in facilities. It allows us to change our model, 
going from an agent-centric, officer-centric model to a 
technology-centric model, and we believe that the resources 
that you have provided, the plan that we have put forth, will 
allow us to accelerate the coverage, allow us to accelerate the 
identification of these individuals, and, therefore, put more 
people through this process.
    Regarding the noncriminal removals, I think you are aware 
that the increased Border Patrol agents who have been deployed 
to the southwest border generate noncriminal arrests and 
activities, and ICE does have a responsibility to support the 
activities of the Border Patrol and CBP. The catch-and-return 
policy was implemented, and that required the detention of more 
noncriminal aliens along the southwest border. So that 
contributes to those figures.
    Mr. Price. Well, one more statistic. The figures in the 
most recent year that we have, in 2007 to 2008, the figures for 
criminal removals went from 102,000 to the 115,000 number. That 
is a 12-percent increase and, no doubt, reflects some of these 
efforts. That same year, the noncriminal removals went up 35 
percent, so the pattern is continuing but is not quite as stark 
as it was in those earlier years.
    Well, we expect these efforts to continue and intensify, 
and we expect that the detailed budget submission for 2010 will 
reflect that, so we will be scrutinizing that carefully and 
working with you to make certain that we continue and 
accelerate progress in this direction. We think it is 
important.

             RELEASED CRIMINAL ALIENS WHO ARE NOT DEPORTED

    I did not get the figure for the denominator: 115,000 over 
what number of estimated criminal aliens who are being released 
this year who are not being deported. Do you have that figure?
    Mr. Venturella. We do not.
    Mr. Price. Can you get that figure?
    Mr. Venturella. We are going to be able to provide you that 
figure very shortly. We have developed a model which looks at a 
number of criminal data sources from the federal, state, and 
local level, and we will be able to tell you, in a given year, 
how many people ICE expects to encounter at these facilities 
versus how many are actually at those facilities. So we will be 
able to refine that number.
    The number that you referred to earlier, the 350,000 to 
400,000, again, was a different statistic, a different 
snapshot. If you looked at all of the prison populations, 
federal, state, and local level, that is how many individuals 
you would encounter. It did not speak to how many would be 
released.
    Mr. Price. No. That is why I asked the question. The 
significance of that 115,000 number depends entirely on what 
the number released is, not just the total prison population of 
illegal aliens.

              DEPORTING CRIMINAL ALIENS VERSUS NONCRIMINAL

    Mr. Rogers.
    Mr. Rogers. Tell me whether or not your work on catching 
and deporting criminal aliens is interfering, in any way, or 
diminishing your efforts in catch and return of noncriminal 
illegal aliens.
    Mr. Venturella. I do not believe it is. With the additional 
resources that Congress has provided us, we have been able to 
add additional detention space to support this particular 
activity, and we have added additional officers and agents to 
focus on implementing this strategy as it relates to criminal 
aliens.
    So I do not believe it has diminished our efforts to 
continue to support CBP and the Border Patrol.
    Mr. Rogers. So the catching and returning of illegal aliens 
who are not criminals continues unabated.
    Mr. Venturella. Yes, along the southwest border, and those 
activities continue forward.
    Mr. Rogers. Does that equally apply to the inland workforce 
investigations?
    Mr. Venturella. I will defer that to Director Forman.
    Ms. Forman. We are still utilizing the resources and the 
funding that Congress generously provided to go after egregious 
employers of work site violations.

                 POLICY CHANGE OR WORKFORCE ENFORCEMENT

    Mr. Rogers. Well, that brings us to the Bellingham, 
Washington, case, and what I think it portends, and what I am 
afraid it portends, and that is a diversion of attention from 
prosecuting employers in the U.S. who employ illegal aliens 
knowingly and providing that magnet to draw people from Mexico 
and other places to our south across the border and into the 
U.S. illegally and for the purpose of work.
    I am nervous that the Department is making a big change of 
policy here. I hope you can prove me wrong. I pray that I am 
wrong, but I perceive too many symbols that, I think, are 
portending a change of policy in that regard. I do not want to 
interfere in that Bellingham, Washington, case. That is an 
ongoing case, and far be it from me to want to interfere in 
that.
    Suffice it to say that I want to see stronger enforcement 
and stronger prosecution of American employers who employ 
illegal aliens knowingly.
    Why? Because our whole effort on the southwest border, the 
billions of dollars we are appropriating for building the fence 
and the virtual fence, the drug war that is now raging across 
that border, all of the efforts that we spend on customs and 
border protection at the checkpoints, ports of entry, and all 
of the Border Patrol expenses between those posts, and all of 
the efforts that we are doing to try to keep illegal aliens 
out, will never succeed so long as the magnet that draws those 
people to the U.S. to find work, so long as that magnet exists, 
and the magnet, of course, is the hope of a job at an American 
employer's place.
    If we are not going to prosecute those people, if we are 
not going to catch and return illegals who are caught in the 
process of raiding that plant, then we may as well give up on 
the border. We can save a ton of money not having to spend it 
on all of the things we have got to do on that border.
    What the Bellingham cases signals to me is that that is the 
way we are going, and it is backed up by a number of other 
things. The Washington Post ran a story on March 29th, Sunday; 
the headline is, ``Delay in Immigration Raids May Signal Policy 
Change,'' and it says it better than I can say it. It is, in 
effect, saying that the secretary has delayed a series of 
proposed immigration raids and other enforcement actions at 
U.S. workplaces in recent weeks, asking agents in her 
Department to apply more scrutiny to the selection and 
investigation of targets, as well as the timing of raids.
    A senior Department official, unnamed, said, ``These delays 
signal a pending change in whom agents at U.S. Immigration and 
Customs Enforcement choose to prosecute. There will be a change 
in policy,'' this senior DHS official says.
    Her moves, the story goes on to say, have led a lot of 
people to question the administration's commitment to work site 
raids, period. She has highlighted other priorities--drug 
cartels, dangerous criminals, and so on--but the fact remains, 
the pressure is on this administration not to raid these plants 
and arrest illegals working there out of humanitarian concerns, 
and we all have those concerns, but we have got to think about 
enforcing the law and protecting our border and having a 
border.
    I sort of agree with what Senator Byrd, in the Senate, from 
West Virginia, said recently. He says, ``It makes no sense to 
take funds from one priority, work site enforcement, to address 
a new priority, the border violence.''
    I know that the administration is talking about moving as 
many as 450 to 500 ICE agents out of internal workplace 
enforcement investigations and move them to the border, along 
with their equipment, to counter the drug cartels. I have tried 
to signal to the secretary that that would be a giant mistake, 
to take those ICE agents, who have to work on trying to shut 
down the magnet here from drawing people across the border, and 
diverting money to the border to prevent them from coming 
across.
    I just think that is counterproductive and contradictive. 
So let me ask you, are we in the midst of a change of policy on 
workplace enforcement, ma'am?
    Ms. Forman. Thank you, sir, for the question. The answer is 
no. The Secretary is committed to going after the employers who 
engage in criminal activity and build their model on hiring 
illegal aliens. Secretary Napolitano has repeated that mandate, 
and we are going to pursue that mandate and going after the 
employers who, again, knowingly hire illegal aliens, in 
addition to those who hire in our national critical 
infrastructure locations.
    Let me assure you that the work site funds that Congress so 
generously provided to us will not be used to fund the 
southwest border movement of agents.
    Mr. Rogers. Well, I am glad to hear the effort to prosecute 
employers is going to proceed, posthaste.
    What about the illegal aliens that are apprehended in that 
process?
    Ms. Forman. ICE intends to fully utilize their 
investigative resources, tools, and authorities to develop 
cases and to prove cases against the employer, using all of the 
tools available to them.
    Mr. Rogers. What about the people that are caught, illegals 
that are caught, in the process of a raid? Will they be 
released or returned to their place of origin?
    Ms. Forman. Certainly, each case is evaluated on its own 
merit, but utilizing the tools that are available, such as 
temporary immigration relief, in order to prove the criminal 
case; many of these individuals may be offered that type of 
relief temporarily in order to help ICE, in conjunction with 
the Department of Justice to pursue these criminal cases 
against the employer.
    Mr. Rogers. Well, I mean, that is the Bellingham case, but 
what about all of the others where you do not have to have the 
testimony of an illegal alien to testify in that case? What 
happens to them? Will they be returned back to their home?
    Ms. Forman. Certainly, they will be appropriately dealt 
with, according to the immigration laws and the immigration 
judges; yes, they will.
    Mr. Rogers. Well, is it true that the secretary has, in 
effect, barred any further raids until she personally 
intervenes in that matter?
    Ms. Forman. That is absolutely not true. We have not 
received any policy shift in regards to our approach on work 
site enforcement. We have taken, which we often do, a review of 
the cases in our inventory to ensure that the targets of these 
investigations are the employers who are and we are using a 
comprehensive approach to immigration enforcement.
    In addition to the criminal process, we have many other 
tools at our disposal as well. We have recently, thanks to the 
Congress, hired approximately 60 auditors--we are hoping to 
have, at the end of the year, a total of almost 100 auditors--
to conduct I-9 inspections.
    We have implemented a debarment policy. We have refined our 
fine process to make the fines more meaningful and consistent 
when they are issued, and, certainly, we are using our 
administrative and criminal authorities, when appropriate.
    Mr. Rogers. So is this reporter for the Washington Post 
wrong when he says, in his opening paragraph, that the 
secretary has delayed a series of proposed immigration raids at 
workplaces?
    Ms. Forman. I certainly cannot comment on the reporter 
himself. I am not sure of the validity of that statement. All I 
can tell you is that we have not been asked to delay any raids.
    Mr. Rogers. ``We'' being who?
    Ms. Forman. ICE. The ICE Office of Investigations.
    Mr. Rogers. I will have further questions, Mr. Chairman.
    Mr. Price. Thank you. Mr. Farr.

                       REMOVAL OF CRIMINAL ALIENS

    Mr. Farr. Thank you, Mr. Chairman. I am sorry I was late.
    I am reading the code here, and as I read it, your highest 
responsibility is to remove the criminal offenders, is that not 
correct?
    Mr. Venturella. That is a top priority for ICE. And 
Secretary Napolitano has made that very clear, that will be a 
top priority.
    Mr. Farr. So on the priority issues, I mean, removing known 
criminals who are undocumented or who are aliens who have 
committed crimes is a higher priority for us to do well, 
because they are obviously more of a threat, than conducting 
raids.
    Mr. Venturella. Well, I think ICE has a number of 
responsibilities, criminal and aliens being one, as Director 
Forman mentioned worksite enforcement. And there are other 
activities that----

                 UNDOCUMENTED ALIENS IN FEDERAL CUSTODY

    Mr. Farr. But the law puts the criminal aliens as the 
really high priority. And you said, for example, the highest-
risk category includes those individuals who have been 
convicted of violent crimes, such as murder, manslaughter, 
rape, robbery, kidnapping, or other major drug offenses. This 
category is our highest priority and the main focus of our 
efforts. That is on page 9 of your testimony.
    Now, I just want to find out, so what we were asking last 
year is, does ICE have a list of all the undocumented people 
that are in federal prison?
    Mr. Venturella. In federal prison?
    Mr. Farr. Yes.
    Mr. Venturella. Yes. We have 100 percent screening of those 
in federal custody.

                  UNDOCUMENTED ALIENS IN STATE CUSTODY

    Mr. Farr. Congratulations, because last year you did not 
have it. How about in state prisons?
    Mr. Venturella. In state prisons, again I believe we have 
100 percent coverage----
    Mr. Farr. A hundred percent.
    Mr. Venturella [continuing]. Of the state facilities, which 
ICE oversees.
    Mr. Farr. And that would take care of your felonies. 
Because in your local jails are misdemeanor sentences, is not 
that correct?
    Mr. Venturella. Well, the majority are. But some felonies 
also originate from the local setting.
    Mr. Farr. They originate, but they do not necessarily--do 
they do time in jail? I thought time was always, for felonies, 
was in state prison.
    Mr. Venturella. Well, they move through, they can move 
through a county system. They can do their time there. Or they 
can migrate to a state system, as well.

                         BOOKING SITES IN U.S.

    Mr. Farr. And how many booking sites are there in the 
United States?
    Mr. Venturella. Over 30,000.
    Mr. Farr. And your intention is to try to have every one of 
those booking sites to have the same fingerprinting process, so 
that you can run those fingerprints up against a national 
databank, right?
    Mr. Venturella. Well, we want to make available the 
capability of them being able to receive a response back, both 
on the criminal side and the immigration side, once the 
fingerprints are transmitted to the system.

                  LOCAL DETERMINATION OF DOCUMENTATION

    Mr. Farr. Well, it seems to me that the priority of this, 
of the responsibility, because we were very critical of the 
fact that ICE was not doing jail checks. And in fact, my local 
law enforcement were very upset with ICE, and did not want to 
cooperate with ICE; felt that they would rather go do these 
raids, and they got more press, and really shook up the 
community.
    In fact, I do not have many law enforcement leaders that 
are respectful of--and I hope they are gaining respect, but I 
do not think they have been very respectful, because of the way 
ICE has conducted itself, particularly because they would not 
come in and do these jail checks.
    So what I did not understand exactly from the program as I 
read it, you are relying an awful lot on the local communities 
to have to tell you whether the person they booked is 
documented or not.
    Mr. Venturella. Under the old model, that is correct. The 
new model does not rely on them making a judgment on the 
individual's immigration status.
    Mr. Farr. No, that is not their responsibility.
    Mr. Venturella. Absolutely, it is not. And so with this 
change of approach in deploying this biometric technology, just 
by sharing that fingerprint with us, we will be able to make 
that identification, and then provide them the information back 
about that individual.
    Mr. Farr. What I did not understand in this process is, you 
were talking about this individual that was detained, and was, 
sort of by circumstance, was a really bad hombre in Arizona. 
And but for the fact that he got busted on a minor incident, 
and in that you were able to run a check and finally grab him.
    Why was not he grabbed the minute he was booked?
    Mr. Venturella. Again, the information was not shared. Now, 
in the old model that would have required the local police 
department and the local law enforcement officers to make that 
determination, have reasonable suspicion that this person had 
violated, or was in the United States unlawfully. Manually 
initiate a check to the law enforcement support----
    Mr. Farr. You mean that is not done? You book somebody, and 
you have a fingerprint, and you do not find out if there are 
any outstanding warrants for that person, or any other things? 
I mean, my God, when, you know, I get stopped on a traffic 
violation, they run my driver's license to see if I have any, 
all kinds of stuff.
    So you have got people that are being booked in jails, and 
we do not have that information about them?
    Mr. Venturella. Well, that is what we are changing.
    Mr. Farr. But why is it taking so long? I mean, this has 
been a law for a long, long time. It is not new.
    Mr. Venturella. Again, local law enforcement has always had 
the ability to initiate an immigration query through a 
telecommunications system.
    What we are doing now is we are integrating the two 
databases, and part of the booking process. They get back that 
information. So they do not have to do a second query, they do 
not have to initiate a second. It is all part of the booking 
process. And that is really what changes the way we are 
identifying and the way we are sharing information back with 
the local law enforcement.
    Mr. Farr. So you have a projection to round up 440,000 
people next year. How many of those will be people that are 
incarcerated now, either without papers or incarcerated as 
green card holders?
    Mr. Venturella. Well, once we deploy the capability to 
those jurisdictions, yes, we do expect to be able to identify 
all of those individuals and take the appropriate action.
    Mr. Farr. So you will meet them, when they get out of 
prison you will be there at the gate to receive them?
    Mr. Venturella. Again, once we deploy this capability, we 
make the identification, the goal is to be able to take these 
people out of those institutions and remove them from the 
United States as quickly as possible.

                                E-VERIFY

    Mr. Price. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. As the original 
author of E-Verify, I obviously have watched this program 
evolve over the years, and now see we have 117,000 employers on 
the system. Several states have now made E-Verify mandatory 
within their own states.
    And just to go over these numbers, Mr. Aytes, as you 
mentioned, 96.1 percent of people are instantly verified. And 
of the 3.9 percent that are not instantly verified, .4 percent 
are successfully contested. Is that an accurate number, sir?
    Mr. Aytes. Yes, sir. It is actually .37 percent of----
    Mr. Calvert. Okay. Which means about 3.5 percent of that 
number either walked away or were not authorized to work. So 
that means that program is approximately 99.6 percent accurate. 
Is that a reasonably correct number?
    Mr. Aytes. When you add all those numbers together, yes, 
sir.
    Mr. Calvert. That is not bad for government work. You know, 
I have heard a lot of criticism from some on E-Verify. As a 
matter of fact, I checked with some of my local employers who 
use E-Verify. One employer in my district, Carlos, with A-Check 
America, provides background checks for employers, said my 
colleagues and I have a very favorable impression of E-Verify. 
We find the employers want to do the right thing. Requirements 
put upon the employer to confirm the applicant is legal to work 
within the U.S., this program serves that need. The program is 
very affordable, fast, and we feel very accurate.
    We have not had any applicants contest the finding of the 
results. In fact, Mr. Aytes, as far as you know, people that 
are authorized to work in the United States are being 
supposedly denied jobs, some folks say.
    Has anyone ever sued the Department for losing a job over 
E-Verify?
    Mr. Aytes. Not that we are aware of, sir.

                          WORKSITE EMPLOYMENT

    Mr. Calvert. Thank you. Ms. Forman, I was listening to you 
on this issue of releasing temporarily individuals who are not 
legally here to work in the United States, and this issue in 
Washington.
    Without getting into the details of this case, this, 
releasing these individuals, so-called catch and release, what 
is the percentage of these individuals that just disappear and 
never report? You said there was weekly reporting periods, and 
they are supposed to show up from a certain point. What 
percentage of them just disappear?
    Ms. Forman. I do not have that figure for you. But I will 
assure you, there is great oversight over these individuals.
    Mr. Calvert. If they just disappear, and they go someplace 
else and apply for work under a different name, there is not 
very much you can do about that, is there? Is not that the 
case?
    Ms. Forman. We certainly do our best to seek them out and 
find them.
    Mr. Calvert. In the real world, that happens often. I just 
want to make that point. Because that, that is the case.
    As a matter of fact, another thing on this worksite 
enforcement issue, you mentioned that you are targeting 
unscrupulous employers, poor unsafe working conditions, paying 
substandard wages. Does that mean you do not target employers 
that are paying fair wages, or working in good conditions? But 
at the same time, knowingly hire people who are working here 
illegally?
    Ms. Forman. No, that is not true. We target all 
unscrupulous employers. We just highlight some of the areas in 
which we have uncovered during our investigation.
    Mr. Calvert. So employers that are paying fair wages, and 
paying, and working in good conditions, are targeted just as 
aggressively as everyone else. Is that what you are saying?
    Ms. Forman. That is correct. We certainly prioritize. If we 
receive information with those employers who have these unsafe, 
lower-paying, they may take precedence. But we target them all. 
Those companies and employers who build their model on hiring 
illegal aliens are our number-one target.
    Mr. Rogers. Will the gentleman yield?
    Mr. Calvert. I would be happy to.

                  LIST OF EMPLOYERS CHARGED OR RAIDED

    Mr. Rogers. Mr. Chairman, if we might be able to get the 
Department to give us a list of the employers who have been 
charged or raided, and the results of those raids, however many 
illegals were detained and what happened to them. I wonder if 
we could get a report so that we could judge that.
    Mr. Price. Certainly. We would appreciate your making 
available that information in whatever form you can assemble 
it.
    Ms. Forman. Certainly.

                                E-VERIFY

    Mr. Rogers. If you could submit that for the record, I 
would appreciate that.
    E-Verify in itself, Mr. Aytes, is your experience that this 
program expands that you have sufficient resources and manpower 
to enforce this program properly?
    Mr. Aytes. Based on our forecasts of growth, yes, sir. We 
have actually done some load testing of our infrastructure of 
the system. And we can handle 40 million queries. There is 
about 60 million if you went mandatory. But this system can 
grow. It is scaleable, it could deal with the entire volume.
    Mr. Rogers. In fact, as you took on states that made in 
mandatory, such as the State of Arizona, which in fact Ms. 
Napolitano signed the law in effect making E-Verify mandatory 
in the State of Arizona. And there are other states, as I 
understand, moving in that direction, also.
    Could you, for the record, tell which states are moving 
toward a mandatory system within their states?
    Mr. Aytes. Well, yes, sir. Mississippi and South Carolina 
have already adopted mandatory verification. There are several 
other states, Missouri for example, that have adopted some 
aspect of it, applying it to particular types of employers, or 
to state government agencies.
    Mr. Rogers. And lastly, what is the E-Verify doing about 
identity theft? That was one of the criticisms that is also 
pointed to on E-Verify. What are you doing to prevent identity 
theft?
    Mr. Aytes. What we are doing is trying to post all of our 
documents online, so that an employer can look at them. Now, if 
I am sitting there, and I am applying for a job, the employer 
is looking at me and looking at my driver's license.
    Well, they do not necessarily know if that driver's license 
is genuine, or if it has been altered to some degree. So to the 
extent to which we can actually show the employer that source 
document, they can verify that the document itself is genuine 
and has not been altered. That goes quite a way toward fighting 
not just document fraud, but identity theft.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                        HUMANITARIAN GUIDELINES

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Ms. Forman, the increased use of raids has resulted in a 
great number of individuals being placed into detention, 
costing billions of dollars. Yet many of these detainees pose 
no threat to our communities, such as pregnant women, the 
elderly, and people with medical needs.
    I recently introduced the Immigration Oversight and 
Fairness Act, in part to expand the use of alternatives to 
detention for groups that do not pose a threat to their 
community or constitute a slight risk.
    Recognizing the fact that there are, in fact, other options 
to the high cost of detaining these vulnerable groups, and this 
is money that could be better used to go after criminal aliens, 
what is DHS doing to use these expanded alternative measures 
for this particular group of people?
    Ms. Forman. Thank you very much for the question. When ICE 
conducts some of these enforcement actions, we have guidelines 
in place. And those guidelines include humanitarian guidelines.
    So utilizing your example of a pregnant female, we work 
with our detention and removal agents, and we offer--we process 
the individual, and we release them on humanitarian guidelines. 
And detention and removal uses alternatives to detention, to 
include bracelets and phone-ins and so forth. We do that 
routinely on these enforcement actions.
    Ms. Roybal-Allard. Okay. But I am getting reports that 
there are still a great many of these vulnerable people that 
are still being detained, rather than being held under these 
alternative measures. So I do not know where the disconnect 
here is. Because I am hearing that there are still many that 
fall into this category, that are still being detained.
    Ms. Forman. I can tell you they start by oversight of the 
worksite investigations. I am not aware of any cases, and I am 
certainly more than glad to go look into any particular 
circumstance. But these guidelines are applied across the 
board, on all worksite enforcement operations.

                           RAPID REPATRIATION

    Ms. Roybal-Allard. Okay. Well, we will work on that.
    Also, the rapid repatriation is an initiative designed to 
quickly deport immigrants with low-level offenses, by offering 
them a reduced sentence in exchange for waiving the right to a 
deportation proceeding. And for those, there is no chance to 
obtain immigrant status. It is probably a pretty good offer.
    However, again, I have been informed that the rapid 
repatriation may not provide immigrants with sufficient legal 
information to make an informed decision about whether to 
accept this offer, or not to accept it.
    Could you tell me, what resources do you provide through 
this program to inform immigrants of their rights? And how does 
this legal information compare with what is available to 
immigrants held in the ICE detention centers?
    Probably that is better for Mr. Venturella.
    Mr. Venturella. Well, I am not as familiar with all of the 
particulars around that program. My understanding is that 
individuals are given their right to a hearing. Some of these 
individuals may have already been processed and gone through 
immigration proceedings, and have a removal order, but are 
serving long sentences or sentences in state custody.
    I do not know if all of them are then issued a charging 
document and go through formal removal proceedings. Again, I am 
just not quite familiar with that, so I will have to get back 
to you on that process.
    Ms. Roybal-Allard. I would appreciate that. Because the 
question really is, if they are offered this, you know, 
immediately, are they getting enough information to make an 
informed decision? Particularly if they have some basis for 
being able, you know, to stay here.
    So I would appreciate it, if you would.
    Mr. Venturella. Yes.

                 PUBLIC NOTICE OF CHANGE TO I-9 PROCESS

    Ms. Roybal-Allard. And one last thing. On April 3 the U.S. 
Citizenship and Immigration Services will implement a change to 
its employment eligibility verification, a form, I guess it is 
I-9 process. And under the new rules, employers will no longer 
be able to accept expired documents for purposes of hiring.
    The concern that I have is that--it is twofold. First of 
all, this revised policy could possibly disproportionately 
impact poor and elderly Americans who statistically are less 
likely to renew their state IDs or their driver's license, 
which could prevent them from gainful employment.
    And unfortunately, USCIS has not made alerting the public a 
priority. And as a result, has done very little, if any, 
outreach.
    Why has this rule change not been more highly publicized, 
so that people would be aware of it? And since we are two days 
away from this deadline, is there any possibility of extending 
it? So that Members of Congress and others can get that word 
out to our constituents that this is happening.
    Mr. Aytes. Well, ma'am, this is an interim final rule. We 
went through a very elaborate process with the proposed rule, 
with comments, getting information and feedback from folks. We 
are certainly not hiding the changes that have been made. Many 
of these changes have been long-discussed. This is one of the 
first revisions, although a very minor revision, of the I-9 
since the Employer Sanctions Law first took effect back in the 
1980s.
    We have made this change because we did not feel that 
employers should be in the position of having to assess the 
legitimacy of documents that are long expired.
    Ms. Roybal-Allard. My time is up. I am not taking a 
position against what you are trying to do.
    Mr. Aytes. I understand.
    Ms. Roybal-Allard. I am simply saying that being the impact 
that it is going to have on a lot of folks, I am concerned that 
the information has not gotten out to those who are going to be 
most impacted by this. That is all I am saying.
    And I, you know, for myself, I would like a little more 
time to let my seniors and my constituents know that this is 
happening.
    Mr. Aytes. Well, we certainly share your concern to the 
extent to which it might adversely impact someone 
unnecessarily. I think it would be extraordinarily problematic, 
a day before implementation, to delay an interim final rule of 
this nature.
    I will promise you we will take a look. But I cannot hold 
out much hope that we will be able to implement some form of 
delay.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2999C.043
    
    [GRAPHIC] [TIFF OMITTED] T2999C.044
    
    [GRAPHIC] [TIFF OMITTED] T2999C.045
    
    Mr. Price. Thank you. Mr. Rodriguez.

                  WORKSITE ENFORCEMENT PRIORITIZATION

    Mr. Rodriguez. Thank you very much. And let me, first of 
all, I know there has been a lot of dialogue on E-Verify back 
and forth. And I do want to, I guess, congratulate you to get 
into that 96 percent. The key is, how do we get the next 4 
percent or less than 4 percent.
    And I know you made some comments at the beginning. So 
please let us know, in terms of what we might need to do, or 
what you might need to do in terms of, you know, that might 
entail us taking some actions, that allow us to get to 
hopefully that 99.9 percent in the process, okay?
    And let me also just indicate, I know the Minority leader, 
Mr. Rogers, is correct in saying that jobs is one of the main 
magnets of, you know, illegal immigration. And although we do 
have another main magnet, which is drugs, and I think we are 
going to have to look at prioritizing how we are going to deal 
with that from one Administration to the other, as to the, you 
know. And we do have some major drugs coming in.
    And I would hope, at least from my perspective, that all of 
them are important. But there is no doubt that we have to come 
down on those criminals that are already here, and do what we 
need to do to correct that, as well as dealing with those 
individuals who are coming across with drugs.
    And I know from previous experiences that in dealing with 
companies, that we have also had Mr. Rogers's reverse, where 
the illegals--and it is true that a lot of times the ones that 
are, at least my perception, that are raided are those that are 
being treated real poorly. Because that is where you hear the 
complaints, and that is where you identify them. And sometimes 
they are sent back, and then we do not have the individuals 
that can prosecute the employers for doing the wrong thing, 
also. So it is balance there that probably we have to strike.
    I do not know if you want to make some comments on the 
existing one, because I know we have had problems in Iowa and 
other places, where they have done some real terrible things, 
and the illegals are sent back. And then we could not 
prosecute, in some cases in the past. I do not know if you want 
to make some comments, Ms. Forman.
    Ms. Forman. I cannot comment on the ongoing investigation, 
but we certainly have had worksite enforcement actions that the 
employer has, you know, low standard of wages, poor treatment 
of the employee, certainly. And that is why the focus is 
always, and will continue to be, on the employer, going after 
the employer.
    Mr. Rodriguez. Now, on those good--and I know we have had 
cases on good employers, because I know we had, there was a 
major case, it was a major company that was in that had 
busloads, and were brought up here. And I do not want to 
mention the company. And that case lasted a long time. At the 
end, the people who I think got nailed were the bus drivers on 
that case. And so that was a major company that was involved 
with some of that, I think it was poultry and others. I will 
not mention the name of that company.
    But I know that we need to continue to do that on both 
sides, making sure we get those two magnets, both the job-
related, you know, workforce, as well as the drugs.

                    PARTICIPATION IN 287(G) PROGRAM

    Let me ask you one other questions. Since I am on the 
border, Section 287(g), that is extremely important for us in 
terms of making a distinction there.
    GAO reports indicate that the agencies participating in 287 
programs often did not know the extent of the legal authority; 
whether, you know, we like the program or not.
    What steps have we taken to ensure participating agencies 
know exactly what they can and cannot do?
    Ms. Forman. Well, the 287(g) program does not fall under 
the Office of Investigations. But based on my knowledge of the 
287(g) program, there are several weeks of training provided to 
these state and local law enforcement agencies, and they 
receive the immigration training on what they can and cannot 
do, and what the law requires.
    So there is training before they are able to apply their 
287(g) authority.

                   DETENTION FACILITIES FOR FAMILIES

    Mr. Rodriguez. And if I can just follow up one other 
question, on the facility for families. And I think we have two 
of them, one in Texas and one in Pennsylvania. And my 
understanding is we have a facility now for little ones, under 
18 I guess, kids?
    Ms. Forman. Are you able to answer?
    Mr. Venturella. I am not aware of ICE having juvenile 
facilities. The responsibility for custody of juveniles is with 
the Office of Refugee Resettlement, which is in HHS.
    Mr. Rodriguez. So, okay. So that would not. Now, have we 
come up with any other alternatives to, I know it is a 
difficult situation, every time you hear that you are putting 
in prison a whole family with kids, little kids, it always 
comes across--well, it is kind of, you know, difficult--do we 
have any other alternatives there?
    Ms. Forman. On our detention and removal section, I could 
certainly take these questions back and provide you a written 
answer.
    Mr. Rodriguez. Thank you very much.

                          E-VERIFY ERROR RATES

    Mr. Price. Thank you. We welcome Mr. Culberson. I 
understand he will defer for a couple of time slots here, and 
then we will get right to him. Meanwhile, we will start the 
second round.
    I have a very brief question to you, Mr. Aytes, following 
up on Mr. Calvert's line of questioning. Then I would like to 
get back to this question of worksite enforcement.
    I do think we need to ask you to elaborate a bit on the 
rather encouraging statistics you gave us about the error 
rates. As you know, sometimes you need to look at the subsets 
within an overall statistic of that sort.
    And the figures we had heard indicate that there were some 
problematic subsets, led by naturalized citizens, that had been 
a problem. The audit, the WESTAT audit of E-Verify showed that 
one in 10 naturalized citizens get told they cannot be employed 
in the United States.
    I wonder if you could just briefly tell me what kind of 
progress you have made in, first of all, to confirm that that 
is true; and also, what kind of progress you have made in 
improving on that. And then just briefly telegraph any other 
problematic subsets, and maybe follow up for the record with 
more detailed information.
    Mr. Aytes. Certainly, sir. It is true, not every individual 
worker is going to go through exactly the same experience, 
depending on their background.
    We did have an issue with naturalized citizens and 
derivative citizens, for example. So we pay attention to the 
type of individuals who contest and are successfully able to 
convince us, after we do some research, that they are 
employment-authorized.
    What can we do to improve the system so the next time they, 
or someone like them, are going to get an automatic 
verification? That is what has been able to drive this 
verification rate up.
    So for example, when we noticed that problem, we started 
loading naturalization data more extensively into the system. 
And we started loading passport data, so that derivative 
citizens who typically will obtain a passport before they enter 
the United States, so that information is now in our system and 
that is driving those numbers down.
    And I will tell you that the numbers that I have cited, and 
that you all have cited, we publicly talk about validated data. 
WESTAT is a company that comes in and does an audit for us. We 
use that data.
    That data is actually almost a year old. I am very 
confident that based on the results we have seen in terms of 
the number of calls we are getting, and the types of mismatches 
that we have been able to avoid, that the numbers are somewhat 
better today than even those numbers.
    Mr. Price. I would appreciate your confirming that for the 
record, if you might, within any hard data that you have, as 
well as any information about other problematic subsets.
    Mr. Aytes. Yes, sir.
    [The information follows:]

    USCIS is working on a number of upcoming system enhancements 
including, among other improvements, the integration of additional 
databases that will be automatically checked within the E-Verify 
program. In February 2009, E-Verify added passport data to the sources 
checked within the program. This addition has significantly reduced 
mismatches issued to naturalized and derivative citizens, and will 
continue to decrease the number of initial mismatches later confirmed 
as employment-authorized (the 0.4 percent statistic referenced above).
    In FY2010, E-Verify will integrate SEVIS II data into the initial 
E-Verify system check. Immigration and Customs Enforcement (ICE)'s 
SEVIS II houses foreign student and exchange visitor population data. 
The integration of this data will significantly reduce mismatch 
incidence for this population. E-Verify is also working to automate the 
process for Temporary Protection Status (TPS) students who may have an 
expired EAD cards if their TPS was extended past the original 
timeframe. Also in FY2010, E-Verify intends to implement new matching 
techniques to account for format and typographical mismatches deriving 
from date of birth entries or complex surnames.
    Despite planned improvements, there will always be cases that 
result in mismatches that require employee action to update or correct 
the record before the system can issue an employment-authorized 
response. this process of updating records is beneficial to the 
employee, SSA, and DHS. Mismatches that cannot be prevented by system 
enhancements are often due to change of life events such as marriage or 
name change that the employee fails to report to SSA. Other mismatches 
are typographical errors that occur when the employer enters 
information into the system or the employee enters information on the 
Form I-9. USCIS continues to conduct outreach campaigns encouraging 
people to update their information with SSA and to identify system 
improvements to account for typographical and formatting mismatches.

                      WORKSITE ENFORCEMENT POLICY

    Mr. Price. Ms. Forman, I get back to this question of 
worksite enforcement. As is evident I think from the discussion 
here today, this is a contentious and controversial issue.
    And one of the reasons that some people, many people, have 
criticized ICE worksite enforcement raids is because they 
perceive that employers are generally not punished to the same 
degree as the workers that they may be exploiting.
    Over the weekend I was pleased to read that Secretary 
Napolitano has ordered a review of ICE's worksite enforcement 
policies and practices. I, for one, welcome this review. Since 
I believe ICE's worksite enforcement investigations need to be 
considered, in the context of the Department's other priorities 
and needs; and that more focus needs to be placed on the 
employers who exploit illegal immigrants.
    Now, I am not asking you to comment on this policy review; 
I know you are not in a position to do that. But I do think it 
would be helpful for us to understand more about how ICE has 
traditionally approached worksite enforcement investigations. 
So let me ask you just a few related questions.
    Under the previous Administration, what was ICE's policy 
for building cases against employers in worksite enforcement 
cases? Of the worksite enforcement cases you closed last year, 
how many resulted in criminal charges against employers? And 
generally speaking, what percentage of worksite enforcement 
cases result in the prosecution of an employer?
    Ms. Forman. Mr. Chairman, in terms of our priorities in 
worksite enforcement, our number-one priority is going after 
employers who hire within our national critical 
infrastructures, such as military installation, airports, and 
seaports.
    Our second prong, if there is a second prong, is going 
after those egregious employers; those employers who have built 
their business and used the business model, knowingly hiring 
illegal aliens.
    And then if there is a third prong, it is not, per se, 
criminal in nature. It is working in partnership with the 
private sector to educate and to bring companies into 
compliance. Those who want a pure and clean workforce. And that 
is the way we still continue to address worksite enforcement in 
those priority areas.

                  CRIMINAL INVESTIGATION AT WORKSITES

    Mr. Price. Can you more specifically address my question 
about the cases that you build against employers, and the 
percentage of cases that have resulted in criminal charges 
against employers?
    Ms. Forman. The way we build a criminal investigation in 
the worksite area, as well as all the other areas in which we 
investigate, we use various methods.
    Oftentimes we use investigative tools, where we can bring 
in a, either a law enforcement officer or a cooperating witness 
who will go in and help us develop information against the 
employer. Sometimes we get information based on our audits, on 
our I-9 audits, where there is the propensity that the company 
may have fraudulently made up some of these I-9 audits, or 
knowingly accepted fraudulent documentation.
    Our intent is to build enough probable cause to get it 
working with the U.S. Attorney's Office to get a search warrant 
to search the premises. That is usually our number-one tool and 
vehicle in terms of trying to build a case against the 
employer.

               WORKSITE ENFORCEMENT CASES CLOSED IN 2008

    Mr. Price. I gather you do not have the overall figures 
about the number of worksite enforcement cases you closed in 
2008 that resulted in criminal charges against employers?
    Ms. Forman. No, but I can get that for you.
    [The information follows:]

    ICE does not track the number of closed worksite enforcement 
investigations during a fiscal year that result in the criminal 
prosecution of an employer. However, ICE does track the number of 
worksite enforcement related criminal arrests made during a fiscal year 
and whether that criminal arrest was of an employer or employee.
    Fiscal Year (FY) 2005: 176 Criminal Arrests--Employers represented 
2% of the total criminal arrests.
    FY 2006: 716 Criminal Arrests--Employers represented 15% of the 
total criminal arrests.
    FY 2007: 863 Criminal Arrests--Employers represented 11% of the 
total criminal arrests.
    FY 2008: 1103 Criminal Arrests--Employers represented 12% of the 
total criminal arrests.

    Mr. Price. If you can furnish that for the record, and any 
further information you might want to give about previous years 
or trends in this regard. We very much need that information, 
actually, so please do get back to us.
    Ms. Forman. I will.
    Mr. Price. Mr. Rogers.

                      WORKSITE ENFORCEMENT POLICY

    Mr. Rogers. Well, staying on the same topic, I think if 
there is anything on this subcommittee we can agree upon--and 
there are a number of things--but I think certainly one thing I 
am sure of is we all want you to prosecute employers who are 
exploiting illegal aliens, or anyone else.
    And the reason that I would want you to do that is, I want 
you to--I think it helps shut down the magnet that helps draw 
illegals across the border. Not to mention the humanitarian 
question, which is, of course, important.
    So that has got me concerned, these news accounts 
insinuating or implying that the Administration is going to let 
upon worksite enforcement in the U.S. because of the 
humanitarian impact on the illegal aliens. And that has me 
worried.
    The Secretary now is saying that she is going to issue a 
new protocol, apparently shortly, to outline what the new 
policy will be toward worksite enforcement. Do you know 
anything about what that protocol will be?
    Ms. Forman. Not the protocols, per se. The Secretary has 
stated in public forums that her focus will still continue to 
be on the employer, on the egregious employer.

                      DELAYS OF IMMIGRATION RAIDS

    Mr. Rogers. Yes. Well, she, according to the newspaper and 
The Post story, apparently has delayed a series of immigration 
raids in recent weeks. Is that true?
    Ms. Forman. There have been reviews of the worksite cases 
that ICE Office of Investigations has conducted to ensure that 
we are utilizing all the resources and tools at our disposal to 
go after the employer. So we have conducted a review 
internally. But I am not aware of delaying cases for the sake 
of delaying cases. No, sir.
    Mr. Rogers. Why have you reviewed those cases?
    Ms. Forman. We are trying to make sure that the target, the 
ultimate target of these investigations, these worksite 
investigations, are the employer.
    These cases, because there are less, I mean the percentages 
of employers, they are complex investigations. Some of these 
investigations take months, some of them can take years to put 
together, in terms of collecting and establishing probable 
cause against an employer. And that is why the numbers are 
lower in terms of the employers themselves, because it takes a 
lot of evidence to show culpability.

               DELAY OF RAID ON MILITARY-RELATED FACILITY

    Mr. Rogers. Well, there was a raid that was supposed to 
have taken place at a military-related facility in Chicago last 
week, in which they had arranged to temporarily detail as many 
as 100 illegal immigrants, according to one official. A second 
official said that the Secretary thought the investigative work 
was inadequate.
    Can you comment on that?
    Ms. Forman. Sir, I cannot comment on that. I am not sure, I 
cannot verify the validity of the source of that type of 
information. And I cannot comment on an ongoing investigation.
    Mr. Rogers. Well, apparently there is no investigation, 
then. It was called off.
    Ms. Forman. I am not aware of any investigation being 
called off, sir.
    Mr. Rogers. Period? Or in Chicago?
    Ms. Forman. Period.

                    DELAY OF WORKSITE INVESTIGATIONS

    Mr. Rogers. Are not you head of investigations?
    Ms. Forman. Yes, I am.
    Mr. Rogers. You do not know of any that has been called 
off?
    Ms. Forman. Not to the best of my knowledge, no.
    Mr. Rogers. Well, if anybody should know, you should. You 
are the Director, right?
    Ms. Forman. Yes, sir.
    Mr. Rogers. Has any investigation been delayed or called 
off?
    Ms. Forman. There have been investigations that have been 
reviewed, but none have been called off, no.
    Mr. Rogers. What do you mean reviewed?
    Ms. Forman. Reviewed to ensure that there is legal 
sufficiency in terms of going after the employer.
    Mr. Rogers. And has a determination been made in some of 
those that there is not proper information available to you to 
allow you to go forward?
    Ms. Forman. I do not have that information off-hand.
    Mr. Rogers. I am sorry?
    Ms. Forman. The review is still taking place on some of 
these investigations. I do not have that information readily 
available.
    Mr. Rogers. Well, has there been any of those 
investigations, that you have reviewed, where you have said no, 
we do not have a good case?
    Ms. Forman. None in which we say we do not have a good 
case. We have had some where we have asked for stronger 
evidence to go after the employer.
    Mr. Rogers. So there have been some that have been delayed 
or put off, because of insufficient evidence.
    Ms. Forman. Possibly some for insufficient evidence in 
terms of going after the employer, or asking or requesting for 
stronger evidence to go forward.
    Mr. Rogers. Well, in these cases, in those cases, maybe the 
employer was not an unscrupulous exploiter of illegals. But 
also you knew there were illegals working at that place. Surely 
there is cases like that, right?
    Ms. Forman. I am sure there may be cases like that.
    Mr. Rogers. So that you know whether, you know of some 
places where illegals are illegally working, right?
    Ms. Forman. We have received information, yes.
    Mr. Rogers. Yes. And yet you have not moved on them. An 
American citizen, a tax-paying American citizen, is out of a 
job, looking for work, or being displaced by an illegal that 
you know is illegal. Right or wrong?
    Ms. Forman. That we have received information that may be 
illegal, yes.
    Mr. Rogers. And you are depriving an American taxpayer out 
of a job, trying to support his family or her family, from 
making a living, being displaced by an illegal alien, in the 
country illegally, gaining the job illegally, that you know, 
the government knows, is there illegally.
    Now, is that good policy, or not?
    Ms. Forman. I cannot address the policy. I can tell, as an 
enforcement officer, in order to make a greater impact, you 
want to go after the employer, the one who is knowingly hiring 
the illegal aliens.
    Mr. Rogers. What about the illegal alien that is being 
employed illegally?
    Ms. Forman. Once again, it is a confidential approach, with 
the target being the employer him- or herself.
    Mr. Rogers. What about the illegal employee? Are they not a 
target to you?
    Ms. Forman. They are a target. But the primary target is 
the employer.
    Mr. Rogers. Well, you will not leave that--that is the 
line. Okay.
    Mr. Price. Mr. Farr.

                    UNDOCUMENTED ALIENS INCARCERATED

    Mr. Farr. Well, I think the good news is that Mr. Rogers 
invites you to do the raids in Kentucky, but do not do them in 
the Salinas Valley, because we will not get any food harvested.
    But I wanted to go back to the questions on the jail 
checks. And Mr. Venturella, you said you have 100 percent 
inventory of the people in the federal prisons that are 
undocumented, that are serving time in state prisons?
    Mr. Venturella. We have 100 percent coverage and screening 
of those facilities.
    Mr. Farr. And how many are there?
    Mr. Venturella. How many currently detained in those 
facilities?
    Mr. Farr. Yes.
    Mr. Venturella. I will have to get you that exact figure.
    Mr. Farr. And when you, when they go out, when they leave--
you never answered the question, we ran out of time--will you 
be there at the gate to deport them?
    Mr. Venturella. At the federal and state institutions where 
we have the coverage, yes. These individuals are identified 
while they are in federal custody or state custody; they go 
through removal proceedings when they are in custody. And when 
they are being released, that release is coordinated with ICE 
authorities in those locations.
    So those individuals are not released back into the street, 
and then ICE will have to go after them or take an action on 
them. They are all processed within the confines of that 
system.
    Mr. Farr. So you have 100 percent inventory, but you do not 
know how many are going to be, you are going to have to work to 
detain, deport this year?
    Mr. Venturella. No. You asked me a question if I had that 
number right now. I do not have it right now, but we can 
provide it to you. Again, based on the coverage of the federal 
and state systems, yes, we can provide that. At the local, we 
are developing a model to forecast the numbers that we believe 
we will encounter that are in the local system and state 
systems.
    Mr. Farr. What I would really like is if you could give me 
the numbers of the criminals that you are going to deport, the 
numbers of the warrants that you are going to go out and try 
to--a guesstimate, because you will not have them all ahead of 
time--but what you think your warrant workload is? And then I 
would like that compared to what I call the bycatch, to the 
people that were just undocumented, but at the wrong place at 
the wrong time, so they were caught.
    Mr. Venturella. Okay. We will collect that and provide that 
to you.
    [The information follows:]

    Currently there are 4,374 prison/jail facilities across the United 
States. The ICE CAP program currently provides 100% coverage at 1,865 
of these facilities. At those facilities where ICE has 100% CAP 
coverage, the estimated daily population of incarcerated criminal 
aliens is 180,000.
    As of August 26, 2009, IDENT/IAFIS Interoperability has been 
established in 79 jurisdictions throughout the United States. The 
annual total estimated number of incarcerated criminal aliens where 
Interoperability is currently deployed is 150,117.

    Mr. Farr. I think that would help put some perspective on 
this debate.

              PROCESS FOR UNDOCUMENTED ALIEN INCARCERATION

    What I would also like to know is, what is the requirement 
that you are expecting because of, with this sort of difficulty 
you have had to get local, local law enforcement and ICE? How 
much of what this new program that you are implementing 
requires them to have to do something, have to do something 
different? Or how much, how much of it depends on their end of 
the--they are going to be booking people, and you are trying to 
standardize that process, right? So the fingerprint?
    Mr. Venturella. Well, I believe the process is 
standardized. It is a common process at local law enforcement, 
that all levels use. They arrest individuals, they book them 
into their facility; they charge them, they take fingerprints, 
they take photographs. And as a routine, they transmit those 
photographs through their state AFIS system, which then is 
connected to the federal IAFIS system.
    So there really is no change in the routine. It is more of 
an awareness of, now that if they share that information, what 
they get back in return. And in return is an immigration 
response that includes immigration history, as well as the 
availability of ICE resources to take that individual into 
custody, or to take some appropriate action against them.
    So there is really no change, there is no additional 
training. But there certainly is an awareness that needs to 
occur before the technology and capability is deployed.
    Also, the local law enforcement officials, as well as the 
local governments, can opt out of participating in this type of 
program. So it is not a mandatory program, it is certainly 
voluntary.
    Mr. Farr. But you are dependent on them. I mean, once they 
send in those fingerprints, which they are going to do anyway 
through that AFIS, then the responsibility is yours to, to tell 
them that this person is undocumented.
    Mr. Venturella. That is correct.
    Mr. Farr. And yet we do not know what that whole workload 
is going to be yet this year?
    Mr. Venturella. We are getting very close. And when I say 
close, within months of being able to tell you what we think 
that population is in the United States.

                                E-VERIFY

    Mr. Farr. Because it seemed the dialogue here with Mr. 
Calvert is that in many ways, we know more about how to find 
out whether an innocent dishwasher, who is new on the job, but 
gets detained in running by E-Verify, you can find out more 
about an undocumented dishwasher than a person who has 
committed a crime.
    Mr. Venturella. Well, as I stated, I think very shortly we 
will be able to provide this committee with that information 
that you are seeking: where these people are located, when they 
are going to be released, and when did they come into ICE 
custody.
    This is, the very core of this approach, relying on 
biometrics, is going to provide us a complete set of data on 
criminal aliens in the United States that nobody has. And so we 
see, through where we have deployed all fingerprint 
transactions that go through that particular jurisdiction, we 
are able to then classify those individuals based on the 
severity of their crimes. And we are also able to determine 
which are foreign-born and which are not.
    We never had that ability before. We relied on local law 
enforcement to make the referrals, or to have ICE officers in 
those facilities to encounter those individuals.
    Now, by relying on biometrics and focusing at the very 
initial or early stage of the booking process at the local 
facility, we will be able to capture that data, and then 
provide that analysis. And with that, we should be able to 
forecast where our resources should be and what our resources 
needs are in those locations. Where we expect these individuals 
to be encountered.
    Mr. Farr. While I appreciate that, it has also been the 
highest priority in the law for a long time. And it seems that, 
again, that if we have to prioritize, I would rather prioritize 
there than doing the raids.
    Mr. Venturella. Understood.
    Mr. Culberson. Thank you, Mr. Chairman. If I could yield 
for such time as he may conclude, to my Ranking Member, Mr. 
Rogers.

               CHANGE IN POLICY FOR WORKSITE ENFORCEMENT

    Mr. Rogers. Thank you. And I will take only 30 seconds or 
so. And I thank the gentleman for yielding.
    Mr. Chairman, we have seen history here today. We know the 
new policy of the Department of Homeland Security. Ms. Forman, 
the Director of Investigations for the Department, now says 
that we will not raid, nor prosecute, a plant where illegals 
are employed, knowingly by the Department, knowingly by the 
employer, so long as the employer does not exploit the 
illegals.
    That is a new policy. And it is, in fact, de facto amnesty. 
We are saying to people around the world, come in here; we are 
a nation without borders. Come on in, get a job. If you are 
treated fairly, we are not going to bother you. That is the new 
policy.
    And Mr. Chairman, I am disgusted.
    Mr. Culberson. Certainly. And I would also point out for 
the record, I believe I saw this morning in the paper that U.S. 
jobless claims have just reached an unemployment claims 
record--here it is. ``U.S. jobless claims rise to a 26-year 
high last week. U.S. workers --'' U.S. workers--``filing new 
claims for unemployment unexpectedly rose to the highest level 
in 26 years, a record high in March.'' So Mr. Rogers is exactly 
right that people who are here illegally and holding a job that 
could be held by an American, it is just not acceptable.
    And I will tell you something else that I really am deeply 
concerned about, that--and I apologize, we have other 
commitments and committee meetings right on top of this that 
delayed me--that the people of Houston are particularly 
concerned about, as we have had two police officers, a number 
of police offers over the years, but two in particular in 
recent months, killed by illegal aliens who were previously 
arrested for other crimes, that ICE did not do their job in 
deporting them.
    The Houston Chronicle did a very extensive and very well, 
they did a very good job in a three-part series investigation 
of the number of people here illegally from other countries who 
had committed other crimes, who had not been deported by ICE. 
And ICE is aware of these people. Rape, assault, children that 
have been raped.
    It is appalling. And I could not agree more with my 
Chairman, the good man from North Carolina, who is quoted in 
this article, November 16, 2008, Mr. Chairman. You are 
absolutely right. ``Congressman David Price, Chairman of the 
House Homeland Security Appropriations Committee, said to the 
Houston Chronicle, `The present situation is unacceptable.' 
Quoting Chairman Price, `The highest priority for ICE should be 
deporting people who have proven their ability and their 
willingness to do us harm.' ''
    I could not agree more, Mr. Chairman. You are exactly 
right. It has been a concern of each and every one of us I know 
on this committee and in Congress.
    And Ms. Forman, the committee gave ICE, the Chairman was 
extraordinarily generous, Ranking Member Mr. Rogers, we all 
made this a priority. I think almost a billion dollars, Mr. 
Chairman, for this specific purpose, to fully fund what you 
told us was necessary, to identify and deport criminal, 
violent, dangerous criminals who were arrested by U.S. law 
enforcement authorities. And you have had that money since 
September.
    And this Chronicle analysis, just looking at the Harris 
County Jail, the Chronicle discovered that three out of four of 
the inmates in the Harris County Jail--who admitted freely that 
they were here illegally and had been arrested for some other 
crime--three out of four of those inmates, and this is as of 
November, had never even had the paperwork filed on them by 
ICE. And many of these are just appalling cases, where you have 
got multiple crimes.

             USE OF $1 BILLION IN FISCAL YEAR 2009 FUNDING

    And I wanted to ask just a couple questions. You may not be 
able to answer them immediately today, but I really want 
something in writing that would tell us, tell the committee 
what you have done with the nearly $1 billion that the Chairman 
and the committee have been so generous to give you in these 
tight times, to identify and deport criminal aliens, people who 
are not only here illegally, but have committed violent crimes, 
number one.
    And in particular, the problem we have in Houston. Which is 
the Harris County Jail is the largest jail in Texas. And we 
have a particularly terrible problem in Houston. And I would 
like, if you could, to address what you have done with the 
money that you have had with September, number one.
    And then, number two, to point out, Mr. Chairman, because 
my time is brief and I am going to have to--your answer to my 
question is going to undoubtedly fill the remainder of my time. 
I am a lawyer by training, and was a civil defense attorney 
before I came to Congress. And I have always done my best to 
support tort reform. I do not believe in expanding liability; 
done my best to make sure that the litigation, the courthouse 
is there as a last resort. Trial lawyers and I do not always 
see eye to eye.
    But I have to tell you, when I look at this, and I am 
reminded, Mr. Chairman, of in New York City, for example, you 
cannot prove knowledge on the government, city government, 
unless they know about, for example, the pothole. And there was 
a group of lawyers that actually drove around town and took 
photographs of, and documented all the potholes in New York 
City, and then sent them in to city government in order to 
prove that if somebody hit that pothole and damaged their car, 
they could then sue the city and say hey, you knew about this.
    I think about the case of a psychiatrist. We had one case 
in my office where a psychiatrist, a guy comes into the office 
and says I am going to go out and hurt somebody. The 
psychiatrist knew the guy was a risk, and lets the guy walk 
free. The psychiatrist is liable.
    There are many instances like that in the law. And the 
negligence is so severe, Ms. Forman, I have to tell you, I am 
at the point of kicking around with my colleagues finding a way 
to hold ICE agents--if you have got the money, you have got the 
ability to identify and deport these criminal aliens, when they 
hurt a child and you let them go, there ought to be a way to 
come after the agents, and you, ma'am, individually, and hold 
you liable.
    I have to tell you, I am fed up with it. Unacceptable. It 
is unacceptable. What have you done with the money? And what 
are you going to do to solve this problem?
    Ms. Forman. Sir, I oversee the Office of Investigations. I 
am going to turn this over to my colleague.
    Mr. Culberson. Okay. Well, who is it? I am sorry, if you 
are Investigations, who do I need to bore in on?
    Mr. Venturella. That would be me, sir.
    Mr. Culberson. Okay. You drew the black bean, as we say in 
Texas.
    Mr. Venturella. What we have done in particular in Harris 
County in the City of Houston, with the funding that was 
provided, the $200 million in Fiscal Year 2008, we have 
deployed this biometric capability in Harris County, where 
every individual who is arrested and booked in that facility, 
their fingerprints are shared not only with DOJ FBI, but also 
with ICE.
    And so based on that, we are making more identifications of 
the individuals who have been previously encountered by ICE 
enforcement.
    Mr. Culberson. Right.
    Mr. Venturella. In addition to that, we have added CAP 
resources, Criminal Alien Program officers, to Harris County 
24/7. And we have also provided 287(g) training to the deputies 
there in Harris County.
    But as we turn a county on with this biometric capability, 
we also turn on these other booking locations. Now, I do not 
have the exact number for all of the booking locations that 
contribute to Harris County. But for example, the Houston 
Police Department also has that capability, where fingerprints 
are transmitted electronically, because they have the 
capability of doing that. And in return, information is 
exchanged back on these individuals.
    The most serious individuals do end up in Harris County, in 
most cases. So we are made aware of their arrest and booking in 
at the Houston Police Department, and then we catch up to them 
at the Harris----
    Mr. Culberson. But what are you doing to deport them? And 
thank you for the time, Mr. Chairman, my time is up.
    Mr. Venturella. I am sorry?
    Mr. Culberson. But what do you do to deport them? I will 
follow up on this individually. But could they give us a 
report, Mr. Chairman, on what they have done with the money the 
committee gave them, nationwide? And in particular, I really 
want to know about Harris County. I am going to pursue this 
individually. It is the deportations that matter.
    Mr. Price. We have actually all already requested an 
accounting of progress made with these appropriated funds. And 
of course, we expect this to be reflected in the 2010 detailed 
request, as well.
    Mr. Calvert.

                                E-VERIFY

    Mr. Calvert. Thank you, Mr. Chairman. Mr. Aytes, I think 
this question is probably directed to you.
    As you know, all federal agencies are required to use e-
Verify. Are you aware of any agencies right now that are not 
using it?
    Mr. Aytes. No, sir, I am not.
    Mr. Calvert. Just for the record, could you check into that 
and verify that all U.S. agencies are, in fact, using E-Verify?
    Mr. Aytes. Yes, sir.
    [The information follows:]

    All 15 cabinet-level departments are represented in E-Verify. There 
are 1,249 unique federal organization accounts in E-Verify that include 
all five military branches, smaller agencies and federal corporations. 
E-Verify allows employers flexibility in structuring and implementing 
their E-Verify accounts. This flexibility allows federal agencies to 
set up separate organization accounts broadly (i.e. by bureau or 
component) or narrowly (i.e. by location or unit).

    Mr. Calvert. That is in the law today. Secondly, as you are 
also aware, all U.S. Government contractors, as I understand 
it, are required to go on the E-Verify system as of May 20. Is 
that correct?
    Mr. Aytes. That is the current schedule, yes, sir.
    Mr. Calvert. It has been delayed a couple of times, as you 
know. Do you see any reason for this program to be delayed? Are 
you able to take on that additional workload?
    Mr. Aytes. I think the folks in the new Administration 
simply want an opportunity to be able to understand the 
ramifications and the implications of this. That was the cause 
of the initial delay. It was not only this regulation that was 
delayed; there were a whole series. But they wanted the 
opportunity to understand before they were implemented.
    But you are correct; the current schedule is that it will 
be implemented in late May.
    Mr. Calvert. How many additional employers do you think 
that--have you done any analysis to determine how many 
additional employers this will bring on to the system?
    Mr. Aytes. I imagine the staff has, sir. I will have to get 
you that information. I do not have it in front of me.
    [The information follows:]

    Following the effective date of the FAR rule in FY09, it is 
estimated that there will be approximately 168,624 contractors and 
subcontractors that will be required to enroll in E-Verify.

    Mr. Calvert. I understand it is a significant number. Would 
it more than double the amount of employers you have on the 
system presently?
    Mr. Aytes. It may double the number of employers. I do not 
know that it would double the number of queries.

                       E-VERIFY NON-CONFIRMATION

    Mr. Calvert. Okay. Just for the record, tell us what the 
process for individuals is who receive a tentative non-
confirmation, as they go through the process to be verified.
    Mr. Aytes. The employer is required to notify the worker at 
the time of the non-confirmation. And the worker indicates 
whether or not they plan to contest. Then they are given 
information to proceed to either the Social Security 
Administration, or to be able to contact USCIS toll-free. And 
they have an eight-day window, eight business days in which to 
contact us and to resolve the issue if they believe the initial 
tentative non-confirmation was erroneous.
    Mr. Calvert. Okay. And again, that is approximately 3.9 
percent of all employees, of the total universe, is that 
correct?
    Mr. Aytes. That, given that initial tentative non-
confirmation.
    Mr. Calvert. And about 0.4 percent are successfully 
contested. Of the balance of those, the 3.5 percent that either 
walk away or were not authorized to work, the assumption, I 
assume, is that the 3.5 percent are not part of the legal 
workforce. Or they would have not walked away from the process.
    Mr. Aytes. That is our assumption, sir.
    Mr. Calvert. So again I want to make this point, Mr. 
Chairman. Using those numbers, if the system is 99.6 percent 
accurate, that is a pretty remarkable number. And we look 
forward to you continuing to use the system as we expand E-
Verify throughout the United States.
    Thank you.
    Mr. Price. Thank you. Mr. Serrano.

                         SUPPORT FOR IMMIGRANTS

    Mr. Serrano. Thank you, Mr. Chairman. Thank you for holding 
this hearing. And I apologize for being late. I was attending a 
couple of other hearings, as you well can imagine.
    I think the subjects that I would like to discuss have been 
touched, and perhaps they have been touched with great emotion 
today. So rather, I would simply like to share with you my 
thoughts on how one could do what the law says you have to do, 
and still uphold the behavior of a country known to welcome 
people when they come here.
    Yes, it is true that folks that are here undocumented are 
considered lawbreakers. But there is a big difference between a 
person who crosses a border, desperately looking for any job 
that is available, and a person that comes here or lives here 
and assaults another person.
    So for the record, I want to be clear: Criminal aliens, as 
they are called, are no friends of any of us. And therefore, 
what the law mandates is what has to be dealt with.
    But when we talk about who we go after, I think it serves 
no purpose to continuously go after dishwashers, or lawn 
caretakers, or folks working in places where only they can 
work, or where only they are capable of doing certain jobs, not 
out of any talent or preparation necessarily, but out of the 
need the country has.
    I think that the whole issue of these raids that were 
conducted for so long, and continue to be conducted, I am not 
sure they serve any purpose, other than scare people and create 
a worse reputation for us. For, you see, notwithstanding the 
fact that we have an immigration issue--and I do not call that 
a problem. A country made up of immigrants and others forced to 
be here against their will is not a country that can turn on 
its own by knocking immigrants of any kind.
    But having an immigration issue, or a problem, as some 
would think it is, does not get resolved by meanness or lack of 
understanding of what the greater issue is.
    You know, it dawns on me, as I hear the data on the Floor, 
that we spend a lot of time--and we all do it, I do it too--
reminding the world that we are the greatest country on earth. 
That we are the greatest democracy; in fact, we try to impose 
our democracy on other people, sometimes by force. Then we get 
upset when people want to come here.
    And the free market, when you advertise, you advertise 
because you want people to buy your product. A byproduct, a 
side effect, of us telling the world we are the greatest, and 
we are the greatest, and trying to impose our way on others, is 
that some people would like to come here.
    But they do not cross those borders, they do not come on an 
airplane, they do not come on a ship with the intent of hurting 
us. No one leaves where they are from to come to another 
country with, 99 percent of the people, with the intent of 
hurting anyone. You do not do that.
    I mean, I migrated from Puerto Rico. It is different than 
immigrating, you know. Yet to this day, March 28, which was 
last week, stands out in my mind. March 28, 1950. Because I 
left a warm climate, arrived in New York in freezing weather. 
My father had bought us clothing for leaving Puerto Rico, and 
later on I reminded him that he should have brought us clothing 
for arriving in New York. So I arrived in short pants and short 
sleeves, it is a whole scene I do not think I have recovered 
from.
    And even though that was simply going from one, from a 
territory to a state, it still, in my head, you know, 59 years 
later, is something so dramatic. And so no one leaves what they 
have, or what little they have, to come to this country to be a 
problem.
    And all I am trying to say to you is that I suspect that 
this Administration, at the minimum, is going to say let us be 
more humane about what we do. I am not suggesting you do not 
follow the law. I am not suggesting that we avoid following the 
law. But I am suggesting that these are not criminals. These 
are people who broke our immigration law, but they are not 
criminals. They came here to work, they came here to start a 
new life.
    And the fact of life is that if they were all to leave, all 
12 million of them were to leave tomorrow, we would be sitting 
around here trying to figure out what kind of special visas we 
could be issuing to get the same people back here to do the 
work that needs to be done.
    Some of it sometimes gets funny. I commend to all of you an 
independent movie called A Day Without a Mexican. It is about 
California waking up one day and not finding Mexicans. And 
people having to mow their own lawn, and things that, you know, 
that they never did before.
    Without belaboring the point, I would just hope that to 
continue to do your work, you know that you have the support of 
this member, and you certainly have the support of the 
committee, in resources, and in the idea and the understanding 
to follow the law. But how you follow the law, what makes a 
good cop from a bad cop in a neighborhood like I grew up was 
which cop would talk to you, would deal with you with a humane 
face in a humane way, versus the one who was only imposing the 
law.
    So I have no questions for you, other than simply to say, 
remember, we are dealing with people here. We are dealing with 
people. We are not dealing with animals. We are not dealing 
with objects. We are dealing with people, people who will 
become a part of this country one way or another. People who 
have a history in many ways of having been part of this 
country. Because, you know, a lot of Mexicans woke up one day, 
in the case of Mexicans, and found out they were in the U.S., 
when the day before that they were living in Mexico. And that 
is still an issue for all of us to remember.
    And so let us just try and put a human behavior on it. And 
we will continue to support you. This problem, this issue is 
not going to go away. How we handle it is how we will be judged 
as we go down in history.
    Thank you.
    Mr. Price. Thank you. And let me add my thanks for the work 
you do in a very difficult and contentious area, and for your 
straightforward testimony here this morning. We look forward to 
hearing further from your agencies as we prepare the bill for 
2010.
    With that, with our gratitude, the subcommittee is 
adjourned.

[GRAPHIC] [TIFF OMITTED] T2999C.046

[GRAPHIC] [TIFF OMITTED] T2999C.047

[GRAPHIC] [TIFF OMITTED] T2999C.048

[GRAPHIC] [TIFF OMITTED] T2999C.049

[GRAPHIC] [TIFF OMITTED] T2999C.050

[GRAPHIC] [TIFF OMITTED] T2999C.051

[GRAPHIC] [TIFF OMITTED] T2999C.052

[GRAPHIC] [TIFF OMITTED] T2999C.053

[GRAPHIC] [TIFF OMITTED] T2999C.054

[GRAPHIC] [TIFF OMITTED] T2999C.055

[GRAPHIC] [TIFF OMITTED] T2999C.056

[GRAPHIC] [TIFF OMITTED] T2999C.057

[GRAPHIC] [TIFF OMITTED] T2999C.058

[GRAPHIC] [TIFF OMITTED] T2999C.059

[GRAPHIC] [TIFF OMITTED] T2999C.060

[GRAPHIC] [TIFF OMITTED] T2999C.061

[GRAPHIC] [TIFF OMITTED] T2999C.062

[GRAPHIC] [TIFF OMITTED] T2999C.063

[GRAPHIC] [TIFF OMITTED] T2999C.064

[GRAPHIC] [TIFF OMITTED] T2999C.065

[GRAPHIC] [TIFF OMITTED] T2999C.066

[GRAPHIC] [TIFF OMITTED] T2999C.067

[GRAPHIC] [TIFF OMITTED] T2999C.068

[GRAPHIC] [TIFF OMITTED] T2999C.069

[GRAPHIC] [TIFF OMITTED] T2999C.070

[GRAPHIC] [TIFF OMITTED] T2999C.071

[GRAPHIC] [TIFF OMITTED] T2999C.072

[GRAPHIC] [TIFF OMITTED] T2999C.073

[GRAPHIC] [TIFF OMITTED] T2999C.074

[GRAPHIC] [TIFF OMITTED] T2999C.075

[GRAPHIC] [TIFF OMITTED] T2999C.076

[GRAPHIC] [TIFF OMITTED] T2999C.077

[GRAPHIC] [TIFF OMITTED] T2999C.078

[GRAPHIC] [TIFF OMITTED] T2999C.079

[GRAPHIC] [TIFF OMITTED] T2999C.080

[GRAPHIC] [TIFF OMITTED] T2999C.081

[GRAPHIC] [TIFF OMITTED] T2999C.082

[GRAPHIC] [TIFF OMITTED] T2999C.083

[GRAPHIC] [TIFF OMITTED] T2999C.084

[GRAPHIC] [TIFF OMITTED] T2999C.085

[GRAPHIC] [TIFF OMITTED] T2999C.086

[GRAPHIC] [TIFF OMITTED] T2999C.087

[GRAPHIC] [TIFF OMITTED] T2999C.088

[GRAPHIC] [TIFF OMITTED] T2999C.089

[GRAPHIC] [TIFF OMITTED] T2999C.090

[GRAPHIC] [TIFF OMITTED] T2999C.091

[GRAPHIC] [TIFF OMITTED] T2999C.092

[GRAPHIC] [TIFF OMITTED] T2999C.093

[GRAPHIC] [TIFF OMITTED] T2999C.094

[GRAPHIC] [TIFF OMITTED] T2999C.095

[GRAPHIC] [TIFF OMITTED] T2999C.096

[GRAPHIC] [TIFF OMITTED] T2999C.097

[GRAPHIC] [TIFF OMITTED] T2999C.098

[GRAPHIC] [TIFF OMITTED] T2999C.099

[GRAPHIC] [TIFF OMITTED] T2999C.100

[GRAPHIC] [TIFF OMITTED] T2999C.101

[GRAPHIC] [TIFF OMITTED] T2999C.102

[GRAPHIC] [TIFF OMITTED] T2999C.103

[GRAPHIC] [TIFF OMITTED] T2999C.104

[GRAPHIC] [TIFF OMITTED] T2999C.105

[GRAPHIC] [TIFF OMITTED] T2999C.106

[GRAPHIC] [TIFF OMITTED] T2999C.107

[GRAPHIC] [TIFF OMITTED] T2999C.108

[GRAPHIC] [TIFF OMITTED] T2999C.109

[GRAPHIC] [TIFF OMITTED] T2999C.110

[GRAPHIC] [TIFF OMITTED] T2999C.111

[GRAPHIC] [TIFF OMITTED] T2999C.112

[GRAPHIC] [TIFF OMITTED] T2999C.113

[GRAPHIC] [TIFF OMITTED] T2999C.114

[GRAPHIC] [TIFF OMITTED] T2999C.115

[GRAPHIC] [TIFF OMITTED] T2999C.116

[GRAPHIC] [TIFF OMITTED] T2999C.117

[GRAPHIC] [TIFF OMITTED] T2999C.118

[GRAPHIC] [TIFF OMITTED] T2999C.119

[GRAPHIC] [TIFF OMITTED] T2999C.120

[GRAPHIC] [TIFF OMITTED] T2999C.121

[GRAPHIC] [TIFF OMITTED] T2999C.122

[GRAPHIC] [TIFF OMITTED] T2999C.123

[GRAPHIC] [TIFF OMITTED] T2999C.124

[GRAPHIC] [TIFF OMITTED] T2999C.125

[GRAPHIC] [TIFF OMITTED] T2999C.126

[GRAPHIC] [TIFF OMITTED] T2999C.127

[GRAPHIC] [TIFF OMITTED] T2999C.128

[GRAPHIC] [TIFF OMITTED] T2999C.129

[GRAPHIC] [TIFF OMITTED] T2999C.130

[GRAPHIC] [TIFF OMITTED] T2999C.131

[GRAPHIC] [TIFF OMITTED] T2999C.132

[GRAPHIC] [TIFF OMITTED] T2999C.133

[GRAPHIC] [TIFF OMITTED] T2999C.134

[GRAPHIC] [TIFF OMITTED] T2999C.135

[GRAPHIC] [TIFF OMITTED] T2999C.136

[GRAPHIC] [TIFF OMITTED] T2999C.137

[GRAPHIC] [TIFF OMITTED] T2999C.138

[GRAPHIC] [TIFF OMITTED] T2999C.139

[GRAPHIC] [TIFF OMITTED] T2999C.140

[GRAPHIC] [TIFF OMITTED] T2999C.141

[GRAPHIC] [TIFF OMITTED] T2999C.142

[GRAPHIC] [TIFF OMITTED] T2999C.143

[GRAPHIC] [TIFF OMITTED] T2999C.144

[GRAPHIC] [TIFF OMITTED] T2999C.145

[GRAPHIC] [TIFF OMITTED] T2999C.146

[GRAPHIC] [TIFF OMITTED] T2999C.147

[GRAPHIC] [TIFF OMITTED] T2999C.148

[GRAPHIC] [TIFF OMITTED] T2999C.149

[GRAPHIC] [TIFF OMITTED] T2999C.150

[GRAPHIC] [TIFF OMITTED] T2999C.151

[GRAPHIC] [TIFF OMITTED] T2999C.152

[GRAPHIC] [TIFF OMITTED] T2999C.153

[GRAPHIC] [TIFF OMITTED] T2999C.154

[GRAPHIC] [TIFF OMITTED] T2999C.155

[GRAPHIC] [TIFF OMITTED] T2999C.156

[GRAPHIC] [TIFF OMITTED] T2999C.157

[GRAPHIC] [TIFF OMITTED] T2999C.158

[GRAPHIC] [TIFF OMITTED] T2999C.159

[GRAPHIC] [TIFF OMITTED] T2999C.160

[GRAPHIC] [TIFF OMITTED] T2999C.161

[GRAPHIC] [TIFF OMITTED] T2999C.162

[GRAPHIC] [TIFF OMITTED] T2999C.163

[GRAPHIC] [TIFF OMITTED] T2999C.164

[GRAPHIC] [TIFF OMITTED] T2999C.165

[GRAPHIC] [TIFF OMITTED] T2999C.166

[GRAPHIC] [TIFF OMITTED] T2999C.167

[GRAPHIC] [TIFF OMITTED] T2999C.168

[GRAPHIC] [TIFF OMITTED] T2999C.169

[GRAPHIC] [TIFF OMITTED] T2999C.170

[GRAPHIC] [TIFF OMITTED] T2999C.171

[GRAPHIC] [TIFF OMITTED] T2999C.172

[GRAPHIC] [TIFF OMITTED] T2999C.173

[GRAPHIC] [TIFF OMITTED] T2999C.174

[GRAPHIC] [TIFF OMITTED] T2999C.175

[GRAPHIC] [TIFF OMITTED] T2999C.176

[GRAPHIC] [TIFF OMITTED] T2999C.177

[GRAPHIC] [TIFF OMITTED] T2999C.178

[GRAPHIC] [TIFF OMITTED] T2999C.179

[GRAPHIC] [TIFF OMITTED] T2999C.180

[GRAPHIC] [TIFF OMITTED] T2999C.181

[GRAPHIC] [TIFF OMITTED] T2999C.182

[GRAPHIC] [TIFF OMITTED] T2999C.183

[GRAPHIC] [TIFF OMITTED] T2999C.184

[GRAPHIC] [TIFF OMITTED] T2999C.185

[GRAPHIC] [TIFF OMITTED] T2999C.186

[GRAPHIC] [TIFF OMITTED] T2999C.187

[GRAPHIC] [TIFF OMITTED] T2999C.188

[GRAPHIC] [TIFF OMITTED] T2999C.189

[GRAPHIC] [TIFF OMITTED] T2999C.190

[GRAPHIC] [TIFF OMITTED] T2999C.191

[GRAPHIC] [TIFF OMITTED] T2999C.192

[GRAPHIC] [TIFF OMITTED] T2999C.193

[GRAPHIC] [TIFF OMITTED] T2999C.194

[GRAPHIC] [TIFF OMITTED] T2999C.195

[GRAPHIC] [TIFF OMITTED] T2999C.196

[GRAPHIC] [TIFF OMITTED] T2999C.197

[GRAPHIC] [TIFF OMITTED] T2999C.198

[GRAPHIC] [TIFF OMITTED] T2999C.199

[GRAPHIC] [TIFF OMITTED] T2999C.200

[GRAPHIC] [TIFF OMITTED] T2999C.201

[GRAPHIC] [TIFF OMITTED] T2999C.202

[GRAPHIC] [TIFF OMITTED] T2999C.203

[GRAPHIC] [TIFF OMITTED] T2999C.204

[GRAPHIC] [TIFF OMITTED] T2999C.205

[GRAPHIC] [TIFF OMITTED] T2999C.206

[GRAPHIC] [TIFF OMITTED] T2999C.207

[GRAPHIC] [TIFF OMITTED] T2999C.208

[GRAPHIC] [TIFF OMITTED] T2999C.209

[GRAPHIC] [TIFF OMITTED] T2999C.210

[GRAPHIC] [TIFF OMITTED] T2999C.211

[GRAPHIC] [TIFF OMITTED] T2999C.212

[GRAPHIC] [TIFF OMITTED] T2999C.213

[GRAPHIC] [TIFF OMITTED] T2999C.214

[GRAPHIC] [TIFF OMITTED] T2999C.215

[GRAPHIC] [TIFF OMITTED] T2999C.216

[GRAPHIC] [TIFF OMITTED] T2999C.217

[GRAPHIC] [TIFF OMITTED] T2999C.218

[GRAPHIC] [TIFF OMITTED] T2999C.219

[GRAPHIC] [TIFF OMITTED] T2999C.220

[GRAPHIC] [TIFF OMITTED] T2999C.221

[GRAPHIC] [TIFF OMITTED] T2999C.222

[GRAPHIC] [TIFF OMITTED] T2999C.223

[GRAPHIC] [TIFF OMITTED] T2999C.224

[GRAPHIC] [TIFF OMITTED] T2999C.225

[GRAPHIC] [TIFF OMITTED] T2999C.226

[GRAPHIC] [TIFF OMITTED] T2999C.227

[GRAPHIC] [TIFF OMITTED] T2999C.228

[GRAPHIC] [TIFF OMITTED] T2999C.229

[GRAPHIC] [TIFF OMITTED] T2999C.230

[GRAPHIC] [TIFF OMITTED] T2999C.231

[GRAPHIC] [TIFF OMITTED] T2999C.232

[GRAPHIC] [TIFF OMITTED] T2999C.233

[GRAPHIC] [TIFF OMITTED] T2999C.234

[GRAPHIC] [TIFF OMITTED] T2999C.235

[GRAPHIC] [TIFF OMITTED] T2999C.236

[GRAPHIC] [TIFF OMITTED] T2999C.237

[GRAPHIC] [TIFF OMITTED] T2999C.238

[GRAPHIC] [TIFF OMITTED] T2999C.239

[GRAPHIC] [TIFF OMITTED] T2999C.240

[GRAPHIC] [TIFF OMITTED] T2999C.241

[GRAPHIC] [TIFF OMITTED] T2999C.242

[GRAPHIC] [TIFF OMITTED] T2999C.243

[GRAPHIC] [TIFF OMITTED] T2999C.244

[GRAPHIC] [TIFF OMITTED] T2999C.245

[GRAPHIC] [TIFF OMITTED] T2999C.246

[GRAPHIC] [TIFF OMITTED] T2999C.247

[GRAPHIC] [TIFF OMITTED] T2999C.248

[GRAPHIC] [TIFF OMITTED] T2999C.249

[GRAPHIC] [TIFF OMITTED] T2999C.250

[GRAPHIC] [TIFF OMITTED] T2999C.251

[GRAPHIC] [TIFF OMITTED] T2999C.252

[GRAPHIC] [TIFF OMITTED] T2999C.253

[GRAPHIC] [TIFF OMITTED] T2999C.254

[GRAPHIC] [TIFF OMITTED] T2999C.255

[GRAPHIC] [TIFF OMITTED] T2999C.256

[GRAPHIC] [TIFF OMITTED] T2999C.257

[GRAPHIC] [TIFF OMITTED] T2999C.258

[GRAPHIC] [TIFF OMITTED] T2999C.259

[GRAPHIC] [TIFF OMITTED] T2999C.260

[GRAPHIC] [TIFF OMITTED] T2999C.261

[GRAPHIC] [TIFF OMITTED] T2999C.262

[GRAPHIC] [TIFF OMITTED] T2999C.263

[GRAPHIC] [TIFF OMITTED] T2999C.264

[GRAPHIC] [TIFF OMITTED] T2999C.265

[GRAPHIC] [TIFF OMITTED] T2999C.266

[GRAPHIC] [TIFF OMITTED] T2999C.267

[GRAPHIC] [TIFF OMITTED] T2999C.268

[GRAPHIC] [TIFF OMITTED] T2999C.269

[GRAPHIC] [TIFF OMITTED] T2999C.270

[GRAPHIC] [TIFF OMITTED] T2999C.271

[GRAPHIC] [TIFF OMITTED] T2999C.272

[GRAPHIC] [TIFF OMITTED] T2999C.273

[GRAPHIC] [TIFF OMITTED] T2999C.274

[GRAPHIC] [TIFF OMITTED] T2999C.275

[GRAPHIC] [TIFF OMITTED] T2999C.276

[GRAPHIC] [TIFF OMITTED] T2999C.277

[GRAPHIC] [TIFF OMITTED] T2999C.278

[GRAPHIC] [TIFF OMITTED] T2999C.279

[GRAPHIC] [TIFF OMITTED] T2999C.280

[GRAPHIC] [TIFF OMITTED] T2999C.281

[GRAPHIC] [TIFF OMITTED] T2999C.282

[GRAPHIC] [TIFF OMITTED] T2999C.283

[GRAPHIC] [TIFF OMITTED] T2999C.284

[GRAPHIC] [TIFF OMITTED] T2999C.285

[GRAPHIC] [TIFF OMITTED] T2999C.286

[GRAPHIC] [TIFF OMITTED] T2999C.287

[GRAPHIC] [TIFF OMITTED] T2999C.288

[GRAPHIC] [TIFF OMITTED] T2999C.289

[GRAPHIC] [TIFF OMITTED] T2999C.290

[GRAPHIC] [TIFF OMITTED] T2999C.291

[GRAPHIC] [TIFF OMITTED] T2999C.292

[GRAPHIC] [TIFF OMITTED] T2999C.293

[GRAPHIC] [TIFF OMITTED] T2999C.294

[GRAPHIC] [TIFF OMITTED] T2999C.295

[GRAPHIC] [TIFF OMITTED] T2999C.296

[GRAPHIC] [TIFF OMITTED] T2999C.297

[GRAPHIC] [TIFF OMITTED] T2999C.298

[GRAPHIC] [TIFF OMITTED] T2999C.299

[GRAPHIC] [TIFF OMITTED] T2999C.300

[GRAPHIC] [TIFF OMITTED] T2999C.301

[GRAPHIC] [TIFF OMITTED] T2999C.302

[GRAPHIC] [TIFF OMITTED] T2999C.303

[GRAPHIC] [TIFF OMITTED] T2999C.304

[GRAPHIC] [TIFF OMITTED] T2999C.305

[GRAPHIC] [TIFF OMITTED] T2999C.306

[GRAPHIC] [TIFF OMITTED] T2999C.307

[GRAPHIC] [TIFF OMITTED] T2999C.308

[GRAPHIC] [TIFF OMITTED] T2999C.309

[GRAPHIC] [TIFF OMITTED] T2999C.310

[GRAPHIC] [TIFF OMITTED] T2999C.311

[GRAPHIC] [TIFF OMITTED] T2999C.312

[GRAPHIC] [TIFF OMITTED] T2999C.313

[GRAPHIC] [TIFF OMITTED] T2999C.314

[GRAPHIC] [TIFF OMITTED] T2999C.315

[GRAPHIC] [TIFF OMITTED] T2999C.316

[GRAPHIC] [TIFF OMITTED] T2999C.317

[GRAPHIC] [TIFF OMITTED] T2999C.318

[GRAPHIC] [TIFF OMITTED] T2999C.319

[GRAPHIC] [TIFF OMITTED] T2999C.320

[GRAPHIC] [TIFF OMITTED] T2999C.321

[GRAPHIC] [TIFF OMITTED] T2999C.322

[GRAPHIC] [TIFF OMITTED] T2999C.323

[GRAPHIC] [TIFF OMITTED] T2999C.324


 
                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Aguilar, David.................................................167, 369
Ahern, Jayson..................................................167, 369
Aytes, Michael...................................................   915
Borkowski, Mark..................................................   167
Cackley, A. P....................................................   465
Forman, Marcy..................................................369, 915
Hayes, J. T., Jr.................................................   465
Koumans, Mark....................................................   369
Napolitano, Hon. Janet...........................................     1
Rodriguez, J. H..................................................   465
Schriro, Dora....................................................   465
Venturella, D. J.................................................   915


                               I N D E X

                              ----------                              --
--------

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Opening Statement of Chairman David Price........................     1
Opening Statement of Harold Rogers (Submitted)...................    11
Opening Statement of Ranking Member Jerry Lewis..................    16
Statement of the Honorable Janet Napolitano, Secretary of the....
    United States Department of Homeland Security................    17
Action Directives and Initiatives................................    95
Alternatives to Detention.......................................41, 163
Assault Rifles...................................................    48
Aviation Security................................................   158
Biosurveillance Activities.......................................    90
Bonuses..........................................................   111
Border Fence.....................................................    72
CBP Border Patrol Officers.......................................    63
Center for Homeland Defense and Security.........................    66
Chemical Plant Facilities........................................    50
Coast Guard Legacy Cutter Sustainment............................    64
Coast Guard......................................................    64
Common Accounting System Throughout DHS..........................    97
Contracts........................................................   146
Counter Narcotics and Weapons Smuggling..........................    58
Criminal Aliens..................................................    37
Cyber Security Initiative........................................    87
Cyber Security..............................................61, 65, 159
Declarations of Natural Disasters................................    62
Detention of Asylum Seekers......................................   162
Detention Standards..............................................   161
DHS Procurement..................................................    93
Employee Housing.................................................    45
E-Verify Program Extension.......................................    42
E-Verify.........................................................    59
Federal Licensed Gun Stores......................................    53
First Responder Grants...........................................   159
Freedom of Information Act.......................................   110
Funding of Detention Beds in State and Local 287(g) Program......   162
Fusion Center in Salinas.........................................    52
H1N1 Flu Preparation.............................................    82
Human Resources..................................................   101
Immigration Integration Program..................................    73
Immigration......................................................    80
Interoperability.................................................   158
Laboratory Capacity..............................................   165
Management Increases in Budget Request...........................    70
Methamphetamine..................................................    43
Operation Stonegarden............................................44, 45
Outreach Efforts.................................................    44
Parole Guidelines................................................   163
Port Security....................................................    53
Ports of Entry Facilities........................................    72
Post Disaster Contracting........................................    71
Questions for the Record Submitted by Chairman David Price.......    77
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   161
Questions for the Record Submitted by the Honorable Nita Lowey...   158
Reception and Representation.....................................   156
Right-Wing Extremism Report......................................38, 46
Risk Assessment Funding..........................................    51
SBInet Technology-Ground vs. Airborne Sensors....................    80
Secret Service Investigations....................................    85
Secure Border Initiative (SBI)...................................57, 77
Secure Communities Program.......................................37, 55
Securing the Cities..............................................    48
Southern Border Security.........................................    43
Southbound Checking..............................................    71
St. Elizabeths Headquarters Project..............................    98
Stafford Act Disasters...........................................    68
State Criminal Alien Assistance Funding..........................    62
State Department Programs........................................    67
Transition.......................................................    96
Transportation Security Grant Program............................    50
Travel...........................................................   127
Tribal Cyber Security............................................    47
TSA Collective Bargaining........................................    49
U.S. Citizenship and Immigration Services........................    73
U.S.-Mexican Counter Narcotics...................................    79
Unaccompanied Children...........................................    40
Use of DOD Reserve...............................................    51
Using Appropriated Funds in a Timely Fashion.....................    83
Working Capital Fund.............................................   154
Worksite Enforcement Policy......................................    81

          SECURE BORDER INITIATIVE AND CONTROL OF LAND BORDER

Opening Statement of Chairman David Price........................   167
Opening Statement of Ranking Member Harold Rogers................   172
Statement of Jayson Ahern, Acting Commissioner, United States 
  Customs and Border Protection..................................   177
Admissibility Review Office (ARO)................................   351
Analysis of Alternatives.........................................   216
Apprehension/Seizure Data........................................   234
Attempts to Go Over Fencing......................................   196
Automation Modernization.........................................   354
Best Teams on Southwest Border...................................   199
Border Safety Initiative.........................................   231
CBP Air and Marine...............................................   298
CBP Staffing, Budget, and Compensation...........................   310
Comparison with Israeli Fence....................................   208
Completed Fencing................................................   195
Construction.....................................................   355
Consultation.....................................................   217
Contracts........................................................   346
Coordination of Technology.......................................   209
Cost Effective Control...........................................   194
Drug Gang Movement in the U.S....................................   208
Effectiveness of Physical and Virtual Fence......................   202
Electronic System for Travel Authorization (ESTA)................   350
Environmental and Regulatory Considerations......................   219
Environmental Mitigation.......................................359, 360
Freedom of Information Act (FOIA)................................   356
Global Entry.....................................................   351
Ground Surveillance Radars.......................................   223
Immigration Advisory Program (IAP) and Carrier Liaison Program 
  (CLP)..........................................................   355
Integrated Border Enforcement Teams..............................   199
Life Cycle Costs.................................................   212
Long Term Policy for Fencing.....................................   208
Methamphetamine Importation......................................   202
Model Port of Entry Program......................................   354
Moving People Into Areas We Have a Better Chance to Apprehend....   205
National Parks on Border.........................................   358
Northern Border..................................................   228
Number of Apprehensions..........................................   204
Number of Illegal Immigrants Coming Across the Border............   203
Obligations......................................................   212
Operation Arizona Denial.........................................   226
Operational Control Versus Effective Control.....................   192
Operational Control..............................................   212
Percentage Estimate for Effective Control........................   195
Ports of Entry...................................................   359
Private Aircraft and Small Boat Initiatives......................   353
Questions for the Record Submitted by Chairman David Price.......   212
Questions for the Record Submitted by the Honorable Ciro 
  Rodriguez......................................................   358
Questions for the Record Submitted by the Honorable Sam Farr.....   362
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   366
Reduction in Apprehensions.......................................   196
Repairs to Fencing...............................................   203
SBI Major Contractor Performance.................................   210
SBInet Areas.....................................................   198
SBInet Cost......................................................   199
SBInet...........................................................   366
Sensors..........................................................   223
Smuggler's Gulch.................................................   201
Southwest Border vs. Northern Border.............................   362
Staffing and Hiring..............................................   225
Training.........................................................   226
Tunnels..........................................................   230
Virtual Fence....................................................   196
Weapons Smuggling Into Mexico....................................   200
Women and Children Detainees.....................................   206

DEPARTMENT OF HOMELAND SECURITY RESPONSE TO VIOLENCE ON THE BORDER WITH 
                                 MEXICO

Opening Statement of Chairman David Price........................   369
Opening Statement of Ranking Member Harold Rogers................   375
Statement of Mark Koumans, Deputy Assistant Secretary, Office of 
  International Affairs, Department of Homeland Security.........   379
Statement of Marcy Forman, Director, Office of Investigations, 
  U.S. Immigration and Customs Enforcement.......................   390
Accelerate Cooperation Levels....................................   405
Air and Marine Operations Center.................................   414
Apprehensions....................................................   432
Armas Cruzadas...................................................   429
Arrest Rate in Imperial Valley...................................   434
Arrests and Prosecutions in Yuma.................................   434
Assault Weapons..................................................   428
BEST Teams.......................................................   443
Border Security on Public Lands..................................   440
Border Security Ramifications on CBP Mission.....................   404
Bulk Cash Smuggling Assessment...................................   463
Bulk Cash Smuggling..............................................   414
Comprehensive Strategy...........................................   455
Coordination with ATF..........................................415, 447
Coordination.....................................................   413
Cost Benefit.....................................................   457
Guns Going Into Mexico...........................................   430
Guns.............................................................   451
Interagency Challenge of Gun Running.............................   427
JIATF Task Force Model...........................................   428
Kidnapping.......................................................   442
Licensed Firearms Dealers........................................   408
Memorandum of Understanding......................................   449
Merida Program Funding and Project List..........................   422
Number of People Intercepted.....................................   423
Operation HALCON.................................................   439
Operation Streamline......................................423, 424, 435
Plans for Mass Migration to U.S..................................   419
Program Coordination with Mexico.................................   421
Prosecution Rate in San Diego Sector.............................   435
Prosecutions and Arrests in Tucson Sector........................   433
Public Officials' Corruption.....................................   414
Questions for the Record Submitted by Chairman David Price.......   439
Questions for the Record Submitted by the Honorable Ciro 
  Rodriguez......................................................   446
Questions for the Record Submitted by the Honorable Sam Farr...451, 457
Questions for the Record Submitted by the Ranking Member Harold 
  Rogers.........................................................   460
Receipt of Overseas Passenger Lists..............................   420
Sizing Technology Status.........................................   436
Southbound Inspection............................................   446
Spillover Violence into the United States.................406, 425, 437
Strengthen Our Ability to Coordinate with Other Agencies.........   409
Strike Force Concept and Funding.................................   411
Synergy Between All Agencies.....................................   427
Threat Assessment................................................   460
Tracking Terrorist Financing.....................................   422
Tracking the Money...............................................   418
Types of Border Violence.........................................   426
Ultralights......................................................   415
Violence Directed Against CBP....................................   439
Weaponry From China, India, and Other Sources....................   411
Weapons Smuggling Assessment.....................................   462
Working with Mexico on Security Reforms..........................   422

     HEALTH SERVICES FOR DETAINEES IN U.S. IMMIGRATION AND CUSTOMS 
                       ENFORCEMENT (ICE) CUSTODY

Opening Statement of Chairman David Price........................   465
Opening Statement of Ranking Member Harold Rogers................   471
Statement of James T. Hayes, Jr., Director Office of Detention 
  and Removal Operations, U.S. Immigration and Customs 
  Enforcement....................................................   475
Statement of Jose H. Rodriguez, Captain, U.S. Public Health 
  Service, U.S. Immigration and Customs Enforcement..............   489
Statement of Alicia Puente Cackley, Director, Health Care 
  Division, Government Accountability Office.....................   498
Statement of Dora Schriro, Special Advisor to Secretary 
  Napolitano on Detention and Removal Operations, U.S. 
  Immigration and Customs Enforcement............................   507
Alternatives to Detention Programs...............................   908
Analysis of Health Services at Detention Facilities..............   560
Appointment Backlog..............................................   902
Availability of Medical Personnel on Site........................   517
Baseline Incidence of Illness and Disease........................   518
Buffalo Federal Detention Facility...............................   720
Challenges Unique to Family Facilities...........................   528
Columbia Care Residential Facility...............................   705
Contracts with County Jails......................................   532
Cuban Immigration................................................   558
Deaths in ICE System.............................................   525
Detainee Charges.................................................   528
Detainee Deaths..................................................   907
Detainee Standards of Care.....................................582, 909
Detention Facilities.............................................   905
DIHS Epidemiology................................................   702
DIHS Hiring......................................................   699
Facility Standards and Procedures................................   527
Family Health Care Facilities....................................   524
Fugitive Operations Program......................................   555
Funding Levels for Care..........................................   908
GAO Response to Data Inquiry Regarding Deaths of Immigration 
  Detainees......................................................   551
General Directives to Post Orders................................   749
Housing and Transportation of Detainees with Medical Conditions..   727
Hutto Facility...................................................   524
ICE Identification of Previously Un-Tracked Detainee Deaths 
  Highlights Importance of Detention Reform......................   545
ICE Oversight of Inter-Governmental Service Agreement (IGSA) 
  Facilities.....................................................   704
ICE Screening Protocols..........................................   533
ICE Standards of Conduct.........................................   555
Immigration Detention Overview and Recommendations...............   585
Immigration Enforcement Priorities...............................   556
Listing of Deaths................................................   523
Medical Care at Contract Facilities..............................   903
Medical Care.....................................................   672
Medical Examinations.............................................   518
Medical Standards for County Jails...............................   557
Medical Standards for Detention Facilities.......................   516
Mental Health Care for ICE Detainees.............................   707
Mental Health Levels of Care...................................639, 716
Mental Health..................................................620, 708
Mortality Rates...........................................519, 535, 537
Oral Screening...................................................   526
Oversight of Detention Centers...................................   903
Physical Examination.............................................   527
Questions for the Record Submitted by Chairman David Price.....560, 707
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   903
Questions for the Record Submitted by the Honorable Nita Lowey...   902
Questions for the Record Submitted by the Honorable S905, 909, 911, 914
Report on Deficiencies...........................................   523
Resources and Training...........................................   530
Special Screening for Mental Health Problems.....................   529
Standard Operating Procedure: Medical Restraints, Therapeutic 
  Seclusion and Emergency Psychotropic Medication................   628
Standard Operating Procedure: Mental Screening DIHS 843..........   637
Standardized Records.............................................   523
Standards of Care................................................   532
Suicide Prevention and Intervention..............................   666
Sweeps...........................................................   911
Time It Takes to Get Medical Care................................   517
Transfer of Medical Records......................................   904
Treatment Authorization Request (TAR) Process....................   535
Treatment Authorization Requests.................................   517
Treatment of Pregnant Women......................................   531
Tuberculosis.....................................................   526
Unfilled Positions...............................................   902
Vaccines.........................................................   525
Women's Health Issues............................................   697

                  PRIORITIES ENFORCING IMMIGRATION LAW

Opening Statement of Chairman David Price........................   915
Opening Statement of Ranking Member Harold Rogers................   921
Statement of Marcy Forman, Director, Office of Investigations, 
  U.S. Immigration and Customs Enforcement.......................   927
Statement of David J. Venturella, Executive Director, Secure 
  Communities U.S. Immigration and Customs Enforcement (ICE).....   942
Statement of Michael Aytes, Acting Deputy Director, U.S. 
  Citizenship and Immigration Services...........................   959
287(g) Program...................................................  1255
Booking Sites in U.S.............................................   976
CAP Institutions by Threshold and Level of Courage...............  1270
CAP Institutions by Type of Threshold............................  1271
Change in Policy for Worksite Enforcement........................   995
Criminal Alien Program...........................................  1270
Criminal Aliens/Secure Communities...............................  1237
Criminal Investigation at Worksites..............................   989
Deferred Action..................................................  1278
Delay of Raid on Military-Related Facility.......................   991
Delay of Worksite Investigations.................................   991
Delays of Immigration Raids......................................   991
Deporting Criminal Aliens Versus Noncriminal.....................   972
Detention Facilities for Families................................   987
Detention of Vulnerable Immigrants...............................  1279
E-Verify Error Rates.............................................   987
E-Verify Non-Confirmation........................................   999
E-Verify.............................................977, 979, 994, 998
Federal Protective Service.......................................  1273
Fugitive Operations Teams........................................  1271
Humanitarian Guidelines..........................................   980
ICE Contracts....................................................  1016
ICE Detentions Facilities........................................  1259
ICE Facilities and Leases........................................  1127
ICE Investigations...............................................  1172
ICE Management...................................................  1004
Identification and Removal of Criminal Aliens....................   970
Informing Rapid Repatriation Participants of Their Rights........  1280
List of Employers Charged or Raided..............................   979
Local Determination of Documentation.............................   976
Operation Community Shield.......................................  1272
Participation in 287(g) Program..................................   987
Policy Change or Workforce Enforcement...........................   973
Process for Undocumented Alien Incarceration.....................   994
Public Notice of Change to I-9 Process...........................   981
Questions for the Record Submitted by Chairman David Price.......  1004
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................  1277
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................  1279
Rapid Repatriation...............................................   980
Released Criminal Aliens Who Are Not Deported....................   972
Removal of Criminal Aliens.......................................   975
Support for Immigrants...........................................   999
Undocumented Aliens Incarcerated.................................   993
Undocumented Aliens in Federal Custody...........................   975
Undocumented Aliens in State Custody.............................   976
Use of $1 Billion in Fiscal Year 2009 Funding....................   996
Washington State Criminal Investigation..........................   942
Worksite Employment..............................................   978
Worksite Enforcement Cases Closed in 2008........................   990
Worksite Enforcement Policy....................................989, 990
Worksite Enforcement Prioritization..............................   986
Worksite Enforcement.........................................1258, 1277

                                  <all>

</pre></body></html>
